<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2020</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                       ENERGY AND WATER DEVELOPMENT
                         APPROPRIATIONS FOR 2020
_____________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              FIRST SESSION

                             ______________

              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT,
                          AND RELATED AGENCIES

                      MARCY KAPTUR, Ohio, Chairwoman

  PETER J. VISCLOSKY, Indiana        MICHAEL K. SIMPSON, Idaho
  DEBBIE WASSERMAN SCHULTZ, Florida  KEN CALVERT, California
  ANN KIRKPATRICK, Arizona           CHUCK FLEISCHMANN, Tennessee
  DEREK KILMER, Washington           DAN NEWHOUSE, Washington
  MARK POCAN, Wisconsin
  LOIS FRANKEL, Florida

 
  NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

            Jaime Shimek, Mark Arone, Mike Brain, Scott McKee,
                    Farouk Ophaso, and Marcel Caldwell
                            Subcommittee Staff

                               ___________

                                  PART 5

                                                                   Page
                                                                   
  Energy Trends and Outlook.........................................  1
                                                                      
  Oversight of DOE's Weatherization 
Assistance Program................................................. 177
                                                                   
  Energy Workforce Opportunities and 
Challenges......................................................... 265
                                                                    
  National Nuclear Security 
Administration..................................................... 349
                                                                    
  Members' Day..................................................... 425
                                                                    

                                  

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                   ____

          Printed for the use of the Committee on Appropriations
          
          
          
          
          

      PART 5--ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2020
      
      
      
      

 
                       ENERGY AND WATER DEVELOPMENT
                         APPROPRIATIONS FOR 2020

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              FIRST SESSION

                                ________

              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT,
                          AND RELATED AGENCIES
                          
                          

                      MARCY KAPTUR, Ohio, Chairwoman

  PETER J. VISCLOSKY, Indiana              MICHAEL K. SIMPSON, Idaho
  DEBBIE WASSERMAN SCHULTZ, Florida        KEN CALVERT, California
  ANN KIRKPATRICK, Arizona                 CHUCK FLEISCHMANN, Tennessee
  DEREK KILMER, Washington                 DAN NEWHOUSE, Washington
  MARK POCAN, Wisconsin
  LOIS FRANKEL, Florida

  
  NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

            Jaime Shimek, Mark Arone, Mike Brain, Scott McKee,
                    Farouk Ophaso, and Marcel Caldwell
                            Subcommittee Staff

                                _________

                                  PART 5

                                                                   Page
                                                                   
  Energy Trends and Outlook.......................................    1
                                                                      
  Oversight of DOE's Weatherization 
Assistance Program................................................. 177
                                                                    
  Energy Workforce Opportunities and 
Challenges......................................................... 265
                                                                    
  National Nuclear Security 
Administration..................................................... 349
                                                                    
  Members' Day..................................................... 425
                                                                    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                  

                                __________

          Printed for the use of the Committee on Appropriations
          

                    U.S. GOVERNMENT PUBLISHING OFFICE

  37-884                     WASHINGTON: 2019

                             



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                  NITA M. LOWEY, New York, Chairwoman


  MARCY KAPTUR, Ohio                        KAY GRANGER, Texas
  PETER J. VISCLOSKY, Indiana               HAROLD ROGERS, Kentucky
  JOSE E. SERRANO, New York                 ROBERT B. ADERHOLT, Alabama
  ROSA L. DeLAURO, Connecticut              MICHAEL K. SIMPSON, Idaho
  DAVID E. PRICE, North Carolina            JOHN R. CARTER, Texas
  LUCILLE ROYBAL-ALLARD, California         KEN CALVERT, California
  SANFORD D. BISHOP, Jr., Georgia           ED CASE, Hawaii
  BARBARA LEE, California                   TOM COLE, Oklahoma
  BETTY McCOLLUM, Minnesota                 MARIO DIAZ-BALART, Florida
  TIM RYAN, Ohio                            TOM GRAVES, Georgia
  C. A. DUTCH RUPPERSBERGER, Maryland       STEVE WOMACK, Arkansas
  DEBBIE WASSERMAN SCHULTZ, Florida         JEFF FORTENBERRY, Nebraska
  HENRY CUELLAR, Texas                      CHUCK FLEISCHMANN, Tennessee
  CHELLIE PINGREE, Maine                    JAIME HERRERA BEUTLER, Washington
  MIKE QUIGLEY, Illinois                    DAVID P. JOYCE, Ohio
  DEREK KILMER, Washington                  ANDY HARRIS, Maryland
  MATT CARTWRIGHT, Pennsylvania             MARTHA ROBY, Alabama
  GRACE MENG, New York                      MARK E. AMODEI, Nevada
  MARK POCAN, Wisconsin                     CHRIS STEWART, Utah
  KATHERINE M. CLARK, Massachusetts         STEVEN M. PALAZZO, Mississippi
  PETE AGUILAR, California                  DAN NEWHOUSE, Washington
  LOIS FRANKEL, Florida                     JOHN R. MOOLENAAR, Michigan
  CHERI BUSTOS, Illinois                    JOHN H. RUTHERFORD, Florida
  BONNIE WATSON COLEMAN, New Jersey         WILL HURD, Texas
  BRENDA L. LAWRENCE, Michigan
  NORMA J. TORRES, California
  CHARLIE CRIST, Florida
  ANN KIRKPATRICK, Arizona
 
   
  

                 Shalanda Young, Clerk and Staff Director

                                   (ii)


 ENERGY AND WATER DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2020

                              ----------                              

                                        Thursday, February 7, 2019.

                       ENERGY TRENDS AND OUTLOOK

                               WITNESSES

HON. LINDA CAPUANO, ADMINISTRATOR, ENERGY INFORMATION ADMINISTRATION
DR. JAY HAKES, FORMER ADMINISTRATOR, ENERGY INFORMATION AGENCY
ETHAN ZINDLER, HEAD OF AMERICAS AND POLICY ANALYSIS, BLOOMBERG NEW 
    ENERGY FINANCE
AMY MYERS JAFFE, PROGRAM DIRECTOR FOR ENERGY SECURITY AND CLIMATE 
    CHANGE, COUNCIL ON FOREIGN RELATIONS
MATT SONNESYN, VICE PRESIDENT FOR INFRASTRUCTURE, ENERGY AND 
    ENVIRONMENT, BUSINESS ROUNDTABLE
    Ms. Kaptur. Good morning. The committee will come to order.
    I want to thank all of my colleagues for taking time to be 
with us this morning. The subcommittee will begin our very 
first hearing in this new 116th Congress in what promises to be 
a very busy and, I hope, productive year.
    I would like to welcome our new and returning members to 
the subcommittee. We are thrilled to have each of you, 
representing very unique and diverse segments of our landscape 
across the country. And, actually, we have members in all 
corners and the center of our country, so it is pretty 
representative.
    Energy is essential to sustaining life on Earth, to driving 
our economy and the millions of jobs associated with it, and 
assuring our freedom. We begin our work this Congress by 
looking at how much energy our Nation produces and consumes 
currently, how that has changed over the last five decades, and 
what prospects look like for the future. So we are very 
grateful to this particular panel.
    After World War II, our country began consuming, almost 
unconscionably, more energy than we could produce domestically. 
Our Nation increased imports of energy, creating dangerous 
economic vulnerabilities and strategic dependencies on other 
countries. The harsh reality of that dependency struck our 
homeland hard with the Arab oil embargoes of the 1970s. Our 
economy was walloped by America's reliance on imported oil.
    President Carter's foresight, along with congressional 
leadership, created the Department of Energy in 1977 to propel 
our Nation on a challenging path to become energy independent. 
Now we look back about four decades, and by investing in 
research and development, we have created the foundational 
power to meet that strategic objective, but we have just begun, 
just begun to set a path toward permanent energy security.
    For example, the Department of Energy helped develop the 
drilling and extraction technologies credited for the recent 
growth in domestic oil and gas production. Who could have 
imagined that a half century ago? And today, our Nation 
produces over 90 percent of our current energy needs as a 
result of progress on all energy horizons. That is quite a 
sweeping achievement.
    There are new challenges to meet the goals of energy 
security and sustainability, including the increasing demand 
from enormous world population growth, the continuing 
industrialization that we see globally, the depletion of finite 
traditional sources of energy, and the consequences of 
environmentally damaging energy sources, including some fossil 
fuels. Fortunately, a sustainable energy supply and clean 
energy vision combines perfectly with the need to address the 
climate crisis. The future of our planet ecosystem and the 
lives of billions around the globe are depending on a shared 
vision of a livable future.
    The Department of Energy, with the finest scientists in our 
world, has been driving innovation and partnering with the 
private sector to achieve continuing and significant reductions 
in the cost of clean energy. For example, First Solar, with 
more than 17 gigawatts of cadmium telluride solar modules sold 
worldwide, was born in my district at the University of Toledo, 
thanks to the genius of Dr. Harold McMaster and Dr. Norm 
Nitschke. This was made possible by a partnership on 
photovoltaics with the Department of Energy. By the way, that 
company is going to double its production floor very soon.
    So how do we achieve the interdependent goals of energy 
independence, reducing pollution, and creating jobs? We deliver 
new technologies that are better and cheaper than their 20th 
century alternatives. That means we must provide robust, stable 
Federal support for energy research and development at the 
Department of Energy. This won't be easy. We are still facing 
sequestration with no budget deal in place for the next 2 years 
yet. But I am committed to working to ensure continued progress 
in these important areas.
    In closing, our Nation must keep investing in energy 
solutions, making them better and more affordable, reaching 
more people in more places. I look forward to hearing from our 
expert witnesses who can frame the context of our work as we 
begin this year. And let us now turn to our very able and 
hardworking ranking member, Mike Simpson of Idaho, for his 
opening statement.
    Mr. Simpson. Thank you, Chairwoman Kaptur. Since this is 
our first hearing of the year, let me take the opportunity to 
say congratulations to you on becoming the chair of the Energy 
and Water Appropriations Subcommittee. I have enjoyed working 
with you the past several years and look forward to continuing 
that productive relationship in this Congress.
    I would like to echo your welcome to our witnesses. We 
thank you all for being here this morning and look forward to 
hearing your perspectives on where we have been, where we are 
now, and where we are going with respect to energy.
    Reliable, affordable energy sources are essential to our 
Nation's continued economic growth and national security. We 
have seen time and again how rising energy costs or disruptions 
in energy supply can cause economic pain on a national and 
individual level. The Federal Government interacts with the 
energy sector in many ways. The focus of this subcommittee, of 
course, is deciding on and overseeing investments in research 
and development.
    Federal R&D involves our understanding national 
laboratories--involves our understanding of the national 
laboratories, as well as partnerships with universities and the 
private sector. It spans the continuum from basic science 
research to early stage applied energy activities to mid stage 
and late stage demonstration projects. It addresses activities 
in electricity, transportation, industrial and residential and 
commercial sectors, and it focuses on a wide variety of energy 
sources, including nuclear, coal, natural gas, petroleum, 
hydro, solar, wind and other renewables, as well as energy 
efficiency.
    I look forward to hearing from each of our witnesses about 
the successes of past investments and the promise of new 
investments, both in continuing our improved current 
technologies as well as ensuring that the United States will 
continue to be a leader in developing new energy technologies 
of the future.
    Again, I thank Chairwoman Kaptur for calling this hearing, 
and I look forward to hearing from our witnesses.
    Ms. Kaptur. Thank you, Mr. Simpson.
    I think we are all excited for our witnesses joining us 
here today and for your lifetime of service to our country both 
in the public and private sectors.
    First we will have Dr. Linda Capuano, who is the 
administrator of the U.S. Energy Information Administration. 
Prior to her appointment to lead EIA, Dr. Capuano was a fellow 
at the Baker Institute's Center for Energy Studies and on the 
faculty of Rice University's Jones Graduate School of Business.
    Next we will have Dr. Jay Hakes, who has authored a book 
titled, ``A Declaration of Energy Independence.'' Dr. Hakes was 
previously an administrator for the Energy Information Agency 
and served in President Carter's administration, directed the 
energy office in the Florida governor's office, and served for 
13 years as director of the Jimmy Carter Presidential Library. 
We are just so honored that you are here today.
    Following that, we have Mr. Ethan Zindler, who is head of 
Americas and Policy at Bloomberg New Energy Finance. Bloomberg 
NEF is an amazing source of insight, data, and news on the 
transformation of the energy sector, and we read you.
    Then we will have Ms. Amy Myers Jaffe, who is the program 
director for Energy Security and Climate Change at the Council 
on Foreign Relations. Ms. Jaffe previously served as executive 
director for energy and sustainability at the University of 
California Davis and was formerly a fellow at the Woodrow 
Wilson International Center for Scholars.
    And last but not least, we will have Mr. Matt Sonnesyn, who 
is vice president for Infrastructure, Energy, and Environment 
at the Business Roundtable. Prior to joining the Business 
Roundtable, Mr. Sonnesyn spent a decade working for U.S. 
Senator Lamar Alexander, one of our good friends even on this 
side of the Congress.
    Thank you all for taking time to be here today. Without 
objection, your written statements will be entered into the 
record. Please feel free to summarize your remarks in about 5 
minutes each, starting with Dr. Capuano.
    Thank you, Doctor.
    Ms. Capuano. Thank you, Chairwoman Kaptur and Ranking 
Member Simpson, members of the committee. I appreciate the 
opportunity to be before you today (off mic). You have some 
charts before you, and I will--they are up here, so you will be 
able to follow.
    This is a transformational time for the United States 
energy industry. The United States is now the world's largest 
producer of crude oil. We have surpassed Saudi Arabia and 
Russia. The United States produced almost 11 million barrels 
per day in 2018, and EIA expects that production will continue 
to remain greater than 14 million barrels per day through 2040.
    This graph shows that after decades of importing more 
energy, the blue line, than we export, the brown line, EIA now 
forecasts the United States will become a net energy exporter 
in 2020. In addition, our natural gas plant production set an 
all time high in 2018 reaching 4.4 million barrels per day. The 
combination of crude oil and NGPL production and our refining 
capacity has led the United States to become a major exporter 
of crude oil and petroleum products.
    By the fourth quarter of 2020, EIA expects exports of crude 
oil and petroleum products from the United States to exceed 
imports by an average of .9 million barrels per day. However, 
much of the U.S. crude oil production is light to medium grade, 
so the United States will continue to import in order to meet 
the specific needs of U.S. refiners that are optimized to 
process heavy grades.
    In addition, crude oil will be imported to offset 
infrastructure constraints that limit the movement of produced 
oil to East and West Coast refineries. As a result of advances 
in hydraulic fracturing and horizontal drilling, producers are 
developing shale resources that were previously uneconomical to 
develop. And tight oil production accounted for 58 percent of 
total crude oil production in 2018 and will continue to drive 
U.S. production increases in the long term.
    Petroleum liquids are available for export because, as you 
see on this graph, petroleum consumption has slowed, the brown 
line, as production has increased. The U.S. will become a 
petroleum liquids net exporter in the fourth quarter of 2020. 
The steady increasing U.S. crude oil production contributes to 
a relatively steady oil price of $73 to $74 per barrel until 
2022, after which crude oil prices are projected to steadily 
rise to $108 per barrel by 2050.
    This graph shows that similar developments in domestic 
shale and natural gas resources enabled the United States to 
become a net exporter of natural gas in 2017, when natural gas 
production, the blue line, exceeded consumption, the brown 
line.
    U.S. natural gas production reached a record high of 30 
trillion cubic feet in 2018, and EIA expects growth to 
continue. As natural gas production continues to grow and 
exceeds consumption and as liquified natural gas terminals and 
pipelines are added, net U.S. natural gas exports will continue 
to grow. And we expect prices to remain below $5 per million 
BTU through 2015 because the increase in lower cost resources, 
primarily in the tight oil plays in the Permian Basin, will 
enable higher production levels at lower prices during the 
projection period.
    Abundant domestic natural gas production and relatively low 
natural gas prices have also led to changes in the electric 
power generation, as shown on this graph. Despite relatively 
flat demand for electricity in the United States during the 
past decade, this graph shows that natural gas, the brown line, 
and renewables, the yellow line, are projected to displace less 
economically competitive sources of electric power generation.
    Natural gas became the largest share of electric power 
generation in 2016. In addition, enabled by technology advances 
and supportive policies, EIA projects that U.S. wind and solar 
capacity and generation will continue to grow and surpass 
nuclear in 2020, the green line, and coal, the blue line, after 
2025.
    As a result of the fuel mix changes, EIA projects that 
after 2020, carbon dioxide emissions will remain at least 2 
percent lower than the 2020 levels through 2050. This graph 
shows the downward trend in carbon dioxide intensity by energy 
use sector. Carbon dioxide intensity is the carbon dioxide 
emission per unit energy output in BTUs. All end-use sectors--
transportation, industrial and commercial and residential 
buildings--show declines in carbon dioxide intensity as natural 
gas and renewables' share of the fuel mix continues to 
increase.
    So as I said, this is an exciting and transformational time 
for the United States energy industry as world energy markets 
adjust to the United States becoming a major global supplier 
and exporter for years to come.
    Madam Chairwoman and members of the committee, thank you 
for the opportunity to present this information. And that 
concludes my testimony.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Ms. Kaptur. Thank you so very much, Dr. Capuano.
    Dr. Hakes, please begin.
    Mr. Hakes. Thank you. I would like to thank Chairwoman 
Kaptur and Ranking Member Simpson for their invitation today.
    As has been said, many people trace modern energy policy 
back to the Arab oil embargo which lasted from October 1973 to 
March of 1974. And some people of us still remember the long 
gasoline lines of that time. But it was just one of--if we 
could go ahead to charts--it was just one of many things that 
happened in the seventies that disrupted the oil market, 
including the fall of the Shah and other things.
    During this period, energy attracted the attention of 
Presidents and Congresses. Presidents Nixon and Ford called for 
energy independence. Jimmy Carter declared energy the moral 
equivalent of war. Congress passed the Energy Policy and 
Conservation Act in 1975, President Carter's energy package in 
1978, and other energy legislation with large bipartisan votes.
    In addition, Congress created the Department of Energy in 
1977, and by that time, the Congress had already broadened the 
mission of the national nuclear labs to include other forms of 
energy, and they became much more broader-based science labs.
    Some Federal policies during this period, such as Federal 
price controls and allocation, produced more problems than they 
solved. Let's recognize the actions of the 1970s left legacies 
that proved valuable in later years. A partial list would 
include--if we could go to the next slide. That is--you 
probably have already seen this, but this is the graph that the 
American Association for the Advancement of Science prepares 
every year, and it is the nondefense research budget, and you 
can see energy is that green part of the bar, and there is this 
huge spike up in the late seventies, which is a delayed 
reaction actually to the Arab oil embargo, and you can see it 
really tapered off. It is hard to believe, but in the late 
seventies, energy was pretty much equal with health and 
research spending. You can see today that is not the case.
    But as we go on, we can see other things that happened in 
that period. If we go to the next slide. And things like the 
strategic petroleum reserve. If we go to the next slide, we can 
see automobile efficiency standards. These were all new 
approaches to energy, and in some cases, they produced results 
that have been overlooked by historians.
    And if we go to the next slide, we did, from the late 
seventies to the mid eighties, at least till 1985, have--our 
oil imports were cut in half, from 8.6 million barrels a day to 
4.3, and we were building the strategic petroleum reserves. So 
for a time, the U.S. had become more energy independent.
    The years of heightened interest in energy also planted 
many seeds. If we can go to the next slide. This is the 
installation of the old-fashioned thermal solar panels on the 
White House in June of 1979. And at the time, President Carter 
set a goal of 20 percent renewable energy by the year 2000. For 
many years, however, the dream that advanced photovoltaic solar 
panels would play a major role in U.S. energy supply remained a 
road not taken. In recent years, though, we have seen a solar 
boom and an even bigger boom in wind.
    And if we can go to slide eight. This is just for large 
capacity solar, but if you want a dramatic line graph, I would 
say that falls in the category of a dramatic line graph.
    And as part of this, if we go to the next slide, that is a 
solar farm in the background there in Plains, Georgia, and 
southern company, Georgia Power, built a one-megawatt facility 
on Carter's property. That is a personal photo. I was one of 
the speakers at that event. And I would say that he probably 
felt a little bit of vindication seeing his former peanut land 
now producing solar energy.
    There is a similar story for hydro-fracturing, actually, 
that has also been overlooked. The Ford and Carter 
administrations both provided technical assistance, R&D, and 
tax incentives to encourage the development of what was called 
unconventional resources. These early actions helped the 
brilliant Texas oil man George Mitchell persevere in his long 
struggle to make the new technology market competitive. Again, 
it was not until the 21st century that we witnessed the 
fracking boom that revolutionized American energy production.
    Energy trends have gone through many ebbs and flows since 
the Arab embargo. My written testimony provides some additional 
information on the later years. In addition, I will, of course, 
be happy to answer any questions that you have.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. Thank you very much, Dr. Hakes.
    Mr. Zindler, you may begin.
    Mr. Zindler. Good morning, and thank you for this 
opportunity, Chairwoman and Representative Simpson. I 
appreciate this.
    I am here today in my role as an analyst with Bloomberg 
NEF, which is a division of financial information provider 
Bloomberg, L.P. Our group provides investors, utilities, oil 
majors, policymakers, and others with data and insight on the 
energy world and other sectors of the global economy undergoing 
rapid transformation. My remarks today represent my views alone 
and not the corporate positions of Bloomberg, L.P., and, of 
course, they are not investment advice.
    Madam Chair, how the world generates, delivers, and 
consumes energy are all--so yes, don't invest. We are good, 
okay. Sorry. The lawyers made me read that.
    My remarks today represent my views--as you said, how the 
world--as I was trying to say is how the world generates, 
delivers, and consumes energy are all changing rapidly and very 
radically. These changes have allowed new industries to 
flourish. The wind and solar power sectors now employ over 
450,000 Americans, while over 2.2 million Americans perform 
work related to energy efficiency. Meanwhile, major capital 
flows are supporting these industries. Our firm counted $332 
billion invested worldwide in new energy technologies last year 
and has seen over $3 trillion invested over the last decade.
    We believe that more change, much more change inevitably 
lies ahead. In fact, the riskiest bet that investors, 
utilities, car makers, oil makers, and even policymakers can 
make is to assume that the energy world that we have today is 
going to be the one that we have tomorrow.
    To take one example, consider how personal transportation 
is changing and the implications for motor fuel demand. In 
2013, pure electric vehicles represented well under 1 percent 
of total vehicle sales in the U.S. By the fourth quarter of 
2018, they actually hit 4 percent. China, which is the world's 
largest market for vehicles, added 1.1 million electric 
vehicles in 2018. Today, there are over 5 million electric 
vehicles on the roads worldwide, and by 2030, we project that 1 
in 11 cars will be an EV, and by 2040 it will be one in three.
    Growth will be propelled by declines in the cost of 
lithium-ion batteries, the most expensive components in any EV. 
Typical battery pack prices have already dropped 85 percent 
since 2010. As China, South Korea and others ramp productions, 
economies of scale will depress prices further. By the mid 
2020s, consumers will choose EVs purely based on price not 
subsidy, and this important crossover could happen sooner if 
oil prices rise.
    But more important than what I think is what the oil majors 
have been saying. More importantly, Total, Shell, and Chevron 
have all invested in or outright acquired electric vehicle 
charging companies or power utilities. One potential reason, 
electric transportation will by 2040 subtract 7\1/2\ million 
barrels a day of demand for crude products, in our view.
    More change is also inevitable in the power sector, driven 
by cost declines and a move towards decentralized energy. 
Prices for photovoltaic modules, the solar panels you might put 
on the roof of your home or business, have fallen from about 
$4.50 a watt in 2008 to about 25 cents a watt as of the end of 
last year. And if you want to know the price of solar, you 
literally need to check up on it every 3 to 6 months, not every 
3 to 6 years.
    For many Americans, the decision to go solar is now very 
much driven by economics and really nothing else. I would also 
note that PV panels function perfectly well in cold weather. By 
the end of the decade, solar will be cost competitive in most 
parts of the U.S., without the benefit of subsidies. PV 
generation will grow from about 3 percent to approximately one-
quarter by 2050.
    The wind industry can tell a similar story. Last year, wind 
accounted for about 6\1/2\ percent of U.S. power, and while new 
wind farm completions will likely slow once the current 
production tax credit phases out, wind's share of generation 
should still rise to 14 percent by 2030, particularly if 
offshore projects planned for the eastern seaboard come to 
fruition.
    Greater penetration of these technologies must be 
accompanied by greater deployment of flexible resources, such 
as pumped hydro projects, demand response programs, and 
batteries of various shapes and sizes.
    Utility companies, along with the slew of energy storage 
startups, are starting to respond. AES, AEP, Southern 
California Edison, and Southern Company, to name just a few, 
are deploying batteries large and small onto the grid right 
now. I would add that our firm will detail all this in an 
annual fact book that we are going to put out next week with 
the Business Council for Sustainable Energy.
    I just would like to close with making one last point about 
energy consumption and its role in climate change, because no 
responsible conversation about energy policy can take place 
without thinking about CO<INF>2</INF> emissions. Last year, 
U.S. emissions bucked what had been an 11-year trend generally 
downward. Instead, emissions rose by about 2\1/2\ percent, by 
our estimate.
    The economy grew much faster in 2018 and that probably 
played a role. But the year also saw more extremely hot and 
cold days, which appears to have prompted greater use of air-
conditioning and heating. That in turn boosted CO<INF>2</INF> 
emissions. This raises the possibility that as we live with the 
effects of climate change today, it is becoming more 
challenging to cut emissions and address climate change 
tomorrow.
    As you can tell, I am fundamentally optimistic about the 
transformative potential of new energy technologies, but I am 
under no illusions. The dramatic changes we anticipate over the 
next three decades will not sufficiently cut CO<INF>2</INF> 
emissions in the U.S. or worldwide to curtail the worst impacts 
of climate change as detailed by the world scientific 
community. In other words, technology and economics alone 
cannot save us, at least at the current pace that we are going. 
New and better policies are needed to accelerate the 
transition, but that is where policymakers and not energy 
analysts must have their say.
    So with that, I will stop and say thank you once again for 
this opportunity.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Ms. Kaptur. Thank you very much, Mr. Zindler.
    Ms. Jaffe, please begin.
    Ms. Jaffe. Thank you, Chairwoman Kaptur, for having me, and 
Ranking Member Simpson. It is a great honor to talk to you 
today. I am going to talk to you about the--following on on Dr. 
Hakes, I am going take us to the present on OPEC and the 
challenges we face.
    So next slide. We are still calling on our allies from the 
Middle East to cope with sudden market changes for basic 
American fuel prices.
    Next slide. We have made incredible strides through 
technology and innovations, as Dr. Hakes mentioned, originally 
supported by DOE, in increasing our access to domestic oil and 
gas. But as you can see from this chart of the global supply, 
and this chart goes forward to what we are going to see for the 
next 6 months, the United States, which is the orange bar, is 
still pretty small when you look at the global scale of the 
amount of oil that is used.
    Next slide. We have an additional problem today, which is 
that Saudi Arabia and Russia have formed a new political 
alliance to manage oil supply globally, and we saw that issue 
arise over and over again this past fall as oil prices were 
rising above $80 towards $100.
    Next slide. And we can know from watching the headlines in 
the news that there are many countries that are major oil 
suppliers today, like Venezuela, and I hope possibly not but 
also declining production in Mexico, China, and other countries 
provides a risk, even as U.S. oil production rises to meet some 
of the holes created by the problems in these other countries.
    Next slide. We are very benefiting from the energy and 
clean tech technology that we have developed partly with public 
support through our national labs and through DOE, because it 
takes 60 percent less oil to generate a dollar of GDP today 
than when Dr. Hakes served. So that is an important thing, but 
we have made no progress on that metric in the transportation 
sector.
    Next slide. If we did not have the CAFE standards, if they 
had been rescinded, the extra oil that we are producing today 
in the United States would just have met extra demand.
    Next slide. Even with the little piece that we are talking 
about whether or not we are going to sustain from the extra 
rules that California and 13 other States are following to 
advance vehicles, we would still lose part of the uptick of the 
amount of oil that we could see leaving U.S. shores to help our 
allies abroad not be dependent on a Russia or other countries 
that we would like to put sanctions on.
    So we are not out of the woods. Even with the great 
progress that we have had on the domestic net oil balance, we 
still have a problem, and it is a problem that is compounded by 
the fact that not only has China spent $47 billion on various 
incentives at the local, state, provincial, and national level 
to support their solar industry to try to put companies like 
First Solar out of business, right, but they are now going to 
invest $6 trillion in self-driving vehicles, in battery 
storage, in artificial intelligence, and other clean tech, and 
in advanced nuclear, and if we don't step up to the challenge 
we need to understand what that means.
    If we are going to buy Chinese products for our electricity 
grid, for our self-driving vehicles and robo-taxis, we have to 
worry about maintaining the safety of those digital devices and 
our entire electricity grid from hacking. And how are we going 
to do that if we are not using American products, if we are 
instead using Chinese products?
    So it is a national security imperative that we support the 
R&D in these areas, lidar, all these technologies that are 
going to come in the energy sector, smart grids, metering. 
These are all technologies that are going to come, as Ethan 
Zindler has outlined, and they need to come from American 
companies. They need to be produced here in the United States, 
and that will create jobs.
    So how do we do that? One thing that was on the docket at 
the Department of Energy that has not moved forward was to have 
regional innovation centers, not necessarily 100 percent with 
public funding, but partnering our national labs and our public 
sources and universities together with private finance, private 
companies in clusters; that would be innovation clusters. And 
some of those could be taking undeployed manufacturing assets 
in places like the Rust Belt and other places where we need to 
create new jobs and reconstituting them with these innovation 
hubs to do R&D for new development, incubate startup companies, 
help large corporations move forward on something like 
including 3D manufacturing and other advanced manufacturing. 
People do not realize how much oil we could squeeze out of the 
economy using advanced manufacturing and shrinking the 
international global supply chain to being a regional U.S. and 
America supply chain.
    So there is a lot of interesting things that could be done. 
I look forward to exploring those with you further as we 
continue our discussion.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. Thank you so very much, Ms. Jaffe.
    And finally, let me recognize Mr. Sonnesyn. I hope I am 
pronouncing that correctly.
    Mr. Sonnesyn. Sonnesyn, that is correct. Thank you, Madam 
Chairwoman, and thank you, Ranking Member Simpson.
    Business Roundtable is an association of CEOs of America's 
leading companies, and we work to promote a thriving U.S. 
economy and expanded opportunity for all Americans through 
sound public policy. And when it comes to energy, we support 
policies that build on America's strengths in technology and 
energy diversity, encourage investment in innovation in our 
Nation's vibrant energy sector, and preserve environmental 
quality for the 21st century and beyond.
    I am going to just sort of paraphrase a little bit off my 
colleagues and not repeat their testimony, but a couple key 
points that emerged that I was stressing in my written 
testimony as well.
    One, America is today a global energy super power, 
particularly in oil and natural gas. That is not what we 
expected 10 or 12 years ago. So what happened? What changed? It 
has largely been driven by hydraulic fracturing, a technology 
that the chair rightly noted was partially developed through 
DOE research and funding.
    So what does that imply then about other things going 
forward? We have seen also, by the way, increased adoption of 
renewables, great energy efficiency, also both driven in part 
by research at the Department of Energy.
    So as we look ahead and as we look at some of the 
challenges that we have, I think we recognize, America's CEOs, 
the real and growing threat of climate change, and we believe 
that America's business leaders have an obligation to 
contribute to an environmentally responsible future. In fact, 
many of our members are actively reducing their carbon 
footprints at their business operations right now. We have a 
large initiative going on at Business Roundtable, you can see 
at sustainability.brt.org, where CEOs are talking in videos 
about how each of them are doing this today.
    And so we believe that improving energy efficiency, 
increasing utilization of low carbon fuels and renewables, and 
continuing to advance technology are essential to achieving the 
lower carbon future for which we are striving.
    Later this year, Business Roundtable will release a report 
highlighting some of the potential breakthrough technologies 
that could fundamentally change the U.S. and global energy 
landscape for the better, just as those technologies that have 
been researched in the past have done and brought us to the 
point we are at today. So I thought I would just list a few of 
those and talk about them briefly as we are continuing to 
review them ourselves.
    First, advanced nuclear. Advanced nuclear energy is a term 
that encompasses both small modular reactors and nonlight water 
reactors, involves new methods of operation, new types of 
coolants, and new form factors. It holds the promise of 
flexibility, dispatchability, extraordinarily high energy 
density, increased safety, and the ability to be used in both 
electric and nonelectric applications, while producing zero 
carbon emissions. It also has the potential to be much cheaper 
than nuclear has been in the past.
    Two, carbon capture utilization and storage, often referred 
to as CCUS. It has become increasingly clear that to tackle 
climate change we don't only have to reduce emissions, but we 
have to figure out ways to capture and/or utilize the emissions 
that we are making now or store them. This already has a great 
deal of research base at DOE and elsewhere. There is some 
demonstration projects on this, and I think we see this as an 
area of potential further growth.
    Three, hydrogen. Like electricity, hydrogen is a flexible 
energy carrier that can be produced from a range of primary 
energy sources and used across a variety of sectors with 
significantly lower levels of emissions of greenhouse gasses 
and other air pollution. Hydrogen can serve to store and 
transport renewable energy, to power vehicles, to heat 
buildings, or be used as renewable feed stock in industrial 
production, like steel.
    Four, energy storage, and I think Mr. Zindler was referring 
to this a little bit earlier. Because renewable power today 
primarily from wind and solar is intermittent, meaning that you 
can't control when the sun shines or when the wind blows, the 
ability to store that energy when it is generated and then 
dispatch it when you need it is important, and that is what 
storage enables us to do. And while U.S. energy storage 
deployment is expected to accelerate markedly over the next few 
years, current technology isn't enough to meet all the 
potential demand that we see ahead. This is an area where 
greater research could be of great benefit.
    And five, advanced substitute materials. I know you all 
have thought a lot about advanced materials. This is not a new 
subject for the subcommittee. But when you think about clean 
energy technologies, batteries, solar panels, wind turbines, 
all of these things rely on near critical or critical minerals 
like lithium or neodymium. So, for example, if you wanted a 
range of advance battery technologies that do not rely on 
critical minerals, you are going to have to find a substitute 
advanced mineral--or material to help develop that technology, 
and that is another area that could really help as we move 
forward.
    So, in conclusion, for companies and individuals to harness 
the opportunities presented by today's energy landscape, public 
policy should support resilient, efficient infrastructure and a 
stable regulatory regime, but we also need technological 
innovation. And we appreciate the work of this subcommittee in 
funding the research enterprise at the Department of Energy at 
the national laboratories, ARPA-E, and elsewhere. And while we 
recognize it is difficult to know what will be tomorrow's 
breakthrough technology that will make the biggest difference, 
it is hard to imagine that we will find that breakthrough 
technology without government-sponsored research.
    Thank you, and I look forward to your questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    And thank you all. You are just really an outstanding 
panel. I wish every citizen of this country could hear what 
you've said this morning.
    Before we begin with questions, I would like to remind 
members about our hearing rules for this year. First, I intend 
to convene our hearings on time, and for those members present 
in the room, when I gavel in at the beginning of the hearing, I 
will recognize you for questions in order of seniority, 
alternating between majority and minority, until all who arrive 
prior to the gavel have asked questions. For those of you who 
arrive after the hearing has started, I will recognize those 
members solely in order of arrival, again, alternating between 
majority and minority.
    And lastly, I intend to observe the 5-minute rule for 
questions and answers, and will now begin our questioning under 
normal rules. And I would like to give members a chance to ask 
questions, so I will just ask one question at the beginning and 
then we will turn to Mr. Simpson.
    To Mr. Hakes and Ms. Jaffe, our primary responsibility, our 
first responsibility is to protect and defend the American 
people against all enemies, foreign and domestic, but we know 
that dictators and authoritarians dominate global energy 
markets and do not share our most fundamental value, surely 
liberty. They often assert their dominance by actual 
withholding of energy supplies or they employ cyber hacking, 
which is happening to companies that I represent, hundreds and 
hundreds and hundreds of times a week, or even many of these 
countries just threaten to withhold their energy supplies.
    For example, we have seen bad actors like Russia threaten 
to disrupt natural gas supplies to Europe or use cyber 
capabilities to attack electricity generation in Ukraine.
    So, Mr. Hakes and Ms. Jaffe, what are some examples of how 
other governments have used energy supply as a weapon against 
the United States or other countries? And what more can be done 
to make our country less susceptible to the whims of dictators 
and authoritarians who are using energy as a weapon as we speak 
this morning?
    Mr. Hakes. One of the tools that a historian has is access 
to previously classified material, some of which wouldn't even 
be seen by senior members of government. And I can assure you 
that the use of oil for political purposes is greater than is 
reported in the press, now that we have access to the 
diplomatic documents. So this is a long-time problem in 
American foreign policy that countries who have power from 
their oil exports are willing to threaten, in effect, the 
American government.
    I would share with you, right now, my concern is a lot in 
Europe where they are very dependent on the gas from the Soviet 
Union. I think that is a problem. Perhaps the more robust 
liquified natural gas market will help in that respect. And 
then we always have to be concerned about the flows of money 
into the Middle East that can sometimes leak out into terrorist 
organizations. So I think those concerns continue to be 
something to keep very much on the front burner.
    Ms. Kaptur. Thank you.
    Ms. Jaffe. Let me just remind the committee of something 
you already know. If we lower our oil use here in the United 
States, then we have more oil and gas to export to our allies 
so they are less dependent on the countries that the chairwoman 
is mentioning. So it is not necessarily bad for our industry 
here to also pursue clean solutions, and we need to lower the 
oil intensity of our transportation sector.
    When I worked in California, I worked specifically on 
looking at what we could do in our freight and trucking 
industry, because whereas every American might not be able to 
afford today to buy an electric vehicle, and therefore, it is 
hard to gear that up in a very fast fashion, there are great 
benefits that can come in the freight sector from all kinds of 
technologies, including alternative fuels for trucks. We could 
impose higher performance standards for even the largest 
trucks, and it would innovate to technologies that would then 
make our companies more competitive to sell those kind of 
vehicles abroad.
    China now dominates the electric bus market. They dominate 
the natural gas truck and some of the electrified larger 
vehicle markets. We can take that back, and we could have a 
huge squashing of the oil intensity of our transportation 
networks through the freight system.
    We already have great progress that has been made through 
what I call optimization programs. So when your delivery 
service, I won't mention corporate names, but when you buy 
something online and it is coming to you through a delivery 
service, they actually use big data to program how those trucks 
move around the United States. One of those services told me 
that in 2017, they eliminated 100 million miles of vehicle 
miles traveled just by scanning your package and letting the 
computer decide which truck delivers it when. So there is a 
huge power in these technologies, these optimization GPS-style 
technologies. GPS is yet another technology that came out of 
the DOD.
    We are going to have a unique opportunity. In everybody's 
district, you are going to have, unfortunately, natural 
disasters or other kinds of weather events that mean we have to 
replace infrastructure. We need to spend those dollars not 
raising a building up 4 feet above the ground; we need to spend 
those dollars modernizing our infrastructure, modernizing our 
grid, modernizing our buildings, so that we are both making new 
jobs through innovation and improving the resilience of our 
existing infrastructure.
    Ms. Kaptur. Thank you very much.
    Out of courtesy, Mr. Simpson.
    Mr. Simpson. Thank you, Chairwoman.
    I appreciate all your testimony and all of you being here 
today. It is an interesting subject, one that we don't know a 
lot about, frankly. It is always hard to predict where you are 
going and how you are going to get there. You know, it is 
interesting, I would buy an electric car tomorrow, but I live 
in Idaho, and I might drive 500, 600 miles a day, that is not 
unusual. And if the charging station that I--if they had one--
that I stopped at and it takes an hour to charge my car, that 
is a problem. So there is a lot that needs to be done in that 
regard.
    The other thing that a lot of people don't understand, if 
you go out to the Idaho National Lab, they are working on rapid 
charging stations and all of this kind of stuff. They have a 
thing where you are going to be able to take your electric car 
and just pull into your garage, and there is something that is 
in your floor that, you know, you don't have to plug it in or 
anything.
    But the thing I found amazing is the impact that if, you 
know, 10 percent of the people got electric cars, that would 
have on our electrical grid. It is not conditioned to withhold 
the impact on our electrical grid, and we don't do enough in 
making sure that we have an updated and modern electrical grid 
system, because I was shocked at how much energy it takes to do 
that. I mean, it was the comparison of houses, and I thought 
that has got to be wrong, that can't be true, but it is. And it 
is something that we have got to address, besides the security 
of the electrical grid system.
    But this subcommittee has tried to balance funding--and I 
will ask anyone that would like to answer this--has tried to 
balance funding needs across all stages of research, from basic 
science research to early stage applied energy research up 
through mid and late stage research and demonstration and 
across a wide variety of technologies for all components of the 
energy sector. The idea being that all stages are necessary, 
and you never know where the next breakthrough is going to 
develop.
    Would you recommend we continue that general approach or 
would you approach things differently if you were in our seats? 
Anybody like to answer that? Go ahead.
    Mr. Hakes. Yes, I have my favorite list. I mean, I think 
everybody here would agree batteries ought to be right up there 
and get special treatment. And then I will put in a plug for 
one that I think has been overlooked and I have talked with a 
number of senior officials about this, and I think more is 
being done. If you are looking at where we want to be 30, 40 
years from now, I think we are going to have a very strong wind 
and solar basis. And the question is, what goes with that? And 
it could be small nuclear. And it could also be natural gas 
that is sequestered. And, you know, we made a big push for coal 
sequestration, and that didn't work out quite so well in some 
of the projects, but I think gas has some advantages in that 
respect.
    And so if I was going to mention one thing that normally 
doesn't get mentioned that ought to be highlighted a little 
bit, because you don't want to put all your eggs in one basket. 
So I am very optimistic about the future of wind and solar, but 
I would like to have a few other things sitting out there, and 
so that is one area that I would like to see get some attention 
or more attention.
    Ms. Jaffe. So let me just say, so when I worked at the 
University of California, I was actually on what we call the--
we had a Climate Leadership Council at the UC, and I also 
worked very closely with the whole systems innovation office. 
And we put together an initiative that was how do you partner 
the labs, universities with the actual private sector, and by 
doing so, you know, shaping the private sector's choices.
    We are coming out with a big report from the Council on 
Foreign Relations in the next couple of weeks on how digital, 
digital devices and digital innovation is going to affect the 
energy system of the future, and that gets to Ranking Member 
Simpson's concerns about the grid, because they are going to 
have to be these digital solutions and we are going to have to 
think about how we integrate either small nuclear advanced or 
how we integrate batteries into this system. It is going to 
take differences in how we organize and then the technologies 
we deploy as we rebuild systems where they need to be rebuilt. 
California, of course, is going to have huge needs.
    So I feel like instead of just having, you know, 
straightforward public funding and funding for universities and 
the labs, which has been very effective but maybe not at the 
pace we need, we are going to hear about the new--green new 
deal today, and a lot of talk is going to be about pace, right. 
So this idea of these innovation clusters where you are 
actually getting these small startup companies or the larger 
large players that have capital to deploy and getting them to 
deploy the technologies that we actually need and not 
necessarily technologies that might add to the problem, might 
make the grid more unstable or technologies that might add to 
how much oil we use, right. Because if everybody is taking 
Uber, and we triple the number of trips we take in a gasoline 
car, the fact that we are increasing our oil production is not 
going to matter. We have to use those technologies in a way 
that it supports public transportation. We need to use these 
technologies in a way that it gets us to the goals that we 
want.
    And so for me, that is setting up the platform to having 
the labs working together with these companies and the young 
people. I mean, you are going hear from the sunrise movement. 
You know, the young people are inspired to work for companies 
that are doing these innovations. We need them to stay in 
science for national security reasons. And by asking these 
companies, even the energy companies, to partner in these 
clusters together with our labs and together with our 
scientists and innovators on campuses, I think we are going get 
a better result than if we let the private sector do it by 
itself or we put a tax on the private sector to do this or 
that.
    I think that creating these sort of--if you think about the 
Silicon Valley culture and how having everybody in that same 
culture, and that involved the universities that were around 
Silicon Valley--many of you have never heard of Santa Clara 
University, it was a pivotal university involved in that 
process--by creating these clusters where we really man our 
workforce, really man the younger generation starting with 
students and universities and feeding them into these clusters 
in the Rust Belt, in other places, this is the way, in my 
opinion, to do it.
    Mr. Sonnesyn. If I may just add, Congressman, to answer you 
directly, research development and demonstration are all 
critical to the process, in our view. You do need to cover that 
gamut. If you just wait for the last part to be done by others, 
we may not get there. And a diverse portfolio across a variety 
of technologies is also helpful, because we don't know which 
technology will take off 10 years from now.
    Ms. Kaptur. Thank you, Mr. Simpson.
    Congressman Pocan.
    Mr. Pocan. Thank you, Madam Chair, and thank you to the 
panel. I appreciate you being here today.
    A couple of graphs really kind of stood out to me, and I 
just want to ask some questions based on that. One on the 
energy consumption by energy source. When I look at the very 
small amount when it comes to solar and wind and other 
renewables, we put 8\1/2\ kilowatts of solar in our house about 
3 years ago. There is nothing like paying $7 a month for your 
utilities, because in Wisconsin, we still have to pay a little 
something. But when you are a frugal Wisconsinite, that makes 
you smile. And yet then I look at the research and development, 
and when we really wanted to address an issue like putting 
someone on the moon, we put a huge spike of investment in that 
research and development, and apparently, I didn't know we 
still have a lot of money, three times what we are spending on 
energy, it looks like, going into space research and 
development. Yet what I have been told when we looked at this 
and when we looked at our solar and while the cost was coming 
down, it still maybe wasn't the best return for people. We know 
it is about 11 years for us is what it is going to take to 
actually pay down the solar. For most people, that is probably 
not where you would invest to do it. We did it for a lot of 
other reasons. We also have a Volt. I also have a Jeep Wrangler 
because I live in a rural area, so I guess I have neutralized 
myself out on that level.
    But my question, I guess, comes to, what is it that really 
is the best way--like, I just think is it research and 
development that we need to put far more money in? I have 
companies in my district that a byproduct of some other 
research is they figure out how to cut the really thin cells in 
solar so they don't have to be made in China, they can be made 
in the U.S. Battery research that lithium batteries don't catch 
on fire, so a submarine doesn't have a fire because that would 
be bad. We are doing things like that. So research and 
development, is that the issue, or is it the incentivizing of 
the market? Because part of why people buy solar was because 
there was a Federal tax credit and there was also a State tax 
credit, but that still made it an 11-year buyout on that.
    What is it that we really have to do in order to see those 
markets increase far more? Because I understand we were now--we 
are putting more oil and gas out and all that. I just don't 
think that is the future at all, and I think the demographics 
you have shown say that. What is it that we really need to be 
doing now to best move these forward?
    Mr. Zindler. If I can jump in and just say, you know, you 
need an all-of-the-above energy policy that doesn't just 
apply--you know, just thinking about the actual fuels, but you 
are thinking about the policies too. And, of course, to the 
other question from the ranking member about sort of where to 
prioritize, you tell me how much money you have got to spend 
and I can sort of tell you where I would suggest that you 
prioritize. I mean, some of the technologies that Mr. Sonnesyn 
mentions are extremely expensive to demonstrate at scale, like 
small modular reactors, carbon capture, storage. Important--
potentially incredibly important technologies, but they are at 
the--they are really at the, you know, development stage where 
you need to test them big, and you are talking not millions, 
but billions of dollars to look at that.
    And then there is a lot of stuff much further up the chain 
with less money that is where you should probably focus it 
because that----
    Mr. Pocan. So let me be a little more specific and maybe 
that will help. I am interested in wind and solar and things 
that we have an abundance of that are free, that don't rely on 
another country, that will decrease our budgets in defense and 
other areas eventually when we get there. So specifically in 
those areas, I am looking for what can we best do to increase 
that use.
    Mr. Zindler. In terms of what would affect the market, I 
mean, the first thing, if you want to just continue with the 
growth of those technologies, both have tax credits that are 
due to phase out. And if you want to continue to grow the 
market at the same pace, renewing those would probably help, 
but that is a short-term thing. I think longer term, the 
questions and issues that were raised around flexibility of the 
system and accommodating batteries is very, very important.
    I would note that the batteries, when paired with the solar 
system right now, can qualify for the investment tax credit, 
and that is making batteries plus solar actually become much 
more rapidly cost competitive, and that is really important. So 
something like that might be another thing to think about if we 
are thinking truly short term. But there is obviously--you 
know, energy you want to think in a much grander scale as well, 
and overall, as was noted by the ranking member and others, the 
system is going to demand flexibility. You throw a lot of new 
intermittent things onto the grid like renewables, you need to 
find a way to accommodate all of those.
    But I think it is important to recognize that they are 
coming, because the prices are coming down fast enough that 
they are coming. Whether it is now or later, they are going to 
come, so you need to build a grid that accommodates them.
    Mr. Hakes. I pointed out in my written testimony that the 
fast movement on wind and solar is not just due to R&D. The 
State renewable portfolio standards have driven the market, and 
when you get the market, then the private sector really has an 
incentive to tweak the system, reduce costs and compete. So the 
Congress, in the 2007 legislation, came that close to putting 
in a renewable--national renewable portfolio standard. It 
didn't quite make the 60 votes in the Senate. So that is 
working both sides of the equation, the R&D side and the demand 
side.
    Ms. Jaffe. Let me add that the oil and gas industry had the 
benefit of the MLP tax structure, so that private equity, 
investor money, whether that is private money or family office 
money or, you know, even your pension fund, could invest. We do 
not count renewable energy as energy production. It is somehow 
in the mining definition. We don't allow renewable production 
to count. That seems to me really ridiculous. Why is energy 
production from solar any different? You have the stream of the 
energy produced, right? So looking at how to restructure 
renewable energy inside the financial system so that you can 
get private capital.
    I can tell you, from being an adviser to the UC pension 
fund, that many pension funds are looking for ways, their 
constituency and their pensioners want them to invest in 
renewable energy, but, you know, they also have pension 
obligations. So we have to make sure you don't lose that money, 
right? So having the tax status for projects that respond to 
PPAs that are part of the RPS, so that you can get capital into 
those programs faster is probably something--and then there 
have been bills proposed and they just die and they didn't make 
the tax reform bill. Unclear why.
    Mr. Pocan. Thank you very much.
    Ms. Kaptur. Thank you very much.
    Congressman Calvert.
    Mr. Calvert. Thank you, Madam Chairman. I appreciate the 
time.
    Dr. Capuano, is that how you pronounce it?
    Ms. Capuano. Capuano, yes.
    Mr. Calvert. Thank you. You mention in your testimony 
insufficient infrastructure that exists to move crude oil 
production supply from the Gulf region to meet our domestic 
refinery demand both on the East and West Coasts. I am 
wondering because of the news out of Venezuela right now, 
because of our dependence on heavy crude in the refining 
process, especially in those refineries that we have in the 
Gulf region between Louisiana and Texas, how that is going to 
affect the crude oil production in the short term? Obviously, 
this is going to be a problem. Venezuela still has the largest 
proven oil reserves of any country in the world, and certainly 
has an impact on the production of oil. So what would your 
response be?
    Ms. Capuano. If we talk about Venezuela, that is mostly 
heavy crude, the heavy grade, and there are other countries 
that can supply that, such as Canada and Mexico. And so EIA 
monthly puts out a short-term energy outlook where we look at 
the available production supply globally and look at the 
outlook for balancing the needs of the United States refiners 
and other consumers.
    And at this point, while there will be a shift obviously in 
the flow of oil to compensate for the fact that Venezuela is 
going lower, so we will see that adjustment. We don't see it as 
having a major impact, a shock impact, and so we will adjust. 
And again, I will refer you back to our STEO, and we are happy 
to share the detailed data from the STEO that will show you how 
we have done those calculations.
    Mr. Calvert. Okay. Thank you.
    Innovation in my home State of California is a big deal. 
Patents, intellectual property are a big deal. I think 50 
percent of all patents still are filed in the State of 
California for whatever reason.
    Mr. Simpson. Fifty percent of the population.
    Mr. Calvert. You are probably right. God knows how many 
people we have.
    We talk about innovation and we talk about research, and I 
am certainly in favor of doing all that, but most inventions, 
most breakthroughs are done not by the government, but by 
innovators. You mentioned, Dr. Hakes, Mr. Mitchell. He didn't 
work for the United States Government, and he innovated his way 
into a new technique.
    Obviously, we have been researching fracking for 100 years, 
and it took him, his persistence, by the way. He ran into a lot 
of roadblocks along the way, but he was able to understand what 
he had to do to create what we now take for granted in modern 
day fracking technology. I am sure some people wish he never 
came up with it, but nevertheless, he did, and that changed 
this country overnight.
    And I liked your testimony, sir, about we can't expect what 
the next breakthrough may be. You know, we have been investing 
a lot of money in fusion here since the 1950s, and we always 
expect a breakthrough around the corner. You know, we are still 
investing in ether, and if that happened, of course, that would 
change everything. You know, we wouldn't have to worry about 
nuclear waste, and all the rest of it, and it would be a free 
reign.
    So what about those new breakthroughs, and how do we 
protect intellectual property and those inventors that are 
going to come out with that breakthrough? I really believe in a 
capitalist society that the innovators are the ones that are 
going to come up with the ideas. The Elon Musks of the world 
are going to come up with the next solution, so I just wanted 
to throw that out there.
    Yes, Dr. Hakes.
    Mr. Hakes. George Mitchell is one of my favorite subjects. 
I actually I think was the first Federal official to attend his 
first profit making well using the fracking technique, I think, 
in 1999. But he lays out--he never expected he could protect 
his patent, so he bought a lot of land that was really cheap 
because it was only valuable if you could use his technology, 
and then he made the money off the land. It is very hard to 
protect patents in energy.
    But there is not time to get into it today, but there was a 
journal article in the Journal of American History in 2012, 
where the historian Diana Davids Hinton interviewed Mr. 
Mitchell before he died, and the story of how he developed that 
technology. And if there is a way of getting that into the 
record or something, I recommend that obscure academic article 
to everybody.
    Ms. Kaptur. Dr. Hakes, please make it available to us.
    Mr. Hakes. Okay.
    Ms. Jaffe. Let me just add that what you are really 
referring to, Representative Calvert, is what we call in the, 
you know, research world the valley of death, right? So you 
have a technology like the fracking technology that started 
with Gas Technology Institute where George Mitchell served on 
the board. And, you know, how did he--he was dedicated. This is 
a man who studied physics as a hobby. He used to fly Stephen 
Hawking to his ranch, and he was 100 percent committed. Didn't 
matter how many times they failed. He was committed, he 
believed in the technology, and he personally took that 
technology over the valley of death.
    So what the committee really wants to look at is not--I 
mean, you are mentioning there is technologies you invested in 
that could work, and then they don't make it commercially. So 
what you are really looking to do is you have to have basic 
research, because without basic research you don't even know 
what technologies are possible. But you still need to have some 
kind of funding, whether it is through the small business 
bureaus or whether it is through, you know, some other way, 
where you can move a technology that a business person thinks 
is promising, like for solar panels or Tesla's batteries, which 
work in a totally different system, and get them to be 
commercial.
    Mr. Calvert. If the gentlelady will yield back. I always 
believed that business is not going to invest usually in the 
basic physics and the issues of that. It is the applied side. 
And they only get that information out there to the 
entrepreneurs for them to come up. Government invents very 
little. I mean, we can point to a few exceptions, but the 
private sector has been the primary success in driving the 
economy. That was the point that I wanted to make.
    Mr. Zindler. Can I just add just quickly a little bit of 
context? And first, Congressman, I very much share your 
admiration for entrepreneurship. Our firm was a startup 
company. We were bought by Bloomberg about 9 years ago. We are 
very proud of that. But I also would argue that nothing takes 
place truly in a vacuum. And one thing, you know, we track very 
closely is the amount of venture capital that gets invested in 
new energy technologies. And there was a boom in that kind of 
investment, and it was about 2008 and 2009.
    And since then, generally speaking, the amount of money 
that has flowed in from the true venture community has been 
lower, and part of it is because they learned that actually 
developing an energy technology at the applied level is really, 
really expensive. It goes beyond the 10 to 20 to even a couple 
hundred million----
    Mr. Calvert. I don't want to take up all the time, but, you 
know, I am an old salesmen, and you always sell the sizzle and 
not the steak. You always make money on the up side, not when 
you plateau the market, so I agree with you on that.
    So with that, I will yield back my time.
    Ms. Kaptur. Thank you.
    Congressman Fleischmann.
    Mr. Fleischmann. Thank you, Madam Chairman. I wanted to 
begin by congratulating you on your chairmanship, and also 
Ranking Member Simpson. This is a very special committee, the 
Energy and Water Subcommittee of Appropriations, and I see some 
new members on the other side, and I want to welcome them as 
well. We work in a very bipartisan way most of the time, and it 
is a cherished position here.
    To the panel, thank you. This has been very informative and 
also very enjoyable. Thank you. I have learned a lot from your 
commentary today and your thoughts. I have got two questions. 
And I represent the Third District of Tennessee. My largest 
city is Chattanooga, which has been a gig city and it has got a 
smart grid and it is incredible, but I also have a little city 
called Oak Ridge, birthplace of the Manhattan Project, Oak 
Ridge National Laboratory. I think if it is involving DOE, we 
kind of do it in Oak Ridge.
    And I would like to start by asking this question. Advanced 
manufacturing has revolutionized many industries. Oak Ridge 
National Laboratory in my home district is a leader in advanced 
manufacturing. How do you see progress in advanced 
manufacturing impacting some of the transient outlooks you have 
discussed today? And bear in mind, I do have a second question, 
so in interest of the 5-minute rule, I will ask for rather 
brief answers.
    Ms. Jaffe. Advanced manufacturing could be a fundamental 
technology to lower the oil intensity and lower greenhouse gas 
emissions in the United States and internationally.
    Mr. Fleischmann. Thank you.
    Anyone else?
    Mr. Zindler. Just very quickly, it is already playing a 
major role in the production of photovoltaic modules, solar 
panels and the cells mainly, frankly, because the plants are 
getting bigger and bigger, more automated. Frankly, less human 
labor is required to run them, and that is already taking 
place.
    Mr. Fleischmann. Very well.
    How are advances in artificial intelligence, which I will 
refer to as AI after this, going to impact the outlook for 
energy production, distribution, and use, and are we seeing any 
trends yet? Are there any examples you can point to that might 
help illustrate the potential benefits of AI, and maybe ask--
tell us where research is needed to realize the benefits of AI 
with respect to energy. And I will open that for anybody who 
would like to comment.
    Mr. Sonnesyn. Well, I will take a low-level shot at that, 
Congressman. When we think about AI, we are thinking about 
there is a trend of digitalization overall that we are seeing 
on the grid and the use of energy. This is something that is 
happening, whether you think about Alexa turning on or off your 
power or your heat before you get home because she knows you 
are on the way, to something a lot more advanced. But the point 
that I am making is that the ability of the grid to start 
thinking for itself to respond to demand changes to be able to 
balance out the different desires and needs of different 
customers over time is really important, and that is a place 
where AI could play an important role.
    Mr. Fleischmann. Thank you.
    Ms. Jaffe. And it is a very important role that it can 
play, and Tesla has this technologies and others, on smart 
inverters, so if I am--if I am having my solar panel on my home 
or I am having an area that has a microgrid and there is a 
problem with the overall grid, then I have this automated 
technology that can separate out my microgrid from the larger 
grid and so you can maintain services for a hospital or some 
other feature that has created this, but it can contribute to 
the overall grid, again, automatically through this AI 
technology.
    So this is a very important technology, and I mean, we need 
to think about how we are going to move to self-driving, which 
AI is a big component of that and processing the lidar, you 
know, in the vehicle or in the infrastructure that is going to 
be associated with self-driving. And we are--I mean, regulation 
in self-driving is way behind the actual technology 
development. So thinking about what technologies are needed to 
make that really a dominant technology is going to have big 
implications for military technologies. Understanding that and 
then thinking about how to deploy capital and regulation is 
going to be very important and challenging in the next couple 
of years.
    Mr. Fleischmann. Thank you very much. I thank the panel.
    Madam Chairman, I yield back.
    Ms. Kaptur. Thank you very much, Congressman Fleischmann.
    Okay. Congresswoman Frankel.
    Ms. Frankel. Now it is my turn?
    Ms. Kaptur. Now it is your turn. Thank you for waiting.
    Ms. Frankel. No problem.
    Hi. Hello. Thank you very much to this panel, and you all 
seem very knowledgeable and accomplished. But, you know, there 
has sort of been a disconnect for me on the testimony in this 
way: You know, we started off with a chart. There is so many 
papers I can't even find it, but I believe the chart showed 
that we are exporting more crude oil over the years, okay? So I 
know this is going to sound--this is a rhetorical question. I 
think climate change affects the whole world, and so it doesn't 
really--I know--I think it was Ms. Jaffe, you said something 
like, well, we can squeeze more oil to export if we could do 
better in the United States, but that doesn't seem to me to 
solve the problem of climate change, right? I am not trying to 
put you on the spot.
    Ms. Jaffe. It does in the following way.
    Ms. Frankel. Okay.
    Ms. Jaffe. If we lower our emissions, which, number one, 
means we are going to use less oil and gas here, right?
    Ms. Frankel. Right.
    Ms. Jaffe. And we do these transformative technologies, we 
win in two ways. Number one, we are developing technologies 
that are going to meet the demand of the future world that is 
going to want those technologies, so it becomes an export-
oriented industrial policy. But in the meantime, you have got 
other countries who aren't doing that, and we might as well be 
the ones to supply them and not have them get their supplies 
from Russia and the Middle East, right, and have the 
geopolitical problems where we have to now intervene on the 
geopolitical problems.
    So my view is it is a win-win. We are going to have a 
transition. During this immediate moment of transition, let's 
get our energy here to focus on clean tech and innovation and 
get oil intensity of our transportation sector down so that we 
can provide the energy that is needed immediately for countries 
that have not been able to transition yet, and let's be 
positioned then to sell those same countries the technologies 
we have to reduce emissions globally. That would be my 
position.
    Ms. Frankel. That sounds like a good idea. I mean, 
getting--but my next question is, if you have an opinion, how 
does--and this is really a followup on what you just said. How 
does us pulling out of the Paris Agreement, how do you think 
that affects what you just told me?
    Ms. Jaffe. Can I take that one?
    Ms. Frankel. Yes, go ahead. Yes.
    Ms. Jaffe. We need to meet the Paris Agreement. And as 
Administrator Capuano has explained, natural gas and solar and 
renewables is going to reduce our emissions in the electricity 
sector and give us a glide path, right? So I believe that we 
could have an EPA--force the EPA to have a tender where every 
State could contribute its additional donations. So we stay 
with the CAFE standards, which gives us a certain amount. We 
actually--to meet the Paris accord commitments, we only have to 
come up with an additional 600 metric tons of contribution 
beyond CAFE and beyond what is going to happen in the 
electricity grid naturally through commercial trends. Right? So 
let's mobilize. And I believe that the EPA could do that 
through a tender.
    You know, if West Virginia doesn't want to participate, 
then have them tender something that works for them, but have 
every State tender so that we can close that gap and stay in 
Paris. And it costs the White House nothing, because every 
State, every State wants to do clean energy. Every State wants 
to address climate change in some fashion. I lived in Texas and 
I lived in Houston, and I evacuated multiple times, right? You 
have innovators in Austin and other places in Texas that would 
bid into this program, right, and I think now is the time.
    We stay in Paris. We have a national initiative. And 
everybody can play their part by offering how they are going to 
do it, whether it is New York City or some other locality. 
Every one of you have mentioned really interesting projects 
happening in your district. This can be done. It is not as hard 
as it looks.
    Ms. Frankel. So that is--oh, go ahead, Mr. Hakes.
    Mr. Hakes. I was just going to say that I think the real 
turning point for us in the next year or two is whether we 
address the rising emissions coming out of the transportation 
sector. So the Paris Agreement itself has rather modest goals 
in a way, and it is voluntary, and we won't even meet those 
goals unless we aggressively move on improving efficiency 
standards. And one of the things that those efficiency 
standards will do will lead us to the electric car. I mean, if 
you look at the way those regulations have been written, you 
get double credit for electric cars and things like that.
    So from a policy--now that I am not at EIA anymore, I can 
talk more about policy. But from a policy standpoint, that is 
going to be the big driver. And in looking at the automobiles 
and trucks and making that transition, and because carbon stays 
in the atmosphere for over 100 years, the sooner we make that 
transition the better, so we can explain what we did to our 
grandchildren.
    Ms. Jaffe. And let me just say, the oil and gas industry 
has lasers, has drones, has sensors so they can actually 
capture their methane leakage, find the leaks and shut them 
down. And we are letting them off the hook here on the Hill. 
And we are letting the EPA do what it wants to do, when we 
could just have legislation that says, you know, this is the 
target for methane leakage, and then all of a sudden, you know, 
all these problems with natural gas and all these problems, we 
are reducing a huge contribution to being able to stay in Paris 
just with that one policy.
    And honestly, the oil and gas has the technology to do it 
today. They are being forced to do it in Colorado already. That 
leads to new products. When I am an oil company and I come up 
with new technologies to find and capture my methane, I can 
then export that technology to other countries that they do the 
same similar thing. So those are all products, whether that is 
supporting a company in somebody's district that has drones, 
whether that is supporting somebody's company in a district 
that has sensors or laser technology, all these technologies 
are being used in Midland, Texas, on the shale by the more 
innovative companies. And that is creating an entire--another 
cottage industry of jobs which are now being happening in 
Colorado because they have the regulation. That should be a 
Federal regulation.
    Ms. Frankel. I think I have run out of time, but it was 
very interesting. Thank you very much.
    I yield back.
    Ms. Kaptur. Thank you. Thank you, Congresswoman Frankel.
    Congressman Newhouse, and then we will move to Congressman 
Kilmer.
    Mr. Newhouse. All right. Thank you, Madam Chair. And thank 
you for holding this hearing. Mr. Simpson, thanks for allowing 
me to be on the panel with you today.
    Mr. Simpson. It was a hard choice.
    Mr. Newhouse. That is why I keep thanking you. I apologize, 
but I had another hearing at the same time, so I am trying to 
be in two places at once. You can imagine how that works out.
    So I have a couple of questions. I have the honor of 
representing a district that is home to the Pacific Northwest 
National Laboratory, which I think probably many of you have 
heard of. And as you know, our national labs are critical to 
the energy innovation ecosystem that we have in this country. I 
have been to the lab a number of times, and I am continually 
impressed by the kind of work that goes on there. I have seen 
firsthand how the infrastructure there at the lab, combined 
with the truly highly talented people, the researchers there 
are able to span the breadth of the very basic research through 
applied R&D that brings new ideas to address the challenges 
that we are talking about today facing our energy system.
    So what I would like to do is hear from the panel 
perspectives on where our national labs fit into the innovation 
ecosystem and their role in DOE's applied R&D programs in 
ensuring that the federally funded research, you know, gets out 
of the labs and into the hands of the people that can actually, 
you know, place this in the market. Are there lessons that we 
can learn from the past on how labs in the Department can do 
that better? And I would love to hear that, and, again, I 
believe Ms. Myers Jaffe----
    Ms. Jaffe. Jaffe.
    Mr. Newhouse [continuing]. Has addressed that to some 
extent, and certainly I would like to hear from some of the 
other panel members on your ideas as well.
    Mr. Hakes. Well, I think I have been to most of the energy 
labs at one time or another, including Hanford, and to me, what 
I love to see at just a practical level, I think it probably 
was about 2010 when it was a real pivotal movement in solar 
technology and some scientist friends at Georgia Tech, I was 
living in Atlanta at the time, invited me over, and it was a 
project funded in part by Oak Ridge, partly by the private 
sector. The university was obviously a part of it.
    And some of the top brains in our country were going to 
work every day trying to figure out how to make those panels 
more efficient and cost less. And I came back home and I told 
my wife, I said, I am feeling pretty good about this, because 
if these people are spending that kind of--doing it--so I think 
you can't do this without the labs because they have got the 
basic science, and they are brilliant people. And they bring a 
perspective, a long-range perspective. But in many cases, it is 
the partnerships with universities and the private sector where 
that is when it really zooms, but you can't do it without these 
magnificent labs.
    Mr. Sonnesyn. If I can just add, I think some of the most 
effective projects are those where, once you get past the basic 
level of research, the applied research, having partners from 
the private sector participating in that project along with 
universities is part of how then you have an investment by the 
private sector in what is the outcome of the project, but also 
in recognizing the commercial viability of it long term. And so 
as they are engaged in that applied research, certainly when 
you get to the demonstration project, it really helps it 
continue on. That is one of the ways that you get over that 
valley of death, by creating these consortia of participating 
partners.
    Mr. Newhouse. Do you guys see any way we can improve over 
how we have done this for a while? You certainly have 
experience with that.
    Ms. Jaffe. I think that part of the issue is how do we fund 
the younger scientists to go to the national labs. So I am a 
young person coming out with a degree in a program. I have 
spent 5 years in computer science or 5 years in energy science 
or I have master's in those fields, and I am highly qualified. 
And how do I incentivize you to work at a national lab and not 
go to Google and work on something that might create emissions 
instead of removing emissions, right? I think that has to have 
to do with scholarships for post docs, scholarships for people 
when they are in their Ph.D. Maybe it has to do with the giving 
people student loans and getting them into the national labs. I 
mean, maybe something in the way we do, you know, Peace Corps 
but for serving in the national labs in STEM.
    I think there needs to be something where the funding 
stream literally is going into the younger scholars being able 
to stay in the field, because I can tell you from working with 
Ph.D. students for the last 20 years, getting a Ph.D. student 
to come and be able to afford to do it and then helping them 
stay in the research area and not have to take a private sector 
job is very challenging, right?
    And so I think that is an area of focus that maybe--I don't 
know, I am not familiar with what the committee has looked at 
on appropriations, but looking at that line item for how much 
funding do we provide for a young person who is in university 
today to go through the process of getting their degree and 
working in a national lab, I think that probably needs more 
attention.
    Mr. Newhouse. I appreciate that. Certainly, those people 
coming to the tri cities of Washington for the first time are 
going to stay. It is a great place.
    Thank you very much, Madam Chair. I appreciate it.
    Ms. Kaptur. Thank you, Congressman Newhouse. Thank you for 
coming back. We have had a really great turn out this morning 
of our members. I am proud of them.
    Congressman Kilmer.
    Mr. Kilmer. Thank you, Madam Chair, and thanks everybody 
for being here. And I want to thank the chair; when we met 
earlier this week, she encouraged all of us to talk about some 
of the things happening in our district, and I guess I wanted 
to start there.
    In my neck of the woods, we actually have DOE's only marine 
sciences lab, and they do research into renewable energy, as 
well as trying to understand their environmental impacts. 
Everything from looking at how offshore wind turbines impact 
birds to the environmental impacts of hydropower to impacts of 
marine hydrokinetic devices on marine animals.
    And I guess I wanted to ask this question probably to Dr. 
Capuano and maybe Mr. Zindler. I wanted to get your sense of 
how do you see these sorts of technologies fitting into a clean 
energy future? And what does, you know, widespread adoption 
look like? What is the maximum potential there and what is the 
scale of investment that would be needed to actually realize 
that potential?
    Ms. Capuano. So I can talk about the foundation and let 
you--so let's talk a bit about the projections that you see in 
the EIA report. So the way that we construct our models, we 
obviously put in all the legislative laws and regulations that 
are required, so anything that requires absorption of 
renewables goes in first. After that, it is an economic model 
where we do assume a certain amount of improvement in 
technology, a certain amount of improvement in production cost 
and cost reductions, and so it then goes into an economic 
competition.
    So what I think is important when you look at our long-term 
projections, which can help answer your question, is that as 
you see current legislation rolling away, you will see whether 
or not that technology has both been invested in enough and had 
had enough support through the legislation to then be able to 
compete on its own.
    And often, what you will see, let's say, in solar and wind 
is while as the legislation rolls off the next 10 to 20 years, 
you will see that it can compete but it is absorbed at lower 
rate. So I would say the same thing for the technologies you 
are talking about. Of course, that is a case assuming nothing 
changes. There will--I assume there will be discussions of new 
legislation and the challenges that are there.
    Now I will turn it over to you to talk about a view of the 
future.
    Mr. Zindler. Sure. Just real quick, and I wish I could 
remember our exact numbers for forecast, but for offshore wind, 
it has been a long time coming in the U.S. Basically, our 
country has developed--I think there is about half a dozen 
offshore wind turbines off the coast of Rhode Island, and that 
is just about it. But now we actually seem poised for a real 
scale up. It is actually an exciting time in terms of there 
have been offshore leases held along the East Coast. They have 
been bid very competitively, and maybe more importantly than 
sort of regulatory picture, which has come into focus, is the 
fact that overseas, particularly in Europe, we have seen the 
costs of offshore wind come down very dramatically, much faster 
actually than we even have been anticipating. And so that is 
making this stuff actually become much more viable.
    When you are talking about the East Coast, and particularly 
New England, developing a wind project onshore is challenging 
because of permitting issues. There is just not that much land, 
and you obviously have a community, and I am from there, that 
doesn't like a lot of change and doesn't like how things can 
change the views. Offshore you can find a lot more space. The 
winds are stronger. The capacity factors are higher. That is an 
area that we think really will grow.
    We are less bullish, I would say, about some of the other 
technologies around marine and others. Just I have been around, 
I have been doing this for a while, I have seen a lot of really 
interesting technologies be tested and not really achieve cost 
competitiveness yet or scale. Hopefully they will, but we are 
not there yet.
    Mr. Kilmer. I also wanted to ask, in the time I have 
permitting, about grid storage technologies, which seemed like 
as we work towards a clean energy future, that is going to be 
important, just given the variability in terms of hydro and 
solar and--excuse me, wind and solar. Also important not just 
in the future, but today, a lot of my district is pretty 
remote. At the end of the transmission lines we have more 
outages and particularly as more severe weather events happen.
    I wanted to get, and maybe to Mr. Sonnesyn and Mr. Hakes, 
if you have any thoughts on how we can accelerate innovations 
in grid storage and especially for a future after today's 
lithium-ion technologies.
    Mr. Sonnesyn. So let me start with we expect a lot more 
storage to be coming online in the short term, but probably not 
grid scale, it is more small scale. But if you think about how 
many new electric vehicles might be on the road and how they 
are able to plug in then, depending on the smart technology 
that is involved there, you could see some back and forth 
between those batteries overnight and in and out of the grid, 
et cetera. So there is some potential there in the shorter 
term.
    In the longer term, though, what I was referring to about 
advanced materials research is really critical if we are not 
going to have--be dependent entirely on lithium for the future 
of those batteries, as an example, and I think that is why we 
think this is so important for the future.
    Mr. Kilmer. Thank you. Thanks.
    I yield back. Thank you, Madam Chair.
    Ms. Kaptur. All right. Thank you very much.
    I would like to continue with some questions, if I might, 
and it relates to the job sector. It is interesting, if you 
look down a chart, a table, showing all the congressional 
districts in the country, from one to 436 counting the District 
of Columbia, I along with some other members of this panel and 
several of our key appropriators this year who will hold 
gavels, their districts rank in terms of median household 
income in the bottom 40. And there are certain places in this 
country that haven't caught wind of either new innovation or 
they come from places that where the traditional employers have 
literally bottomed out and jobs outsourced to other places.
    So, Ms. Jaffe, I appreciated what you said about the 
offshoring of many of our jobs and the type of competition we 
face, raw competition with no bumpers. And places in our 
country have been very, very hurt where people had a very 
strong work ethic. If I think about the coal belt as one of 
those places, though I don't directly represent coal in my 
region, I have visited these areas. I spent time with one of 
our former chairman of the full committee, Mr. Rogers, 
yesterday just talking about the struggle of Kentucky, the 
State of Kentucky and West Virginia and southern Ohio and 
Appalachian Regional Commission and so forth.
    So one of my questions to you really is the energy sector, 
and it is a hard question, but we believe, according to the 
statistics available, about 6\1/2\ million Americans work in 
the energy sector. And by 2030, there are projections that say 
maybe another million-\1/2\ will work in that sector. Many of 
them will be in construction and installation, maintenance, 
transportation, and 200,000 more with computer and math skills.
    So as you think about the future of this sector, I don't 
know if you agree with those projections or not, but can you 
think about how the Department of Energy in the past as it 
invested in R&D created industries that then employed thousands 
of people so as we can anticipate the future, what work should 
we do at the Department, perhaps in conjunction with the 
private sector, to follow on Ms. Jaffe's recommendations about 
ensuring that we will have a workforce that will have the 
skills, but also in the places where people don't want to move 
but the jobs have evaporated?
    We face that directly in coal country. I happen to come 
from a region in the nuclear power arena where we could lose 
two of our major nuclear power plants in northern Ohio. The 
adjustment associated with that is significant, and I have 
asked myself the question, if we are going lose a quarter of 
the nuclear power in the country, is that really a good thing? 
From a market standpoint, it is happening because of natural 
gas, but the question is, is there fallout long term from 
losing the skills and the knowledge that exists in the 
commercial sector that has a benefit also on the security front 
for our country?
    So I am interested in your thoughts about the future of the 
workforce in energy and what more we might do here to draw 
people into the field to make sure that they are properly 
skilled up but that they also be able to work in regions that 
have been so depleted through no fault of the work ethic of the 
people there.
    Mr. Zindler. If I could start, and I will try and be quick 
to give everybody a chance because it is a really interesting 
question. First, on the question of nuclear, I would just argue 
that, look, 20 percent of our power roughly comes from nuclear 
energy, and it is 100 percent zero CO<INF>2</INF> emitting. So 
any practical conversation around addressing climate change has 
to think very carefully about letting nuclear reactors 
continuing to retire. Just put that--make that one quick 
statement.
    And then on the work question, look, we are probably among 
the most optimistic about how much solar we think is going get 
built, and a lot of it is going to be distributed solar, 
meaning stuff that is on the rooftops of businesses and homes. 
And that is--the great news about that as far as labor is 
concerned is that can't be outsourced. That has got to be done 
locally and that has to be done by guys and gals in hardhats 
who get up on roofs and do that hard work. And, you know, to be 
clear, they are doing everything they can to make that more 
automated and less labor intensive. The industry is trying to 
get that way. But at the end of the day, you still need people 
who actually do this work.
    Ms. Kaptur. Could I interrupt you and just ask, have you 
ever seen a good solar roof? I know about the appliances that 
are put on the roof, the panels, but have you ever seen in any 
company in our country or at any lab really integrated solar 
roofing in a garage with an envelope so when Congressman 
Simpson drives his car in, the solar that was produced all day 
long fires up the car if it is an electric vehicle? I can't 
figure out why solar roofing hasn't matured?
    Mr. Zindler. That is a bigger question. It has begun to 
mature in some markets, but of course, the real questions 
always are in terms of what makes solar truly economic is, one, 
how much sun have you got where you live, and that varies by 
different parts of the country, and two, how expensive is the 
power that you buy from the grid? So if you live in an 
expensive market and you have got a lot of sun, then you are 
pretty motivated to put PV on your roof really regardless of 
what the subsidies are. Then in other markets, it really 
depends on what kind of supports there are to financially 
subsidize it at the current moment.
    Ms. Jaffe. So let me just say that people are working on 
solar building materials, and at UC Davis we had the house of 
the future, right? That was an integrated home where the 
electric vehicle helped serve as battery storage in the evening 
for an entirely--you know, in fact, the whole region where my 
professorial office was was called the West Village, and it 
was, you know, mixed use. So we had housing, we had, you know, 
laboratories, we had restaurants in places that the students 
would go, and it was an entire section of the campus, 100 
percent what we call net zero. In other words, all the energy 
that was used in that area was produced on that site, and we 
had, you know, solar arrays. You parked your car under solar 
arrays. We had charging stations that went with those solar 
arrays. We had a solar tower that, you know, did our 
electricity in the offices.
    I mean, the technology exists, and that is why I mentioned 
the valley of death because, you know, some of it is the cost 
of the technology, but some of it is just, you know, the means 
to deploy it. I mean, one of the reasons why we did that at 
Davis was to show that it could be done, and it was 100 percent 
commercial real estate developer that put it together. It was 
not--the State didn't pay a penny. You know, it was 
commercially done.
    So the technology is there, and it is really--you know, 
when I worked at Rice University, there is a gentleman there 
who literally developed a paint that conducts electricity. He 
had a mug cup that was like a battery, right? And people are 
working on foam that would go in cars and would be a battery in 
the car to lighten the car. So there is a lot of technologies, 
and it is really about commercializing them, right, and how do 
you get there?
    So at the UC, we had the investment office, you know, used 
to invest and give money to venture capitalists as part of, you 
know, 1 percent of our investment to, you know, be sort of 
forward looking. And then it suddenly occurred to us, why are 
we paying some other venture capitalist to bring us a company 
from someplace else when we could actually have venture capital 
for our own labs that are part of our system? And so we 
actually created an entity where we would take this investment 
percentage that we did with venture capital anyway and do it 
with our own labs and find our own products that were being 
developed in our own labs.
    So that is why I kind of harp on this idea that there are 
already these financing streams that exist, and instead of 
having them, you know, develop an app that people don't need, 
right, if we had these clusters that involved the venture 
capital community and involved the private equity community and 
involved public funding at the same time, you could leverage 
the public funding by marrying it together and removing the 
risks for like a pension fund or other kinds of institutional 
investors to invest in these things to scale them. So that 
really, I think, is why I say it is about building like an 
ecosystem that goes beyond just the public funding, because as 
people mentioned, you know, you can have something that is a 
brilliant idea in the lab and how are you going to get it out 
to be a commercial venture?
    Ms. Kaptur. Well, I think we would appreciate very much 
your summarizing that idea as well as your idea on attracting 
talent into our labs through special funding assistance and 
funding streams. I would be very interested in incorporating 
those suggestions into the record. And thank you.
    Dr. Hakes, and I will turn over to Congressman Simpson, but 
you wanted to comment as well?
    Mr. Hakes. Yes. I think your point on the solar roofing is 
a very active example where you have a technology that seems to 
have great promise, but all these technologies, whether it is 
fracking or solar or whatever, have all these hiccups along the 
way. And in that particular case, is it the roofing industry or 
is it the solar industry that controls the roof and gets the 
permits and all that? And that is going to have to kind of be 
worked out on the local level. Experience teaches us it 
probably will, but right now, there is a little dispute kind of 
going on there that has to be worked out.
    On your earlier question too, I would just say, looking 
back on my days at DOE, one of my fondest memories now was 
attending the science fair each year. You know, that is one of 
the things that the Energy Department is the parent agency for, 
and there was a lot of pressure on us from the Secretary's 
office to attend. And looking back, I think, thank God, I 
enjoyed that.
    And so I think one thing members might want to do is have 
promotions in their district to get more schools to participate 
in the science fair and maybe drop by for the national 
competition. They probably would be pleased as punch to have 
someone from the Appropriations Committee show up. But looking 
back on that, it is that next generation that we need to solve 
the problem, and not just in Silicon Valley but all over the 
country. And to me, science fair, which is a DOE function, is a 
great way to do that.
    Ms. Kaptur. I just wanted to state that in terms of what 
Ms. Jaffe said about the modular home or the work that has been 
done on that campus at one of the California universities 
interests me, and I am very interested in the housing unit or 
the multifamily unit and what we do to propel it forward to be 
more energy efficient, including the roof where we lose most of 
the energy. I met with a modular developer yesterday, one of 
the largest ones in the country who basically develops in the 
west, and I was learning about new technologies with 
insulation, concrete, and steel to replace traditional roofing. 
And I find the Department a bit sluggish in its attention to 
where most people live.
    Everybody has to live somewhere, right, so there are 
dwelling units, and we can really revolutionize that industry, 
but I don't see as much attention. This particular developer 
actually had solar facing walls that did solar thermal and can 
cut the energy bill for a given individual family by almost a 
quarter. And that was just one major developer, but it was 
interesting to me to hear it from a developer, I didn't hear 
from DOE. Too bad. And so I am just interested in any 
innovation you can see on that front that you might provide for 
the record.
    I want to go to Mr. Simpson now.
    Mr. Simpson. Thank you.
    Interesting testimony. I will just ask this as a rhetorical 
question, why is hydro not renewable? That is just bizarre as 
far as I am concerned. Congress decided that. If we put in new 
turbines that are more efficient, then that increase in 
production is renewable, but the electricity that is produced 
otherwise is not a renewable energy. I find that really 
strange.
    Anyway, you do know, Ms. Jaffe, that we do have innovation 
hubs in the Department of Energy? We fund those--I think they 
started under my good friend when I was chairman, Secretary 
Moniz. They wanted more of them. We just didn't have the money 
to do the increases that they wanted. But we still fund the 
energy innovation hubs that do just what you said. They bring 
together the private sector, the government, and others to work 
on specific issues. There are different types of innovation 
hubs.
    We also have a university program funded through this 
committee. I think NE has part of it, the NRC has part of it. 
And I find it interesting in your testimony--I am sitting there 
and I am comparing it to the lab I know best, which is the 
Idaho National Laboratory. And when you testified, I am going, 
yes, that is what they are doing. And I am sure if you talk to 
Mr. Newhouse, if you talk to Mr. Fleischmann----
    Ms. Jaffe. I think it is----
    Mr. Simpson [continuing]. You would find the same thing is 
true in other places. Let me explain what I am talking about.
    Ms. Jaffe. Okay.
    Mr. Simpson. In Idaho, the State of Idaho went in and built 
a building called CAES Center. It has got Boise State, Idaho 
State, University of Idaho and Wyoming, and the private sector 
involved in there, and they are bringing students in from these 
universities that do energy research. And the lab hires many of 
those people to keep them in the stream, because that is why 
they do it.
    If you go out and look at what they are doing in batteries 
and stuff, it is the private sector that is going to the 
national lab, under work for others, to have them do the 
research on batteries, and they are paying for a lot of it. So 
a lot of this is going on. I know I am going to sound like 
someone who doesn't believe in climate change, and I am not a 
rocket scientist, but I can tell you the climate is changing. 
And our policies in the future need to observe that, and we 
need to look at that in the future.
    I noticed, Mr. Zindler, you said that technology wouldn't 
catch us up with climate change and address the problem, that 
new policies need to be--you know, that is easy to say. What 
are those new policies? That is what I want to know as a 
policymaker that will get us to where we want to go.
    But I come back to electric cars. Electric cars is not the 
answer. It is a part of the answer. But if all I am doing is 
replacing the production of the energy that my car produces 
with the energy produced in a coal fired plant, I am not saving 
anything on carbon, because electricity doesn't form changes 
without a loss of energy. And so if all I am doing is taking 
this car and I am plugging it in, but now my power plant is 
having to produce more carbon, I haven't really saved the 
environment anything.
    Now, in Idaho, where most of the power is hydroelectric, it 
probably is a good idea in that I have reduced the carbon 
emissions in my area because we have noncarbon producing 
electricity or at least a large part of it. So, I mean, it is 
not as simple as a lot of the stuff that we are talking about. 
And I am glad to see that both of you mentioned nuclear energy, 
because I don't think you can seriously talk about climate 
change without talking about nuclear energy. And they are doing 
some incredible work in what the future of nuclear energy is 
going to be. It is not going to be these 3,000 megawatt plants 
that cost billions of dollars to build. They are going to be in 
small modular reactors and microreactors and those types of 
things, and they are doing some incredible work in that degree.
    But, you know, we oftentimes think we are being brilliant 
at the time. I remember when we eliminated MTBEs from gasoline. 
So we needed an oxygenation agent. We went to ethanol. Recent 
studies show that you produce more carbon in producing the 
ethanol than you save by putting ethanol in your car. Does that 
make sense? I don't think so, but try to get rid of it. You 
cannot do it. There are too many corn growing States in this 
country. So it is a challenge.
    We not only have to look at what we would like the world to 
look like; we have to look at the world as it exists and how 
can you change it and what is the impact on the economy to do 
it. And that is sometimes challenging.
    Mr. Zindler. If I could, sir, on the electric vehicles, I 
would respectfully just disagree in the sense that, A, they are 
more efficient, and B, and more importantly, they are 
essentially a reflection of what is becoming a rapidly 
decarbonizing power sector. So if you look at some of the 
charts that Administrator Capuano showed, the power sector 
itself is reducing its CO<INF>2</INF> emissions very rapidly 
thanks to natural gas, yes, and renewables. And by the way, 
hydro I consider renewable as well. And, you know, about 37\1/
2\ percent of our power now has zero carbon, and that has been 
rising very dramatically. So that----
    Mr. Simpson. And that is why I say, it is going to be 
produced by carbon free emissions, then it makes sense.
    Mr. Zindler. But that trajectory is going to continue, sir.
    Mr. Simpson. And I think that is fine.
    Mr. Zindler. Coal plants are going to continue to retire 
because they are being outcompeted by natural gas----
    Mr. Simpson. I think that is true.
    Mr. Zindler. So I think, if you look at where--if we try to 
skate to where the puck is going, I mean, in terms of electric 
vehicles, if we look 10 years out, we look at a decarbonized 
power sector; that is how we want our vehicles to be fueled 
essentially and----
    Mr. Simpson. By the way, I have no problem with that.
    Mr. Zindler. So I guess----
    Mr. Simpson. There are too many people in this world who 
think, hey, I can just plug in my car. This energy comes out of 
the ethos somewhere, and that is not true.
    Ms. Jaffe. But if your car can travel 100 miles on this 
many BTUs of energy and a gasoline car takes 10 times that 
amount or five times that amount of BTUs of energy, you are 
still ahead of the game by being an electric car.
    Mr. Simpson. As long as you can charge it.
    Ms. Jaffe. And they have shown that even if that car was 
charged with coal, it is still better because it is a more 
efficient car.
    Mr. Zindler. Sorry.
    Mr. Simpson. Some of them are. I mean, my wife was getting 
60 miles to the gallon. She didn't have an electric car. She 
had a hybrid.
    Ms. Jaffe. Right.
    Mr. Zindler. Some of the same technologies are in that 
hybrid as are electric cars.
    Mr. Simpson. I know they are. She is the only person I know 
that has actually run out of electricity and gas in a car. And 
I said, how the hell did you do that? They put this gauge in 
there, you know. And she said, I fill it up so infrequently, I 
just never looked at it.
    Mr. Zindler. That says something in and of itself, right? 
That is great.
    Last quick thing on EVs just that, look, electric vehicle 
adoption will not be even across all parts of the U.S. 
simultaneously.
    Mr. Simpson. That is right.
    Mr. Zindler. There are a lot of two-car families. I am one 
of them. We have an electric vehicle, which is our short-haul 
vehicle. We keep it in the garage. That is what we do. We got 
another car we use when we want to go drive and visit, you 
know, family. But I will be clear, I think people who live in 
rural areas, it is going to be a while before you could go 
fully electric. That is just the reality of the life of 
traveling longer distances.
    Mr. Simpson. The other fascinating thing I would say before 
you can answer is if you go to the Pacific Northwest, we have 
had low cost energy production because there has been 
hydroproduction. Guess what? BPA is in a real challenge right 
now, Bonneville Power Administration, because they can no 
longer sell their energy into the California markets because 
you can get energy cheaper and you can get it by 
hydroproduction, which has always been the low-cost producer, 
and that is going to be a challenge for us.
    Mr. Sonnesyn. Congressman, just to build on your theme of 
we have also got to deal with the energy grid and the energy 
sources that we have today, the largest reason we have reduced 
carbon emissions recently has been the adoption of natural gas 
as we have retired coal-fired power plants. So thinking about 
what is the infrastructure that we need in order to deliver 
that increased amount of natural gas across the country and are 
we permitting the pipelines, et cetera, that we need to get 
that lower carbon emitting cleaner natural gas where we need 
it. That is a critical part of this equation that will be 
related to whether it is electric vehicles or just anything 
that you are turning on in your house if you want to have that 
lower carbon future.
    Mr. Simpson. Right.
    Ms. Kaptur. Thank you, Mr. Simpson.
    This is a great hearing. We just again thank you all for 
coming.
    I wanted to go to Congresswoman Frankel, and then we will 
go back to Congressman Newhouse.
    Mr. Simpson. I said so many things that I am in trouble 
for.
    Ms. Frankel. I have--I think I have a question. I don't 
know if it is one or two questions related to some research 
that one of my local universities is doing. First, they have 
been using--testing ways to use ocean waves and tides and 
currents to produce renewable energy. So I just question 
whether you have ever heard of that and what you think about 
that.
    Wait, before you answer that, I am going to say both my 
questions. And the other question I have, which is related to I 
think what you have said today, what I have heard, is that the 
biggest bang for our buck in terms of reducing carbon emissions 
is with the use of automobiles and trucks and all that. Is 
that--okay.
    So the other thing, when I went to FAU, they showed me sort 
of the highway of the future where everybody was in a 
driverless car, and then the lanes, you did not go like, you 
know, one step going that way and one going that way, but it 
was like going--the cars were all going in all different 
directions next to each other and it was based upon the traffic 
load.
    So my question there is, I know you have been talking about 
electric cars and so forth, but how does this all connect with 
some of the future transportation, like the driverless cars or 
maybe roads where you have the different lane capacities or 
lane directions? Okay. That is two questions.
    Mr. Hakes. Maybe I can answer the first one.
    There are several ocean technologies. There is ocean 
thermal, which is the difference between the cold water and the 
hot water that can generate energy. And then there is the power 
of the waves. Hawaii has been the location of most Federal 
projects on both of those technologies, and they have made a 
decision to go with solar.
    Like many things, the wave power, in a sense, is free, but 
the capital structure is fairly expensive, and it has 
maintenance issues because waves are very strong. But in an 
all-of-the-above approach, it certainly might be something that 
could play a role in the future.
    The electric car opens up so many avenues. Most people who 
drive electric cars end up liking them a lot better than their 
older cars because they accelerate faster, they work better 
with your iPhone, and all sorts of things. So this futuristic 
world, which I don't pretend to understand--I am sort of 
leaving that to my grandchildren--but I think almost all of 
that will work better with the electric car.
    In my book, I try to stress the importance of balancing 
national security, the economy, and the environment. And some 
policies are what I call ``threefers''; they actually work in 
all three areas. And having super-efficient cars is good for 
the national security, it is good for the economy, and it is 
good for the environment and opens up this whole bright world 
of things that we can't even imagine today.
    Ms. Frankel. Does anyone want to add what you think is the 
relationship, the future relationship, between driverless cars 
and--yes?
    Ms. Jaffe. So the driverless car, I mean, the thesis or the 
theory--because you already--I can't remember which member 
mentioned this--we already have the technology for buses, which 
was being deployed in the Pacific Northwest, where the bus 
drives up and there is a pad on the ground and it wirelessly 
charges it and then continues on its route.
    Mr. Newhouse. That is in my district.
    Ms. Jaffe. Right. Brilliant project, right?
    So we are moving towards wireless charging. So I am not 
having to have a trolley that has a wire in a city; I might get 
to the point where I could have a trolley that just has these 
mats.
    Ms. Frankel. No, I meant driverless.
    Ms. Jaffe. But in a driverless car----
    Ms. Frankel. Oh, okay.
    Ms. Jaffe. Let me keep going.
    Ms. Frankel. Right.
    Ms. Jaffe. So in a driverless car--they are experimenting 
with a road in China, so it is like, what are we doing? They 
are literally building a road where the road is both solar and 
it has wireless charging. And you are going to have these 
driverless cars that are going to supposedly go on this road 
and they are going to self-charge themselves, and it is going 
to self-charge themselves with solar, right?
    So maybe you want to take that on for me, Ethan.
    Mr. Zindler. Yeah, I have been on that road. It is, like, 
about a kilometer along, and it goes very, very slowly as you 
go around.
    Look, there are a lot of interesting technologies out 
there. I think putting solar on the ground that you drive over 
with multi-ton vehicles is not the greatest idea.
    Ms. Kaptur. Congressman Simpson just asked, what if your 
cat runs over it?
    Mr. Simpson. Or even walks across it.
    Ms. Jaffe. Yeah.
    I think where we are going to go--and that is why it is 
very important to understand the technology, and that is why we 
are doing a paper on it at the Council--is understanding how 
these robot taxis--so people believe that we are going to move 
to these robot taxis, which are being experimented on in 
Arizona and other locations, and therefore we are going to 
lower our emissions. And the devil is really going to be in the 
details. You know, are we going to talk about the efficiencies 
of those vehicles? Because right now those experiments that are 
taking place are taking place with gasoline cars that are not 
necessarily efficient. Right?
    So, you know, we really have to think about the technology 
and what do we want from this technology, what purposes do we 
want it to serve.
    The other research that has come out is all this sort of 
robotization of service of ``I don't own a car, so I feel like 
I have no carbon footprint,'' because I really should be like 
Ranking Member Simpson's wife, in a car that really is, you 
know, lowering its carbon footprint, but I am actually just 
using--I won't name the name of the services--taking these 
trips on demand, and I am thinking that I am lowering my carbon 
footprint, but am I really? Because if I would normally have 
taken the Metro for that trip but now I am jumping in a 
gasoline car, what the research is showing is that you are 
actually raising your emissions.
    So I do think that this topic is one that is extremely 
important for the Congress. You are spot-on understanding and 
wanting to understand the technology and then thinking about 
how to deploy the technology in a way that is taking us where 
we want to go.
    Ms. Kaptur. Thank you.
    The gentlelady's time has expired.
    Let me just say that all of the testimony that you have 
presented this morning will be posted on the Energy and Water 
Subcommittee website at appropriations.house.gov.
    You have really presented excellent testimony, and this has 
been a really good interchange this morning.
    Congressman Newhouse.
    Mr. Newhouse. Thank you, Madam Chair. I appreciate having 
the honor of the last question, I guess, going over time a 
little bit.
    I just wanted to talk a little bit or ask you a little bit 
about the balance of having renewable energy, maintaining a 
baseload electrical energy, and how we balance that.
    In the Northwest, as has been talked about, I mean, we are 
blessed with the hydroelectric dam system which has provided us 
that baseload power. So, obviously, a dam, that is a battery 
system, but there is certainly a need for increasing the 
utilization of batteries. The Pacific Northwest National 
Laboratory really has been at the leading edge of developing 
some of that technology.
    Some of you have talked about the battery systems and the 
implementation into our system. Do you think we are at the 
point where private industry is going to be able to get us to 
where we need to be there? Or is this going to continue to 
require an investment by the Federal Government into some of 
the research necessary to get us to that point where we need to 
be?
    Mr. Hakes. You know, I think that the contracts that are 
going out today for solar-battery packages, the batteries will 
last for about 4 hours. And so that represents a considerable 
improvement, but when you are looking at where we need to be in 
the future, not sufficient.
    So I would think there is probably a lot of basic science 
that is going to have to be developed in the battery area, as 
well as looking at other forms of storage. A battery is not the 
only way to store things. Hydrogen can store--and pumped hydro, 
salt beds, other things. So I think there is a lot of high-tech 
and scientific work still needed in this general area of 
storage.
    Mr. Newhouse. Good.
    Mr. Sonnesyn. You stole it from me. That hit it pretty 
well.
    Mr. Newhouse. Okay. Okay. Good. Good. Well, I appreciate 
that.
    Mr. Zindler. I will just add one quick thing----
    Mr. Newhouse. Please.
    Mr. Zindler [continuing]. Which is, our view, and I think a 
lot of us would agree, is that the grid, in terms of the amount 
of capacity you have online, will grow. My view and our firm's 
view is that the actual demand for electricity won't really 
grow very much because the economy has been getting more and 
more efficient.
    But especially if you are talking about climate change and 
these kind of extreme ups and downs in terms of demand, you 
need to have a lot of flexibility in the grid. So your question 
is dead-on in terms of worrying about it.
    I think that sometimes there is a confusion between the 
issue that, sort of, the technical ability of the grid to take 
on variable resources, like renewables, and the economic 
impact. Technically, we have seen places like Germany and 
others take on very large percentages, some days as high as 50 
percent, being produced by renewables. That has not been an 
issue. But, economically, it is a different story. Because when 
you get renewables onto the grid, they essentially have zero 
marginal cost, and so they bring the price of power down and 
they hurt the fossil generators. And that is a reality, that is 
an economic reality.
    So, as you think about integrating these resources, you 
need to think about how you compensate everybody in a way so 
that we make this transition in a way where we are not caught, 
you know, flat-footed.
    Now, there has been a lot of talk from the administration 
around this question, and I want us to be clear about it. I am 
not saying that you need to, like, pay coal plants to continue 
to exist. But I do think that you need to think carefully about 
adding battery storage and how hydro plays a role and these 
other technologies as well, because we are going to have a 
system that is going to require greater flexibility.
    Mr. Newhouse. So maybe we don't need to look much further 
than our own noses. You know, a hydroelectric system is truly 
a--there is a value there in battery storage that perhaps is 
unappreciated. And to the point of BPA not being competitive 
with some of the renewable resources, maybe there is a value 
that needs to be placed on that battery system.
    Ms. Jaffe. Let me just say that the professors that have 
worked on the 100-percent renewables targets have specifically 
mentioned hydro. And the Northwest hydro has a role even in 
California being able to achieve the 100-percent renewables. So 
hydro plays an incredibly important balancing role, where it is 
located, in being able to balance renewables.
    So the question is--and SMRs could play the same role, you 
know, as they are being developed, with that goal in mind.
    So it is really about incentivizing the grid. And I know 
this isn't a Federal policy; it is really more somewhat a State 
matter, but you do have some regulatory. Right now, in our 
system in the United States, utilities make return by building 
infrastructure, and they are incented to add traditional 
infrastructure. They don't get anything if they add a 
distributed energy resource or they put in a battery or 
something like that. They don't get any return. And so we need 
to change the incentive structure for how utilities make 
profits.
    New York State is doing some very experimental things, 
where they needed a substation, it was going to cost $1.2 
billion, and they put out a tender for solutions instead of 
just letting the utility do the substation, and they found that 
these kind of technologies that we have talked about today were 
able to solve the needs of a particular location in New York 
for $200,000.
    And promoting these new technologies we are talking about, 
whether--I think they, in the end, wound up going with solar 
and battery storage. But they are having to reform their entire 
pricing system, and it is both how do we incentivize utilities 
to work with these different, smaller providers, and it is also 
making sure that when we do rates base that we are not having 
some wealthy corporation putting in a distributed network with 
solar and batteries for their operations and they getting the, 
you know, 2-cent electricity and then low-income people are 
stuck with the cost of supporting the utilities' transmission 
and expensive activities and their electricity bill is going 
up. Right?
    So there has to be a new way of taking the benefits of 
renewables and having our pricing system reward everybody along 
the grid and not just the people who put the advanced 
technology in. And that is also something that New York State 
is doing some innovative things with, where they actually 
divide the benefit one-third to the utility, one-third to the 
provider, say, of the solar and battery storage, and one-third 
goes back to ratepayers.
    And so it really is going to take, you know, a very 
complicated reform to actually integrate this technology in a 
way that is fair and a way that reduces costs.
    Mr. Newhouse. Well, my time is up. I want to thank all of 
you for being here and thank Ms. Kaptur and Mr. Simpson for 
having this very interesting conversation. Thank you.
    Ms. Kaptur. Great. Thank you for participating.
    I wanted to say, I will be submitting several questions to 
you to the record. If you can't answer them that is all right. 
I don't want to ask questions about them now, but I will tick 
off the general subject areas, some of which we have covered.
    Number one, relating to the future of housing and energy 
systems and what that energy envelope looks like. Where are 
path-breaking efforts being be made? What can we learn from 
them?
    Number two, I come from a heavy industry part of America. I 
probably represent one of the major production corridors for 
our heavy trucks like Ford F-750 as well as top-selling 
vehicles like the Chrysler Fiat, Wrangler, and Cherokee. Not 
very far from my district is the production of the Abrams tank. 
So you can get a sense of what this district might look like: 
fifth-largest rail center; big steel mills, many of which are 
falling on hard times.
    I met with the head of one of these companies, and I said, 
``What can I do to keep those jobs here?'', and his answer was, 
``Cut my energy bills by over a third.'' How do we integrate 
energy into this very unique part of America that is essential 
to our defense industrial base?
    Number three, the older cities of the industrial North are 
struggling with their bottom line. How do I relieve the energy 
costs in these cities to their water treatment and their sewage 
treatment, which are a major part of their operating budgets? 
What can we learn from other places in the country to help us 
help them?
    Number four, landfills that leak methane. What do we do? 
What is the role of the Department of Energy, or is that just 
EPA's job?
    Five, cryogenic hydrogen or hydrogen. I think, Dr. Hakes, 
you mentioned hydrogen this morning. Very interested in the 
cost-effectiveness of various hydrogen technologies and 
applications that perhaps have a broader use.
    Many of you have referenced nuclear power production in 
your testimony. If you were sitting in our position and you 
were watching America lose 25 percent of its production 
facilities, what would you do?
    And then, finally, for compact plasma systems, what can you 
tell us about their deployability? Where do they sit on the 
development curve for future energy systems?
    I will also give you this final challenge. The power and 
water systems west of the Mississippi River and in the TVA 
corridor look very different than in my part of the country, 
which is commercial nuclear power, commercial gas. We sit in 
the private market; we don't have any Federal connect. It 
creates a lot of competitive challenges to us vis-a-vis other 
parts of the country.
    I said something to Senator Lamar Alexander about why a 
certain automotive company had located to Tennessee and did the 
power rates of the TVA have anything to do with why that didn't 
locate in my part of the country. He goes, ``Absolutely not. 
There's no relationship between TVA power rates and the 
movement of industry.''
    I am very interested in any comments you have about the 
dissimilarity between power production facilities in different 
parts of the country and the rates that are yielded as a result 
and what places in the country that operate in the purely 
commercial marketplace. How can they compete? How do we compete 
against maybe hydropower that might exist in other places? This 
is a very complicated discussion, but I am interested in your 
comments there.
    My final question to the record, and then we will go to Mr. 
Simpson for any final comments. I am very, very concerned about 
the role of Russia in Europe and particularly with the supply 
of power. Nord Stream 2, we read, might be completed by the end 
of this year.
    Our transatlantic allies are our closest allies. How do you 
see that geopolitical relationship between the United States 
and Europe, Russia's increasing power supply to the continent, 
Nord Stream 2, and what we might do as the leader of the free 
world to help our European brethren have more than one source?
    Does anyone want to make a comment on that? Have you 
thought about it? Is this something that you have reported on? 
Or would you like to think about it?
    Mr. Hakes. Think about it.
    Ms. Jaffe. I would just say that the LNG exports are going 
to be, I think, a critical feature in providing diversification 
to the Nord Stream 2.
    And, you know, I mean, different policies have been mooted. 
I mean, the administration was looking at actually even putting 
sanctions on the German suppliers that are going to be involved 
in doing Nord Stream 2. But it is--I can send you a paper--it 
is a pretty complex issue, because Germany would like to be the 
hub for the movement of all natural gas around Europe, and 
there are other countries in Eastern Europe and Southern Europe 
that would of course like to have U.S. LNG and more open access 
in trading. And I think that those countries have U.S. support 
to try to work against the sort of German alliance to try to 
have Nord Stream 2 be such a critical feature of the market.
    And I would say that there are some--I don't know how to 
put this. There are some business interests in Germany that 
motivate some of the policies and some of the benefits they 
would get from controlling movements of natural gas to Europe 
that even goes beyond the Russian part of the question.
    And U.S. LNG and our support for Eastern Europe, we are 
moving in the right direction on our policy, and we need to 
stay the course on that. It is important, you are correct, in 
making sure that Europe has a diverse energy supply.
    Ms. Kaptur. I will give you an anomaly here. You might take 
it back to your colleagues. And I am looking for commentary on 
this.
    The shortest distance to ship by sea from the United States 
to Europe is through the Saint Lawrence Seaway or from a 
relationship with the Canadians to ship from the Straits of 
Canso or Halifax. And I am talking about LNG.
    The greatest discovery of natural gas on the continent sits 
in Ohio and western Pennsylvania, in the Marcellus and Utica 
shale.
    The dots are not connected, commercially.
    Mr. Zindler. Just very quickly, actually, there will be a 
terminal--there is a terminal in Maryland also that is coming--
to export. And I would just--I will share with you and the 
committee afterwards our forecast on LNG exports for the U.S. 
And we do project those to rise.
    I wanted to say that the first port of call may not always 
be Europe; it may also be Asia. But just providing more to the 
market is going to help relieve some of the pressure on 
pricing.
    Ms. Kaptur. Thank you all very much.
    Congressman Simpson.
    Mr. Simpson. I just want to say, I thank you all for being 
here. Very interesting discussion. And if I sound like I am 
trying to be a hard-ass, I am really not. I am just raising 
questions. Because nothing is as simple as we oftentimes make 
it. It is always very complicated.
    In fact, one of the challenges we have had in this 
committee over the years, we have tried to get the private 
sector involved in some research and development of things that 
are of their interest. Trying to determine when they want to 
put dollars in is another challenge. They almost want it at the 
end of the project, where it is, you know, ``Okay, I'll buy 
it.'' They need to be more involved up front in the research 
and development. The days of the Bell Labs are over. The 
government is doing most of the research in these very 
expensive endeavors.
    And I would just say to Chairwoman Kaptur, I understand 
your issues, but, every part of the country has a competitive 
advantage with something. You just mentioned one in your area: 
shortest distance of shipping to Europe. We are at a 
disadvantage to you from that. We are at an advantage in the 
cost of our electricity. So every part of the country has a 
different advantage and disadvantage from where they are 
located and what their own circumstances are.
    Lastly, I just want to say, if you ever see me in a 
driverless vehicle, you will know that hell has frozen over. I 
am 68, and it will either be my funeral car or hell has frozen 
over.
    Ms. Kaptur. Thank you, Ranking Member Simpson. We want you 
to stay here for a very long time, so you drive what you wish.
    All right. We are going to conclude this morning's hearing 
early this afternoon. And I would like to thank our witnesses 
for joining us today.
    I ask the witnesses to please ensure for the hearing record 
that questions for the record and any supporting information 
requested by the subcommittee are delivered in final form no 
later than 3 weeks from the time that you receive them.
    Members who have additional questions for the record will 
have until the close of business Monday to provide them to the 
subcommittee.
    Ms. Kaptur. And I would like to remind members that our 
next hearing is Tuesday, February 12, at 10:00 a.m. to examine 
the U.S. Department of Energy's Weatherization Assistance 
Program.
    This hearing is adjourned.
    And thank you all. You were magnificent.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    

                                      Wednesday, February 13, 2019.

 OVERSIGHT OF DEPARTMENT OF ENERGY'S WEATHERIZATION ASSISTANCE PROGRAM

                               WITNESSES

ANNAMARIA GARCIA, DIRECTOR, WEATHERIZATION AND INTERGOVERNMENTAL 
    PROGRAMS OFFICE, U.S. DEPARTMENT OF ENERGY
AMY KLUSMEIER, DIRECTOR, WEATHERIZATION ASSISTANCE PROGRAM, NATIONAL 
    ASSOCIATION FOR STATE COMMUNITY SERVICES PROGRAMS
MICHAEL FURZE, ASSISTANT DIRECTOR, ENERGY DIVISION, DEPARTMENT OF 
    COMMERCE, WASHINGTON STATE
TERRY JACOBS, DIRECTOR, HOUSING AND ENERGY, GREAT LAKES COMMUNITY 
    ACTION PARTNERSHIP
    Ms. Kaptur. The committee will come to order. And we want 
to welcome all of our guests to our second hearing of the new 
Congress. Thank you all for coming. I want to especially thank 
all the witnesses here today. We appreciate your understanding 
and flexibility in rescheduling this hearing due to weather.
    Last week, our hearing focused on energy trends and future 
outlook. It offered a 30,000 foot perspective of our country's 
past, present, and future relating to our energy needs. And 
this week, we will do the opposite. We will do a deep dive into 
one specific program at the Department of Energy to which you 
have devoted to your lives and you have been hard at work and I 
am quoting one of my constituents here, B-T-Utifying America 
for over 4 decades. And I know I will have to spell that for 
the individual who is taking a record of this meeting.
    DOE's weatherization program has a direct, positive impact 
on the lives and pocketbooks of every day Americans, 
particularly elderly and low-income Americans spanning all 50 
states, U.S. territories, and Native-American tribes.
    Just 2 weeks ago, it was colder in the Midwest than on the 
surface of Mars or throughout the Arctic. We are putting up 
some headlines from different places in the country now. 
Tucson, one of my friends called me last year, he goes, Marcy, 
it is 120 degrees out here.
    The data is clear. According to the CDC, weather-related 
death rates were 2 to 7 times as high in low-income counties as 
in high income counties. Additionally, poor households rely on 
alternative temperature regulating devices such as space 
heaters, which according to the National Fire Protection 
Association caused about one-third of all winter house fires 
and 80 percent of all winter fire deaths.
    This goes to show how crucial DOE's weatherization dollars 
are in ensuring low-income energy insecure families can protect 
themselves, their homes, and mobile homes from the elements.
    This program was created after the 1973 oil crisis when the 
price of oil quadrupled in our country from $3 a barrel to 
nearly $12, causing severe disruptions from coast to coast.
    Low income individuals, particularly in cold weather states 
who relying on oil to keep warm, suffered greatly. The 
weatherization program for millions has been a lifesaver, 
truly. Since its first appropriation in 1977, the 
weatherization program has made millions of homes energy 
efficient, resulting in an average of $283 in annual energy 
cost savings per weatherized unit.
    Back then, it was estimated that over a 20-year lifetime 
the program would save the equivalent of 12 million barrels of 
oil. Because investments in weatherization pay off, it is a 
tragedy that this administration continually targets this 
program for cuts.
    For each of the last Fiscal Years, this administration has 
proposed to zero out this important program. And sadly, I 
expect the forthcoming budget to, again, likely propose to 
eliminate this program.
    In 1983, the program received the equivalent of $473 
million based on 2010 dollars. That was in 1983, Ronald Reagan 
was president then. Since then, this program has been on a 
downward curve in terms of funding. This Fiscal Year, look at 
that, if you had to manage a business that had that kind of 
according ledger, over time it has had a downward curve in 
terms of funding, and this Fiscal Year the program received 
only $266 million which is half as much in real dollars has 
happened in the 1980s.
    Despite these funding challenges, to date, $7.4 million 
units have been weatherized averaging about 110,000 units per 
year according to the statistics I have. So, I want to thank 
all of you here today for devoting a major part of your lives 
to helping build America forward where it matters most.
    We will hear today from Terry Jacobs of the Great Lakes 
Community Action Partnership in Toledo, Ohio. He can attest to 
the many benefits to this program across Ohio that I just 
emerged from or we just emerged from a major ice storm.
    We will also hear from Michael Furze from the Washington 
State Department of Commerce who will speak to the health 
benefits of weatherizing homes, another example of how this 
program saves lives.
    Annamaria Garcia from the Department of Energy will give us 
some background in history. In looking at this history, it 
takes me back to my service in the Carter administration where 
I worked on housing and neighborhood revitalization efforts.
    The weatherization program was still new at that time, but 
it has become clear that weatherization is a significant energy 
conservation tool in a toolbox with unrealized potential that 
can be used to help lift struggling families and neighborhoods 
out of poverty by a focus on the cost of energy.
    As successful as this program has been, there is always 
room for improvement and innovation. Amy Klusmeier from the 
National Association for State Community Services Programs 
actually began her career on a weatherization crew, and Amy 
will talk about what happens at the ground level, in fact, at 
all levels, and how the program can be improved and made more 
impactful.
    Finally, we will have upcoming, we think, an infrastructure 
bill in this Congress and I believe that this program of 
weatherization should be one essential element as we work 
together on a Build America Forward agenda.
    I want to thank you our witnesses again for their testimony 
today and we look forward to hearing from you. And I would like 
now to turn to our ranking member, dutiful member, Mr. Simpson 
for any opening remarks.
    Mr. Simpson. Thank you, Chairwoman Kaptur. I would like to 
join you in welcoming our witnesses here today for today's 
hearing. We thank you all for being here this morning and 
especially for being willing to adjust your schedule last week 
when we had to reschedule our hearing.
    I look forward to hearing about your experience with the 
Department of Energy's Weatherization Assistance Program. The 
purpose of the Weatherization Assistance Program is to reduce 
energy cost for low-income households by increasing the energy 
efficiency of their homes. In addition to the direct benefits 
to the household's budget, these weatherization improvements 
often also result in better health and safety for the 
individuals and families within the household.
    These benefits have impacts beyond individual households to 
broader communities as well as particularly when we look at the 
program as a whole. So while the Weatherization Assistance 
Program represents a relatively small portion of the DOE's 
overall annual budget, it provides important services across 
the country.
    I thank Chairwoman Kaptur for calling this hearing and I 
look forward to hearing from our witnesses about the successes 
of the program as well as any continued improvements that can 
be made in the program, and I have to tell you, at 10:45 I have 
to step out for just a minute. So when I step out I am just 
stepping out because I have a conference call I have to do, and 
then I will be back in, so thank you.
    Ms. Kaptur. Thank you very much. Thank you very much 
Ranking Member Simpson. We know how dedicated you are, so good 
luck on that.
    We want to thank you and I am very excited for our 
witnesses joining us today. Let me just tell you a bit of each 
of them.
    First we will have as I mentioned, Ms. Annamaria Garcia, 
who is the director of the Weatherization in Intergovernmental 
Program Office at the Department of Energy. Prior to this 
appointment, Ms. Garcia was the executive director of the Ozone 
Transport Commission and also served as director of Operations 
and State Programs for the Center for Energy and Climate 
Solutions.
    Next, we will have Ms. Amy Klusmeier who is the 
Weatherization Assistance Program director at the National 
Association of State Community Services Programs. Ms. Klusmeier 
began her weatherization career as a field worker in south 
central Wisconsin and later served as the lead weatherization 
program analyst for the State of Wisconsin, and I know 
Congressman Pocan will be very interested in your testimony, as 
will we all.
    Following that, we will have Mr. Michael Furze who is the 
assistant director of the Energy Division at Washington State's 
Department of Commerce. And prior to this role, Mr. Furze held 
a variety of other duties within Washington State's Department 
of Commerce and also served as a weatherization manager in New 
Mexico. And I know how strongly Congressman Kilmer advocates 
for Washington State here. Take my word for it.
    And last but not least, we will have Mr. Terry Jacobs, who 
is the housing and energy director at the Great Lakes Community 
Action Partnership in Toledo, Ohio. Mr. Jacobs has worked on 
weatherization at the local level for over 12 years.
    Thank you all for taking time to be here today, and without 
objection, your written statements will be entered into the 
record, and please feel free to summarize your remarks in about 
5 minutes each, starting with Ms. Garcia.
    Ms. Garcia. Chairwoman Kaptur, Ranking Member Simpson and 
members of the subcommittee, thank you for the opportunity to 
testify today on behalf of the Department of Energy's 
Weatherization Assistance Program known as WAP.
    As director of the Weatherization and Intergovernmental 
Programs Office, I oversee DOE's WAP, the nation's largest 
residential energy efficiency program. The mission of WAP is to 
increase the energy efficiency of dwellings owned or occupied 
by low-income persons, reduce their total residential energy 
expenditures, and improve their health and safety.
    WAP residential retrofits reduce the cost of low-income 
household energy bills. These households are often on fixed 
incomes or rely on income assistance programs and are most 
vulnerable to volatile changes in energy markets.
    DOE provides core funding to weatherization grantees in all 
50 states, the District of Columbia, one Native-American tribe 
and the five U.S. territories through formula grants.
    The program has two parts, allocating the funds, and 
producing the weatherized homes. Could I have the first slide 
please? That is not the first slide. This chart, which is a 
little hard to see, depicts the funding and production of 
weatherized homes from 2000 to 2018. The colored bars show the 
number of homes weatherized; blue for homes done with regular 
annual appropriations and green for homes done with Recovery 
Act dollars.
    DOE WAP Appropriations are shown by the dashed lines ending 
in the black circles and labeled with the dollar amounts. The 
$5 billion in 2009 Recovery Act appropriations is not included, 
so as not to skew the scale.
    The other side of the chart lists the average per home 
expenditure limit that applies to the DOE dollars. Prior to 
2009, those limits did not exceed 3,000 per home. A statutory 
change raised the limit to 6,500 per home adjusted annually by 
the consumer price index for the preceding 12 months or 3 
percent, whichever is less.
    In years where you see no change, the applicable CPI was 
negative or zero. The expenditure limit explains the decreasing 
production numbers in the blue bars after 2009. The increased 
limit has allowed greater investment per home and energy 
efficiency upgrades, incidental repairs, and health and safety 
measures.
    DOE has consistently ensured funds are available for 
grantees in time for their program cycle, either through 
partial obligations or the full allocations. In recent years, 
no grantee has had to stop work due to lack of DOE funding. 
Thus, grantees have been able to upgrade homes in accordance 
with their state plan. Grantees provide funding to 
approximately 700 local governmental and nonprofit entities 
known as sub-grantees such as community action agencies and 
others to deliver services.
    Typical energy conservation measures include installing 
insulation, ceiling ducts, repairing or replacing heating and 
cooling systems, reducing air infiltration, improving hot water 
production and use, and reducing electricity consumption. 
Grantees use both federal and nonfederal funding sources to 
expand the array of services for each home and increase the 
number of homes weatherized.
    A retrospective evaluation released by the Oak Ridge 
National Laboratory in 2014 found the average total investment 
per home in 2008 from all funding sources, not just DOE, was 
$4,695. Could I have the other slide please?
    This next chart illustrates the savings from that 
investment, $283 in average annual energy cost savings per 
home, or 12 percent of the average pre-weatherization bill. It 
also shows the portion of DOE funding grantees use for energy 
efficiency upgrades and health and safety investment as 
compared to what they use for administration of their programs 
and for training and technical assistance.
    WAP focuses not only on delivering weatherized homes, but 
also on ensuring quality work is performed. DOE has supported 
the grantees through these key improvements, creation and 
maintenance of the standard work specifications that define how 
a home should be weatherized. Accreditation and support of 22 
weatherization training centers, and development of worker 
credentialing standards through a consensus process with 
industry overseen by a private sector entity.
    DOE has also initiated deeper dialogue with grantees and 
sub-grantees through the American Customer Satisfaction Index. 
Specific improvements include a new process to provide grantees 
with a comprehensive overview of the changes or new 
requirements from the previous year's application; a simplified 
budget process through upgrades to the performance and 
accountability for grants in energy or PAGE data system; and 
new planning and reporting templates for training and technical 
assistance and monitoring activities.
    Results are evidence in the feedback and the quality that 
DOE project officers observe through desk and field monitoring. 
For example, customer service has been improved through 
providing ongoing support to WAP grantees during their grant 
application development, instituting a more consistent 
monitoring process and timeframes for communications.
    Improvements have also occurred through 14 DOE-developed 
WAP trainings provided over the last year and a half to help 
grantees with tools and processes for running more efficient 
programs.
    In 2019, the program is exploring how to reduce the number 
of homes that are deferred or not qualified for services due to 
structural issues and conditions. DOE is also examining 
concerns with weatherizing homes that have vermiculite 
insulation in attics and identifying best practices for 
providing services to these homes.
    My office looks forward to continuing to identify areas 
where we can strengthen our program and provide assurance for 
the American taxpayer investment. Thank you again for the 
opportunity to speak to this important program and I would be 
happy to answer any questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. Thank you so very much, Ms. Garcia.
    Ms. Klusmeier.
    Ms. Klusmeier. Good morning. Chairwoman Kaptur, Ranking 
Member Simpson, and members of the subcommittee, thank you for 
the opportunity to testify today.
    I am here representing the National Association for State 
Community Services Programs. We are a member association of 57 
weatherization grantees, all 50 U.S. states, the District of 
Columbia, five U.S. territories, and one Native-American tribe.
    I started my career in weatherization as a crew worker in 
southern Wisconsin. Like most weatherization workers I learned 
on the job how to do the rigorous work of insulating homes and 
also how to perform diagnostics and use advanced tools and 
technologies. I later served as the lead WAP program and policy 
analyst for the State of Wisconsin.
    The Department of Energy funding appropriated by Congress 
provides the foundation of the weatherization program. Each 
home receives a suite of measures that must have a savings to 
investment ratio of 1.0 or greater to ensure we are delivering 
cost-effective services.
    With lower energy bills, families can increase their usable 
income and buy other essentials like food, clothing, and 
medicine. The energy savings impact is the core of the 
weatherization program.
    Another critical benefit of the weatherization program is 
its positive effect on health and safety. An evaluation by the 
Oak Ridge National Laboratory found that residents of 
weatherized homes experienced fewer asthma, allergy, and cold 
symptoms, fewer missed days of work and school.
    Weatherization can also prevent other life threatening 
situations such as carbon monoxide poisoning and fires. The 
State Weatherization Grantee plays a critical role in 
administering the program and ensuring a successful federal, 
state, and local partnership.
    State WAP offices provide oversight with comprehensive 
quality assurance programs that include fiscal monitoring, 
administrative reviews, onsite inspections of field work, and 
training and technical assistance.
    States and local agencies work diligently to cultivate 
partnerships with utilities and leverage additional funding 
into the program. In 2017, 29 state offices reported leveraging 
over $255 million in additional funding from utilities and 
other nonfederal sources. This funding allows for flexibility 
and comprehensive services while maximizing the number of 
households that receive weatherization services.
    The State WAP Grantee is also a key driver of innovation 
and enhancement of the program. I will share 3 examples today. 
The first is Weatherization Plus Health. Washington who you 
will hear from in a moment and Vermont are leaders in the 
adoption of the Weatherization Plus Health Model.
    These states are using the weatherization delivery network 
to incorporate additional healthy homes measures such as duct 
cleaning, advanced ventilation, mold abatement, accessibility 
improvements, and client education. Combined with basic 
weatherization, Weatherization Plus Health can target those 
with chronic health conditions that result from in-home factors 
or environmental factors.
    Renewable energy is a second example of innovation and 
weatherization. Colorado was the first state to gain DOE 
approval for the use of solar in weatherization. In 2016, 
Colorado partnered with utilities to leverage solar rebates to 
expand their solar photo-voltaic, and Colorado predicts that 
rooftop solar is projected to save clients an additional $400 
per year over standard weatherization.
    Finally, pre-weatherization programs are an example of 
using leveraged funds to maximize the number of households 
receiving weatherization. Occasionally, severe conditions in a 
home can cause a home to be deferred from receiving 
weatherization services because those conditions would render 
the materials unsafe or ineffective. For example, standing 
water in a basement could affect the appliances in the 
basement, or old electrical wiring that's covered with 
insulation could cause a fire hazard. States have taken the 
lead and designing innovative programs utilizing leveraged 
funding sources to make homes weatherization-ready.
    In closing, I would like to underscore the critical need 
for continued Department of Energy funding for the 
Weatherization Assistance Program. NASCSP strongly supports 
innovation while also maintaining a robust formula allocation 
to ensure all states have the ability and the capacity needed 
to continue weatherization's record of success.
    Leveraging additional resources is critical to sustaining 
the weatherization program at its current nationwide scale. 
However, without the funding, programmatic quality standards 
and reputation of the Department of Energy, states would have a 
difficult time attracting and retaining those private partners.
    NASCSP supports additional funding for national program 
evaluation, robust data is needed to inform policy decisions to 
continue development of savings estimates for health and safety 
benefits, and to guide innovation in the program.
    We look forward to continuing to work with committee 
members and to continue to deliver cost-effective results that 
make a difference in the lives of the most vulnerable in our 
communities. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. Thank you Director Klusmeier very much. And I 
just want everyone to know that the testimony that's being 
presented along with the slides will be on the Appropriations 
Committee website.
    So, unfortunately, I don't think we have the charts in our 
materials that were given to us, but we will make sure those 
are integrated.
    Director Furze.
    Mr. Furze. Chairwoman Kaptur, Ranking Member Simpson, 
members of the Committee, thank you so much for the opportunity 
to come here today and testify about this important program.
    My name is Michael Furze and I am an assistant director at 
the Washington State Department of Commerce. The team that I 
lead is the Energy Office, we do work in weatherization and 
another program at EERE called the State Energy Program.
    But I am here today to talk about the critical importance 
of the Weatherization Assistance Program both in our state and 
across the country. My agency's core purpose is to strengthen 
communities and the Weatherization Assistance Program has been 
a partner for us in doing that since 1978.
    I would like to start by telling you about a family that 
came to one of our Community Action Agencies looking for 
service, the Finkbonner Family. They had recently purchased a 
1,400 square foot home that was built in 1933. They live in the 
Lummi Reservation in Western Washington.
    On days like the one we had here in D.C. yesterday which 
are pretty common in the Pacific Northwest, it would be cold, 
and damp, and drafty in their home. The basement was actually 
wet from moisture and leaks. You could smell wood smoke from an 
inefficient wood burning stove in the air. And there were 11 
people that lived in this multi-generational household, an 
elderly relative who had COPD and a child with respiratory 
conditions.
    Their electric bill was almost $700 a month when they came 
to us and they couldn't afford that or to fix their home. 
Commerce serves thousands of families like that every year and 
we do it through a network of 28 service providers including 3 
tribes. I think on average, we weatherize between 2,500 and 
3,000 homes per year and we receive between $20 million and $25 
million a year from four sources.
    The Department of Energy's Weatherization Program is the 
core of what we do. We also leverage Health and Human Services 
LIHEAP funding. We get funding from the Bonneville Power 
Administration and we are fortunate to receive funding from the 
Washington State legislature.
    Each of these is critically important and we blend those 
funding sources to make sure that they go further in each home. 
The funding that has been provided for the last 4 decades has 
helped weatherize thousands of low-income household families in 
their homes in Washington State.
    Thank you for your support. We appreciate the Congress has 
rejected calls to cut this program and/or to eliminate it 
entirely and we thank you for increasing the funding last year. 
As you know, there is significant unmet need across the 
country.
    In our state, there are roughly 800,000 eligible 
households, folks that are living at or below 200 percent of 
the federal poverty level. Like the Finkbonners, their homes 
need, health, safety, energy upgrades to help the family save 
money, to stay warm, and live healthier and more stable lives.
    When we upgrade these homes, we help keep warm air inside, 
cold air outside in the winter and we do the opposite in the 
summertime. After weatherization, the Finkbonners' heat source 
was much safer, the air was cleaner, the roof, bathroom, and 
basement were free of leaks. The family told us that they don't 
get sick as often, so they are able to go to work and go to 
school and that their electric bills were cut in half.
    Simply put, weatherized homes cost less to heat and to 
cool. And this is really important because low-income families 
pay a disproportionate share of their income on their energy 
bills, what we call the energy cost burden. They pay 3 times as 
much of their income on their energy bills as an average 
household does. And these folks when they are unable to pay 
their bills are also struggling to pay housing, food, and 
medical cost as well.
    When we look at the folks that are served by the Washington 
Weatherization Program, we think that 40 percent of them are 
also medically vulnerable, meaning they are missing work, 
school, and spending additional money on their healthcare so 
they could do things like breathe easier.
    There is a growing body of research that links 
weatherization deposit of health outcomes. I think the overall 
program pays for itself 1.4 times. When you think about adding 
the health and safety benefits to the core energy benefits, 
that ratio goes up to 4 to 1.
    And we think by focusing in a targeted way and balanced way 
on energy and health together, we can get that return on 
investment to go higher. So we have been innovating in 
Washington State for the last 10 years trying to find a service 
delivery model that integrates health with weatherization which 
is similar to what the Finknbonner household received.
    We call that Weatherization Plus Health and it builds on 
the 40-year-old successful delivery system that the 
weatherization program provides, but it adds 3 new things. Two 
of those are new measures. So we add measures that intended to 
reduce slip, trip, and fall hazards with the aging adult 
population. We add measures that are intended to reduce asthma 
triggers like mold, mildew, and dust particularly in homes with 
children.
    And then what is both really interesting innovative and 
challenging is finding new partnerships, getting the 
weatherization service providers to work with local community 
health clinics to make referrals and to provide targeted and 
customized measures, education, and ongoing support for 
clients.
    It is our state funds that fund this work although we are 
working with the LIHEAP office to provide additional services, 
and I believe that this program could serve as the model for 
the nation if Congress was interested in expanding that type of 
program more broadly.
    I want to thank you again for the opportunity to testify. 
Federal funding for the weatherization program improves lives 
by improving homes for families like the Finkbonners and many, 
many others. I would urge Congress to smooth out that curve 
that Chairwoman Kaptur showed in terms of the funding cycle so 
that we have a long and sufficiently funded future for this 
program. I look forward to working with you and answering your 
questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. Thank you very much Mr. Furze. And finally, 
Director Terry Jacobs. Thank you for coming.
    Mr. Jacobs. Good morning.
    Ms. Kaptur. Good morning.
    Mr. Jacobs. Thank you, Madam Chairwoman, Ranking Member 
Simpson, and members of the subcommittee. For the last 11 years 
I have managed the weatherization program for Great Lakes 
Community Action Partnership formerly WSOS in a 6-county region 
in Northwest Ohio.
    Like every community action agency in the nation, we are 
going to call it GLCAP is represented by the National Community 
Action Foundation here in Washington, D.C.
    Madam Chairwoman, last fall you responded to an invitation 
by WSOS or GLCAP attending our weatherization demonstration in 
Oak Harbor, Ohio. Your positive comments and engaged 
interaction with the housing energy staff that day and the 
homeowner proved to us that you understood the importance of 
the program and that you wanted to keep it going and that meant 
a lot to us.
    GLCAP has received and continues to receive many thank you 
letters from families like the family in Oak Harbor whom we 
have provided weatherization assistance to. These letters often 
touch on how the program has impacted their lives such as 
lowering heating and electric bills and how the home is much 
safer and more comfortable to live in.
    One of those letters stated, being that my house is 101 
years old, it needed the insulation updated and without the 
help I would never have been able to afford having it done. 
Because of all the improvements made to my home, not only will 
my utility bills be more manageable but my family will greatly 
benefit from the home staying warmer in the winter and cooler 
in the summer.
    The participant then compliments the great work that our 
people at GLCAP did and stated that she was grateful for 
exceptional work that was performed on the home. The list of 
directed impact, the direct benefits that weatherization 
program provides to the participants is long, as you had 
mentioned earlier. Many times folks are forced to make 
difficult choices between paying higher utility bills and 
medical and food and healthcare. This program helps to reduce 
the burden of those choices for those folks.
    Though the weatherization program has much to offer, like 
every program, it does have some limitations. One of those 
limitations involves leaking roofs, structural deficiencies, 
electrical hazards, some hoarding infestation situations. These 
sometimes result in what is called an unable to assist or a 
deferral type situation.
    To help combat these situations, we seek outside funds from 
gas and electric utilities and other home repair programs 
offered in the state, and we leverage those in combination with 
the weatherization program, which allows us to take a whole 
house approach to the home versus the restrictions of the 
weatherization program.
    And in these situations, we have helped 80 percent of the 
total amount of weatherization units that we complete. So, the 
20 percent of the homes that didn't get mentioned typically 
fall in like a rural situation where it is bulk fuels, propane, 
fuel oil or municipalities that don't have energy efficiency 
programs.
    If I could direct you to the slides, this is a home we did 
in Seneca County, one of our six counties and this home is 
obviously very large and had lead-based paint and had a lead 
poisoned child that lived there and if we could just continue 
through, that's a finished product of the home using eight 
programs that were accessible to us for this person.
    Now this is kind of a unique situation. Not all of our 
clients can get eight programs but in this specific example, we 
were able to get rid of all the lead and perform 
weatherization. This is a picture of the attic empty and then 
the finished attic blown. Otherwise, we wouldn't have been able 
to do any work with weatherization there or any of the other 
programs. Each program hinged on the other.
    Historically, but more so on recent years, the retention of 
weatherization field test staff has become one of the top 
challenges we face at GLCAP. Many times, once these field staff 
have earned experience, formal training, and certifications 
that the weatherization program offers, which is awesome at the 
training center, they become more valuable to the growing 
market of home retrofits, remodelers and construction 
companies, which oftentimes can pay higher wages, while working 
in less desirable work environments such as tight crawl spaces 
and very hot attics.
    So, the works these folks do is highly important. And we 
need to retain them to deliver the best service possible. 
Raising the cost ceiling allowing more flexibility and funds 
would be most helpful to address this growing challenge.
    Lastly, we understand and support the idea of making homes 
healthier and safer by implementing initiatives such addressing 
indoor air quality, lead, and radon in homes. However, these 
initiatives need to be funded and production goals adjusted to 
allow for the additional labor and materials that now have to 
be installed in every home.
    In conclusion, I would like to thank the committee for its 
continued support of the weatherization program. The increase 
in funding over the past several years has been much needed and 
it is very much appreciated.
    The program has helped thousands if not millions of 
families for 40-plus years and the need for the service 
continues. As our housing stock continues to age, the 
participant waiting lists grow and so does the need for 
increase services and funding. I hope my testimony provides you 
with a unique perspective on the local level. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. Thank you very much, Director Jacobs. Thank you 
for travelling, all of you who had to come from out of town, 
thank you so very much for the effort you put forward.
    Several witnesses mentioned the Oak Ridge Labs, Congressman 
Fleischmann here to my right represents that very important 
location in our country. And I watched him listening to all of 
you, so I thank him for being here this morning. He is very 
responsible member.
    Before we begin questions, I would like to again remind 
members about our hearing rules for this year. First, I intend 
to begin all hearings on time. We did that. For those members 
present in the room, when I gavel in the beginning of the 
hearing, I will recognize you for questions in order of 
seniority, alternating between majority and minority until all 
who arrived prior to the gavel have asked questions.
    For those who arrive after the hearing had started, I will 
recognize those members solely in order of arrival, again, 
alternating between majority and minority. And lastly, I intend 
to observe or at least try to, the 5-minute rule for questions 
and answers and we will now begin questioning under our normal 
rules.
    Let me begin by asking Director Garcia. The Energy 
Independence and Security Act of 2007 authorizes the secretary 
of Energy to make funding available to local weatherization 
agencies for renewable technologies.
    Furthermore, the department released a memorandum in 
January of 2017, which specified a path for states to 
incorporate solar into their Weather Assistance Programs. Can 
you provide specific examples of how renewable technologies 
have been incorporated into this program? And how does the 
department actually decide how to do that, which technologies 
to include?
    Ms. Garcia. So, that is a very good question and thank you 
for that, chairwoman. We have a policy outlined in the--further 
in the memo that you referenced that shows the pathway in terms 
of a normal procedure for getting a technology that may not be 
currently on our appendix A, which is the original list of 
technologies that were associated with weatherization program 
in the statute.
    So, if any technology, including solar is--if a state is 
looking to get that technology into their program, they follow 
the same procedure. They need to show us that they--the 
technology can meet a savings investment ratio of 1 or greater.
    They need to include the measure in their plan and they 
need to demonstrate that it can be incorporated into their 
audit. The memo that you referred to also asked that we conduct 
a pilot program with the--particularly with the solar PV. That 
was such a large technology. There are situations where it 
might be put on rooftops versus community solar. And DOE wanted 
to be aware of the kinds of steps that were being taken in 
terms of integrating that technology on low-income homes, there 
are issues of maintenance and operations for that technology. 
We wanted to make sure we were tracking that at least in its 
early stages of being implemented.
    And as was referenced earlier, Colorado has been a leader 
in integrating solar PV, looking at it both on rooftops as well 
as community solar applications where it makes sense.
    So again, they follow a very standard procedure of applying 
through DOE that they want to include this new technology. 
There is provision for up to--I think the level now is just 
about $3,700 out of the--now, is a little over 7,000 maximum 
expenditure allowed on the DOE program, under the DOE program 
for renewables, for renewable applications, for renewable 
technologies.
    We have also been--states have come to us and put solar 
thermal heating, solar thermal water heaters in. Those kinds of 
technologies have been integrated in the program for some years 
now.
    Ms. Kaptur. I wonder if you could provide some of that 
detail to the record.
    Ms. Garcia. I would be happy to respond to a question for 
the record on that.
    Ms. Kaptur. All right. I thank you very much for that. I 
had mentioned to my colleagues that I have gone out to several 
sites around Ohio and with the crews that are working and I 
have learned a lot. And we all learn when we go out.
    And one thing that really surprised me and maybe you think 
about your own experience in your districts, this program 
excludes roofs. So, I have many neighbors, in fact, in the 
neighborhood I live in, they are senior citizens. They can't 
afford to put a roof on.
    So, I watched this housing deteriorate. And I am thinking 
what is wrong here. And I realized the Department of Energy 
does not authorize roofs. And there is this limit on how much 
you can spend per home.
    But I have been thinking about new technologies that we 
might try to spur the DOE to come forward, if we were to have a 
rubber roofing with solar chips in it or figure out a way to 
provide a lot of roofing round the country, working with the 
industry, whomever we have to work with. Imagine what we could 
do for thousands and thousands and thousands of people. And so, 
I have been very interested in that idea of how to integrate 
this program with others that exist.
    You talked about LIHEAP, but maybe that isn't enough. And 
how we can use innovation to help reduce the cost and serve the 
people that you are trying to serve. I was actually shocked 
that roofing wasn't included in the authorizing language, 
either in--I think LIHEAP now is a 20 percent set aside that 
some of those dollars can go to the roof.
    But it makes it so difficult operationally at the local 
level. And then also the idea of what kind of roofing could 
America invent that actually could contribute to the power 
package. You mentioned solar thermal. We have new homes being 
built--modular homes where solar thermal is built into the 
wall.
    And I am thinking, what is the most efficient technology we 
could provide not on a, sort of, test pilot basis in this state 
or that state, but massively make available to this program. 
So, I hope you can think with us on that.
    In that regard, Ms. Klusmeier, your background shows that 
you have been actually on the ground, house after house after 
house after house. One of the experiences I had in visiting 
sites was I talked to a man who had worked for this program for 
25 years.
    And I said to him, were you educated? Did you go to 
community college? Or did you go to a trade union? Did you 
learn how to be or were you are a heating, or insulating, 
specialist? He goes, no, could I have done that? And I said, 
so, you don't have a path forward. You don't have a 
journeyman's card or an apprentice card or you are not getting 
community college credit?
    Ms. Klusmeier, could you comment on what could we do in 
this program to provide a platform for the workers where they 
would qualify for the professional skills that they develop? 
Are there examples around the country of where these 
specialists have accessed credit, either for a degree or to get 
a journeyman or a journeywoman's card?
    Ms. Klusmeier. So, that is a great question. And I would 
love to look into--see if we can find some specific examples 
for you and provide answers in writing. I would point to my own 
experience.
    I came to the program through a technical college program. 
I was kind of bouncing around from job to job after I got out 
of school and learned about a training, a technical program 
that was geared towards women in the trades to introduce women 
to various trade careers.
    It was offered by one of my local technical colleges. 
Through that program I got connected to my local weatherization 
provider and that is how I got my foot in the door there. So, I 
think looking at the next phase of that is how do we get people 
who get into the weatherization program and then further their 
careers from there is a great idea and something that NASCSP 
would certainly be willing to look into and provide some 
examples to you.
    I would point to the efforts that have been made over the 
last couple of years, especially since 2015 to certify workers 
in the weatherization program. So, there was a quality work 
plan initiative, started in 2015, that required certification 
of the inspectors that are doing the program.
    I personally feel and many of the people in our industry 
feel that we have some of the best-trained and certified 
workers in the home performance industry. So, I think anyone 
working in weatherization with those certifications, especially 
energy auditors, building inspectors could certainly move on 
and advance their career in that way.
    Ms. Kaptur. All right. Thank you.
    Ms. Garcia, are you aware of any regularized training 
platform that these individuals access?
    Ms. Garcia. Yes. Within the program, we do have our 
guidelines for home energy professionals, which Amy was 
referring to. They include the standard work specifications 
that I mentioned earlier in my testimony for outlining the work 
requirements for the different types of crew that are involved 
in doing weatherization.
    There are also certifications for the energy auditor and a 
new classification of position called the quality control 
inspector. So the quality control inspector is a person who is 
charged with looking at every home after the weatherization is 
completed to make sure that the work is done well and according 
to the standard work specifications that are part of that. We 
have accredited training at these training centers around the 
country, 22 of them. One just opened in Michigan.
    And they are not only open to weatherization crews but the 
weatherization crews can take advantage of the training 
metrics.
    Ms. Kaptur. And who operates the training centers again? 
Excuse me.
    Ms. Garcia. They are operated often by universities or 
other organizations. I can get you a list of them and who 
manages them as a question for the record.
    Ms. Kaptur. Oh, that will be great to have for the record.
    Did either of the gentlemen want to comment?
    Mr. Furze.
    Mr. Furze. Madam Chairwoman, I think that what I heard in 
Terry's testimony speaks to the work that is being done at the 
Department of Energy level to create a framework for the work 
to be standardized and for the folks doing that work to get 
credentials.
    And then it is creating a bit of a challenge both in 
Washington State and I heard it also in Ohio that when folks 
get these credentials, they are able to step into the building 
trades more directly, jobs that are potentially higher paying. 
The housing market in Washington State is white hot. And so, 
that is part of the challenges that we are having.
    We maintain a training center and that is part of how we 
stay successful so that as we lose folks to higher paying jobs 
in the trades, we are bringing up the skillset of the folks 
that come after them. But it is not as direct as I hear you 
asking the question.
    Ms. Kaptur. All right. I am going to ask one more question, 
then we will go to the members. I am interested in the idea 
that weatherization has the ability not just to improve the 
lives of individual families, but in fact, in entire 
neighborhoods.
    However, the current weatherization program isn't set up to 
encompass a whole neighborhood approach. So I am interested in 
any ideas you might have about a path by which neighborhoods 
could apply for grants, so that everyone in the same community 
can be uplifted equally if they qualify.
    Are there any innovative communities across the country 
that are thinking about how we can use the power of energy to 
uplift an entire neighborhood using weatherization as the 
anchor? Are you aware of offsite energy fields that have been 
pumping energy into certain communities?
    What about, we talked about roofing a little bit earlier, 
where we are doing mass purchase of materials that would really 
allow this program to catapult from its 1 by 1 by 1 home 
weatherization. Are there any innovative ways to think about 
how we can uplift the entire neighborhoods using weatherization 
as the main vehicle? Have you ever seen that anywhere?
    Ms. Garcia. I would be glad to start response to that, 
chairwoman. So what we have seen, I think there is flexibility 
within the program today for this to occur, depending on what 
states want to undertake with their local crews.
    What we have seen, for example, in Ohio that all of the 
major utilities hire WAP agencies to deliver the programs 
funded by the utility rate payers. And then they also obtain 
home repair funds, much like we were talking about in the GLCAP 
where you are braiding different types of resources together.
    And then Murray City in Ohio weatherized over 75 percent of 
low income households in a community by doing that and bringing 
private donors into the community to do a variety of things. I 
could get more information on that program if you like.
    And then in Connecticut, we have two utilities who have 
been piloting community efforts for a couple of years now, 
implementing on a community basis, piggybacking on to the 
weatherization program with other resources.
    So, I would be happy to take that as a question for the 
record and get you some additional information on those 
examples. We would very much like to be focused on capturing 
some of these different types of models that might be going on 
across the country.
    Ms. Kaptur. It would be really interesting to see you in 
partnership with Neighbor Works or with Habitat for Humanity or 
some of our community development corporations that are 
working. I remember going through one historic neighborhood 
that was leaking energy all over the place because it couldn't 
locate in one of our older cities because they couldn't get 
windows that meet the historic guidelines.
    And I was going, oh, my goodness. And they wanted to 
preserve the neighborhood and the major issue was energy. But 
somehow at the local level they couldn't integrate it. So, I 
think your suggestions to us as we try to make this program 
more impactful would be very, very valuable.
    I am going to go to Mr. Simpson now.
    Thank you so very much.
    Mr. Simpson. Thank you. I apologize for leaving for a few 
minutes. Two of you mentioned during the overview of 
Weatherization Assistance Program, DOE provides core funding to 
weatherization grantees in all 50 states, the District of 
Columbia, the five U.S. territories and one Native American 
tribe. You mentioned one Native American tribe. Why is that? 
And what tribe is that?
    Ms. Garcia. Arapaho. The Arapaho Tribe. Tribes can opt in 
to the program. They can apply directly for funding from the 
Weatherization Assistance Program and over the years we have 
had varying number of tribes that do that and take it upon 
themselves to administer a program.
    But oftentimes, the programs are run in conjunction with 
the state. So the state and the Native American lands that are 
there are working to put together weatherization for those 
homes. And others on the panel might want to be able to talk to 
that.
    Ms. Klusmeier. Right. So the one tribe is the one that 
receives direct allocation, otherwise tribes are served, I can 
speak to how we prioritize in Wisconsin, tribal families were 
put on the priority list for services just as other families 
were.
    And in Wisconsin there was a governor directive that they 
could be prioritized with those other service categories as 
DOE--that are defined by DOE, the elderly, the child, high 
energy burden households.
    Mr. Simpson. But as individuals, not as a tribe?
    Ms. Klusmeier. Right.
    Mr. Simpson. Any idea why a tribe wouldn't apply for being 
a separate entity like a state and getting a grant from the 
weatherization program to apply to their members and stuff, if 
I am a tribe that is what I am going to do. I have been on a 
lot of reservations. And I will tell you that some of the worst 
poverty in America is on reservations.
    Ms. Garcia. During my time, I think what I have seen is the 
capacity for the tribe to take on the program and run it as in 
contrast to working with the state through their already 
established network.
    Mr. Furze. In Washington State there are a couple of 
different ways that tribal members are served. I believe that 
Amy described where weatherization service provider just has 
folks that are either on tribal land or in the community that 
can apply for services. And their priority is weighted by that 
status.
    One of the other ways that we provide services is by 
working with tribal entities to provide services for their 
territory. And so, there are three tribes that we are working 
with. We have a really strong program out in Spokane 
Washington.
    And what they do and it speaks to the capacity issue that 
Annamaria mentioned, their membership, their service territory 
is relatively rural, and so the formula that we distribute 
funding by--that they don't get a lot of funding to run the 
program.
    And so, they supplement weatherization program with other 
tribal funds, including CDBG funding in order to provide 
services for their members. That is a little bit different in 
Washington.
    Mr. Simpson. Just out of curiosity, how are the funds that 
are appropriated, I suspect that we can appropriate four times 
as much that we actually do and that could be used. How is it 
divided among the various entities that we service?
    Being from the north, maybe this is just my bias, but we 
thought weatherization was something that we had in cold 
weather states, but then there are weatherization issues in 
warm weather states also. How do we decide how much each 
entity, state or whatever receives?
    Ms. Garcia. That is a very good question. And we have been 
getting that a lot lately. So, I will try and explain it very--
simply as I can. There is a formula consistent with statute, 
based in rule that provides for the allocations for each of the 
grantees.
    And there are three main factors, the proportion of low 
income households in that state versus other states; heating 
and cooling degree days across the state relative to one 
another; and then also the energy burden or the amount of 
residential energy expenditure relative to income. And those 
comparative factors weigh in on the way the funds are 
allocated.
    Mr. Simpson. Okay. Thank you.
    Ms. Kaptur. Congresswoman Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    It is fitting that Mr. Simpson mentioned that warm weather 
states also have a need to use the WAP program as well, 
particularly because we have insulation issues that are 
associated with keeping homes cooler.
    And most of the funding for the program is directed to cold 
weather states to keep people safe in harsh winters. Florida 
experienced a significant 22.7 percent increase in WAP funding 
from 2018 to 2019 because of how the statutory funding formula 
allocates money over the $209 million threshold.
    So, Ms. Garcia, as climate change intensifies, can the WAP 
funding formula adapt to this trend and help warm weather 
states that are experiencing increasingly warmer summers and 
more dangerous heat waves?
    And I will ask you both, my part A and part B questions at 
the same time. When the federal funding allocation is below the 
statutory threshold, a formula is used that tends to benefit 
colder states.
    When it is above the threshold it can benefit warmer states 
more. So can you explain exactly why Florida experienced a 
sizeable increase in funding from 2018 to 2019, and in your 
opinion is the formula still able to address the weatherization 
issues that we are experiencing across the nation today without 
bias for either cold or warm weather states?
    Ms. Garcia. I will do my best to give you an answer to that 
question. The formula is a little bit complicated. So, the 
formula prior to 1995 used these same factors, but also had a 
basis of $100,000 per state, so that basis plus the way these 
factors would work on a certain amount of funding would produce 
the formula of allocations for each grantee.
    In 1995, they looked to, tried to adjust the formula to 
provide more funding for warm weather states. And in that 
rulemaking, the original funding levels at that 200 million 
level which was I believe the 1993 appropriation was 
grandfathered in as a base so that there would be no loss of 
capacity across the states.
    And then above that--anything above that $209 million level 
is simply subject to that formula, to those different factors. 
Those factors are updated every year as frequently as possible.
    There have been some of the factors and I would have to 
take it for the record to tell you exactly which ones have not 
updated as quickly as maybe they should have in order to 
continue to ensure that warm weather states are receiving an 
equitable treatment under the formula. But those 3 factors 
alone affect the funding above the $209 million level.
    Ms. Wasserman Schultz. Given that the administration has 
repeatedly--this administration has repeatedly targeted this 
program for elimination essentially or the funding for 
elimination, is enough attention paid to the program to ensure 
that the most updated climate conditions happening in states 
are going to be factored into the formula that is used?
    Ms. Garcia. In keeping with the department's practice over 
the last several years, if Congress appropriates money, we 
execute the program as expeditiously as possible. We use the 
most current information that is available from other resources 
like NOAA and other references which I will have to get to you 
as a question for the record, would be happy to do that.
    I have not seen that there has been anything that would 
interfere with continuing to provide a reasonable allocation 
based on those factors. But I would be happy to research it 
further and get back to you.
    Ms. Wasserman Schultz. Yes. And Madam Chair and Mr. Ranking 
Member, especially since you raised the issue of warm weather, 
I am concerned that there is an inequity and a lack of 
predictability or consistency for cold and warm weather states.
    It is, trust me; I am from Florida in case no one was 
aware. It is equally as important to keep my constituents cool 
as it is to keep a member from a cold weather state's 
constituents warm.
    You can very easily have your health decline and very 
rapidly from overheating when our temperatures get upwards of 
90 and 100 degrees in warm weathers states and much, much 
warmer inside when your air conditioning is not working 
properly. So, if you can get that information for the record, 
that would be very helpful.
    Thank you, Madam Chair.
    Ms. Kaptur. Thank you very much Congressman Wasserman 
Schultz. You remind me that the number of elderly who live not 
just in your state but we have increasing numbers. Medicare is 
working. And people are living longer.
    There has been a special relationship set up between just 
one of the national organizations, the AARP and one of my local 
hospital systems nationally, on the issue of nutrition for 
seniors because they are so worried about rising levels of 
diabetes and hypertension and trying to focus in on the diets 
of those individuals. We haven't had the same kind of 
relationship among--that I am aware of--among other national 
elderly organizations and the weatherization program.
    But what you are saying is absolutely correct. And whether 
it is hypothermia or whether it is--I don't know what they call 
it when you get too hot. There is a medical term for that. But 
we know how debilitating that can be to people of all ages, but 
certainly senior citizens.
    So that is a set of relationships I think that could really 
help. And we want to make sure that the formula is properly 
adjusting to the realities of climate change in this country. 
And that is one of the reasons we are having this hearing this 
morning.
    So, we thank you for--the turnout is just tremendous by our 
members today.
    I am going to now turn to Congressman Fleischmann.
    Mr. Fleischmann. Thank you, Madam Chairman and I want to 
thank you for your earlier kind words about the Oak Ridge 
National Laboratory. I do represent that great lab.
    And I want to thank each and every one of you all for being 
here today. These are the kind of hearings that help us as 
legislators do our job and to gather information. So thank you 
for being here. It is an honor to have you.
    My first question, and I will just open this up to anyone 
who would like to comment. The Weatherization Innovation Pilot 
Program was initiated by the Department of Energy in 2010 to 
accelerate effective innovations in home energy efficiency.
    In May 2007, as already has been alluded to, the Oak Ridge 
National Laboratory issued a report assessing the program's 
successes and challenges. First question, how would you 
describe the progress that has been made in innovation since 
that report? And the second, would be what additional areas 
should we be thinking about for further innovation?
    Ms. Garcia. I will begin. We did learn a great deal not 
only from the WIPP projects, but there were also during that 
same timeframe sustainable energy resources for consumers 
grants that were more experimental in terms of looking at new 
technologies that might be able to be proven to be or 
demonstrated to be in the program.
    So the WIPP focused more on innovative approaches by 
different deliverers of the program, while the SCRC looked more 
at the technologies. And so, the combination of those two I 
think has probably on the one hand led to different approaches 
in terms of delivery mechanisms and braiding or resources, 
whereas the SCRC grants have brought some new technologies at 
least into the fore, very close to being able to be on a cost 
bases to be in the program, which is also something that the 
labs contribute to the work.
    The labs in getting the costs down of the technologies 
enable them to be qualifying better for the savings to 
investment ratio requirement of 1.0. So things like mini-
ductless split systems that can be very applicable in some of 
these homes, tankless water heaters, some of those kinds of 
technologies have been moved a little bit further along the 
pathway of getting into the program by the work that was done 
under these different experiments from that point forward.
    And then also, we have tried to improve the tools of the 
weatherization program, so audits which started out in the 
program as mostly paper-based are now computer-based. And we 
are getting ready to put that interface into the web so that 
they can be utilized, in a real-time basis internet of things, 
sort of way, and that--that data on what is going to be 
prescribed in the audit can be accessible to everyone, and then 
we can collect more data on what is being done and--and have a 
better--and more real time sense of the performance of the 
program. So those are some--some things that I would offer that 
have improved.
    Mr. Fleischmann. Thank you, would anyone else care to 
comment?
    Mr. Furze. In Washington state, we partner with the--the 
Washington State University Energy Extension Program, and they 
ran one of those initial WIPP grants a while ago and that 
helped bring ductless heat pumps and advanced duct sealing into 
the weatherization program, so there is hopeful partnership 
there.
    With state funding, they continue to do that work and they 
have taken an approach which is not community based, but is 
perhaps manufactured home park base. They can go and do a 
number of jobs simultaneously which leads to referrals to the 
weatherization program. So that type of innovation, while 
limited in scope, brings a new technology and creates an 
opportunity for partnerships.
    Mr. Fleischmann. Thank you. As my time is waning, I will 
ask one last question. In Chattanooga, my hometown, the 
electric power board fiber optic network is the backbone of its 
smart grid which enables communications with smart meters, 
smart switches and other smart grid devices.
    A joint study by the Electric Power Board and Oak Ridge 
National Laboratory found that the smart grid ultimately helped 
realize incredible savings to the utility and most importantly, 
the consumer or rate payer. How is the Weatherization 
Assistance Program ensuring that it is keeping abreast of 
progress in the grid modernization space and ensuring that 
homes in the program are able to fully realize the benefits of 
smart grid technology?
    Ms. Garcia. Thank you for that question. It is certainly a 
hot topic at the department these days, the grid modernization 
and the internet of things, and our Buildings Technologies 
Office along with the Office of Electricity is doing a lot of 
work in partnership these days. So we are trying to follow 
those developments closely so that we can understand when and 
if it will be possible to integrate different aspects of what 
comes out of that--out of that initiative into the 
Weatherization Assistance Program.
    Right now, I think it is still in a fairly nascent stage.
    Mr. Fleischmann. Thank you. I believe my time has expired. 
Madam Chairman, I yield back.
    Ms. Kaptur. Thank you very much, Mr. Fleischmann. Mr. 
Kilmer, Congressman, Kilmer.
    Mr. Kilmer. Thanks, Madam Chair and thanks, everybody for 
joining us. And Mr. Furze, thanks in particular, I know you had 
probably to overcome the snow-pocalypse in Washington State to 
be here, so thank you for that.
    I want to ask you to follow-up a little bit on the 
Weatherization Plus Health idea and just give us a sense more 
of some of the potential benefits that you see from it, any key 
lessons you have seen since I know not every state does this, 
if you have any takeaways? I do not know if that is a 
disturbance in the force.
    [Laughter.]
    Mr. Kilmer. So any sort of key lessons that you take away? 
And if you can speak more to potential opportunities you see 
for the federal government to engage on that?
    Mr. Furze. Thank you for that question, Representative 
Kilmer. I think at its core, the weatherization program 
federally understands energy benefits and non-energy benefits 
and this opportunity that we have in Washington State is to be 
more specific about the health benefits which bring significant 
increase to the overall savings to investment ratio of the 
program.
    The approach has been to build out the infrastructure of 
the weatherization network as it exists and--and to do it in a 
couple of different ways, we provide traditional weatherization 
services, when appropriate we compare that with rehab services 
to do the major upgrades that Chairwoman Kaptur was talking 
about. We provide both energy and health-related education, and 
we do a set of kind of basic measures that create cleanable 
surfaces in the house. We add HEPA filtered vacuum cleaners and 
educate folks on how to use this.
    And that in it of itself provides a significant benefit. 
There is a family that we work with Snohomish County Washington 
which sort of was a tale of two pregnancies, one before the 
Weatherization Plus Health program where she was in the 
hospital quite a bit, her husband had to take off work after 
the program. And the key factor for them was just figuring out 
how to use that high quality vacuum, no hospital visits other 
than what the appointments she had regularly scheduled.
    So those are the types of things that we can do by just 
adding new measures and additional education. And I think that 
is pretty achievable both across the State of Washington and 
with a little bit of education to our training network 
nationally, we can expand that as long as there is permission 
to use some of these new measures.
    The harder piece and I think the more beneficial piece is 
collaboration with community health workers, so these are folks 
that are on the ground, the know the sickest families in the 
community and can provide referrals to the weatherization 
program so that they--they go into the home, they are already 
looking at the energy benefits, they are starting to look at 
the--the potential health risks and they can provide targeted 
services that are directed by a professional. And what we are 
seeing in the five or six cases that we have in Washington 
State is that these partnerships are leading to on-going care 
which is providing additional savings and reductions and 
hospital visits and emergency room visits out into the future, 
and we are trying to quantify that which is one of the hardest 
things to do in addition to creating those partnerships.
    Mr. Kilmer. So the--in terms of federal action, is the 
program sufficiently permissive for federal dollars to be used 
for this right now or would there have to be some change there?
    Mr. Furze. Thanks for that question. I think one of the 
things that Terry mentioned was just the scope and stature of 
the program and Anna mentioned Appendix A, right, there is a 
set of things that we can do easily through the program. And 
there was lots of discussion back during the Recovery Act, 
about bringing the Weatherization Plus Health program out of 
Washington State and across the nation and what we found is 
that, as Terry said, there wasn't funding to do that new 
opportunity.
    And so my view is that the weatherization program focuses 
on a course that have helped in safety measures which are 
really essential to the safety of the occupants. And this is 
just taking a broader lens. And so some of the things that we 
do particularly around mold and mist, mold and mildew, walk off 
mats, vacuum cleaners, that type of stuff is beyond the scope 
of the weatherization program.
    Mr. Kilmer. The other thing I wanted to ask and I am not 
sure who to direct this too was to get a better sense of rental 
housing and some of the challenges facing rent burdened 
households. I know that we looked at the--where the money goes. 
And it looks like, I guess, 63 percent goes to single family 
homes, 18 percent to manufactured homes, 18 percent to large 
multi-family units and 5 percent to small multi-family units. I 
think most renters do not live in single family homes.
    And so I would like to just get a sense in the time I have 
left, you know, how do we make these programs more, yeah, and 
the resulting energy cost savings and the health benefits and 
all that more accessible to low-income rent burdened 
households?
    Ms. Garcia. Please go ahead.
    Mr. Jacobs. Thank you for that question, Representative 
Kilmer. We actually have a lot of experience with weatherizing 
rental units. The landlord who is the property owner has a lot 
of that--makes a lot of that decision, if they do not want you 
on the property, they have that--that right. So there is that 
stumbling block.
    Another hurdle we face is eligibility determination because 
each--if you go into a large family, multi-family unit of say, 
50, you have to virtually knock on every door and get in 
contact with every tenant to get their information to determine 
if they are eligible. There are eligibility limits and 
percentages on multi-family, but it is a challenging task.
    During the Recovery Act, there was an agreement between HUD 
and DOE and that made it much more simpler and they--actually, 
if they were a HUD-verified or eligible unit, then they would 
qualify for a WAP program. Thank you.
    Ms. Garcia. Yes, and I was going to cover some similar 
information, but the percentage of households in a multi-family 
building, in order to qualify, would need to be at least, I 
think is 60 percent, 55 or 60 percent of the households in 
there need to be low income and then of course there are the 
challenges of just being able to verify the eligibility.
    The other thing that I would say is, depending on the size 
of the building would be dollars that the state can devote to 
that can be a limitation.
    Ms. Kaptur. Thank you, Congressman Kilmer, I think your 
questions lead us to other questions and we welcome the 
witnesses providing to the record any ideas you have either on 
gaps in your legislative authority through the Department of 
Energy or waivers to cooperate with other departments where 
necessary.
    This is a hard program to cobble together because you have 
got Department of Health and Human Services, one of the largest 
departments through LIHEAP involved in this, you have got the 
Department of Energy which, you know, thinks about a lot of 
other things in addition to this program, and developing those 
partnerships across the federal establishment is not so easy 
and then it of course is farmed out to the states and then they 
have to put it together and whatever.
    And sometimes when you have so many different stovepipes, 
you don't necessarily then easily transfer what you have 
learned at the local level back up to the top, right? So I 
think we are very interested in your suggestions after all 
these years of how we can improve the authorities under which 
you operate or make it easier to link to other departments. So 
please, think hard on that one for us as we move forward.
    I am going to turn over now to Congressman Newhouse who has 
been listening intently. Thank you.
    Mr. Newhouse. I appreciate that observation, Madam Chair. 
Well, thanks to everybody in the panel for coming a great 
distance to be here with us especially Mr. Furze. Not only did 
you get out of the snow, but good luck to you on getting back. 
That might even be harder. And thanks to you, Madam Chair for 
holding this hearing on an important topic. I know many people 
in my district have had benefited from the work in the 
weatherization program in the--in a northern climate. That is 
important for people that can't afford to do these themselves 
and we realize a lot of benefits in.
    One of the things that I have learned is that, you know, 
you can't make a decision without impacting other things that 
you want to accomplish as well. So I have a question that 
relates to some decisions that are being made back in the State 
of Washington for Mr. Furze. Many of you that well, now nobody 
else in this room besides us, maybe is from the State of 
Washington, you may be aware that our governor, your boss, 
recently released a massive $1.1 billion plan for the 
endangered southern resident Orca, the whales that are 
struggling in Puget Sound. And for those of you that know that 
can do the math, that would be about $14.8 million for each of 
the remaining 74 whales.
    Part of that, though, and that is what I want to talk to 
you about that part of that $1.1 billion is included $750,000 
for a task force to analyze tearing down four Lower Snake River 
hydroelectric dams, which are in my district. They provide 
clean, emission-free, inexpensive, reliable baseload for 
families all over my district, in Central Washington, but all 
over the Pacific Northwest.
    We work together on a lot of different things, my 
colleagues here in Washington and our colleagues in the State 
of Washington, however, as everyone knows, only Congress can 
authorize the breaching of federal dam, no governor can do 
that, has the power to tear down a federal program, let alone 
four of them.
    So with that in mind, and sorry, it takes a little 
background here, but Mr. Furze as your--as a governor's 
assistant director for energy, my question, and in looking at 
everything we have heard today with the conversation regarding 
the Weather Assistance Program which is intended to help lower 
income families to reduce their energy bills and improve their 
health and all of those things, I am curious as to your 
thoughts as to whether or not that 3 quarters of a million 
dollars could be perhaps put to better use to help people in 
the State of Washington, the elderly, the disabled, our tribal 
friends, the low income communities with their energy bills and 
all of the other issues.
    I am told that those folks spend approximately 16 percent 
of their income on energy cost compared with only 3.5 to 4 
percent that other folks spend. So I guess, my question is what 
kind of impact could we see with an additional $750,000 for 
this program that, as you talk about, it is underfunded and 
certainly not meeting the needs of nearly 40 percent of low-
income families in our state.
    Mr. Furze. Thank you for that question, Representative 
Newhouse. Unfortunately, I can't speak to the details of the 
Orca package and although I am aware of the element that you 
are referring to regarding the $750,000 to take a look at the 
Snake River dams, and I appreciate the perspective that you 
offered about the governor's authority relative to the 
authority of the Federal government, so thanks for that.
    We are fortunate in the State of Washington to have the 
four funding sources that I mentioned and the--the--one of the 
largest of those is the state, we call them energy matchmaker 
dollars which is what allows us to do the Weatherization Plus 
Health program. The request in the governor's budget was for 
$25 million for those funds and off the top of my head, I will 
have to get back to you for the record for the amount of 
funding, the amount of homes that we will be able to weatherize 
with that funding, and we can do a comparable comparison for 
the amount of funding that you mentioned.
    I think that it is really important that Washington 
supports the low energy prices that we have got. That is part 
of what we do through the grid transformation in the other part 
of my role here as the assistant director for the energy 
division is to look at the grid transformation efforts that 
Representative Fleischmann mentioned to figure out how we can 
combine that activity with the essential activity of the 
weatherization program to make sure that the most vulnerable 
receive the benefits that they need. Thank you.
    Mr. Newhouse. I appreciate that answer, and Madam Chair, in 
the few seconds I have remaining, if I could, I would like to 
submit two letters to the governor opposing this use of 
taxpayer dollars, they come from dozens of mayors, county 
officials, PUD commissioners, community leaders in the tri-
cities, ports of Clarkston, also Lewiston in the great State of 
Idaho for Mr. Simpson's area that perhaps that these tax 
dollars could be put to better use even--maybe even the 
weatherization program that benefits so many thousands of 
people and could benefit many, many more in our state.
    And thank you for your answers and--and I appreciate your 
being here. And good luck getting home.
    Ms. Kaptur. We will include that in the record without 
objection. We will include that in the record without 
objection. And Congressman Pocan and--you and Ms. Klusmeier 
share a Badger heritage.
    Mr. Pocan. Absolutely, absolutely. Well, thank you, Madam 
Chair. And first of all my apologies to the--the committee and 
the guests for being late and having to come in and out. This 
is a very strange week with various funerals Tuesday and then 
tomorrow, it just made the calendar very challenging, but I 
appreciate you being here.
    And well, thank you to all of our witnesses, especially, 
Ms. Klusmeier from my district, I appreciate you being here. In 
Wisconsin, you talked about bad weather, I know you had an 
interesting time getting here. Madam Chair, we had over 8 
inches of snow yesterday, a couple of weeks before that, we are 
at minus 20 something, real temperature. So programs like these 
are especially appreciated in states like Wisconsin. I was sad 
to see the administration completely cut this program in the 
last proposed budget as well as the low-income home energy 
assistance program, both really important in my district. So I 
appreciate you all being here.
    Ms. Klusmeier, I have a question for you, specifically, 
when we have those huge swings in temperature, we had minus 50 
below wind chills, I have to admit, that was the 1 week I was 
glad to be here and not Wisconsin, because we didn't have that 
exact weather here, how does that provide, you know, challenges 
for the program and are there things within the program that we 
can do to better prepare homes and communities for those really 
wild temperature swings?
    Ms. Klusmeier. So I think this is one of the huge benefits 
that weatherization provides as a resiliency strategy in those 
situations and those homes that have been weatherized are in a 
much better situation to keep those--those customer safe.
    In Wisconsin, we are fortunate to have the public utilize 
funds in the program along with LIHEAP as the chairwoman 
mentioned earlier. Those funds are all blended together in 
Wisconsin, and part of that money is used to do a crisis 
assistance program for no heat situations.
    So this is a model that is used in other states as well. So 
in those situations where you have life-threatening conditions 
where there are situations where people are without heat, the 
weatherization network is used as a deployment network to get 
those people services in--in timeframes under 24 hours in most 
cases.
    So that is a great example of--of the life-saving role that 
some of these agencies, the local agencies play in the field.
    Mr. Pocan. All right, thank you. And then I know we talked 
just a little bit about things like solar and roofing and I 
appreciate your comments on that, Madam Chair. I had a question 
from one of the agencies that deals with this back home, and 
their question specifically was, in 2017, like almost 3,700 
homes were weatherized across the state, specifically their 
question is what role does the deployment of decentralized 
renewable energy sources play in weatherization, and can 
eligible homes receive solar panels for example as a way of 
ensuring an added layer of energy security and efficiency?
    Ms. Klusmeier. So as DOE mentioned earlier, there is a 
process in place at the federal level to incorporate renewables 
into the program. The average cost limit was also mentioned, so 
right now there is about a $3,700 average cost limit on 
renewables and that is a barrier for some states, so it does 
take some leveraged funding to make that happen.
    Mr. Pocan. Can you group that money when you go into like 
if their--yes.
    Ms. Klusmeier. So this is one of the best practices that in 
NASCSP, we get the most questions about right now, it is called 
blending or braiding funding. So in Wisconsin, yes, they do 
blend funds. So when that local provider is going into the 
house, they have the option to use all three of those funding 
sources on a measured level. Some states do not do that. So 
some states are keeping the DOE fund separate and we just 
completed our 2017 funding report at NASCSP that was published 
last week and we are seeing a majority of funds moving to 
blending those--those fund sources on a house-by-house level.
    Mr. Pocan. Yes.
    Ms. Garcia. I would just add one comment on the leveraging 
or getting funds available to be braided in. So part of what 
the weatherization program, DOE weatherization program allows 
is for some of the budget to be used by the state staff to go 
out and find those leveraging sources, those leveraging 
resources that they can bring into the program. And I would 
just point out that Washington State has a very good track 
record in this area. They spent, I think it was $91,000 on 
leveraging activities that brought in $9 million in non-federal 
funding into the program.
    Mr. Pocan. That is great. Congratulations. Yeah, please.
    Mr. Jacobs. If I could just add, on the leveraging, so 
the--the photos that I showed you of the home that we provided 
eight different leveraging sources on, each and every one of 
them had a different eligibility criteria. This is more work 
than the actual work that gets done in the home practically. So 
if--and we have hit on this in several different questions that 
we need to figure out a way to bring everyone to the table and 
be happy with, one, if they are low income, they are low 
income. And we can provide that, you know, program together.
    The coordination of all these leveraging, it is awesome, 
but the work that it takes to do that coordination is great, 
so.
    Mr. Pocan. Great, thank you.
    Ms. Kaptur. Thank you all for those comments. I wanted to 
just say that because this program has so many legs, I think 
over a thousand or more implementing agencies locally, 50 
states, territories, several federal departments, sometimes 
when a program operates that way, even though it has been 
successful, it is like you see the trees, but not the forest. 
And what I am asking you today is to glean from your experience 
and to try to work with this committee and submit to the record 
as you are able suggestions for what we might do to improve the 
program.
    I have already talked to the authorizers on several of the 
related committees here and it is also complex congressionally. 
We have lots of committees or subcommittees involved in some 
way. And at this point, you must have gleaned from your vast 
experience ways in which we could improve the program.
    I am very open to and we had a tremendous turnout of 
members this morning. This is only our second hearing and this 
is not the department's largest program. And this shows you the 
interest of the members, so you have got an awake group here 
and we want to help you do a better job to streamline where we 
can streamline, to take that state experience, to take your 
implementing experience on the community action agencies and to 
provide us with a more robust program.
    I was going to ask Mr. Klusmeier, given the distribution of 
this program across the country, can you point to a state or a 
few states that you believe is doing a great job with 
weatherization dollars where we might learn how we can inform 
other states? I don't know if DOE does this or it is done at 
the state level, state to state, so I am very interested in 
where you perceive success and good program management and 
innovation.
    Ms. Klusmeier. Sure. So, we mentioned Washington, I think 
they are certainly one of the leaders on the Weatherization 
Plus Health initiative. We would be happy to put together a 
brief or a summary for you of state, different state 
performance metrics if you would be interested in that on the 
record.
    Ms. Kaptur. Thank you, and--and any recommendations for 
program improvement.
    Ms. Klusmeier. Yes.
    Ms. Kaptur. I am also interested if the department or any 
of you have ideas for a pilot program where we might take the 
innovation authorities that exist and look at a whole 
neighborhood. And many of our members talked about mobile home 
parks today.
    I believe some of the most severe poverty in this country 
and in my district exists in these forgotten places. If you 
have examples or could conceive of pilot programs that we might 
try to launch, Ranking Member Simpson talked about Native 
American mobile home parks and Congressman Kilmer is interested 
in that as well.
    I don't have such parks in my district. However, I do have 
deep poverty in many mobile home parks that I am seeing. And a 
lot of these are absentee owned, and I watch these individuals 
struggle. I was in a mobile home the other day where with the 
weather being 20 below the man's wall actually somehow 
expanded. I don't know, it was in the bathroom, the bathtub 
moved away from the wall and all the cold air was coming into 
his unit, and very poor electricity where if he turned a space 
heater on with his sweeper, all the lights went out. I mean, it 
is just a disaster waiting to happen. Well actually, it did 
happen.
    So I am interested in what might we do? Are there ways 
where we can have offsite solar power being produced where we 
can give a credit and it can go into these parks? How do we 
manage energy? And we know they are leaking energy, it is not 
sensible. Maybe there are things we can do.
    I wanted to suggest to you also here in the Rayburn 
Building, many, many times we have organizations that come up 
here and they have big receptions over in the Rayburn foyer, 
they bring technologies. Perhaps your association might be 
interested in working with the subcommittee and we could find a 
date where we have fine technologies.
    You could introduce other members of Congress and their 
staffs to what the Department of Energy has invented to test 
walls and to suck the air out of houses and figure out where 
the leaks are, to show some of the technologies that you view 
as modern and really up-to-date. Some of our members talked 
about sensors, and we could bring in some of the trades that 
you have relationships with and we can show the training 
programs for people in your program.
    Maybe some of the folks on workforce development here in 
the House would be interested in some of the problems you are 
having and holding your staff, we need to figure out what to do 
about that. I don't know what to do about that, it is not 
technically our jurisdiction, but to help people to find a way 
to ultimately get credit or to become a journeyman.
    I can't forget this one person, it was in Lorain, Ohio and 
he said to me, oh, I could have gotten an apprenticeship 
program? What is that? I mean, they didn't even know. I said, 
oh my gosh, how do we pull all the threads of this together? So 
I am looking for recommendations. Think about a time when it 
might be easy for you invite in some of your recipients across 
the country.
    Let me move to Congressman Simpson at this point.
    Mr. Simpson. Thank you Chairwoman Kaptur. He had to bring 
me into it. And while this has nothing to do with 
weatherization rather than the price of electricity. 
[Laughter.]
    Mr. Simpson. And while you noted the benefits, I thought I 
was not going to say this, well you noted all about the 
benefits of the dams, you didn't mention that they also stopped 
the migration of salmon back to their breeding ground in Idaho 
which is my state which is a real problem. What would happen to 
electricity rates in Washington if BPA goes broke?
    Mr. Furze. Representative Simpson, thank you for that 
question. I will need to respond in the record that that is not 
a calculation that I have got in my head.
    Mr. Simpson. Okay. Because it is a problem right now and 
some of us are trying solve the problem rather than add to it.
    A couple of things, rental property was mentioned, is there 
a cost share for the individual that is living in the house or 
that owns a house on this program or anything or there is not 
any cost share?
    Ms. Garcia. No. There is not cost share, it is handled the 
same as owner homes.
    Mr. Simpson. So basically if I had rental property, I am 
the one that is----
    Ms. Garcia. For the landlord.
    Mr. Simpson. For the landlord.
    Ms. Garcia. For the landlord there can be. I was thinking 
about the renter.
    Mr. Simpson. Okay, yes.
    Ms. Garcia. But for the landlord, yes.
    Mr. Simpson. For the landlord, there can be a cost share.
    Ms. Garcia. Yes.
    Mr. Simpson. Because he is the one that is going to get the 
benefit, it is improving the property that he is renting out 
and he is renting it out and making profit off of it. So it 
seems like there ought to be some type of cost share for the 
landlord.
    Ms. Garcia. The states have different approaches but, yes, 
there can be a cost share for the landlord.
    Mr. Simpson. Okay. Were you going to say something?
    Mr. Jacobs. In the State of Ohio, on multi-families we have 
a 50 percent contribution from the landlord on health and 
safety related measures. And on single families, that has been 
waived at this point.
    Mr. Simpson. But it is different across the country. Should 
that be something that is kind of standardized?
    Ms. Klusmeier. I think given the different housing stocks 
and the different climates in each state, each state has the 
opportunity to define what that policy would be in their annual 
planning process with the Department of Energy, which is 
approved by the Department of Energy.
    So right now the department provides quite a bit of 
flexibility for states in that area and I think that is 
something that we would continue to support.
    Mr. Simpson. We have heard about the benefits of the 
program, this committee has obviously limited resources, we all 
do. And we have to choose what is the biggest bang for the buck 
and look to the needs and so forth and so on.
    Over the years we have, at least since I was Chairman, I 
know that we have increased the weatherization program not by 
huge amounts but each year we have increased it somewhat. Are 
there any ways for us to measure success of the program?
    Is it just the number of units that we weatherize or is it 
just the cost savings? Do societal benefits come into this or 
anything? Because we have to weigh the benefits of the program 
versus other things that we are putting money into.
    Ms. Garcia. That is a very good question. And we are 
looking for as I said ways to get data that help us to 
understand more quickly what is going on a year-to-year basis 
in terms of the number of units weatherized, the kinds of 
savings that are being achieved.
    We did do our last retrospective evaluation based on the 
program year 2008. We are looking at ways of doing smaller, 
more nimble evaluations on a year-to-year basis depending on 
appropriations within the resources that we have.
    I would mention that there are a number of states across 
the country that do their own evaluations of the program and 
those are often very helpful in looking at program impacts in 
between other kinds of work that the department does.
    Mr. Simpson. What share of the total cost of the program 
goes to the administrative cost versus----
    Ms. Garcia. The limit is 10 percent. That is 5 percent for 
the state and 5 percent for the local agencies.
    Mr. Simpson. Is that statutory or----
    Ms. Garcia. It's consistent with statute, yes.
    Mr. Simpson. Okay. Are there improvements that could be 
made in the administrative portion of this that we spend fewer 
and fewer dollars on? I mean because all our desire is to get 
as much money out into the program actually as possible.
    Ms. Garcia. I think I would defer to my state and local 
colleagues on the administrative piece.
    Mr. Furze. What I would say about that is that it takes 
investment in infrastructure to be able to administer a high 
quality program. And so that is sort of the balancing.
    I think the issues with grid modernization that 
Representative Fleischmann brought up in the questions of 
innovation that Chairwoman Kaptur brought up, that is where 
some of that work will happen. And so being able to have the 
capacity to think through linkages with existing programs, how 
to bring things on in grid transition require potentially 
additional resources either through SEP or through a 
weatherization program.
    Mr. Simpson. Okay. I am a contractor in Southeast Idaho. 
Not really, but just theoretical, hypothetical. And I want to 
get into upgrading houses and stuff, because I can see this is 
kind of a lucrative business or at least one way to keep my 
people working. How do I qualify?
    Ms. Garcia. I believe the states set up their procurement 
processes for the agencies that deliver the programs, so.
    Mr. Jacobs. In the State of Ohio, a contractor must have 
the same certifications as an installer. So they have to attend 
the training center to receive a long list of actual 
certifications. So it is quite intense in Ohio. So that adds to 
the difficulty of getting weatherization contractors.
    Same for the, like, HVAC contractors as well, they have to 
have different certifications, but they have to have certain 
certifications to do work in weatherization program.
    Ms. Klusmeier. So anecdotally, what we hear from both our 
local agencies and our member states is that they would love to 
have more contractors in this program.
    And NASCSP did a survey in the fall of 2017 that showed 61 
percent of the states did consider themselves contractor-based, 
opposed to 39 percent that considered themselves crew-based. So 
it varies widely from state-to-state and even local-to-local on 
whether or not those agencies are using contractors to do work 
or using in-house employees.
    Mr. Simpson. So some states do have in-house people to go 
in and do the weatherization, people that they employ.
    Ms. Klusmeier. The local agencies do.
    Mr. Simpson. Yes.
    Ms. Klusmeier. Right.
    Mr. Jacobs. GLCAP is crew-based, so we have our own staff 
that do the work in the homes. In the northwest Ohio, the 
agencies are crew-based. There are no weatherization 
contractors in northwest Ohio that have all the certifications 
to do weatherization.
    And during the last few years, I have had trouble finding 
staff. I contracted with a company out of Akron to come in to 
Northwest Ohio which is quite a drive, a couple hours. So the 
reasoning is because of the certifications that they need.
    Mr. Simpson. I suspect this is different across different 
states, but are we having trouble getting people to do the work 
now? Because I mean, in some areas you cannot find people to do 
home improvements there. You know, if you want to do an 
addition to your house or something, having a hard time finding 
contractors.
    So they are so busy now with the economy kind of growing in 
a lot of areas. Are we having trouble getting people to come in 
and do the work?
    Mr. Jacobs. Yes. Great question because that is my number 
one problem with boots on the ground getting the work done as 
both contractors and installers.
    The installers, would start there, it is not the best work 
in the world, they are crawling in attics that are 120 degrees, 
they are in crawl spaces that haven't seen the light of day in 
years and things are living in there and so on. I could provide 
you pictures for the record. [Laughter.]
    Mr. Simpson. No thank you.
    Mr. Jacobs. However, the contractors, it is the same 
problem. The economy is doing well, so they are going to that 
work versus this work because they don't have to jump any 
hoops, they can just do the work and get paid and not meet all 
the certifications and criteria that we need work in our 
program. We see that on both--run a CHIP program with HUD and 
we see it on both sides. And it is our number one challenge 
right now.
    Ms. Klusmeier. So, I do agree that it depends on how the 
economy is working. So when the economy is doing well, 
contractors tend to move around more and they are more busy.
    I do want to add that the federal rules of the program do 
allow our training and technical assistance funds to be used to 
train contactors. So many states are using that money with a 
retention agreement, usually that the contractor signs to agree 
to work in the program for a certain amount of time. They can 
get those certifications and trainings paid for by the program.
    Mr. Simpson. Thank you all. Thanks for being here today and 
thanks for the work that you do. Appreciate it.
    Ms. Kaptur. I want to thank Ranking Member Simpson for his 
leadership and Congressman Fleischmann for staying for the 
entire hearing.
    Let me ask, since the program is so distributed across the 
country. Does that preclude bulk buying of materials or 
technologies that you have found to be very important and high 
performing?
    Ms. Klusmeier. So, by bulk purchasing I interpret that to 
mean like buying truckloads of cellulose----
    Ms. Kaptur. Furnaces.
    Ms. Klusmeier. Furnaces. Okay.
    Ms. Kaptur. Sensors, windows----
    Ms. Klusmeier. Sure.
    Ms. Kaptur. Et cetera. Are we losing something in terms of 
cost per unit because the program is so decentralized in terms 
of delivery?
    Ms. Klusmeier. So the Federal rules do require a cost 
assessment to be done with every procurement action. So I can 
speak to it. In Wisconsin that is done at the local level, so 
each local agency would purchase their own materials and 
supplies and do a cost assessment at that point.
    I am aware of some states that look at doing that at the 
state level as well, so they purchase all the materials to try 
to get a bulk discount essentially is what it sounds like.
    Ms. Kaptur. Right. That is what I wondered because the 
program is so locally-driven and state-driven, because DOE just 
has the funding that goes to the states. But then you sort of 
look and think to yourself, hmm, what could we do nationally 
that would benefit?
    Like I say, a furnace is an expensive item, a water heater 
is an expensive item, is there anything we can do to, think 
about this in your reply to the record, in talking to one 
another, is there anything we can do to increase efficiency in 
procurement? And that would be something that would have to be 
led nationally by the Department of Energy, and I honestly 
don't know Director Garcia, if you have sufficient staff to 
even do all of this, to really do the kind of granular analysis 
across the country. Do you need additional staff in your area 
of expertise at DOE?
    Ms. Garcia. I will confer with the NASCSP folks and we have 
worked together on questions like this in the past and we would 
take this on together.
    Ms. Kaptur. All right. Before long, we will be benefited by 
the directors of our national labs coming in here, the 
Department of Energy operates 17 labs across the country.
    And as I look at some of the photos you put up there this 
morning, I just kept thinking, new materials. New materials. 
What can we do to help to make this program just even be more 
effective? And so I am going to ask you a hard question and 
make recommendations to me when the directors of the lab say to 
us, well what can we do beyond what we are doing now?
    And I would like to say, well, I want you to look at the 
weatherization program. And we know that the Oak Ridge Labs do 
a lot of work related to this program, and tell me what I 
should ask them. Should I ask them for solar siding? Should I 
ask them for a roof that produces energy? What do I ask them 
for? To cut the cost of water heaters by half and connect it to 
the roof? I don't know. Give me some thoughts about what to ask 
the national labs.
    Mr. Furze. Chairwoman----
    Ms. Kaptur. Yes, Mr. Furze.
    Mr. Furze. What I would ask you to think about is to 
leverage the idea that you put forward around neighborhoods and 
communities. I am most familiar with the work of Pacific 
Northwest National Lab, they are the hub for grid modernization 
efforts certainly in the Northwest, in the grid modernization 
consortium.
    And if we are thinking about a neighborhood scale systems 
approach to energy efficiency, through a lot of electric 
vehicles, smart water heaters, IOT, how might those things be 
integrated so that low-income folks can benefit, is a question 
that I ask myself.
    Ms. Kaptur. I appreciate that comment. Because I think 
there is enough experience in this program now earned by hard 
effort in so many places. I think we can now distill something 
and take it to the next step, but I have been in houses but I 
haven't crawled through those spaces with the critters.
    But I know how our homes leak energy, I had a developer 
come in the other day, a new patent holder talking to me about 
these modular homes that they are going to be building in the 
west and it was so fascinating. They are going to cut the 
energy bills by well over a third. And solar thermal is built 
right into the wall.
    And they actually use a technology, whether it works or 
not, I don't know, but it was, I want to say, a Styrofoam 
product that had cement on both sides and a steel beam 
construction. It was just fascinating to think about what is 
being done. And then you look at existing stock and say, okay, 
so how do you really retool this? What are the magic ways in 
which we do that? And you have such experience in that.
    Some of the devices that I saw individuals using in the 
homes that we visited were actually invented by the Department 
of Energy but several years ago. So I am asking myself, so now 
what? What now do we want to ask them to invent? So could you 
talk among yourselves and make recommendations to the record on 
it? Yes, Ms. Garcia?
    Ms. Garcia. I would just add I am certainly happy to take 
this question for the record. There is work going on between 
the labs and the Building Technologies Office on low 
temperature heat pumps which could have great application and 
we are watching that. And so that might be something to ask 
them about, what the current state of that technology is.
    Ms. Kaptur. All right. Very good. Yes, Mr. Jacobs, any 
final comments?
    Mr. Jacobs. Yes. On that specific question, I love the idea 
of innovation. And we love innovative products such as 2-part 
foam. Two-part foam versus doing it a different way in the home 
is a lot faster, however, it is more expensive.
    So we have at the local level have to balance measures. We 
input them into a program from DOE and it basically tells us 
whether or not it cost justifies to be used or not. So though I 
am 100 percent for all that, it is just on a practical level it 
has to meet the SIR of 1 or greater to be used in the home.
    It does speed up the production of getting that work done. 
So it is a really good idea and I would like to explore that 
further.
    Ms. Kaptur. Thank you. Ms. Garcia, could you estimate this 
Fiscal Year or 2019, approximately how many homes would you 
assume would be weatherized across our country based on past 
experience?
    Ms. Garcia. Given the average cost limit per house, we are 
estimating it is on the order of about 38,000 homes.
    Ms. Kaptur. Thirty eight thousand. See, imagine if you 
could bulk purchase some of that. I don't know if practically 
that can actually happen, but if we could reduce share price by 
nationally helping to procure, wouldn't that be something?
    Mr. Jacobs. If I could comment to that, on just for an 
example of cellulose. So we buy cellulose bulk from a company 
in Bucyrus we get it a lot cheaper that way than versus buying 
it from, you know, a big box store like Lowe's or Home Depot.
    Savings per bag is upwards of $3 or $4 a bag, so we get a 
semi-trailer truck full of about a thousand bags which saves us 
a lot of money on each purchase. If that could be done by state 
or on a national level, I don't know what that number to be.
    Ms. Kaptur. Right. And what would you say is your most 
expensive purchase annually? Would it be the furnace, the water 
heaters, of you look at where you spend the most money. Mr. 
Jacobs.
    Mr. Jacobs. Labor would definitely be number one. That is 
our number one expense. And then I could get that information 
for you for the record but I would say cellulose is very cheap.
    So what you saw on the picture, the cellulose blown in the 
attic, that stuff is $5.50 a bag, you know, to $6 a bag. But 2-
part foam is like $300 a box which only goes a little ways. But 
I could get you that information if you need more.
    Ms. Kaptur. This is a very interesting discussion. Wouldn't 
you say Mr. Ranking Member? Bulk purchase somehow to drive 
this. I don't know how to do it exactly, but if we say things 
publicly, sometimes things magically happen. [Laughter.]
    Ms. Kaptur. And we can get very progressive states like 
Washington to help be a voice for this and the National 
Association for State Community Services Programs.
    All right. Well everyone has been very generous in coming 
here this morning. I want to thank you for participating, I 
want to thank all the members who took time this morning to 
meet their obligation and they all did. And I want to thank our 
ranking member for his participation. And this hearing will 
come to a close. It is adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
[


                                           Thursday, March 7, 2019.

             ENERGY WORKFORCE OPPORTUNITIES AND CHALLENGES

                               WITNESSES

MORGAN SMITH, CHIEF EXECUTIVE OFFICER, CONSOLIDATED NUCLEAR SECURITY, 
    LLC
DONNIE COLSTON, DIRECTOR OF UTILITY DEPARTMENT, INTERNATIONAL 
    BROTHERHOOD OF ELECTRICAL WORKERS
SLOANE EVANS, CENTER FOR ENERGY WORKFORCE DEVELOPMENT AND SENIOR VICE 
    PRESIDENT FOR HUMAN RESOURCES, GEORGIA POWER & SOUTHERN COMPANY
NOEL BAKHTIAN, DIRECTOR, CENTER FOR ADVANCED ENERGY STUDIES
    Ms. Kaptur. This is our third hearing. And let me 
especially thank the witnesses who are with us today, thank 
members on both sides of the aisle for their faithful 
attendance. And on the very important subject today of energy 
workforce development opportunities.
    Today our subcommittee will discuss future energy jobs and 
the need to ensure that our Nation has a ready, capable 
workforce, both for today and the next generation, to meet our 
Nation's growing energy demands.
    Developing clean, cutting edge energy technologies and 
safeguarding our national nuclear security requires our 
concerted attention.
    The Department of Energy itself is responsible for 
addressing energy, environmental, and nuclear security 
challenges, relying on approximately 100,000 Federal employees 
and contractors to fulfill these duties. We look forward to 
hearing from our expert panel about workforce development 
opportunities and challenges in nuclear security and the 
broader energy sector, with a particular focus on the vital 
role of industry, organized labor and its training academies, 
science, technology, engineering, and academia.
    In particular, questions I hope we discuss today include 
what are we doing to improve the diversity and readiness of 
America's workforce to meet future energy and nuclear security 
needs, and is it enough. And what should the United States be 
doing and thinking about to create more skilled worker 
pipelines and training collaborations in the nuclear security 
and energy workforce.
    We can learn a lot from you.
    As we start, I wanted to highlight a few key points with 
respect to today's energy workforce that represents both the 
opportunities and the challenges facing us. We are putting up 
some headlines. They're from newspapers around the country 
about the unmet energy talent that we need from coast to coast 
and that information summarizes the fact that roughly 12 
percent of today's energy industry workforce is eligible to 
retire. That translates into about 800,000 jobs that would need 
to be filled if everybody retired today.
    Also, 76 percent of energy industry employers have reported 
hiring difficulties--76 percent; three-quarters. According to 
the Energy and Employment Report for this year, which was just 
released yesterday, the U.S. energy sector employs about 6.7 
million of our fellow citizens. This job sector is projected to 
grow by an additional 1.5 million by 2030. This does not 
include the 42,000 men and women in the national nuclear 
security complex.
    These challenges underscore the need to invest in our 
energy workforce, the steel and iron workers, nuclear 
operators, electricians, plumbers and pipe fitters, engineers, 
scientists, physicists, and how critical those investments are 
for a ready, capable workforce.
    With respect to nuclear security, the Department of Energy 
is in the midst of a scope of work it hasn't seen since the 
Cold War to sustain the nuclear deterrent. There are many risks 
and challenges in this mission and thus the DoE requires the 
necessary workforce to accomplish its mission in a safe, 
security, and cost effective manner.
    And as the energy sector evolves to include more 
sustainable forms of energy, as our nuclear security needs have 
also grown, and as more Americans retire, it is paramount that 
today's energy workforce transitions meet new opportunities and 
that we build the workforce of tomorrow.
    In my view, energy workforce development is about 
collaboration and establishing closer partnerships between 
labor, our STEM objectives, the national laboratories, 
industry, and academia. Collaboration is, for example, creating 
new opportunities for workers in coal country as our energy mix 
changes. Collaboration can ensure the next generation is ready 
to be nuclear welders or nuclear physicists. And collaboration 
means reaching more people in more places, including those with 
diverse backgrounds and skill sets or those with little 
familiarity with this employment sector.
    And that is why you are here today, so that we can elevate 
what you say to a much broader audience beyond these walls.
    I want to again thank our witnesses for their testimony 
today and I look forward to our discussion.
    And I would now like to turn to our amiable and talented 
ranking member, Mr. Simpson, for any remarks he might have.
    Mr. Simpson. Thank you, Chairwoman Kaptur. I would like to 
join you in welcoming our witnesses to today's hearing. We 
always appreciate when experts such as yourselves are willing 
to take the time out of your schedules to come and talk with us 
about what you do and how the Federal Government can help you 
succeed in that effort.
    I would also like to extend a particular welcome to Dr. 
Noel Bakhtian, the director for the Center for Advanced Studies 
in Idaho. While I am certainly familiar with the workforce 
development collaboration being advanced through CAES, I am 
pleased that today my colleagues will have the opportunity to 
hear about it as well.
    Part of the reason we hold oversight hearings is so success 
stories can be shared with a wider audience, perhaps leading to 
improvements in more locations. So, Dr. Bakhtian, thank you for 
making the trek across the country from that warm state of 
Idaho where the snow starting to melt a little bit, to this 
warm location here in Washington.
    The Department of Energy's programs impact a broad spectrum 
of national security and national economic security issues. The 
workforce needs are equally as broad and diverse, from the 
researchers and engineers advancing our understanding of the 
sciences and developing new technologies for defense and energy 
production purposes, to the skilled trades people building and 
operating Federal facilities and safely remediating sites 
contaminated by previous Federal activities, to the project 
management experts ensuring Federal taxpayer dollars are being 
spent effectively. It is no simple task to project and meet 
future workforce needs in any case. The significant changes in 
the energy world make it particularly challenging.
    On the national security side, we need to reestablish many 
important capabilities we previously let fade away thinking 
they wouldn't be necessary moving forward. On the energy sector 
side, the transformations of the energy related to new 
technologies and emerging concerns, like cybersecurity, are 
demanding a quickly and ever evolving set of new skills and 
tools.
    The Department of Energy does not have primary 
responsibility for ensuring all of these workforce development 
needs are met. But where the Federal Government has a vested 
interest for national security or economic security reasons, 
the Department can and does play an important role in workforce 
development.
    I look forward to hearing from our witnesses about the 
challenges and successes and ideas for improvements in this 
area.
    I thank the Chairwoman for calling this hearing and look 
forward to it.
    Ms. Kaptur. Thank you very much, Mr. Simpson. And I am very 
grateful to the witnesses who have traveled here today, many 
long distances. And we are very excited by you being with us 
today.
    First, we will have Mr. Morgan Smith who is chief executive 
officer of Consolidated Nuclear Security LLC. Mr. Smith is 
responsible for managing the National Nuclear Security 
Administration's Y-12 and Pantex facilities. He has over 35 
years of experience managing nuclear programs and facilities 
and has held senior leadership roles at the Knolls and Bettis 
Atomic Laboratories.
    Next, we will have Mr. Donnie Colston with the 
International Brotherhood of Electrical Workers, Department of 
Utilities. Mr. Colston has been with the IBEW for almost 40 
years and is responsible for representing the interests of over 
240,000 utility workers who perform some of the most difficult 
jobs in the country from coast to coast.
    Following that we will turn to Ms. Sloan Evans, who is 
testifying on behalf of the Center for Energy Workforce 
Development. Ms. Evans is the Senior Vice President of Human 
Resources at Georgia Power and Southern Company where she 
manages leadership, employee development, and staffing 
programs.
    And last, but not least, we will have Dr. Noel Bakhtian, 
who serves as the Director for the Center on Advanced Energy 
Studies. Dr. Bakhtian is a mechanical engineer and has held 
positions at the White House and the Department of Energy's 
Office of International Affairs.
    Thank you all for taking the time to be here today. Without 
objection, your written statements will be entered into the 
record. Please feel free to summarize your remarks in about 5 
minutes if you can, starting with Mr. Smith.
    Mr. Smith. Chairwoman Kaptur, thank you. Ranking Member, 
Mr. Simpson, thank you. Members of the subcommittee, thank you 
again for having us.
    It is a pleasure to talk to you about some of our strategy 
and some of the opportunity and challenge that we have in 
maintaining a robust workforce at our Pantex Plant, Amarillo, 
Texas and in Oak Ridge at the Y-12 National Security Complex.
    I would also like to thank the subcommittee for your 
investment in our sites. We have had heavy investment in 
improving the site infrastructure, which is important both to 
enable us to fulfill our future missions, as well as give our 
workers and future workers a good place to work. So thank you 
for that.
    Today we employ approximately 300 employees, 3,400 at the 
Pantex site, about 4,900 in Oak Ridge. Both locations have a 
proud legacy of very hard work and patriotism serving our 
Nation and these sites have been in existence since the 
Manhattan Project and World War II doing that service. Many of 
our employees are generational there, from one generation to 
the next. And so we intend to maintain that proud tradition 
while certainly having a priority on identifying the next 
generation of workers.
    On the average, our workers are 48 years of age, 13 years 
of experience on our sites, they possess a vast array of 
skills, such as the construction workers, the various building 
trades that are building the new uranium processing facility in 
the Oak Ridge area, and those same types of workers maintain 
our aged plants to keep us in production. Engineers, 
scientists, production technicians, machinists, chemical 
operators, all produce the product that ultimately we provide 
for the Nation. Then our security police officers, our business 
professionals, cyber specialists, administrative professionals, 
all support this work as some examples of the type of workforce 
we have.
    Nearly half of our workers, about 4,000, are represented by 
9 labor organizations. And I want to tell you that labor 
leadership at our sites are true partners in accomplishing the 
nuclear deterrent work that we do.
    And I want to recognize one of those labor leaders here 
today, Mike Thompson, who I think is in the second row. He is 
actually the president of our largest group at Y-12, the Atomic 
Trades and Labor Council, representing over 1,200 employees. 
And Mike and his team really champion a number of the things 
that you discussed, Chairwoman, relative to really championing, 
engaging people in the trades, convincing them that STEM is 
important and bringing them along to join our workforce.
    Building the workforce of the future requires a broad 
spectrum of recruiting, development, engagement, and retention 
strategies. Part of our strategy is to build academic alliances 
with colleges and universities and other schools. It is very, 
very important that we do that because out of that we can have 
research collaborations, we can have skill development and 
training programs, and we clearly obtain hiring pipelines.
    A unique example was something that we had done with Roane 
State in Oak Ridge. We partnered with the college there to 
develop a curriculum that trains chemical operators. The 
students meet at night where tuition is paid for the by the 
State. This is very important to us and the work that we do at 
Y-12, and we hope that this program will continue to develop. 
Today we have approximately 10 people in that program, but very 
important for the future.
    We also partner with other educational institutions to 
promote interest in science, technology, engineering, math, and 
manufacturing skills. And then as well to provide job 
opportunity awareness of what we have at Pantex and Y-12. We 
engage middle school students all the way through graduate 
students in doing that. And we also make them aware of the 
unique character and behavioral expectations that it takes to 
do work in the nuclear field.
    A recent example is in Texas we work with the Canyon 
Independent School District in the Texas panhandle to establish 
a trade curriculum where we are taking high schoolers and 
preparing them to be production technicians or certified 
welders, such that they can pass the qualification exams. And 
then we also work closely with labor leadership to establish 
apprenticeship programs. Right now we have just obtained 
agreement to go through with about 45 a year for the next 3 
years between Texas and the Oak Ridge area to cover areas like 
steam plant operators, utility operators, machinists, 
electricians, iron workers, pipe fitters. Very important to us 
to build that workforce for the future.
    The programs that focused on further developing and 
retaining our existing workforce are also very necessary. We 
have a number or examples that we work with the University of 
Tennessee on, various graduate engineering programs that have 
graduated more than 60 of our employees. And right now we have 
25 more enrolled, including now distance learning out of Pantex 
in Texas. We think that type of program has the opportunity to 
be extended to other areas of the nuclear security enterprise. 
And I can tell you that the administrator of NNSA, Lisa Gordon-
Hagerty, has a tremendous vision for workforce development and 
recruitment for the future. Outstanding work by her doing that.
    And so it is through all these avenues that we have to 
continually grow our future workforce. It will take a 
strategic, varied, and fully engaged approach to enable us to 
accomplish the important mission work in entrusted to us. And 
the fact is, the skilled workers are what are so essential, and 
our future national success will depend on our ability to 
attract, develop, and retain that workforce. It is paramount 
that we succeed.
    And I am very appreciative of the interest of this 
subcommittee in that future.
    Thank you for the opportunity to give you these remarks.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. Thank you very much, Mr. Smith.
    Mr. Colston.
    Mr. Colston. Chairman Kaptur, Ranking Member Simpson, and 
members of the House Appropriations on Energy and Water 
Development, thank you for inviting me to today's hearing.
    My name is Donnie Colston. I am the director of the 
International Brotherhood of Electric Workers, Utility 
Department. I have been asked by president Stephenson to speak 
on behalf of the IBEW. This hearing's topic is vital to the 
economic health of our country.
    Based on recent data, the electric power generation sector 
employs over 875,000 Americans in 2018. The jobs multiplier for 
the utility industry is the highest of all measured industries, 
with over 950 indirect jobs impacted by every 100 direct jobs 
lost or gained in the industry itself. The IBEW is the largest 
energy union in the world. We represent more than 775,000 
members in the United States, U.S. Territories and Canada who 
work in a variety of related fields, including utilities and 
construction, telecommunications, broadcasting, manufacturing, 
railroads, and of course government.
    The hallmarks of the IBEW are professionalism, skills, and 
training, which are embedded in our code of excellence. This is 
a commitment from our leadership, members, to our contractors 
and our customers to consistently provide the best value for 
the product. For more than 10 years the code of excellence has 
allowed the IBEW to meet or exceed our customers' needs. The 
code has played a part in the creation of employment 
opportunities for the IBEW members because of the improved 
relationships with our customers and our employers. Among the 
IBEW's partnerships with employers nationwide is between IBEW 
Local 245 and Toledo Edison, the Chairwoman's northwest Ohio 
district.
    The code of excellence is another example of the IBEW's 
commitment to working with our employer partners to provide on 
the job excellence every working day.
    The IBEW represents public employees at electric 
cooperatives and municipality power providers, workers at the 
Tennessee Valley Authority, the U.S. Army Corps of Engineers, 
private sector employees, and most investor owned utilities. In 
nuclear generation alone, we represent more than 15,000 
workers.
    Occupations within the power plants range from plant 
operators to instrument and control technicians to maintenance 
electricians to security guards. Over 500,000 of our members 
are responsible for making sure electricity makes it from the 
point of generation all the way to the electric or gas meter.
    Not only does the utility industry support hundreds of 
thousands of jobs, salaries are higher. The average of an IBEW 
member employed in the utility operations is $46.24 an hour, 
which is already double the U.S. average without including 
pensions and healthcare.
    Energy generation, transmission, and delivery is our 
Nation's most vital infrastructure. Utilities, construction, 
manufacturing are all three significant industrial sectors in 
energy efficiency, transmission, distribution, and storage, 
adding over 36,000 new jobs just in 2018. It is therefore 
critical for the safety of our member and the community needs 
that the workers charged with constructing and operating and 
maintaining energy infrastructure are highly and extensively 
trained. My written testimony tells a broader story. I am going 
to use my time to quickly tell you about our partnerships in 
the utility industry.
    The Center for Education Workforce Development is one of 
our most significant utility industry partnerships. The CEWD's 
mission is to develop solutions to the industry's workforce 
shortage.
    Applicants who have basic proficiency in STEM disciplines 
had the necessary foundation for success in most utility 
apprenticeships and training programs. For too long, a four 
year degree has been promoted as the only path to a high wage 
career.
    In fact, there are many jobs, particularly in utilities 
that provide solid middle class incomes with little to no debt. 
These occupations are America's best kept secret.
    Too often, young people perceive that these jobs are low or 
middle skill because no college is required. IBEWs actively 
engaged in efforts to attract young people, women and veterans 
into high paying utility occupations.
    Another example of training partnerships in the utility 
industry is the strong relationship between the IDEW, Alabama 
Power and the Southern Company and the National Utility 
Industrial Training Fund recently upgraded Varnon Training 
Center is the most modern facility of its type in the country.
    The IBEW contributed to the curriculum development and 
provides seasonal craftsman to deliver hands on classroom 
training at this facility.
    New IDEW members and experienced members who seek knowledge 
upgrades now receive training in a facility that provides them 
with the opportunity to become the highest skilled workers in 
the utility industry.
    In conclusion, I would leave you with one final thought. 
The model inscribed on the wall at the Varnon's training center 
and Alabama Power says with hands on practice, knowledge 
becomes a skill.
    With time and dedication, skills become a craft and a 
laborer becomes a craftsman. Thank you for the opportunity to 
testify today and the IDEW looks forward to answering any of 
your questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. Thank you so very much, Mr. Colston. Ms. Evans.
    Ms. Evans. I want to thank member Simpson and members of 
the subcommittee, thank you for inviting me to testify. My name 
is Sloane Evans and I am the Senior Vice President of Human 
Resources for Georgia Power and Southern Company.
    Southern Company is a leading US electric utility with more 
than 27,000 employees serving 9 million customers across the 
United States and I am testifying today on behalf of the center 
of energy workforce development.
    The Center for Energy Workforce Development or CEWD is a 
partnership of electric, natural gas, and nuclear utilities and 
their industry associations, contractors, unions, that is 
focused on building a skilled workforce pipeline to address the 
anticipated workforce shortage in the utility industry. 
Southern Company and more than 100 other US utilities are 
members of CEWD.
    The industry--the energy industry plays a vital role in our 
nation and contributes approximately 5 percent to our nation's 
GDP.
    Our industry supports more than 7 million jobs across the 
country, about 1 out of every 20 and not only is it critical to 
today's economy, we expect that it will be even more critical 
to the future as we transition to cleaner energy resources, 
build smarter energy infrastructure, support greater 
transportation electrification and deliver energy solutions 
that our customers want and need. We offer quality jobs that 
pay well and on average, employees work in our industry for 
more than 15 years, which symbolizes that we are an industry of 
careers, not just jobs.
    The energy industry is experiencing transformational 
change. We see the potential shifts in size for the skills, 
knowledge requirements about the current and the future energy 
workforce.
    Examples include infrastructure monetization, the evolution 
of our generationed fleets, change in customer expectations, 
physical cybersecurity concerns, a transitioning workforce and 
emerging technologies.
    All of these changes can impact a company's ability to 
create and maintain a talented pipeline of qualified and 
skilled employees.
    Through CEWD, the industry has come together on a routine 
basis to address workforce challenges through a collaborative 
process with the simple strategy that has been successful for 
the past 13 years.
    Industry strategies local solutions. For example, I would 
like to highlight our state energy workforce consortiums.
    Today, nearly 30 states are represented, each of them led 
by a CEWD industry member. The purpose of these consortiums is 
to identify and develop solutions to meet the current and 
future workforce needs specific to those states. Southern 
Company helped to create two of the original state consortia in 
Florida and George and as a result, we have established energy 
pathways in Georgia and Florida secondary and post-secondary 
education systems.
    These pathways create awareness around the careers and 
deliver fundamental skills around STEM.
    Another example of CEWD creating industry strategies with 
local solutions is their work to attract students to the 
industry, leveraging those strategies, the best practices and 
the support of CEWD, southern company has successfully 
sponsored first robotics competitions that inspire young people 
to be interested in participating in science and technology.
    These innovative programs motivate students to better 
education and career opportunities in STEM while building self-
confidence, life skills and knowledge. It's helping us 
identify, engage, and attract our future workforce.
    The on scale development and awareness efforts, the utility 
industry recognized a strong talent existed among our veterans 
and transitioning service members. In collaboration with our 
utility trade associations, Federal associations such as the 
DOD and the DOL and labor groups like the IBEWD, we Formed 
Veterans in Energy which provides outreach, networking and 
mentoring to veterans in our industry.
    These partnerships have removed barriers in finding, 
hiring, and retaining veterans.
    The industry must continue to develop a workforce that 
meets the needs of today and tomorrow and as an energy 
industry, we are focused on career awareness, developing 
education strategies, recruitment and retaining efforts.
    We believe we can accomplish more together than we can 
separately.
    On behalf of the center for energy workforce development, 
its 100 member utilities associations, contractors and unions, 
I want to commend this subcommittee for examining energy 
workforce development issues. Thank you very much.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. Thank you so very very much. Dr. Bakhtian.
    Ms. Bakhtian. Chairwoman Kaptur, ranking member Simpson, 
members of the subcommittee, thank you for the opportunity to 
address you today.
    My name is Noel Bakhtian and I am the Director for the 
Center for Advanced Energy Studies. CAES is a research 
education and innovation consortium that brings together the 
Department of Energy's Idaho National Laboratory, INL, with the 
four public research universities of Idaho and Wyoming, namely 
Boise State, Idaho State, University of Idaho and University of 
Wyoming.
    At CAES we are committed to conducting cutting age 
research, to educating the next generation of scientists and 
engineers and to partnering with industry to advance 
competitiveness all by harnessing the diverse capabilities, 
resources and expertise of these five entities all for the 
benefit of the region, the nation, and the world.
    Let me start today with the need. The US energy market is 
undergoing significant evolution with shifts to low cost 
natural gas and clean energy sources compounded with a 
shrinking US workforce that sometimes is referred to as the 
silver tsunami. Experts are actually citing the energy sector 
as one of the most at risk of not meeting the need on qualified 
workers.
    Broadly speaking, our evolving energy future is dependent 
now more than ever on a highly qualified workforce capable of 
designing, constructing, operating and protecting our nation's 
critical energy systems.
    In fact, one of the reasons that I came to INL and CAES was 
to advance educational opportunities in support of accelerating 
our nation's energy transformation.
    Having worked at NASA, Congress, the Department of Energy, 
the White House and now at Idaho National Laboratory, I fully 
recognize the power of partnership and what I want to do today 
is share how the CAES collaborations are helping to fill these 
energy workforce gaps through the lens of the three strategic 
pillars at CAES, research, education and innovation.
    First research, a robust university research portfolio is 
necessary to produce a skilled workforce pipeline. At CAES, 
graduate students pursuing Master's and Doctoral degrees in 
energy have the opportunity, through mechanisms like, student 
internships and graduate fellowships to gain the hands on 
experience working at a state of the art national laboratory, 
working alongside world class INL researchers.
    They are also capable of working back at their home 
institutions or even in a joint CAES collaborative laboratory 
under the mentorship of INL researchers or other faculty who 
can help mentor them.
    This enables students to work at the very cutting edge of 
research in the national interest, thereby strengthening their 
learning experience, accelerating the impact they are having on 
R and D but also most importantly inspiring them to perhaps 
take on their next job in energy. Our second strategic pillar 
is education.
    By bridging academic offerings and the need, CAES helps 
connect higher education to the workforces at the national 
laboratory and regional industry in order to create a diverse 
workforce that has the appropriate training and education 
needed for success.
    For example, working with the Idaho National Laboratory, 
Boise State has developed and just established a new doctoral 
degree in computing with an emphasis on security which will 
augment the workforce that's working every day to secure our 
nation's electrical grid.
    At CAES, we are also working to develop the first ever 
joint educational offering between the CAES universities. And 
our third pillar is innovation.
    CAES's strategic focus on its innovation systems and 
innovation ecosystem center on entrepreneurial opportunities, 
partnership with industry and tech to market impact.
    We are looking forward to building out this brand new 
pillar this year and in coming years but I would like to 
highlight two existing programs that already exist in this 
space.
    The first is the CAES technical assistance program, CTAP, 
which works to bring together regional companies that have a 
technical challenge with the CAES capabilities and expertise 
needed to help them succeed.
    The second is the CAES energy efficiency research 
institute, SIRI, which is supported by DOE and provides hands 
on experiences for engineering students as they go out and they 
perform assessments and help reduce the energy usage at 
regional industrial facilities.
    As you can see, since opening our doors in 2009, we at CAES 
have worked very hard to fulfill the Department of Energy's 
vision for CAES as a collaborative research education and 
innovation hub aimed at training the next generation energy 
workforce.
    But before I close, I do have an ask. The seventeen DOE 
national laboratories are absolutely the country's crown jewels 
in terms of research, education and innovation and they need 
your continued support to continue pushing those boundaries on 
science and technology.
    They also need continued funding for student internship 
programs and graduate fellowships as these are really the 
primary mechanisms by which students enter in to the national 
laboratory system.
    In closing, I'd like to thank the Wyoming and the Idaho 
delegations including representative Mike Simpson, who has long 
been a strong advocate for both CAES and INL.
    I'd also like to thank Dr. Kathy Arujo who is the director 
for the CAES energy policy institute for joining me here today 
and former CAES staffer Ethan Huffman for his support.
    And with that, Chairwoman Kaptur, ranking member Simpson 
and members of the subcommittee, it's been an absolute 
privilege to be able to address you here today. I look forward 
to your questions, thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Ms. Kaptur. Thank you, Dr. Bakhtian. Thank you all; this is 
such a fine panel. Again, thank you for making the time to be 
with us. I'll just ask one question, then we'll rotate back and 
forth so members can get in at least one question.
    Let me begin with the following: in order to sustain the 
nuclear deterrent, you rely, Dr. Smith, on skilled labor for 
manufacturing, for construction, operations and maintenance of 
the nation's most critical nuclear security facilities.
    As you see with the commercial nuclear energy industry 
contract, are there opportunities for you to leverage the 
skills and expertise of that workforce to meet some of your 
growing needs for additional qualified workers for the nuclear 
security enterprise and what can you suggest the Department of 
Energy might do to accelerate that transition?
    Mr. Smith. I think those that would be coming out of the 
commercial nuclear industry would be excellent candidates to 
work in a nuclear security enterprise.
    By virtue of working in the nuclear reactor industry, they 
already have a strong appreciation for rigorous and disciplined 
conduct of operations.
    They know the expectations around doing nuclear work. They 
understand that verbatim compliance is essential in the work 
you do.
    So my suggestion would be to open that up, is as we know 
that we are about to exit out of site because of a shutdown or 
whatever is taking place, we try to put together career fairs 
or whatever name you want to put to it where would come in with 
both labor leadership and with management out of the nuclear 
security enterprise and we talk to workers about the 
opportunities that we would have because one of the things 
facing us, I think in the statistics that you shared at the 
beginning, you said about 12 percent of the nuclear industry is 
ready to retire?
    Our number right now is 25 percent is already retirement 
eligible on our sites and we'll go to 40 percent within the 
next five years so finding qualified workers that know the 
expectations to work on a nuclear site would be a real 
advantageous situation for us.
    Ms. Kaptur. All right, and you were suggesting that the 
Department of Energy and its leadership on the nuclear side is 
heavily into this transition issue?
    Mr. Smith. Absolutely. I think we are always sensitive to 
moving in and pulling from an area where there is still active 
work so I think it has to be commensurate, with, for instance, 
sort of the shutdown of a site to not, again, start moving the 
workers around in a way that's detrimental to one place to the 
advantage of the other, that's why--and I think Mr. Colston 
really hit it so well.
    We need to continually introduce more workers into the 
field because right now we tend to be taking from one area to 
meet the need in another area but then the area that they just 
exited is left wanting so I think there's a tremendous 
opportunity as we are prepared to shut down sites to offer 
opportunities for those workers.
    Ms. Kaptur. Well I am interested in your suggestions on any 
role that the Department of Energy might have in that 
transition to be a little more--some of what you may have 
suggested to them in hopes that it might come out in the final 
recommendations so you can provide that to the record if you 
wish or you might comment later in the hearing.
    Mr. Smith. All right, I would certainly make that 
recommendation and I do believe that at least within the sector 
that I work, the Master Nuclear Security administration, there 
is a lot of interest in doing things jointly to accomplish just 
that.
    Ms. Kaptur. Thank you so much, I'd like to rotate now to 
Congressman Simpson.
    Mr. Simpson. Thank you. That is an interesting topic on 
itself and its challenge with DOE, especially when you have EM 
sites and the goal of an EM site is to clean it up and move on 
and then you're left with all these employees that have been 
working there for 20 years and what do you do. It has been my 
experience, contractors that we've worked with have been pretty 
good at letting that workforce know what's happening and that 
the end is going to come at some point and time and helping 
transition them to other jobs because cleanup around this 
country is going to go on for quite a time in different areas. 
Before we move on to everyone else so that they get a chance to 
ask questions, let me ask Dr. Bakhtian.
    I read your written testimony last night and several of the 
innovative programs you're rolling out this year. Can you tell 
us more about those and some of the successes you've had since 
you opened the doors 10 years ago to CAES?
    Ms. Bakhtian. Absolutely. Thank you for the question, 
Representative Simpson. I'll highlight maybe two programs that 
we've started rolling out last year that we're excited about. 
One is called the CAES Summer Visiting Faculty Program and I 
consider it a real win-win which is always what we are looking 
for at CAES, wins for the Universities and the Idaho National 
Laboratory.
    What this program does is it brings a faculty member--lots 
of faculty members into the national lab for a week to get to 
know one specific expertise area and the researchers that work 
there and then over the Summer, they write a proposal together 
for external funding and this can also involve students as 
well.
    And so the faculty members get the opportunity to learn 
about INL's capabilities and build lasting networks while the 
INL researchers are exposed to diversified funding 
opportunities and really have the potential to connect the 
students. The pilot last year, we had only six faculty members 
to try it out. This year we have nineteen so we are really 
excited about growing that.
    Actually, we've had other universities really excited about 
this and they are interested in getting in the mix too. The 
second program maybe I'll highlight is a pretty interesting 
educational offering that we are trying out. We don't know if 
it is going to work but we are going to try it out. Again, it's 
a win-win.
    Universities sometimes don't have the resources to provide 
a very specialized offering but guess what? Altogether, the 
four CAES Universities possibly could.
    So what we are exploring is a certificate program whereby 
each of the CAES universities would only have to offer up one 
course but altogether, those courses with the hands on and 
world class training opportunity at the lab would provide for a 
whole certificate that each of the Universities could offer to 
their enrollees.
    We are exploring this first with nuclear safeguards and 
security certificates but again, we'd be able to create a whole 
host of very specialized certificates that people would want to 
come all over the world to our area to do.
    Your second question was maybe about metrics and I wanted 
to--I have a list of a few stats I'd love to share about our 
successes to date.
    CAESers have been awarded more than $100 million in 
competitive grants since we have opened our doors. We've 
published almost 2,000 journal articles, conference 
proceedings, et cetera.
    We've hosted over 15,000 visitors to our headquarters 
building but let's talk about people because that's really what 
it's all about.
    In the last five years, we've had 240 interns, fellows and 
postdocs, 36 of whom were then subsequently hired by the Idaho 
National Laboratory.
    We've had 35 joint appointees and I like this stat, we've 
had 485 INL employees that were turning to a CAES University 
for a post-graduate education which is showing that win-win 
again.
    Also, last year, a third of the new hires at INL actually 
came out of former INL interns and post-docs, some of which 
were CAES.
    And when we talk about the people, so I thought I would 
share one quick student story. We had the first ever student 
who was allowed to come in and start working at the case 
facility in 2009. His name was Michael Sultry. It is now Dr. 
Michael Sultry. But when he was doing the undergraduate 
experience he was actually mentored in the case facility by a 
faculty member from a different university in nuclear energy, 
and he enjoyed this so much that he decided to pursue a 
Master's.
    And then he kept moving up the pipeline and he ended up 
becoming a laboratory lead in our case building for 
radiochemistry which is a big deal. And therefore, he turned 
into a mentor for other students. So you can see how the 
pipeline works. Eventually, he was actually hired by Idaho 
National Laboratory. So those are the kinds of students' 
success that we see all the time at KAYS.
    Finally, I will just close by saying, Representative 
Simpson, you're very well aware of this. INL is about to open 
up the doors on two wonderful new collaborative centers, 
Cybercore and C3 this year. There are also research education 
initiatives that are state supported, and what I really love is 
the fact that, I heard, it was before my time. That when these 
buildings were being discussed in the State Legislature it was 
actually the shining example of KAYS that was shown off as, 
look, this is what we could do with the collaboration between 
the universities and Idaho National Laboratory.
    So I see that as a success of what KAYS has done in the 
past and kind of the torch that we're passing on to other 
centers. I think that is it.
    Ms. Kaptur. Thank you very much. We'd now like to turn to 
Congressman Kilmer.
    Mr. Kilmer. Thanks, Madam Chair, and thanks everybody for 
being with us. I wanted to start maybe with Dr. Bakhtian, and 
if others want to chime in on this I would welcome that.
    I am particularly excited about some of the DOE STEM 
programs. We have seen the success of that in Congressman 
Newhouse and my state. The Pacific Northwest National Lab 
Office of STEM Education is working on computer science 
education, training teachers through partnerships with 
Washington State University and the University of Washington. 
In my necks of the woods in Sequim, Washington at the Marine 
Sciences Lab there is a group of scientist that are 
participating in the lab STEM Ambassadors Program to connect 
scientific experts with classrooms and to help inspire that 
next generation of students.
    I want to get your sense. How do we scale this up? How do 
we scale up these programs and other DOE initiatives at our 
national labs to train future STEM workforce? And I also wanted 
to just get your sense how we build some deeper connections 
between the national labs and our local communities, and 
particularly some of the under representative groups. In my 
neck of the woods we have tribal communities and others who I 
know our local lab is trying to make those connections, but if 
you have advise in that regard it would be helpful.
    Ms. Bakhtian. Absolutely. Thank you for the question. 
First, I just want to iterate the importance of these kinds of 
STEM program. Obviously, KAYS is focused on universities, but 
the pipeline starts a lot earlier than that. K-12, for example, 
and working also with community colleges, technical colleges, 
et cetera.
    You know, maybe I will highlight some of the Idaho National 
Laboratory programs which I am not an expert on, but I will 
give you some ideas of what is going on. We have a program 
called My Amazing Future, for example, where this has been 
going on for I think 10 years. Where we bring in every single 
year all of the regional eight grade women in the area and they 
come for a whole day at Idaho National Laboratory, and we have 
folks from all over the lab. Obviously, a lot of the women 
researchers, but others who are really excited to be able to 
share what they are doing. So I think having strong programs 
and then continuing them year after year it just becomes kind 
of like a tradition, an institutional tradition.
    You also asked about how do you scale this up. I think that 
is an interesting question. Obviously, part of that is funding. 
Funding is always going to be the limit, kind of, to what we 
can do. You know, the national labs work closely together and 
have committees altogether where they are sharing best 
practices. That is always something great to do, but I think 
maybe we can be doing a little bit better about sharing the 
importance and the statistics that would drive these kinds of 
actions so people can see how important they are.
    Mr. Kilmer. Thank you. Does anyone else want to weigh in?
    Mr. Smith. Yes, I would be happy. I am sorry. Are you going 
to go? I would be happy to chime in a little. I think part of 
it, too, is, for instance, we just ran at both of our sites and 
introduce a girl to engineering type approach, but a lot of 
times these programs tend to be in the STEM outreach a little 
bit too much of a one and done for a while and then you come 
back. I think it takes a sustained effort. I think you have to 
be in the schools. You have to encourage it.
    And you have to think, especially, like, in the 
underrepresented areas try to paint that vision and get people 
to maybe think about STEM as something different than the way 
they think about it today. You need STEM to be an electrician. 
You need STEM to be a machinist, a welder, a chemical operator, 
and you can go on and on. And so therefore, gaining that vision 
that gets someone to start into a trade, and it may lead later 
on to they decide to go back to school.
    I was a mill right helper and then eventually I completed 
an engineering degree. And so I think it is important to get 
the vision there, but it takes a sustained effort, and I agree 
with the doctor it takes funding then or the allowance to go in 
and spend your employees' times to build those relationship. 
But I think it's a national investment that would be essential 
for the future.
    Mr. Kilmer. With the time I have left I wanted to ask about 
investment in building a workforce to deal with the electrical 
grid and sort of smart grid technology. We are seeing as we try 
to, sort of, de-carbonize and depend more on renewables having 
a smart grid to manage the supply and demand side is 
increasingly important and, often, I imagine, requires a new 
and different set of skills. Maybe Mr. Colston or others if you 
have a reaction to that. What are you seeing in terms of new 
skills that are required? In terms of the, kind of, electric 
grid workforce of the future? Any thoughts on what we need to 
do to train students up both today and down the road here for 
the future grid.
    Mr. Colston. So the skills that the future holds, and as 
most of us see the grid is changing and the skills need to 
change with the grid itself. So the jobs within the utilities 
themselves, those are very blue collar high paying jobs and 
very high-skilled jobs. So as you take generation off you have 
to put more transmission in. So therefore, that creates other 
opportunities on the transmission side. When you talk about 
grid modernization the lineman of yesterday that where you set 
poles and pull wire is not the lineman of tomorrow. The lineman 
of tomorrow has to be digitally experienced enough to know that 
the sensors that we are putting on the line to communicate with 
the system dispatch is allowing the utility to understand what 
is happening with the electricity. So as they come through the 
door of the utility itself as reaching out as you talked about 
STEM earlier. STEM gets them through the door for there. What 
it does not do is get them a skilled trade once they get 
through the door.
    What happens from that point in conjunction with the 
utility we teach them the skills they are going to need to be 
successful in their career. So that is where we look at to say 
that we have to teach them, one, what does grid modernization 
mean? Is it meaning that we are going to put lines underground? 
Is it meaning we are going to increase the transmission lines? 
We are putting sensors all through the distribution and 
transmission system to be able to communicate back of how we 
can effectively keep a 24/7 electricity running when that 
customer wants it.
    Mr. Kilmer. Thank you. Thanks, Madam Chair.
    Ms. Kaptur. Thank you very much, Congressman Kilmer. 
Congressman Fleischmann.
    Mr. Fleischmann. Thank you, Madam Chairman. I want to thank 
this distinguished panel today for being here. Workforce 
development is an American issue. It is really wonderful to see 
not only bipartisan support with this great subcommittee and 
our full committee, but really earlier today I just left the 
Department of Energy that did an Atomic Wings luncheon. DOE is 
working in this direction in the like. It is really outstanding 
so thank you.
    I would like to extend a special thanks to Morgan Smith and 
also Mr. Thompson. I want everyone to note, this is very 
important, CNS is a wonderful group. It is a Bechtel litis 
consortium that does a great job at Y-12 and is building the 
uranium processing facility. But the fact that Mr. Thompson is 
here as a labor leader speaks volumes, and I thank you for 
being here today. The workers in Oakridge work with business 
leaders, work with community leaders and we get it done, and I 
think that is so critically important as we move forward on 
workforce development that everyone has a seat at the table. 
And special thanks again, Morgan, for the job that you do with 
CNS.
    I have a question. We often talk about the progress that is 
being made on the construction of the uranium processing 
facility. That is the UPF and it really has been truly amazing 
what you have done. However, it is also important that the 
workforce be prepared to continue operations despite 
transitioning from Manhattan project area facility to a state 
of the art 21st Century facility. How are you ensuring, sir, 
that the current workforce is prepared to continue operations 
in the UPF?
    Mr. Smith. Thank you, Congressman, for the remarks. And one 
of the things that we are working very hard with in that 
example that I gave earlier in my opening remarks relative to 
the Roane State chemical operator preparation program that we 
are working which I think will benefit not only us but other 
chemical industry jobs along the way, but we recognize that we 
must develop a strong cadre of future chemical operators as we 
move into the new facility. Because at the same time we are 
moving we are also going to be closing down the old facility. 
So a big part of it is preparing the workforce of the future, 
having sufficient chemical operators to do that work, gaining 
familiarization with all the trades and crafts that we have 
relative to the new facility.
    There will be new systems in there. Again, similar to what 
Mr. Colson said. Where we are today is not where we are going 
to be in the future, and so we have to learn those new systems 
and be prepared and bring individuals along. We are going to 
have to have the right kind of start-up teams in the 2022-2023 
range of a coalition of workers that are really learning the 
new facility and experiencing that, and we have all that in our 
plans. We believe it is funded, and so we are marching forward 
to that end.
    Mr. Fleischmann. Thank you, sir. Also in my district we 
have a facility, a DOE Oakridge Institute for Science Education 
managed by ORAU. It is a tremendous resource for students, 
teachers, researchers, and individuals looking to work with 
numerous national laboratories and government agencies. On 
average each year ORISE places approximately 8 to 9 thousand 
participants in research programs at 22 different Federal 
agencies.
    As time is moving tight, I just will ask you these 
questions and I open this up for whomever would like to answer. 
Thinking across the spectrum of opportunity, from students to 
experienced professionals, are you aware of opportunities for 
public/private partnership that the government is not currently 
pursuing? And I open that to anybody.
    Mr. Smith. Well, I will give it a start. I think the 
opportunity there is to make sure that we are intentionally 
encouraging the right people to get in these program, probably 
to look harder at internship programs, as the doctor has spoken 
of, and make sure that they are greatly aligned. And then make 
sure that as we articulate it facing in here to Washington that 
as we work harder to develop these programs we also make that 
we are representing what funding is needed. Be that in people 
head count, dollars for the educational aspects.
    And so I think we have more work to do there to really 
shape it and be more intentional, and I think that is the big 
opportunity is to get a lot more intentional about it. Because, 
again, as I said in my opening remarks I think we have a 
national issue here that we have to prepare and be ready for 
the future.
    Mr. Fleischmann. Thank you, sir. I believe my time is up. 
Madam Chairman, thank you for calling this critically important 
hearing. It has been a privilege. Yield back.
    Ms. Kaptur. Thank you for participating. Congressman 
Newhouse.
    Mr. Newhouse. Thank you, Madam. Madam Chair, appreciate all 
of you being here and having this important conversation as it 
relates to the future of our labor force in a critical field 
for our country. Many people here on the panel know, but maybe 
you do not, but I represent the Hanford Nuclear site in Tri-
Cities, Washington so you probably know thousands of my 
constituents are really at the front line of the challenging 
work that is done there, challenging, important, and dangerous 
work, I should add.
    Partly from this, from the highly trained workforce that we 
have and has been assembled for the technical needs at Hanford, 
but as well as we also have a national laboratory, Pacific 
Northwest National Lab just down the road a piece. Tri-Cities 
truly has become, I guess you could say it is a hub for many of 
the science and technology, the research, the innovation, the 
development for many of the things that we have been talking 
about today.
    A key component of that, though, has been really, I think, 
the cutting edge partnership that have been developed with some 
of the industry partners, labor community, certainly state 
colleges, universities, as I mentioned, the National 
Laboratory. I would like to point out a couple of those just to 
brag a little bit on them.
    For instance, Battelle, which is the manager and operator 
of PNNL for the Department of Energy has contributed to the 
development of the Bachelor's program in cyber security at 
Columbia Basin College. CBC's cyber security center has 
subsequently been certified as a national center for academic 
excellence by the National Security Agency and the U.S. 
Department of Homeland Security or the Washington River 
Protection Solution.
    The operations contractor responsible for the 56 million 
gallons of nuclear waste that are stored in temporary 
underground tanks at Hanford. They have recently funded a major 
effort being developed by a professor and his research team at 
Washington State's University's Tri-Cities' campus to engineer 
a high-performance grout that will potentially be used to 
encapsulate solid secondary waste at Hanford.
    Or one other example is a partnership with Department of 
Energy and Bechtel International which is the prime contractor 
responsible for the construction of the waste treatment plant, 
and CBC, Columbia Basin College. They have developed an 
analytical methods laboratory to provide chemists and 
laboratory specialists' ability to plot out process and 
procedures that will be used at the plant to classify 
radioactive waste from the Hanford site.
    So I could go on and on and on. The list is long. There is 
a lot of collaboration already taking place. I am sure we could 
use more, and I guess kind of a softball question, but very 
important I think as we move forward, Dr. Bakhtian, I would 
like to expand a little bit, if you could, as to why you think 
that collaboration between the universities, industry, 
certainly the national laboratories, and more importantly, 
here, the Federal government, why it is so critical to this 
future question?
    Ms. Bakhtian. Absolutely. Thank you for the question. Since 
you did mention Battelle I just wanted to share that Battelle 
is also the mothership for the Idaho National Laboratory as 
well which is operated by BEA, Battelle Energy Associates.
    So your question, why is collaboration so important? I 
think that comes just down to the science and the crux of 
collaboration itself. There are actually scientific studies 
that show that when you have diverse opinions in the room, at 
the table, when you are working across the aisle and with 
others you actually come up with more innovative solutions. And 
so that is one of the reasons that we find collaboration so 
fun.
    You know, just bringing together, talking about public/
private partnerships, bringing together the needs of the 
industry, and you can include Idaho National Laboratory in that 
a little bit, as far as workforce development with the source 
of that which is education, whether it's universities or 
community colleges or K-12. That partnership and being more 
intentional about it actually provides for a better end result 
which is a stronger workforce at the end of the day and the 
workforce that you want. So I think collaboration is crucial. 
And, honestly, collaboration is what we do at KAYS. That's our 
keyword.
    Mr. Newhouse. Good, good. Thank you very much and I have 
got some other thoughts and ideas, but maybe we will have time 
for a second round, but thank you all for being here today. I 
appreciate it very much. Thank you, Madam Chair. I yield back.
    Ms. Kaptur. Thank you. Congressman Calvert.
    Mr. Calvert. Thank you, Madam Chairman. I think we are 
talking about the challenge of our time. I work with the 
Department of Defense on a number of issues and getting young 
people involved in science is a difficult problem. There are 
studies out there that show about eighth or ninth graders make 
a determination of where they are going to go in their careers 
in high school and college, and many of them, obviously, are 
not choosing the hard sciences. They are not choosing to go 
into the STEM fields.
    And so other countries, India, China, Russia have much 
better outcomes than we do in the United States. So the 
challenge is we need another, I guess, Sputnik moment. I 
remember when that happened, everybody was running around with 
their HP calculators going to their physics class and taking 
calculus in high school. Now they do not even have calculus in 
high school. Most school districts have stripped calculus 1 and 
2 out of the high school curriculum and you have to go to a 
community college.
    It is not just your industry, but it is all industries. 
Like I said, it is a challenge of our times so maybe it is a 
panel question, but, Doctor, do you want to start with that?
    Ms. Bakhtian. Absolutely. Thank you for that question; so 
important. I think to me, this is my personal opinion, that the 
excitement comes when the students have the hands-on experience 
and see the application. Because sitting in a math classroom or 
a science classroom, sometimes you don't see the big picture of 
how you can make an impact in the world. I certainly didn't, 
and so there are some ways that you can help with this, 
especially centers like CAES and national labs and others of 
our--and industry.
    So, one of the examples is I was actually a part of the 
NASA Speakers Bureau when I was working at NASA. As 
researchers, we would go out to local schools who requested it 
or we would tell them what we do and they would request us to 
come out and give talks at the very lowest level, from 
kindergarten to 12, right, and it would actually get students 
excited. You would see their eyes light up. And so something 
that we have been thinking about at CAES is actually creating a 
CAES Ambassadors Program or a CAES Speakers Bureau where any of 
the five entities, whether they be students or faculty or 
researchers at the lab, we would be able to reach out to them 
and send them out to the schools that need speakers.
    And, again, I see this as a win-win because as a speaker 
myself, just talking to students and hearing their questions 
and seeing their excitement reminded me about why I loved what 
I did so much. So, that is an example if that helps.
    Mr. Calvert. Thank you. Anyone else? Mr. Smith. Ms. Evans.
    Ms. Evans. So one of the things that I think that CEWD 
helps the energy industry do so well is really to start very 
early. And so we are, even in kindergarten, talking about and 
getting kids interested and excited about STEM, and doing that 
through things like you just described. FIRST Robotics, it is 
where they go and they build robots and they have competitions 
and they are learning about STEM without thinking about the 
fact that it is engineering.
    The other thing to do to really help to focus and to get 
students interested is around focusing on diversity and 
inclusion and letting folks see that there are people who look 
like them in these type of roles, and doing that through 
spending time in schools by building programs in areas where 
there might not be that type of representation. You can do what 
you see, and helping students understand very early that energy 
is an exciting career and one that is very applicable to them, 
is one that we have seen that has helped really drive interest 
starting with very, very young students.
    Mr. Calvert. Great.
    Mr. Smith. I would sort of add that I think it has been 
captured well by the first two speakers there, it is relevance 
and vision. I am of the age where I identify with what you 
spoke about. We all wanted to be scientists or engineers in the 
sixties because of what NASA was doing. We didn't actually need 
a STEM program. We had NASA. So, talking about things at a 
national level, making it relevant and real to students, 
bringing it down, starting early as been said, having the 
diversity and inclusion to bring everyone in, and have them see 
the ability to have a real contribution in where we are going 
as a Nation and as mankind, I just think it can be made 
exciting. We just are not making it exciting and so we have to 
engage in a greater way in industry, as labor, with the 
classrooms and make it real.
    Mr. Calvert. Thank you. Thank you, Madam Chair.
    Ms. Kaptur. Thank you, Mr. Calvert. Congresswoman Wasserman 
Schultz.
    Ms. Wasserman Schultz. Thank you, Madam Chair. Climate 
change, I think, can be acknowledged as a central crisis of our 
time, no matter what you think the origin is. And it is 
something that we really have to meet head-on. The American 
energy industry's work is really critical, not only for our 
future, but for our Nation's future and the future of our 
planet as well.
    The development of the renewable energy sector over the 
past few years has been really extremely encouraging and it 
continues to grow and create more good paying jobs. I mean, for 
example, we have about 800,000 people that are employed by the 
petroleum industry, but the clean energy industry now employs 
611,000, approximately.
    So this is no longer a fledgling industry. This is no 
longer, you know, fly-by-night or cross our fingers and hope it 
works out. This is really a sea change.
    According to projections from the Bureau of Labor 
Statistics, solar panel installer is the fastest growing job in 
eight different states, including my home state of Florida.
    So, Ms. Evans, my first question is what would you say is 
driving this rapid job growth in clean energy and how--what 
steps can we take to sustain it? And what challenges still 
exist that may be hindering job growth in the clean energy 
sector? And I will tell you, in my state, you know, we have a 
number of different power companies. NextEra and FPL are mine 
and they have really been leaders in the clean energy, 
renewable energy effort, despite criticism that all the power 
companies might get and so, you know, we have a few of the good 
guys, but we always can do better.
    Ms. Evans. So one of the things that we just talked about, 
about getting people interested and excitement, is around 
technology. And so what you are seeing with new technology, 
especially advancements around green and new type of ways to 
distribute energy, is that it is interesting and it is 
different. And so one of the things that we continue to focus 
on is building that foundation with STEM because you really 
need to make sure that people understand that, but you add in 
and think about competencies. Right, and so when you think 
about battery storage that is becoming closer and closer and 
you think about solar panels and you think about distributed 
generation, it is thinking about the workforce we have today 
and up-scaling them and making sure that they have the skills 
and abilities to continue to compete for those roles as well as 
attract and encourage new people to come in. So, I think it is 
an excitement and it is new and it is something that people can 
get very excited about.
    Thirty percent of our workforce is made up of millennials. 
Technology is something that is not a--it is a necessary thing. 
It is just as important to them as air and so finding ways to 
link that with what we do in the energy sector is what started 
to do that growth.
    And, again, I just wanted to go back to when you think of 
the STEM and it being the foundation and helping to make sure 
that we not only build upon that, we partner with our technical 
schools, and the reason why is because that is a great and easy 
way to talk about things like how do you up-scale talent and 
how do you put a certificate program in very quickly to get 
people the skills they need to be successful, so.
    Ms. Wasserman Schultz. Exactly, and actually that really is 
the perfect segue into my second question which deals with 
women and minorities because they comprise a relatively small 
portion of the nuclear security and energy workforce, which is 
mostly older white men. No offense to the older white men in 
the room. There might be--I know, I am sorry. Sorry, not sorry. 
According to--we love our older white men, I promise.
    According to a report prepared for the American Petroleum 
Institute, women make up around only one-fifth of the workforce 
in the oil and gas industry and comprise an even smaller 
portion of the executive level positions. And the report also 
found that African Americans make up 6.7 percent of the oil, 
gas, and petrochemical industries while they make up about 12 
percent of the population, you know, our population.
    So, Ms. Evans, can you discuss ways to foster employment 
and leadership opportunities for women and minority communities 
in the nuclear security and energy workforce? Would you say 
that the energy industry is behind other industries in 
diversity and inclusion efforts? I am just going to ask you all 
my questions and then I will let you go.
    Ms. Evans. Okay.
    Ms. Wasserman Schultz. Is the renewable energy sector 
bucking this trend in recruiting more women and diverse 
candidates? And I really applaud your get into energy and get 
into STEM initiatives. My youngest daughter is in 10th grade. 
She is a very science- and math-oriented young lady. I can't 
imagine where she got that from because it certainly wasn't 
from me, but what opportunities and partnerships should we be 
looking at to ensure more diversity in the STEM workforce and 
how can Congress help?
    Ms. Evans. Great. So thank you very much for that question 
and I am going to kind of start at the very beginning. When you 
look at the energy industry and diversity and the types of 
jobs, we have a very tenured, very stable workforce. We do not 
have a lot of turnover and churn, and so when you think about 
folks leaving the organization and people coming in the 
organization, that tends to be very slow.
    And so when it comes to D&I, we have to very intentional 
about thinking about where do we go to recruit. We have to look 
at different and diverse pipelines. The military and veterans 
is one that is exceptionally strong. Folks who have served our 
country understand what it is like to work in an organization 
such as ours, where it is safety, where it is procedural-based. 
It is something that takes a long time for people to get 
skilled and understand that have a commitment. But there is 
lots of great diversity among women and minorities in our 
veterans and so leveraging that workforce, but it has to be 
intentional. And as you think about people transitioning out, 
you think about how do you find pipelines to pull people in. It 
goes back to starting very early. People think about what they 
will do based on the people that they see that are doing that 
work.
    And, if I can have a moment, I was a recruiter very early 
in my career and went to a career fair at an elementary school 
and was talking about the power company and I had a little girl 
start crying because for her it wasn't a positive situation. It 
was somebody that came and turned off her power. And so very 
much it was talking about, no, this is a career path for you 
and this is what we do and this is why it is exciting for you 
and so spending time to be intentional about pipelines, 
thinking about the programs that we already have and we 
leverage, not creating special programs just for minorities or 
females because, again, you want to leverage what you already 
have and so how do we be intentional to make sure that we get 
diversity into those pipelines and we leverage it.
    Ms. Wasserman Schultz. That term ``intentional,'' Madam 
Chair, has sort of become a buzzy-word, but it is so important 
when it comes to making sure that we have diverse opportunities 
for more people who wouldn't traditionally form that pathway, 
which is why I have intentionally directed my youngest daughter 
that she should be an engineer when she chooses her major in 
college. And so, anyone who wants to help me assist her and 
other young women move in that direction, all advice welcome, 
as her mom. Thank you.
    Ms. Kaptur. Thank you very much, Congresswoman Wasserman 
Schultz. I wanted to ask the panel, we have been talking a 
little bit about what the private sector can do, what 
educational institutions can do, what skilled labor can do. I 
wanted to ask you, what do you think the Department of Energy 
should do and its labs in terms of fostering workforce 
training? Congressman Calvert's statement that many high 
schools don't offer calculus was a shocking statement to me. I 
don't know if that is true across the country.
    Mr. Calvert. I never used calculus, so.
    Ms. Kaptur. But, wow, this is not the education committee, 
however, we have a responsibility to the country to do our job 
to be world leaders in energy. And so my question really goes 
to if you could advise the Department of Energy on how to be 
more effective in fostering the pipeline we have been talking 
about, and I am going to call on you, Ms. Evans, first because 
you were the panel member that identified the earliest age 
group, children. What can we advise the Department of Energy or 
suggest so that they can be partners in fostering workforce 
training in the very skills that they so desperately need, 
including our lab directors? So, I am really interested in your 
suggestions.
    And while each of the panelists is thinking about answering 
that, I am also going to ask if you have materials that we 
could put up on our website. Several of you have talked about 
STEM. Well, are there standardized STEM advice or materials we 
can post on our website that teachers across this country can 
access? Are there materials in your possession?
    You know, we only have 17 labs and we have 50 states and 
not every state has a lab and so not every place in America has 
lab connectivity, especially those that are in the bottom rung 
of median income per household. So, what do we do on the 
website of our committee to help you do your work? What 
materials can you provide us? What models can you provide us 
for the 20 states, evidently, that don't have any such training 
relationship with the energy industry? What might we put up on 
our website to help?
    And I was thinking about this. Someone talked about 
distance learning. What could we do to promote some type of 
distance learning or access to information that could be pulled 
down from the poorest school district in the country to the 
wealthiest, that would help us deal with the STEM education 
issue more effectively? I think everyone in this society has a 
responsibility, including this subcommittee. So, what would you 
advise the Department of Energy on the training front, Ms. 
Evans?
    Ms. Evans. One of the things that would be extremely 
helpful is continue focusing awareness on the opportunities 
that exist for students. There is a 4-year career path or a 
college track that people can go into and that is what we spend 
most time talking about, but there is a hugely lucrative and 
incredibly amazing career path that comes through technical and 
career colleges, and it is called now the ``new collar,'' and 
so it is career-ready, where people can go to school for a 
relatively shorter period of time and go right into a career 
versus potentially going into a college, so helping to take 
away a little bit of what really is a stigmatism in going into 
something that isn't a 4-year. We have--we want our children to 
go and do things better than we did, and sometimes that means 
directing them away from some of the jobs that we need the 
most, electricians, mechanics, some of those very skilled 
trades. That would be one.
    The other is support and funding around what we call 
wraparound services. We can attract and get people into 
technical training programs and get them into technical 
colleges, but having the support for them to stay, and it is 
things as little as tuition assistance, it is transportation, 
it is career counseling, it is helping students identify early 
that they might be better suited for a 2-year technical program 
than a 4-year. Right now career counselors in high schools have 
3- to 400 students. They can't spend the time and energy to 
help them think about what that means for them. So those would 
be the types of things that the DOE could really help do that 
would add to immediate results.
    We have a great infrastructure. We have great programs. 
Help us focus and strengthen what we have versus creating 
something new.
    Ms. Kaptur. While you were talking, we put back up on the 
board there the energy sector age distribution. And Dr. 
Bakhtian, you talked about the term a ``silver tsunami.'' Well, 
it is pretty clear what is happening there and I keep saying 
how do we move the bubble to the left? How do we more quickly 
accelerate movement into these fields? And those who are in the 
audience, those who are listening elsewhere, the committee will 
accept relevant information and post it on our website to help 
America understand a little bit better the challenge that we 
face in this really vital industry to our country.
    Would anyone else on the panel wish to comment on what you 
might advise the Department of Energy in order to be more 
effective in meeting this national goal?
    Ms. Bakhtian. Chairwoman Kaptur, if I may. I want to focus 
more on what you mentioned about the website and what is 
information that you could be providing that can be accessed 
from anywhere, not just next door to a national lab or 
somewhere near in D.C., and I want to just give a brief example 
of something that we have done in Idaho.
    So there is a commission called the Leadership in Nuclear 
Energy Commission started by former Governor Butch Otter and it 
is now led by current Governor Brad Little, and the LINE 
Commission, which I sit on, and many of my colleagues at the 
lab do as well, something that we have done within the 
Education and Workforce Subcommittee is we have created an 
online, kind of innovative PowerPoint. It is not a regular 
PowerPoint. It is something that can sit on a website. And what 
it does is it provides students, K through 12, even those in 
community college, with an idea of very visually aesthetically 
pleasing, what are the jobs--this one is nuclear focused--what 
are the jobs in nuclear that someone might want to go into, 
whether it is material scientist or an operator or a nuclear 
engineer. And as soon as they click on it, it tells them what 
is an average salary, it tells them how many are actually in 
need in the state and in the region, and it also tells them 
exactly which degrees they would need from a regional college 
or university.
    So it just gives them all of the information they might 
need that sometimes that is the hurdle that they need to go off 
and try something new. So that is something that we can 
absolutely provide to you and maybe that is something the 
Department of Energy or the national labs can be working on, 
creating for all the other energy sectors as well.
    Ms. Kaptur. Thank you very much. We will accept your offer. 
Yes, Mr. Smith.
    Mr. Smith. I guess one thought would be we would need to 
provide more resource to go, I think, get into the schools and 
mentor young people. You know, part of what was discussed by 
the representative that now has left whose daughter was 
thinking about engineering.
    Part of the parental journey is many of our children hit an 
age where we are not all that relevant but somebody else is 
more relevant to listen to. And I think we have, for instance 
we refer to them as affinity groups.
    I have early career people, early career engineering 
groups, National Society Black Engineers, Women in Nuclear. 
There is a lot of affinity groups typically on Department of 
Energy sites but we are very limited in the amount of time we 
can devote to allowing those employees to spend time in the 
school systems to really be those mentors and make that kind of 
impact. And so there would be an opportunity there, but it 
would take resources to be able to do that because when they're 
doing that, they're not doing their day job if you will.
    But I really believe that at some level, and then when you 
talk about underrepresented groups and that sort of thing, you 
know, the ability to put them together with somebody that can 
create a vision of what's possible and where you might be able 
to go with your life and a career is something that I think is 
very important. Because when you go home, you don't necessarily 
have that vision instilled in you.
    And so I think there is a lot of opportunity but it would 
take the ability to use that resource and really impact at 
least in the areas. But when I look across the Department of 
Energy, we are in a lot of locations. So if you at least 
multiple there as a starting point, its pretty significant.
    And then as has been discussed by Ms. Evans, you know, the 
robotics programs, all that takes funding as well. But when you 
get around those young people that participate in that, there 
is more energy than you can imagine and it's just fun and 
building this, the, you know, the cell cars and science bowls 
and all these things, but it all takes resources to accomplish 
it.
    Ms. Kaptur. I would very much appreciate to put on our 
website if you have this ability in the organizations that you 
represent, personal testimonials from people working on your 
sites and to talking--talk about their job and what they do.
    And I will tell you in the region I come from, plumbers and 
pipefitters in elections twice saved our necks in a nuclear 
power plant. Not a one of them got any TV time and they got 
hardly any recognition and I feel people like that who really 
make America run deserve more attention.
    And so if you have such materials in possession of your 
organization, think about who are the best spokesmen and women 
in those organizations and give us the video clips and we will 
try to put them up in some reasonable order, talking about why 
what they do is important.
    They can talk about their salaries if they want to, 
annually what they and their colleague might earn but also why 
they love their job and why they are so good at their job. And 
I think America needs to hear their voices.
    I wanted to--I had a couple other questions here. I wanted 
to ask for the record and what would be one of the toughest 
jobs, the most challenging jobs in each of these sectors that 
you represent? Mr. Carlson, I am going to start with you. 
Colston, I'm going to start with you.
    Mr. Colston. So you know we represent a wide range of jobs 
within the utilities themselves and you can go from, you know, 
from operators to mechanics to maintenance people to lineman. 
Linemen are highly technical jobs but I would say a nuclear 
operator is probably one of the most highly technical jobs that 
you have.
    By the time you pass the NRC regulations that's going to 
allow you to operate this multi-million dollar piece of 
equipment, that is a--and they're tested regularly on that not 
only that, the pumps, the equipment, the NRC regulations. It's 
a continuous education for a nuclear operator to maintain their 
ability to operate that unit.
    And that's the same person that came in through the door 
that we talked about being aware of blue collar jobs that did 
not have a college education, but came through the door with 
the ability to come in that the company and the unions worked 
with to say we can build you a craft. We can build you a skill 
level that is marketable and you're going to operate a million 
dollar piece of equipment.
    And that's where those apprentices programs take place as 
in telling them these are good blue collar jobs with highly 
skilled workers at them.
    Ms. Kaptur. I know in our region it was those very workers 
who attempted and succeeded in turning off various valves and 
switches in the bowels of the operation when the control room 
made mistakes, whether it was mistakes that were made or some 
piece of equipment malfunctioned in the control room it was the 
operators that went down and saved our community. Twice.
    That is one of the reasons I am on this committee. Because 
I have such respect for what they did and I would like to 
elevate their contributions to this country. I am hoping each 
of you can help me in some way. Congressman Simpson.
    Mr. Simpson. Thank you. This has been an interesting 
discussion and an important discussion but I am going to go off 
the rails for just a little bit. As I sometimes have a tendency 
to do. We hear about STEM all the time. It is STEM this, STEM 
that, we have to do more STEM, all that kind of stuff.
    My fear is that we forget about that rest of the person. We 
forget about the rest of their education. The arts are 
important. History is important in becoming a complete 
individual. And I worry that we are going to be so focused on 
STEM that we are going to forget about the rest of the part of 
the person. And that is important as they are going to school.
    But it has been interesting that you have talked about, Ms. 
Evans, about the collaboration with young people, getting them 
excited about knowing that these types of opportunities are out 
there for them.
    And you have talked about, Mr. Smith, about the transition 
as labs transition or workforce develops in other areas and the 
challenges that that brings.
    And, Noel, you talked about the important collaboration 
between individuals in college, wanting to have the hands on 
experience with real live researchers doing real research, and 
how that transfers into them getting into the field and stuff.
    Mr. Colston, I agree completely with your testimony. It was 
when I went to college, back when William and Mary's first 
graduating class occurred in 1796 or something like that. Not 
really. I mean, it was a while ago. But the thought at the time 
was okay, you can go to college and you can make a bunch of 
money or whatever, but if you want to have a good living, you 
have to go to college. If not, you go to community colleges or 
you go to trade schools or something like that. And if you 
graduate from college--just from high school you are done. I 
mean, that was kind of the theory.
    That is not true anymore. In that there are opportunities 
that require all sorts of different skill levels. Sometimes it 
is community and technical schools. Sometimes its 
apprenticeship programs. Sometimes there are some jobs skills 
that require not only college but post graduate degrees.
    I have always worried that we are encouraging when we 
measure people's success or a state's success or something 
about how many of your students go to college? I don't think 
that is the measure anymore. The measure should be, and I don't 
know how you would do this, but the measure is are you happy 
with what you do? And what are you unable to do that you would 
like to do because of a lack of skills? And is there something 
we can do to help you gain those skills so that you can 
accomplish the life that you want to achieve?
    When I graduated from college, I didn't know what I wanted 
to be but I can tell you one thing. Well, I do know what I 
wanted to be. I wanted to be a water color artist. And I could 
have done that, but I would be a lot thinner. Because I 
couldn't have made a living at it.
    But part of what I wanted to do was okay, what do I--what 
is something that I can enjoy doing that I think I have some 
skills in that I can make a living at at a living standard I 
want to live at.
    Why is the government now involved or why should we be 
involved in trying to fill that gap where we have a need for--
we can look and say we are going to need all these engineers or 
workforce and the energy sector. If I'm going to college then 
I'm going to say--I'm going to look there and say hey look, 
jobs are available in the energy sector. That is, you know, 
that is maybe where I want to go. Maybe I don't want to become 
an artist because there are no jobs available there.
    Why isn't that enough to help move the workforce in the 
direction where the jobs are available? And the reason I ask 
this is because when I--back when I went to William and Mary, 
no, I actually didn't go to William and Mary. But I can 
remember the Federal Government at the time said or a few years 
before I went, we need more engineers. We have to have more 
engineers. We are running out of engineers in this country. And 
they pushed everybody into the engineering programs whether it 
was chemical engineering or electrical engineering or 
structural engineering or whatever.
    I went to college and some of my best friends were guys 
with PhDs in engineering that couldn't get a job because we had 
pushed everybody into that, in to fill those needs. The 
government is not really good at this. What it is good at is 
trying to identify kind of what are the needs going to be in 
the future and how can we tell the workforce of those available 
opportunities? And if you're looking for a long term job, maybe 
this is where you ought to look.
    I guess that's kind of a question. Any comment on that off 
the rails comment?
    Ms. Bakhtian. Ranking Member Simpson, if I may, first a 
stat that I found interesting that I just learned. In the 
nuclear energy sector, the--there is a stat that says that 
nearly 35 percent of those employed in the occupation have a 
bachelor's degree or higher.
    And while that does suggest that there is some university 
and post grad education is necessary, that there are jobs that 
don't require that, just as you stated. So I think, it has been 
mentioned before that knowing what you want to do and what 
level of education or skills, not even education, just skills 
or training you need to get there is very important. And so 
what we have been thinking about actually at the Energy Policy 
Institute is taking the jobs report, the energy jobs report 
that just got released yesterday and doing kind of a second 
analysis, a more deep dive analysis on okay, so what are 
exactly the needs and what's the road map that we need to get 
there? So I think it's a really important question for right 
now. Thank you.
    Ms. Evans. We have to look at the partnership in companies 
partnering with the government to understand supply and demand. 
I mean, a key component of workforce development is having the 
right supply to meet the demand and not one over the other. And 
so having companies come and organizations come and talk about 
what that demand looks like and where, and then partnering with 
us to figure out how do we get the best supply is how we will 
make sure that we do that in a way at the end of the day people 
have those jobs to do what they want to do and be successful.
    Mr. Colston. I think the government plays a major role in 
building partnerships. Partnerships that lead to pipelines that 
feed people to come up through whether it be the high schools, 
the trade schools, the apprenticeship programs, is the 
government can say that look, in the place of this, we need to 
partner with our industry. We need to partner with labor. We 
need to partner with our school system to say these are the 
jobs that are available. What can we do?
    And I think Center for Energy and Workforce Development, 
that is the main focus of that whole institute is just say how 
can we build those partnerships of making aware of what are the 
jobs? Most people there's a lot of kids that are in high school 
and or two year colleges that would do a whole lot better on 
earning a living and an education at the same time.
    Mr. Simpson. You know, that is what is very----
    Mr. Colston. That's very important.
    Mr. Simpson. That is what community colleges are so good at 
is when an industry or business wants to move into the 
community and they need some people and some skills, you will 
find that those community colleges have the flexibility to 
develop the classes to train those people. And they are going 
to become more and more important in the future I think.
    Mr. Smith. You covered pretty large water. With that set of 
comments. It's interesting, one of the areas of work is the 
naval reactors facility in your area that you represent. And I 
recently read some of the writings of Admiral Rick over again, 
reread them and he talked about the need for all of us even if 
we are in a technical field to have that broad spectrum of the 
humanities, the arts, because that would foster the greatest I 
think contribution of citizens in the country and as well 
probably stimulate greater creativity.
    But, I think, you know, I struggle too with what is the 
Federal Government's role in all of this. Because I still think 
it comes down to in each community, teachers, parents, 
industry, helping people get a vision. And the ideal world is 
to go pursue something that you love not because you are told 
to do it, but because you really enjoy doing it. And then as 
well really exposing people to that broader set of 
opportunities.
    Because I still think we are living in a path exactly what 
Mr. Colston just said, where there is a lot of encouragement to 
go to a university but people come out with degrees that 
there's nothing you can do with them, in reality. And education 
has gone somewhat to selling education. And we need to help 
channel people into something that they would enjoy, something 
they can make a living with, and something that they can 
contribute to our society with. The degree to which the Federal 
Government can help establish that vision I think is what we 
need to wrestle with.
    Mr. Simpson. Well, I appreciate that. And I am not one who 
is denying that the Federal Government has a role in all this 
kind of stuff. But what I do is struggle with what it is. You 
know, and so I appreciate all of your testimony today. It is a 
fascinating subject. It really is. Thank you.
    Ms. Kaptur. Thank you, Congressman Simpson. Let me just say 
that I can attest to a fine water color artist you really are. 
And also say that in my part of the country, we respect STEM 
very much but we put an A right in the middle. STEAM.
    So we get both the left and the right side of the brain 
engaged and so we need STEM and we need STEAM in this country. 
And that leads me to my final comment which is creative and 
innovation.
    Oh, Mr. Fleischmann. Oh, I am sorry. I will wait on my 
question. I will yield the floor to Congressman Fleischmann.
    Mr. Fleischmann. Thank you, Madame Chairman. I will be very 
brief. In my opening remarks, and I am so glad that you alluded 
to this. The Department of Energy is actually engaged in work 
force development. Just today I participated in an event with 
them. But last night I spoke with Secretary Perry and perhaps 
we can help them because the Department of Nuclear Energy has 
these things called Millennial Nuclear Caucuses where they get 
millennials in and give members of Congress such as myself and 
other members, both appropriators and authorizers to go in and 
talk with them about careers in nuclear across the board.
    And I commended the secretary because this is done under NE 
but something that we need to be aware of, this is a temporary 
program. It has been successful so perhaps, Madame Chairman, as 
we go through the appropriations process, either with the 
report language or something, we could work to get them to make 
this permanent because what I found was there was tremendous 
diversity there.
    But the interesting thing about it is everybody there was 
young except me. And so there was that--I was a child of the 
80's and I just really believed you just went out and you 
worked 7 days a week and practiced law and made a lot of money 
and that was great.
    Speaker. If you practiced law, that's true.
    Mr. Fleischmann. Yes, there you go. Yes, or dentistry. But 
I was an LES history type. But the interesting thing about it I 
found was some of the values of the millennials were different 
in terms of and I am not saying better or worse, but in terms 
of the work ethic or the view of that. So introducing the 
millennials--so DOE is doing that, but perhaps we can help them 
not only with the funding but to work towards making that maybe 
a more permanent system.
    The last thing I will say is the caucus system that we have 
up here. I am chairman of the National Labs Caucus, it is a 
wonderful bipartisan caucus, Ben Ray Lujan, my dear friend on 
the other side of the aisle and Representative Foster who has a 
couple labs. And we work together and we are going to have an 
event and we are going to be talking about the same things. So 
there are a lot of different venues but again I appreciate what 
you all are doing here today very much. But that might be 
something we can work with DOE and with that I will yield back.
    Ms. Kaptur. Thank you very much, Congressman Fleischmann, 
for these comments. My last reference after complimenting 
Congressman Simpson on his artistry and talking about STEAM is 
as you look across the energy field, in terms of innovation, 
what is something that you have seen that maybe the rest of 
America doesn't know about and maybe we don't know about that 
you have found that you just--it stops you dead in your tracks. 
I thought that is the future. Or it is some element of the 
future.
    Is there something in your work, that you have observed 
that you would like to share with the rest of the country? What 
might that be in the field of energy? Dr. Bakhtian, you are 
shaking your head, so looks like you have seen something.
    Ms. Bakhtian. Yes. Well, I am relatively new with the Idaho 
National Laboratory, I have almost been there two years now. 
And when I started learning about the great ideas that the lab 
researches have on micro actors I was just blown away. And I 
said wow, that's the wave of the future. Advance reactors, 
micro reactors that don't cost billions of dollars maybe to put 
in place and that could help support the grid of the future as 
well, being very resilient. Being safe. So I'm excited to be a 
part of that team right now.
    Ms. Kaptur. Thank you so very much for sharing that. Anyone 
else wish to comment? Mr. Smith.
    Mr. Smith. I'll come at it two ways. I agree with micro 
reactors. I think that is really phenomenal. I would maybe take 
it and broaden it just a little bit more. So I go back to the 
slide rule days----
    Ms. Kaptur. So do I.
    Mr. Smith [continuing]. When I started college.
    Mr. Simpson. I had to show one of these to my staff.
    Mr. Smith. You had to show one to your staff. So I have 
taken a pretty long journey. And to me there are so many 
exciting things but the one that really still strikes me is 
additive manufacturing. That whole approach. It would have 
sounded like a fairy tale to me when I was in college that we 
would do that.
    The fact that we can model materials on high performance 
computers to the atomistic level and design them there as 
opposed to trial and error, all these things are just a 
phenomenal new era and a phenomenal new wave of capability and 
interesting things. And when you look back, just how far we 
have come in such a short period of time and you think about 
where that may go, it's really capturing those visions.
    I constantly tell our leadership that I think there are 
skill sets that we should be trying to figure out what they are 
and who they are to recruit now. Because we can't even explain 
what they are but we are going to need them 5 and 10 years from 
now. And I think really continuing to focus on that and come up 
with that.
    And a lot of that is going to be in energy because when you 
look at the grid and everything that we have to do to really 
power this Nation and you look at the renewable opportunities, 
the sky is the limit. It's really an exciting time.
    Ms. Kaptur. Mr. Colston, would you like to contribute to 
the conversation before we close, or Ms. Evans?
    Mr. Colston. I think that, you know, from my perspective 
and--I'm sorry. From my perspective, and looking at the system 
itself and what--how do you maintain the liability and 
resiliency of the system per our members, is advanced nuclear 
technology. As in how do we move forward with the new 
technology that is going to be smaller but yet still maintain 
reliability and resiliency of the system.
    So I think that that is what catches my attention as in 
what's the next technology that is going to maintain that 
reliability and resiliency of the grid.
    Ms. Kaptur. Thank you. Ms. Evans.
    Ms. Evans. And with the increase of all the technology so 
smart meters and distributive generation, there is just so much 
data that we have access to that we have not had the ability to 
access before and it's allowing us to predict and think about 
customer needs and anticipate them in a way that we have never 
done.
    And when you think about the way that we interact from 
Amazon, from other organizations that you spend time with, 
people want us to think about and anticipate their needs and be 
ahead of them. And so that I think is just very exciting.
    The ability to use data to get ahead of what our customers 
need around energy is just going to be amazing. And I couldn't 
even begin to understand all that that would be today because 
it is changing so quickly.
    Ms. Kaptur. I don't know if the ranking member wants to 
make a comment, but I think one of the most astounding 
inventions I've ever seen, and I don't think that it is 
completed yet, but it was a very thin filament that floated in 
a nitrogen bath. And from point of generation to point of use 
it was 100 percent efficient. That was remarkable. And I don't 
know, Congressman Simpson?
    Mr. Simpson. I will just say that when you talk about 
additive manufacturing and stuff, what is fascinating is what 
they are doing in medicine with that. The $6 million man is not 
that far away. Now the $6 million dollar brain, that is a lot 
further away.
    But I think that one of the best answers I ever saw was 
they were asking a bunch of kids what they wanted to be when 
they grew up and they were like 5th and 6th graders. And they 
got the typical answers. I want to be a nurse, I want to be a 
doctor, I want to be a policeman, I want to be a fireman, you 
know, all that kind of stuff. They asked one kid and he says I 
don't know, I don't think it has been invented yet. Hire that 
kid.
    Ms. Kaptur. Yes. I did not see Congressman Fleischmann 
sitting behind your shoulder. Did you have a final comment on 
any? You are fine.
    Mr. Fleischmann. Thank you.
    Ms. Kaptur. All right, thank you very much. Thank you for 
participating. This concludes this afternoon's hearing. Again, 
I would like to thank each of our witnesses for joining us 
today on behalf of the country.
    I ask the witnesses to please ensure for the hearing record 
that questions for the record and any supporting information 
requested by the subcommittee are delivered in final form to us 
no later than three weeks from the time you receive them. And 
members who have additional questions for the record will have 
three business days to provide them to the subcommittee office.
    Again, thank you very much. This hearing is adjourned.

                                            Tuesday, April 2, 2019.

     DEPARTMENT OF ENERGY--NATIONAL NUCLEAR SECURITY ADMINISTRATION

                               WITNESSES

LISA GORDON-HAGERTY, UNDER SECRETARY FOR NATIONAL SECURITY AND 
    ADMINISTRATOR FOR NATIONAL NUCLEAR SECURITY ADMINISTRATION
CHARLE VERDON, DEPUTY ADMINISTRATOR FOR DEFENSE PROGRAMS, NATIONAL 
    NUCLEAR SECURITY ADMINISTRATION
BRENT PARK, DEPUTY ADMINISTRATOR FOR DEFENSE NUCLEAR NONPROLIFERATION, 
    NATIONAL NUCLEAR SECURITY ADMINISTRATION
ADMIRAL JAMES CALDWELL, DEPUTY ADMINISTRATOR FOR OFFICE OF NAVAL 
    REACTORS, NATIONAL NUCLEAR SECURITY ADMINISTRATION
    Ms. Kaptur. The subcommittee will come to order. 
Administrative Gordon-Hagerty, I want to thank you and your 
team for being here today.
    We continue our budget hearings with the Department of 
Energy's National Nuclear Security Administration fiscal year 
2020 Request.
    The National Nuclear Security Administration and its 
workforce are responsible for the consequential mission of 
ensuring the safety, security, and effectiveness of our 
Nation's nuclear deterrent. This includes nonproliferation 
activities and powering the Navy's nuclear ships and 
submarines. I want to underscore the enormity of this mission 
while recognizing your service and contributions to our Nation.
    I know that each of you here today feel that awesome 
responsibility. Thank you, on behalf of the country.
    The Nuclear Deterrent and the Science-Based Stockpile 
Stewardship Program that underpin it are national priorities.
    With a credible deterrent we can deter conflict, pursue 
diplomacy, and advance the interest of the United States and 
our allies.
    And I must pause here to note that diplomatic engagement is 
a critical part of deterrence, which is something I am not sure 
everyone in this particular administration understands.
    Successfully maintaining a credible deterrent requires a 
balanced and cost-effective strategy that includes prudent 
program, project, and risk management from NNSA.
    Congress, and this subcommittee in particular, must balance 
the need to maintain our nuclear weapons stockpile with the 
importance of reducing both domestic and global vulnerabilities 
through nonproliferation efforts.
    Unfortunately, the budget request before us today does not 
achieve that balance. The administration seeks a 12 percent 
increase for weapons activities alone, 1.3 billion above the 
2019 request.
    As I said at this very hearing last year, these increases 
are simply not realistic given other constraints on the Federal 
budget, and unsustainable year over year.
    The reality is that we have two more years of sequestration 
ahead of us if a budget deal is not reached. Even with a budget 
deal we will face difficult choices in allocating limited 
resources. And I look forward to hearing NNSA's plan to 
appropriately prioritize and cost-effectively manage the 
nuclear enterprise.
    In turning to nonproliferation, these programs play an 
indispensable role in our national security by securing nuclear 
material globally and providing important insights into foreign 
nuclear programs.
    While the top line number in this request appears positive 
at a glance, I am concerned that the administration is taking 
its foot off the gas pedal with respect to nonproliferation 
programs.
    For example, a $64 million reduction is proposed for the 
Global Material Security Program, which helps prevent nuclear 
and radiological terrorism and trafficking. This program 
protects people and communities from serious threats, and these 
cuts leave vulnerable the United States and our allies 
worldwide.
    I remain mindful of the national security imperative of the 
nuclear deterrent along with a strong nonproliferation program. 
The NNSA makes up sizeable portions of this subcommittee's 
budget and bill, and as such we must ensure that precious 
resources are provided as part of a balanced, coherent 
strategy.
    Again, thank you for your service to our Nation, and for 
being here today.
    With that, I will close my opening remarks. And I will turn 
to our ranking member, Mr. Simpson, for his opening remarks.
    Mr. Simpson. Thank you, Chairwoman Kaptur. I would like to 
join you in welcoming our witnesses to this morning's hearing.
    We have had good discussions with Administrator Gordon-
Hagerty and Admiral Caldwell at previous hearings, while we 
have the pleasure of having Dr. Verdon and Dr. Park join us for 
the first time today. Thank you all for being here.
    I look forward to hearing from you on the fiscal year 2020 
budget request for the National Nuclear Security 
Administration.
    The President's budget request for the Department of Energy 
shows the strong commitment to enhancing the U.S. national 
security. The request for the NNSA is just under $16.5 billion, 
an increase of $1.26 billion, or 8 percent above last year.
    This funding will advance the modernization of nuclear 
weapons stockpile and its support infrastructure, prevent, 
counter and respond to nuclear proliferation and terrorist 
threats, and support the Navy's nuclear propulsion needs.
    The budget request supports the reestablishment of many 
critical capabilities and continuous efforts to make an 
advancement through science and technology. Many of these 
programs are, by necessity, ambitious and will require 
sustained attention to good program and program management, as 
well as a full and capable workforce.
    It will be a challenge to deliver these programs on time 
and on budget, but I believe the NNSA leadership assembled here 
with us today is up to that task.
    I look forward to today's discussion on the importance of 
your work, and how the budget request will strengthen our 
national security.
    I thank the chairwoman for calling this hearing. And I 
yield back.
    Ms. Kaptur. Thank you, Mr. Simpson. Again, I am pleased to 
welcome the witnesses here today.
    We will hear from the Honorable Lisa E. Gordon-Hagerty, who 
is the Under Secretary for Nuclear Security and Administrator 
for NNSA. Administrator Gordon-Hagerty is responsible for the 
Nation's nuclear security enterprise, and she has more than 30 
years of experience in national security. She has served in 
private industry and has held positions on the White House 
National Security Council and the House Committee on Energy and 
Commerce.
    Next we will hear from Dr. Charles P. Verdon, the Deputy 
Administrator for Defense Programs for NNSA. Dr. Verdon is 
responsible for directing, managing, and overseeing the 
national security laboratories for nuclear weapons production 
facilities. He previously served as the Principal Associate 
Director for Weapons Integration at Lawrence Livermore National 
Laboratory. Thank you, Doctor, for your patriotism and for the 
years you have dedicated to the security of this country.
    Following that we will hear from Dr. Brent K. Park, the 
Deputy Administrator for Defense Nuclear and Nonproliferation 
for NNSA. Dr. Park leads and coordinates NNSA's efforts to 
prevent nuclear weapons proliferation. And prior to joining 
NNSA Dr. Park served as Associate Laboratory Director at Oak 
Ridge. We hear about that frequently here on the committee, Oak 
Ridge National Laboratory. So, Congressman Fleischmann is doing 
his job.
    And finally, we will have Admiral James F. Caldwell, Jr., 
who is the Deputy Administrator for the Office of Naval 
Reactors. Admiral Caldwell is responsible for managing NNSA's 
Nuclear Propulsion Program. And what a program that is. Admiral 
Caldwell's sea tours include surface in both the Atlantic and 
Pacific fleets and multiple operational assignments. Thank you 
very much, General, for being here--Admiral, excuse me, for 
being here today, and for your lifetime of service to this 
country.
    Thank you all for being here. Without objection, your 
written statements will be entered into the record. Please feel 
free to summarize your remarks. You have approximately 5 
minutes.
    Ms. Gordon-Hagerty, you are first.
    Ms. Gordon-Hagerty. Chairwoman Kaptur, Ranking Member 
Simpson, distinguished members of the subcommittee, thank you 
for the opportunity to present the President's fiscal year 2020 
Budget Request for the Department of Energy's National Nuclear 
Security Administration.
    It is an honor to appear before you today, with members of 
my leadership team representing a truly extraordinary team at 
the NNSA, a team that is indispensable for national security. A 
written statement has been provided to the subcommittee, and I 
respectfully request that it be submitted for the record. Thank 
you.
    Since I last testified before the----
    Ms. Kaptur. Without objection.
    Ms. Gordon-Hagerty. Thank you. Since I last testified 
before the subcommittee, NNSA has been diligently executing our 
three enduring missions: One, ensuring the safety, security, 
and effectiveness of the U.S. nuclear weapons stockpile. Two, 
reducing the threat of nuclear proliferation and nuclear 
terrorism around the world. And three, providing nuclear 
propulsion for the U.S. Navy's fleet of aircraft carriers and 
submarines.
    The President's fiscal year 2020 budget request for NNSA is 
an investment in these missions, in our infrastructure, and our 
people. My priorities with this crucial funding are to 
revitalize the United States' defense plutonium capabilities 
and other essential infrastructure, to keep our stockpile life 
extension programs on schedule and on budget, and to recruit 
the workforce of the future.
    The 2018 Nuclear Posture Review provided a realistic view 
of the world with an evolving and uncertain geopolitical 
landscape. The NPR states that there is no margin for further 
delay in recapitalizing the nuclear security enterprise, an 
enterprise that is comprised of eight laboratories, plants, and 
sites, and a dedicated workforce of almost 44,000 employees.
    NNSA's 16.5 budget request is a necessary investment when 
you consider the stakes. Russia and China are pursuing entirely 
new nuclear capabilities. North Korea's intentions remain 
unclear, and we face the most complex and demanding global 
security environment since the end of the Cold War.
    Accordingly, the fiscal year 2020 budget request represents 
the largest increase in our nonproliferation, counter-
proliferation, and counterterrorism programs in the last 5 
years. After all, the U.S. nuclear deterrent is much more than 
bombs and weapons, and the 2018 NPR reaffirms the need for 
effective arms control measures and treaty verification.
    With this funding, NNSA will continue to apply its 
technical expertise to reduce nuclear threats around the world. 
Now is the time to provide the dedicated stewards of the U.S. 
nuclear deterrent with a modern and safe infrastructure, and 
the critical tools needed to maintain it.
    My focus is setting the conditions today for a resilient, 
responsive nuclear security enterprise for the next 50 years 
and beyond.
    During my nomination hearing last year, I stated that my 
highest priority was plutonium pit manufacturing. That has not 
changed. For the next several decades NNSA will rely on a 
combination of newly manufactured pits and judicious reuse of 
existing pits to modernize our existing nuclear weapons 
stockpile.
    A modest pit manufacturing capability is necessary to 
ensure the safety and security of refurbished warheads while 
maintaining high confidence in stockpile effectiveness. The 
deliberate, methodical replacement of pits is the most prudent 
way to mitigate the uncertainty of plutonium aging and its 
impact on weapons performance.
    Consistent with the NPR, NNSA is committed to producing no 
fewer than 80 pits per year by 2030 to meet military 
requirements.
    Last May, the Nuclear Weapons Council endorsed NNSA's path 
forward to recapitalize on this vital mission, and a production 
capability that was shuttered in the early 1990s. Our two-side 
approach calls for plutonium pit production at both Los Alamos 
National Laboratory in New Mexico, and at the Savannah River 
Site in South Carolina.
    This is an important step in bolstering the enterprise's 
responsiveness and resiliency, and is necessary to counter 
future threats.
    NNSA is not only investing in plutonium pit mission, and 
thanks to the strong support of Congress we are making 
significant progress in the modernization across the 
enterprise.
    We started construction on the main buildings at the 
uranium processing facility at Y-12 National Security Complex. 
And I am proud to report, this vital undertaking remains on 
budget and on schedule by the end of 2025 for not more than 
$6.5 billion.
    And in New Mexico, we have broken ground on the Albuquerque 
complex, which will provide modern and safe infrastructure and 
workspace for approximately 1,200 dedicated personnel.
    All of our NNSA enduring missions are underpinned by state-
of-the-art scientific capabilities. As these capabilities 
become more important during this time of renewed great power 
competition, NNSA is working to stay ahead of the technology 
curve.
    A future gap in high-performance computing is being 
addressed through a joint effort with DOE's Office of Science. 
Our contribution to that effort will be undertaken at Lawrence 
Livermore National Laboratory, and we will deliver exascale 
computing to the enterprise by 2023. From the earliest days of 
the Manhattan Project, the dedicated men and women of the 
nuclear security enterprise has answered our Nation's call.
    What we are accomplishing today is remarkable. We have 
completed the 76-1 Life Extension Program under budget and 
ahead of schedule.
    We have five warhead modernization programs ongoing that 
are currently on schedule and on budget.
    We have helped 33 countries plus Taiwan to become free of 
highly enriched uranium. Nigeria is the latest country thanks 
to an NNSA-led reactor conversion program in 2018.
    We routinely deploy nuclear security experts around the 
United States to events such as the Super Bowl to keep the 
public safe from a radiological threat.
    And we are lending unparalleled expertise to the U.S. 
nuclear Navy's new Columbia-class Program to ensure sea-based 
deterrent capabilities for decades to come.
    Finally, I want to emphasize that regardless of the 
investments we make in modernization of our infrastructure, the 
United States must continue its investment in a world-class 
workforce, and as requested by the President's fiscal year 2020 
budget.
    We face stiff competition from the private sector for the 
top 10 in our highly technical fields. With an aging workforce, 
NNSA has launched an integrated effort to recruit the next 
generation of scientists, engineers, and technicians, so that 
we can continue to answer the Nation's call and meet tomorrow's 
challenges.
    No other government or civilian agency can accomplish the 
unique missions of the American people, and I couldn't be 
prouder to represent NNSA today.
    Thank you for your strong and continued support, and the 
opportunity to testify before you today. And I look forward to 
answering your questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. Thank you very much, Madam Administrator. If I 
were to ask you to do a press release to the public of the 
positions that are needed at NNSA, do you have the ability to 
do that?
    Ms. Gordon-Hagerty. Absolutely.
    Ms. Kaptur. I would love to see that, for the record. Let 
me proceed to the first question. The committee is often faced 
with significant constraints when writing appropriation bills, 
and the administration has requested 12 percent in increase, 
$1.3 billion, in weapons activities for fiscal year 2020.
    As I said to Secretary Perry last week, sustaining a 
credible nuclear deterrent is a national priority, but it must 
be done in a balanced, cost-effective manner.
    This year will not be any different, and I don't see enough 
evidence in your testimony of the prioritization necessary to 
assist Congress in making difficult choices in allocating 
limited resources.
    So I heard what you said. We heard what you said about 
plutonium pit modernization. But what are your essential 
priorities for NNSA, essential priorities?
    Ms. Gordon-Hagerty. Thank you, Chairwoman Kaptur. Our 
essential priorities are to maintain the five current 
modernization programs that we have on board for our defense 
program's activities, those were the five weapons programs.
    We have two life extension programs, two modernization 
programs--and modification programs, and one major alteration. 
We must keep those on schedule and on budget to meet the 
military requirements of STATCOM in the Department of Defense.
    Secondly, and equally important is the underpinning of our 
scientific technical expertise. So, the science-based stockpile 
stewardship also supports the nonproliferation and counter-
proliferation and counterterrorism programs. They are 
underpinned by the technical expertise resident throughout our 
entire workforce across the entire nuclear security enterprise.
    With that, Dr. Park's program on nonproliferation has 
brought to me a prioritization of how we can look strategically 
into nonproliferation efforts across the board. In fact, I have 
tasked the entire enterprise to give me a strategic vision of 
where do we want to ensure nonproliferation, counter-
proliferation, counterterrorism programs globally. And where 
are we looking to, whether we are committing to the Horn of 
Africa or Eastern Europe. But we are looking across the entire 
globe to see where we can ensure we can continue to provide 
counter-proliferation support, nonproliferation, and 
counterterrorism support.
    Third, and equally important of course, is maintaining one 
of the three legs of our triad, which is, of course, nuclear 
Naval propulsion in our submarine force, but that is also to 
provide the Naval nuclear propulsion for both our aircraft 
carriers and our submarines.
    So, they are all equally important, and perhaps though 
budgets may not be equal, a third each, if you will, they are 
all equally important, and we are keeping our eye on all three 
of those critical missions that underpin the responsibilities 
of the NNSA.
    Ms. Kaptur. If I were to ask you, on nuclear Naval 
propulsion, a scientific hurdle that you have to surmount, 
could you or the admiral pinpoint a particular technological 
barrier?
    Ms. Gordon-Hagerty. I would ask Admiral Caldwell if he 
would like to respond. Thank you.
    Admiral Caldwell. Sure, ma'am. Thanks for the question. It 
is an honor to be here today. And I would like to thank the 
subcommittee for their strong support.
    But how do we provide the Navy the greater capability that 
they need? The CNO has talked a lot about the needs of the 
Navy, a Navy that is more agile, a Navy that is more 
sustainable, a Navy that is ready to fight at the high end of 
warfare.
    So my job at Naval Reactors is to think about those future 
investments to enable that. How do we increase the power 
density in the core? How do we make manufacturing more easy? 
How do we make it more affordable? How do we make parts and 
components that last even longer? How do we make our ships even 
quieter?
    So to that end, we are investing in future technologies to 
figure out what those possibilities are that can unleash and 
exploit the advantage that we enjoy because of our nuclear 
propulsion.
    So I don't have a specific technology that we have to, you 
know, overcome. There are a variety of things that we are 
working on to help us gain, to improve our advantage in nuclear 
propulsion throughout the Navy.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Ms. Kaptur. Thank you very much. I am now going to turn to 
Mr. Simpson.
    Mr. Simpson. Thank you, Chairwoman. This is a question that 
is perhaps for the administrator and for Admiral Caldwell that 
can answer it together. Nuclear modernization demands a 
substantial and sustained amount of funding through the NNSA. 
Same thing with the recapitalization project for the nuclear 
Navy and their research into the future.
    What happens if we fall below that substantial or that 
sustained level of investment in the remodernization of our 
labs that have been there for how long that need upgrades and 
so forth?
    Could you explain that to us and what happens with the 
nuclear Navy if they fall behind on their budget proposals?
    Ms. Gordon-Hagerty. Yes. Thank you, Representative Simpson. 
This is a very important issue because more than 50 percent of 
the facilities and the infrastructure throughout the NNSA 
enterprise are more than 40 years old. And one-third of them 
were constructed during the Manhattan Project.
    Those are untenable conditions under which we are operating 
and we are basically--we have basically fallen behind in 
recapitalizing our infrastructure.
    So with the support of Congress, we have undertaken a 
sustained program to invest in and recapitalize our entire 
infrastructure. For example, the UPF facility. I use the 
example about the Albuquerque complex. Currently, our employees 
in Albuquerque are being housed in 1950s barracks where windows 
are normally--are routinely broken and it costs--one, the cost 
of maintaining that infrastructure can be untenable. But two, 
we need to put our--I think our workforce deserves no less than 
having modern infrastructure and modern places in which to work 
and to be able to conduct our critically important missions in 
the nuclear security enterprise.
    So without the support of--continued support to sustain 
this effort we are catching up now for decades of 
noninvestment, if you will, or lack of investment in the 
infrastructure. And now is the time to recapitalize that. And 
it is not a 1- or 2- or 3-year investment. It is a decades long 
investment in our future enterprise.
    Because if we don't do it now, we are only going to be 
falling--we are going to fall behind our adversaries and we 
need to maintain our critical deterrent. And I would ask 
Admiral Caldwell if he would like to comment on the other 
programs and perhaps at Idaho as well.
    Admiral Caldwell. Yes, ma'am--or yes, sir. The facilities 
that we have that support the Navy Nuclear Propulsion Program 
include the four Department of Energy facilities that--where 
our technical base is, does their work. The scientists, the 
technologists, and the engineers that allow us to meet the 
needs of today's fleet as well as prepare for the future fleet. 
If we don't have those facilities, then we can't do the things 
that we need to do to solve current fleet problems and to 
develop the technology for the future. So our priorities always 
in our facilities are to make sure that they are safe, that 
they protect the environment and our people. Second, that we 
meet our mission responsibilities.
    And so we are focused on recapitalization of 60-year-old 
facilities, many that came about many decades ago. And also to 
do the decontamination and decommissioning of those facilities.
    So without those, the laboratories where we do our work, 
the facilities where our engineers do their great calculations 
and do their great engineering, we would not be able to support 
the nuclear Navy.
    So accordingly, we are increasing our investment in Naval 
operations and infrastructure to support the ends of the Navy 
today and in the future. And I appreciate his subcommittee's 
support in that endeavor.
    Mr. Simpson. Thank you. Madame Administrator, you have 
shaped the NNSA's nonproliferation mission since you took 
office. What countries is NNSA engaging with that is in your 
vision for nonproliferation?
    We have had debates here within this committee and with the 
Senate committee over how much to spend on nonproliferation. I 
think we all want to spend whatever is necessary, but a lot of 
those things take engagement with foreign countries to do 
nonproliferation work.
    I have seen in the past that we have had a carryover on the 
nonproliferation budget and an appropriate, as we discussed the 
other day, appropriate carryover level is appropriate for non 
pro. Do you know what that level is and how are we engaging 
with these other countries now?
    Ms. Gordon-Hagerty. Yes. With regard to--let me address the 
issue of carryover. While it seems that there might be 
carryover in the nonproliferation, obviously the, as you have 
rightly stated, interactions with foreign nation--foreign 
countries is a diplomatic--it takes part diplomacy, part 
technical. And these negotiations and execution of programs 
don't necessarily take place in any particular fiscal year.
    So for example, the Nigeria reactor conversion to which I 
alluded in my opening statement took several years in order to 
accomplish. So while we were funded for it several years ago, 
several fiscal years ago, we weren't able to execute until this 
last year.
    So it does take a bit of time in order to execute. So while 
you might see carryover funding, it is for a good cause and we 
actually have it dedicated to certain programs.
    With regard to the other, we are interacting with tens of 
countries around the world and I would like to turn to Dr. 
Park, if it is appropriate, and have him explain to you some of 
the current and ongoing efforts that we have.
    Mr. Park. So as it turns out, we engage with literally 
dozens of countries. Allow me to give you just quick two 
examples. On risk security, in fact, we have deployed our fixed 
portal detectors in over 60 countries. Recently the 
administrator and I participated in the Insider Threat 
Mitigation Symposium with our international partners and close 
to 60 countries participated.
    So as the congresswoman pointed out, international 
engagement is key to our success when it comes to the non pro. 
Depending upon how you count, I can count literally over 100 
countries that we engage with and that leaves another 100 or so 
that we need to engage with. But again, we actually have the 
robust engagement plan, but it does take time.
    In terms of a carryover, we have controlled it to a point 
where it is less than 15 percent or so. Historically, it used 
to be much higher, but, again, we are doing our job very 
carefully to monitor how we engage with the international 
partners. But overall, things have improved substantially over 
the last few years.
    Mr. Simpson. Thank you.
    Ms. Kaptur. Ms. Frankel.
    Ms. Frankel. Thank you. Thank you all for being here. In 
February this year, the Trump administration unilaterally 
withdrew the United States from the INF Treaty. I would like to 
have you please just comment on how--if and how it affects your 
work and what efforts you believe should be made to bring 
Russia back into compliance and what are we doing about that?
    Ms. Gordon-Hagerty. Good morning, Representative Frankel. 
First of all, with regard to the INF Treaty and the fact that 
the administration has pulled out of the treaty, the--since 
2013, the United States has interacted with Russia on this 
matter more than 30 times.
    We have continued to try to make progress with them, but in 
order to maintain arms control treaties, you need two willing, 
at least two willing partners and we don't feel that we have 
that right now.
    How it affects our work is that we will continue to provide 
and we provide the underpinning, if you will, of the technical 
expertise for arms control and verification and treaties and 
the like. It is not affecting our work. We will continue to do 
so whether it is in this particular arms control measure or 
others or whether it is New START or other engagements because 
we provide the technical expertise to State Department and to 
others in these matters.
    Ms. Frankel. And it has come to my attention through the 
committee that the Secretary of Energy authorized the export 
and transit of seven unclassified civil nuclear technologies to 
Saudi Arabia.
    And just a question whether you will be able to provide 
response--we are going to submit some questions to you I think 
at a later date and we will just be looking forward to your 
responses.
    Now I have another question, just to follow up on the 
chair's first question on your priority. I wrote down you said 
to maintain five modernization programs. Could you tell me just 
a little bit what are those programs? What is the purpose of 
those programs?
    Ms. Gordon-Hagerty. Sure. Thank you. Those are five 
modernization programs of our current nuclear weapons 
stockpile. The United States is not undertaking new nuclear 
weapons development. We are maintaining and extending the life 
of the U.S. nuclear weapons stockpile.
    We have two life extension programs, two modification 
programs, and one major alteration. And I would like to, if I 
may, turn to Dr. Verdon and let him describe them since they 
fall under his jurisdiction.
    Ms. Frankel. Just so I understand it because this is my 
first time on this committee. These particular programs are 
aimed at our ability or efficacy in terms of delivering a 
nuclear device or?
    Mr. Verdon. They are aimed at assuring that the nuclear 
weapons still remain safe----
    Ms. Frankel. Okay.
    Mr. Verdon [continuing]. Secure, and effective.
    Ms. Frankel. Okay. So it would be offensive on our part?
    Mr. Verdon. It is the deterrent. It is basically--you know, 
it acts as a deterrent whether it is offensive, defensive, but 
it is the deterrent.
    Ms. Frankel. Okay. I got it.
    Mr. Verdon. But it is just----
    Ms. Frankel. I mean, it is sort of ironic it is defensive. 
On the other hand, if we have to use it, it is probably the end 
of the Earth. Right?
    Mr. Verdon. Well, that is yes, God forbid.
    Ms. Frankel. Okay, anyway, let me--you can answer your 
question.
    Mr. Verdon. Well, no, they are just--they are done to--they 
are basically built by man so they undergo aging and eventually 
parts wear out. Their original life expectancy was 10 to 15 
years. We have had them now on almost the average of 30 years.
    So eventually parts have to be replaced and that is what 
the life extension programs do. They literally replace the 
parts, but, as the administrator said, offering no new military 
capabilities, not requiring underground testing to accomplish 
that means. So it is just ensuring that the deterrents still 
remain safe and secure and effective.
    Ms. Frankel. Okay. Just a couple more questions. How would 
you--who are considered or what countries do you consider our 
greatest nuclear threats? And number two is, what does a 
nonproliferation program look like?
    Mr. Verdon. So I would say our peer competitors would be 
Russia and China. And then for the nonproliferation----
    Mr. Park. So as it turns out, we have a great system, a 
network of countries working together. In fact, 
nonproliferation is one of those rarity, if you would.
    For example NPT, Nuclear Non-Proliferation Treaty, actually 
has over 180 member countries.
    This is actually one of the most well organized treaty to 
the extent that we enjoy a greater support, even from China 
believe it or not. And they actually helped us with the HE, 
highly enriched, uranium removal from Nigeria, for example.
    So there are some challenging situations mainly because of 
lack of consideration or support on the safeguards. This is how 
we protect the nuclear controls and so on and so forth. We like 
to actually impose the strictest control everywhere in the 
world and we leave that effort, and depending upon which 
country you are talking about, their requirement is not as 
strong as what we like to see.
    So it is actually a very challenging condition, even under 
the condition that every country in principle support the 
nonproliferation. If that makes sense to you.
    Ms. Frankel. I asked for an example. So you tried to give 
me a general overview, but could you give me an example of a 
nonproliferation?
    Mr. Park. Oh, absolutely. As it turns out, as Madam Chair 
talked about, the international engagement, we actually trained 
a lot of countries to better protect the materials that they 
have. These are the materials that could be a potential use for 
nuclear devices or what we call RDD, radiological dispersal 
device. So by training them to protect their materials, I think 
the world is safer.
    But we would like to actually better control the nuclear 
technologies so that they don't fall in the wrong hands, the 
terrorists and so on and so forth.
    Ms. Frankel. I see.
    Mr. Park. And so there are many examples that I can 
provide. But again, those are some of the examples that I will 
share with you right now.
    Ms. Kaptur. Thank you. Congressman Fleischman.
    Mr. Fleischmann. Thank you, Madam Chairman. And to the 
distinguished panel today, I know each and every one of you 
all. Let me say this. Since I have been serving in the House 
since 2011 and privileged to be on this subcommittee and an 
appropriator, I know of no other agency that can compete with 
the NNSA.
    You all are tremendous, do a tremendous job. Your 
patriotism, your competence, your vigilance is truly 
outstanding. This is a mission that we cannot fail on and I am 
astounded every time I look at what you do.
    And, Admiral, thank you for the job you do and your service 
to our country, and please tell Admiral Richardson I said 
hello. Madam Secretary, gosh, Secretary Perry has been before 
us. The administration is doing a good job. This is an area I 
think where Republicans and Democrats and our friends in the 
Senate can and must cooperate. So I thank you again.
    As has been noted on the record, I represent a wonderful 
city, Oak Ridge. Brent, I met you there first at Oak Ridge. I 
remember those days very well.
    I live in Chattanooga, but Oak Ridge is the city that 
really I have drilled down and become well that is my avocation 
for the Department of Energy across the complex and it is truly 
outstanding.
    The Y-12 facility is antiquated. It is part of the 
Manhattan era Project, part of the Cold War era. And the 
uranium processing facility, I want our colleagues to know that 
this is money well spent. And I want to thank the 
administration for asking to increase its budget here. We need 
the uranium processing facility.
    Ladies and gentlemen, this was a facility that was 
originally not going to be designated, they had some cost about 
$20 million--I am sorry, $20 billion and because of the hard 
work and effort, and I have to thank the contractor. CNS has 
just done an outstanding job working with the NNSA to make sure 
that they are going to build this for $6.5 billion and open by 
2025 and the men and women who work there.
    Our workforce are tremendous our contractors and the men 
and women who work in our labor forces, labor unions. I mean, 
they cooperate with the contractors in Oak Ridge at no other 
place like I have seen in the country.
    So again, we are doing a good job and want the members to 
know that. And I tell the American people that whenever I have 
an opportunity.
    I do have a question. At Y-12, NNSA continues to make 
excellent progress on the uranium production facility. How does 
funding fit in this year's project or the timeline, and how can 
Congress make sure that it stays on track?
    Ms. Gordon-Hagerty. Well, Congressman Fleischman, I 
couldn't agree more about our--all of our workforce throughout 
our entire complex in the national nuclear security enterprise. 
We have tremendous workforce and I couldn't be prouder to 
represent them. And that also goes for our team at Y-12 
national security complex.
    With regard to the funding, as I mentioned, we have spent--
we have expended $2.5 billion to date on the UPF operation. And 
we are currently constructing this year for the request, the 
resources that we have requested for 2019 and received, we are 
now under construction with the main processing facility at the 
Y-12 UPF.
    And so we are on budget, we are on target. We will complete 
by the end of 2025 and as long as we can--and to Representative 
Simpson's point, as long as we continue--due to remain on 
schedule and on budget, it will be based on Congress' decision 
whether or not to provide that sustained funding that we so 
urgently desire.
    Otherwise, we can't guarantee that we will be on--continue 
to be on schedule. So we do require the sustained investments 
for the infrastructure improvements and the recapitalization 
across our entire nuclear security enterprise.
    And that also goes for the lithium processing facility and 
other facilities of the Y-12 national security complex. You 
have been through the lithium facility. And we have just 
expanded another failure of some material falling off of one of 
the ceilings in one of the workspaces. And that is just an 
unacceptable condition in which we ask our workforce to work 
around.
    So we thank Congress for your continued sustained support 
for our capital infrastructure, our infrastructure 
improvements, but without that, you know, we are making--we are 
not making investments in our future for our nuclear deterrent.
    Mr. Fleischmann. Thank you, Madam Secretary. I will be very 
brief. On lithium, by the way, it is a nonradiological 
component, but thank you for agreeing to build it on site. I 
think that was the right move at the right time. The new 
lithium processing facility will make significant strides 
towards maintaining state-of-the-art nuclear stockpile. What 
key benefits and capacities will LPC provide and how can we 
get--how can we get the committee to provide--how can we get 
the committee to provide for support for construction?
    Ms. Gordon-Hagerty. Again, this is part of that sustained 
investment in our infrastructure modernization. As I mentioned, 
literally some of the ceiling components fell down earlier this 
week and we--and that is not the first time that that has 
happened in the facility. So it is imperative that we modernize 
that part of our infrastructure.
    We do everything we possibly can to reuse our lithium, but 
we also need lithium for the future. So I can turn to Dr. 
Verdon and he can give you the specifics on what our 
anticipated challenges are there.
    Mr. Verdon. So, yes. So lithium, as mentioned, is key and 
so this year you asked, this year we are continuing on with the 
preparation and the preliminary design development in support 
of critical decision one, to move forward on the project. So 
that is the importance of this year's request is to keep that 
design work on the building moving forward.
    And so that this is one of those, again, where it is 
leading back to some initial questions where we time phase some 
of our requirements. We recognize that the pits and the uranium 
UPF were number one priority, so they got their funding and we 
are pushing those hard.
    Lithium is right behind it as a need, but also, as 
mentioned, worker safety also drives requirements. And so now 
that is why that is the next one coming up, that we are 
bringing up to kind of, you know, the critical decision one to 
move forward on.
    Mr. Fleischmann. Thank you. Madam chair, I yield back.
    Ms. Kaptur. Mr. Newhouse.
    Mr. Newhouse. Thank you, Chairman Kaptur. My welcome to all 
of you here this morning, too, I appreciate you coming. I just 
want to associate myself with the remarks of Mr. Fleischmann 
that the work you do here for our country is--can't be 
overstated as to its importance and I want to thank you very 
much for your diligence in making sure that our nuclear arsenal 
continues to be a strong deterrent and that our Naval capacity 
meets the needs of the future as well. Besides the INL and Oak 
Ridge, there is another laboratory represented on this panel. I 
wanted to make sure people were aware of that, but last but not 
least how is that.
    Certainly the Pacific Northwest National Laboratory, which 
just happens to be in my district, continues to be a major 
contributor to the defense nuclear nonproliferation, that is 
easy for you guys to say, strategy initiatives aimed at 
addressing the most difficult contemporary nonproliferation 
issues.
    So thank you for supporting their work, certainly at home, 
but also around the globe to make sure our Nation remains 
secure. Being a multiprogram lab, you know, every time I go 
there I am so proud to see how they are able to bring advances 
really from all sorts of sciences to bear on national security 
challenges. It is truly an amazing thing.
    In particular, though, I understand they are working hand 
in hand with the NNSA to leverage advances in modern data 
science to enhance early detection of proliferation.
    So as much as you can, could you talk about how your budget 
request will help to drive these efforts and what outcomes that 
you hope to see in the next year or two on these investments?
    Ms. Gordon-Hagerty. And thank you very much for 
acknowledging PNNL. While it is an Office of Science 
laboratory, it is certainly--we certainly continue significant 
investments into Pacific Northwest National Laboratory and they 
do contribute significantly to our defense nuclear 
nonproliferation as well as to our defense programs' activities 
because they do produce the tritium, what we call the TP bars 
for tritium. So they do--they are supporting our weapons 
activities as well.
    I would like to ask Dr. Park to comment on it, but I will 
tell you, I have been extremely impressed with the work I have 
seen at PNNL. I look forward to traveling there in the very 
near future and getting a broader perspective of all of the 
different works, work that PNNL offers to our national security 
enterprise.
    But most importantly, the work they do in our mid-career--
in our training for our workforce, they support that. And they 
also support international programs supporting IAEA in training 
expertise around the world.
    So I would like to ask Dr. Park to give one or two specific 
examples about what PNNL is doing and how the budget can 
support continued activities at PNNL.
    Mr. Newhouse. Thank you. And you can repeat all those good 
things about the lab so the chairwoman can hear them.
    Mr. Park. So you would be happy to know, and I will 
probably get myself in trouble, PNNL gets more funding from DNN 
than any other labs. But they do actually more than just one 
thing. They do all of DNN work from global material security to 
R&D to medialization work and supporting the arms control 
policy work that we perform on behalf of interagency partners, 
namely State Department. Specifically on the data, we are 
actually in the process of maturing what we call data analytics 
and there is a fancy name, but it is too long for me to 
remember what it is.
    Mr. Newhouse. Could you repeat that?
    Mr. Park. It is a data analytics.
    Mr. Newhouse. Analytics.
    Mr. Park. It is called an--and it has got a much longer 
title, but essentially what it is is exactly the way you 
described. Can we actually collect enough quality data to 
actually know what is being done at certain parts of the world? 
So early detection is the name of the game when it comes to 
nonproliferation work and PNNL does provide leadership in that 
along with Oak Ridge, along with I could actually name all the 
other labs.
    But again, it is mainly composed of five, six big labs that 
we have. And PNNL does provide a strong support for what we 
call short physics experiment with the detectors and so on out 
of Nevada national security site.
    And again, PNNL actually has a prominent role in the DNN 
mission space. Thank you for your support.
    Mr. Newhouse. Yes, yes. Thank you. Again, thank you very 
much for being here this morning. Look forward to continuing to 
work with you. Thank you, Madam Chair.
    Ms. Kaptur. Thank you, Mr. Newhouse. Obviously, the 
American people, at least some of them, will get to see what we 
are discussing this morning.
    So Dr. Park, I wanted to ask you if you could give a brief 
summary of recent accomplishments on the nonproliferation front 
in terms of the number of nations that you deal with. And also 
looking forward, where do you see the next horizon in order to 
make progress in nonproliferation?
    Mr. Park. Again, thank you for your continued support. And 
we actually have made a tremendous progress by the way. As you 
all know, nonproliferation is not one year in and out, it is 
enduring mission. As such, the building relationships as you 
pointed out takes a long time and there are many great 
examples. Let me just focus on a few.
    For example, on the international rad security, or what we 
call NSDD, nuclear smuggling detection work, we were able to 
deploy additional radiation portals so that the countries can 
actually monitor radiological material movements.
    And again, I am happy to report to you that as I used that 
example earlier, we have over 66 countries actually having 
those detector systems and trained by us. Even better news is 
that almost 95 percent of the nations would actually own and 
operate using their own funds. So this is really great news and 
obviously we need to take a step up to improve the detectors 
and so on and so forth, and that is in our article. But again, 
many of our partnering countries actually do take ownership of 
all these radiation portals so they can actually do their own 
operations, which is great news.
    What we have actually been focusing on it is building 
relationships more, as you pointed out. Yes, we spent a lot of 
time providing them training and then new detector systems and 
knowing they will take ownership of all that eventually. But 
again, we are more into building relationships than ever before 
and providing them support.
    And again, the training is not just how to use the 
detectors, by the way. So they can actually think for 
themselves and defend for their own countries and be a 
productive member of the international community.
    And yet another example is that the--with the, you know, 
countries like UK, Canada, and many other countries, France 
included, we actually have robust engagement on the SNT side, 
which is not something that we talk about much.
    But we actually have a group of countries that we work 
closely with and we actually share our science and technology 
work map, so to speak. And yes, we actually invest more than 
any other countries, but, again, we actually have partners 
throughout the world that we engage with. And in terms--sure.
    Ms. Kaptur. May I interrupt and ask of your best partners 
that offer their own resources and cooperate with you, who 
would you place on that list?
    Mr. Park. So----
    Ms. Kaptur. Which countries?
    Mr. Park. So obviously, I would have to start with the 
United Kingdom. And there are many countries, by the way. I 
would actually have to say Japan, by the way. They have stepped 
up quite a bit when it comes to actually sharing the 
safeguards, the standards throughout the world. And the same 
thing is true for Canada wants to step up more, so there are 
many countries.
    And the--but again, I could give you all kinds of examples. 
And quickly, on the material minimization work, as the 
administrator pointed out, that Nigeria, the HU removal 
actually is number 103. Over the last 40 years, we have been 
removing HU from all these places and the high-performance 
reactor conversion work is really making a big difference. And 
the R&D we work closely with the DOD, the intel community, and 
so on, which I am more than happy to discuss at a later point.
    Ms. Kaptur. Could you repeat a number you gave earlier in 
reply? You said how many countries engage with you and how many 
do not.
    Mr. Park. So there are different ways of accounting the 
numbers because certain areas, for example, when it comes to 
radiation portal detectors, we actually work with 66 countries. 
That single project alone we actually engage with--this is not 
a 1-year exercise. We have been actually working with these 
countries on and off for many, many years. And the--so in other 
fronts, by the way, there is a different group of countries 
that we work with so to depending upon how I count, there could 
be up to 100 or so.
    Ms. Kaptur. All right.
    Mr. Park. And there are many countries----
    Ms. Kaptur. Are any of those--Doctor, I am going to 
interrupt you. Are any of those that are not on that list, are 
they problematic?
    Mr. Park. So----
    Ms. Kaptur. The ones that aren't participating?
    Mr. Park. So I need to be cautious about naming certain 
countries in an open setting, but yes, we could actually see 
more cooperation from certain countries that we have been 
engaged with.
    But overall, it has been working out relatively well, but 
it is not something that we can back off. I mean, it requires a 
continuous engagement. And so, but I am more than happy to give 
you at a--in a different setting some of the countries that we 
can be----
    Ms. Kaptur. That would be very interesting. I wanted to ask 
you in terms of nuclear threat reduction playing a central role 
in our security with what we see happening with a very 
predatory Russia, could you talk a little bit about the Green 
Border Initiative in central Europe?
    Mr. Park. Right. As it turns--thank you for that, this 
opportunity to talk about that. As it turns out, that the fixed 
portals are placed at the port of entry and--but in between, 
these ports we actually have virtually no coverage. And by 
providing mobile systems, our partnering countries can actually 
provide the better coverage to detect a smuggling or elicit 
behaviors. And they are seeing some positive signs and we would 
like to actually enhance that even more in the coming years.
    But that is actually one of the latest initiatives that we 
have. Not that it is new, but again, we see more of a need, 
especially in the areas that you are quite familiar with, FSU 
zone.
    One country in particular comes to my mind that we spent a 
lot of time and energy is Ukraine. And, in fact, we actually 
are adding more detectors and portals and so on to make sure we 
can actually detect the movements, if there are any.
    Ms. Kaptur. Well, in a different setting some of our 
members might be interested in more detail on that. And I 
wanted to ask, you are proposing to cut funding for the Global 
Material Security Account. Why?
    Mr. Park. So the--first of all, the--one could look at it 
as a budget cut. In reality, when we prepare multiyear budget 
like a 5-year budget cycle, what we look for is a steady, 
stable funding that becomes our baseline. Not necessarily what 
you might call baseline, but again, what we need more is a 
stable, steady funding than anything else. Because it actually 
supports our lab scientists, engineers, and technicians and 
support personnel.
    And it is through that exercise we build a baseline budget 
request and when you look at the historical budget request 
numbers, it is actually not down but up. It is down compared to 
the last--this year's enacted, the--so the requested budget 
does cover a core mission space. And what we cannot do is there 
are some things we have to kind of postpone in terms of, you 
know, installing the sensors and radiation detectors for new 
facilities and so on.
    But again, this is not really core priority. If we are 
given an opportunity we will do more so, but the way we look at 
it is we actually use the stable, steady budget as a baseline 
for our building the budget, the information.
    So we are more than happy to execute should the opportunity 
arise as we have done the last year. But again, I think we have 
adequate funding that we are requesting to cover the core 
mission space programs.
    Ms. Kaptur. Thank you very much. Congressman Simpson.
    Mr. Simpson. Thank you. And I would be remiss if I didn't 
mention that the National Nuclear Security Administration works 
well with the lead nuclear lab in the country, which is the 
Idaho National Laboratory. As you can tell, we represent three 
different labs, but to tell you--and we jab each other all the 
time.
    But the reality is, is that we all care very deeply about 
the complex and what goes on in the different labs. I support 
Oak Ridge just as much as Mr. Fleischmann does. He supports the 
Idaho National Lab. Same thing with PNNL in Hanford, as 
Congressman Newhouse does. So we work together on this.
    But it is interesting the discussion, I have got a couple 
other questions, but it is continuing on the line of this 
nonproliferation. After the Soviet Union came down, we went 
over and visited the Soviet Union and what we were doing in 
nonproliferation activities with the Soviet Union. And what we 
were trying to do is to secure their nuclear material from 
being spread all over the world.
    And it was fascinating some of the work that our people at 
NNSA was doing then. We also went to some of the ports where we 
have radiation detectors to make sure that the--these crates 
don't come into the United States. And our theory is if we are 
going to detect a radiation threat from in one of these cargo 
crates that comes, is shipped all over the world, we would 
rather detect them in a foreign port than we would when they 
come into New York.
    And so the work that you do is very important, but let me 
ask, in your budget request for the NNSA for nonproliferation, 
is it for current non pro activities or does it include funding 
for anticipated non pro activities that may become available if 
we have agreements with foreign countries? Do you understand 
what I am asking?
    Mr. Park. So the--yes and no. As it turns out, from the 
nonproliferation arms control policy office that I operate, 
there are some modest increase of roughly $6 million to 
anticipate future requirements. So from that sense, yes.
    Mr. Simpson. Okay.
    Mr. Park. And there is a capacity-building exercise 
throughout the DNN offices. There are four major program 
offices. And there is a bit of anticipation, a leaning forward, 
a projecting forward built in, but at the level where we can 
actually handle something like a TPRK, for example.
    And but again, we are accustomed to adjusting along the way 
depending upon the world events.
    Mr. Simpson. Yes.
    Mr. Park. And it is there not as much as you might think, 
but again we have been doing this for a long time so we 
actually have built in a little bit here and there to 
anticipate some of the challenges.
    Mr. Simpson. Okay. And I suspect if there was need to, 
there is reprogramming abilities and those types of things as 
things become available.
    Admiral Caldwell, the budget requests for the Naval 
reactors overall is down significantly from 2019. The Naval 
reactors development line, however, sees a small increase in 
fiscal year 2020 and larger increases over the next 4 fiscal 
years. Now I understand we have talked about the 
recapitalization project in Idaho, and apparently we have the 
number that is necessary to keep it on schedule to be done by 
2025.
    Can you please explain what activities are supported under 
the Naval reactors development line and what the future year 
increases will support?
    Admiral Caldwell. Yes, sir. Thank you. And to your comment 
about the support for the spent fuel handling facility, we have 
the budget request supports exactly what I need to continue 
that project on schedule to start operations in that facility 
in 2024.
    Now, regarding the Naval reactors development budget line, 
that supports the development of technology that not only 
supports today's fleet, but enables future capability in the 
fleet. And over the last 5-plus years, we have been focused on 
these three major projects that are DOE funded, which include 
the design of the Columbia-class reactor plant, the spent fuel 
handling facility, and the refueling of the SAG prototype in 
New York. As those funding lines come down, it is time for us 
to invest in the future capabilities to support the Navy.
    As I talked about it, the CNO is requiring a Naval force 
that is more agile, sustainable, and can be prepared for the 
high-end fight. So the investment in the Naval reactors 
development includes the investment in our technologies that 
would enable the Nuclear Propulsion Program to deliver for the 
U.S. Navy. And I talked about that briefly before, things like 
increasing the energy that we could load into the core, making 
the reactor plants for our submarines quieter, making 
construction easier, making the parts and components that we 
build more reliable and have longer lives, and also to make 
fabrication easier as I said.
    The reactor development line of effort has done things in 
the past, like enable the increased lifetime of the core. For 
example, if you go back to Nautilus days, we refueled that 
submarine initially at the 18-month to 2-year point and now we 
are developing a Columbia-class core that will last over 40 
years. That reactor development line allows us to handle 
challenges that occur in the fleet. We respond to some 4,000 
requests every year, and so that line will allow us to continue 
to do that.
    It also allows us to sustain our efforts to avoid 
obsolesces of instrumentation and control equipment; we have a 
tremendous record in that. And, in fact, in the past we have 
saved up to $500 million in the cost and development of reactor 
instrumentation and control systems. And, as well, it also 
allows us to invest in the technologies and the computing 
capability to extend the lives of our ships. And if you look at 
the fleet today, we have extended the lives of the Trident-
class submarines out to 42 years; we have extended the life of 
the Nimitz-class carriers out to 50 years; we are extending the 
lives of 688 class submarines and will refuel five to seven of 
those and we will get another operating cycle out of those 
submarines; and we have also extended the lives of our training 
platforms.
    So, all of these things in reactor development enable us to 
do those kinds of activities, not only today, but to pave the 
way for the future. And, as I said, we took a close look at our 
budget to see how we could do this within our Naval reactors 
topline and as we go forward, we will continue to focus on this 
and keep your staff informed. I would like to thank the 
subcommittee for their support of this budget request.
    Mr. Simpson. Thank you.
    Ms. Kaptur. Mr. Fleischmann.
    Mr. Fleischmann. Thank you again, Madam Chairwoman, and I 
would like to thank the panel and you, as well, for a very 
substantive hearing; this is great, thank you.
    We all understand that the risk of nuclear radiological 
material falling in the hands of bad actors is unacceptable. 
Reducing that risk is what the experts in the Office of Defense 
Nuclear Nonproliferation handle on a daily basis. However, 
DNN's role in national security is broader than that and 
includes a role in ensuring the supply of radiological 
materials that by and large are used for nonmilitary purposes.
    Radioisotopes, some of which are produced at Oak Ridge 
National Laboratory, help to save the lives of people every day 
in a host of medical applications. However, there is currently 
no domestic supply of moly-99, which is used by approximately 
50,000 patients every day. We are, therefore, for lack of a 
better phrase, being held hostage to foreign suppliers who may 
or not have our best interests at heart.
    With that in mind, what is the Office of Defense Nuclear 
Nonproliferation doing to support the creation of a domestic 
supply chain of moly-99, and how is that reflected in this 
year's budget? Thank you.
    Ms. Gordon-Hagerty. Representative Fleischmann, you are 
exactly right. There hasn't been for more than three decades a 
domestic supply of moly-99, which we use for very important 
medical applications and they are approximately between 40- and 
50,000 per day here, just in the United States.
    I am heartened to say that the Department of Energy, NNSA, 
has worked closely with a number of private entities, private 
companies, and we are now for the first time in more than 30 
years, developing moly-99 source supplies here in the United 
States for domestic production. I would like to ask Dr. Park to 
talk about the great grant program that we have with these 
companies and what we are looking for in the future in terms of 
the amount of curie content, the amount of material, gram 
content, that we are actually providing for moly-99.
    Mr. Park. So happy to report that one of the companies 
actually starting to produce moly-99, one of the companies that 
we are in negotiation with toward contracts over the next few 
months is Northstar. In fact, it was the first time ever that 
we actually--it is a minute quantity, but again, the fact that 
we have reconstituted at least a small bit of capability to 
start producing for our own use.
    The Secretary and the Administrator actually provided the 
information to the public recently on the progress we are 
making, that we went through the propulsion review process. An 
independent group of experts picked the four companies for us 
to go into negotiations with.
    So we are actively pursuing the contracts, if you would, so 
that over the next 2 years we can start producing moly-99 
within the United States. So, if I could add actually one more, 
we also work with the national labs so they can actually 
develop capability to show to any company that comes along. So, 
in fact, that is actually part of the request from what we call 
N-Cubed Program Office. So we are not relaxing our posture, we 
are not taking any chances in addition to four companies that 
are picked to start producing over the next couple of years. We 
are also engaged with the national labs to make sure we can 
further enhance the likelihood of actually producing moly-99 in 
this country. So we are hopeful the progress is on track with 
all of your support. I appreciate it, thank you.
    Mr. Fleischmann. Thank you and I am so pleased to hear 
about the progress in that regard. And Madam Chair, I yield 
back, thank you.
    Ms. Kaptur. Thank you very much. Madam Administrator, NNSA 
is running at an operational tempo that is really much faster 
than in prior decades and to do your multiple weapons 
refurbishment, establishing key strategic materials 
capabilities, and working to address infrastructure challenges. 
But GAO has indicated that several of the programs and projects 
at NNSA are at high risk, including contracting management and 
large projects over $750 million.
    What is NNSA doing to improve risk management and Federal 
oversight to safely deliver NNSA's core mission on time and on 
budget? And are you considering efforts to embed mission 
support staff, such as project management and human resource 
expertise, within NNSA's core defense programs and 
nonproliferation programs?
    Ms. Gordon-Hagerty. In 2011, as I understand it, NNSA 
actually took on the responsibility to address these issues 
associated with the high-risk category, if you will, of 
facilities. And I am happy to say that our Office of 
Acquisition and Project Management has undertaken a robust 
program to work towards getting us off of the high risk list. 
In fact, GAO's recent report stated just that, that NNSA has 
made significant progress in our major capitalization projects.
    In terms of what APM is doing, they are contributing to by 
putting Federal project managers on programs, on major 
capitalization and modernization programs, such as the UPF 
plan. We actually have a dedicated person at Y-12 overseeing 
that Federal project and we continue to do so.
    We are actually undertaking a project right now, the 
recapitalization, if you will, or the repurposing of the former 
facility at Savannah River, the MOX facility, which we are 
repurposing for plutonium pit production and capability at 
Savannah River. And we are looking to see how we can possibly 
ensure that the lessons learned, the good lessons learned, that 
we have had as we undertake Y-12 UPF program, that we are 
actually applying those lessons learned as we go forward and 
repurpose the facility at the Savannah River plant.
    So, yes, we have some work to go, but we have made great 
progress through our APM program. We have put fidelity and 
resiliency in the program to make sure that we do everything we 
can to minimize risk in these major capitalization projects 
when we are talking in excess of $750 million per project.
    Ms. Kaptur. In my experience on different committees, I 
have never seen an agency that managed to overspend at the 
level of the Department of Energy, or to build facilities that 
then were never used. It has actually been shocking to me. So I 
think that that rigor is really important and maybe you can be 
part of a change in practice at the Department of Energy.
    Ms. Gordon-Hagerty. We are doing our best, but I will say, 
we have had some major improvements and, in fact, GAO just 
called us out in their recent study, so I am pleased to report 
that.
    Ms. Kaptur. All right, I am going to ask a question about 
the W87 Life Extension, but I wanted to have each of you think 
about this and if you don't want to comment, you don't have to, 
but knowing--no one could know more about the nuclear 
enterprise than you do in this country, and yet we have this 
massive problem of spent fuel and where to place it.
    If you have any opinions about Yucca Mountain, and if it 
doesn't happen, what options do we have as a country to deal 
with spent fuel?
    I would be very interested in your observations if you are 
able to give them, but let me ask a question, the 
administration has requested $112 million to study the design 
and feasibility options for the W87 Life Extension Program. The 
initial cost estimate of the program is 15 billion, but the 
actual cost will largely depend on what technology and safety 
options NNSA selects. How will NNSA consider cost as a factor 
for the refurbishment of this system and what opportunities are 
there to reuse previously designed components and technologies 
from other weapons refurbishments to reduce cost?
    Ms. Gordon-Hagerty. The W87 is formerly known as the W78 
Replacement, and I would ask Dr. Verdon to talk specifically 
about the replacement parts and what we are doing to modernize 
the 78 Replacement known as 87-1.
    Mr. Verdon. Yes, to your point, we are looking at all those 
options that--the $15 billion number is an option that really 
has everything in it. And so we purposefully went for what the 
high level would be and then from there we are working to look 
at, and working with our military partners, what options, you 
know, what features does it really need, which ones are we 
willing to take risks against and eliminate. And the same with 
your question about reusing existing parts that have been made 
for other warheads, we are heavily looking at that also as a 
way of controlling the cost while still meeting the 
requirements of the warhead.
    So, all of those options are indeed on the table and we are 
exploring that. And that is part of the phase that it is in 
right now is to look at those exact details that you mentioned. 
So that is actively ongoing right now.
    Ms. Kaptur. Anybody want to comment on Yucca? Anybody brave 
enough for the sake of the country to venture an opinion?
    Mr. Simpson. I will comment.
    Ms. Kaptur. Mr. Chairman, you are next, you are next. Yes, 
I mean, look at the country. We look ridiculous; billions of 
dollars unused and a political standoff that I don't think is 
going to end. So, what do we do? You know more about spent 
waste than any other people, that I am aware of, living in this 
country. If you were in our position, what would you do?
    Admiral Caldwell. Ma'am, I don't want to comment 
specifically on Yucca Mountain, but I will comment on the need 
for a long-term geological repository. Since the 1990s, Naval 
reactors have been packaging our spent fuel for long-term 
storage in such a repository. We have done that effectively and 
safely, and we have to date over 65 percent of our spent 
nuclear fuel is packaged and ready to go in such a facility, 
and would be among the first to go into such a facility.
    Accordingly, we have agreements with the State of Idaho 
that require me to remove my spent fuel from Idaho by the year 
2035. So, without a long-term storage facility, that is going 
to be a challenge for us and we are going to have to work with 
Idaho and DOE counterparts and our Federal counterparts on how 
we are going to come through that.
    So, what I have learned is that packaging can be done 
safely, securely, and reliably, and we would love to take you 
out there and show you how we do that work.
    Ms. Kaptur. Thank you very much, Admiral. Yes 
Administrator?
    Ms. Gordon-Hagerty. So Chairwoman Kaptur, I believe that--I 
agree with you that we need to come to a decision and I think 
the Secretary does, too. And regardless of the politics behind 
it, I think the Secretary is actually undertaking, at least 
having the conversation, about how to move forward since over 
the last 6 or 7 years or so the Yucca Mountain program has 
basically been put on hold, so he is having the conversations.
    Again, as you rightly state, this is all about politics and 
we need to find a long-term solution for what is right now 
interim above-ground storage of the spent nuclear fuel from the 
commercial reactors around the Nation. And I think our citizens 
deserve as much and I believe the Secretary is trying to 
undertake at least having that conversation, which is a good 
start. Thank you.
    Ms. Kaptur. Thank you. Anything you can do to further the 
Secretary in those efforts would be very much appreciated. I am 
a practical person. I like to make decisions and get things 
done for the country.
    Ms. Gordon-Hagerty. Yes.
    Ms. Kaptur. I think Congressman Simpson is the same type of 
person and it seems to me that this is a priority that we can't 
ignore, and interim solutions, different visions, are all 
welcome here. And we thank you very, very much for being here 
today.
    And Congressman Simpson, did you wish to ask any other 
questions?
    Mr. Simpson. Yes, I have a few here if I could.
    Ms. Kaptur. All right.
    Mr. Simpson. First of all, I don't know much, but what I do 
know is the law of the land, and the law of the land is Yucca 
Mountain. And politically, we have been unable to come to an 
agreement on that. All of us in support of Yucca Mountain also 
support interim storage. I think interim storage becomes much 
more difficult if it becomes de facto permanent storage because 
you don't have a plan for a geological repository.
    At some point in time we are going to have to bite the 
bullet and get on with this. And I think the Secretary has done 
a good job in requesting the money for funding both in the 
Department of Energy and in the NRC to advance the Yucca 
Mountain project. I hope we can come to an agreement this year. 
Senator Alexander and I have had this discussion for 3 or 4 or 
5 years, and every year it is next year we are going to get 
this done. Hopefully this will be the year that we will move 
ahead with this.
    But a couple of quick questions. One, 44,000 employees, how 
many of those are near retirement?
    Ms. Gordon-Hagerty. Forty percent will be eligible for 
retirement in the next 5 years.
    Mr. Simpson. Forty percent.
    Ms. Gordon-Hagerty. Yes.
    Mr. Simpson. Okay. With you and Dr. Verdon, I guess you 
guys are responsible for directing the Secretary who has to 
certify to the President that our nuclear stockpile is safe, 
reliable, and secure. Do you do that annually?
    Ms. Gordon-Hagerty. Correct.
    Mr. Simpson. Okay. One other question I have is that, Madam 
Administrator, the 2018 Nuclear Posture Review called for the 
enduring capability and capacity to produce plutonium pits at 
the rate of no fewer than 80 pits per year by 2030, as you said 
in your opening statement. The NNSA then analyzed alternatives 
and decided to pursue a two-site plan for the production--
sorry, that is my dog calling again--a plan to have production 
capacity of at least 30 pits per year at Los Alamos and no 
fewer than 50 pits per year at the Savannah River site.
    Now, some people have said that the reason we chose a two-
site plan was, for lack of a better term, paying off Savannah 
River for closing MOX and so forth and so on. Nevada obviously 
would like all of the pit production in Nevada----
    Ms. Kaptur. That is a dog.
    Mr. Simpson. Jeez, he is crazy. He must have heard my 
voice. Could you dispel the myth that this was a--that this 
decision was a payoff, I hate using that term, but to South 
Carolina and that a two-site production facility makes sense?
    Ms. Gordon-Hagerty. Yes, and there could be nothing further 
than the truth that this was a payoff. The NNSA must have a 
responsive and resilient infrastructure. As I mentioned in my 
opening statement, the United States has not had a plutonium 
pit manufacturing and production capability since the early 
1990s when we shuttered Rocky Flats Plant. The two nuclear 
weapon design laboratories, Lawrence Livermore National 
Laboratory and Los Alamos National Laboratory, are exactly 
that, they are design laboratories. They were never intended to 
be production laboratories.
    When the requirements were set from STRATCOM, from the 
Department of Defense, and approved by the Nuclear Weapons 
Council, it was so that we would make the not less than 80 
pits--produce 80 pits per year by 2030. It is going to be a 
challenge.
    First of all, all of that work is being done currently at 
Los Alamos National Laboratory. They are doing the chemistry 
and the actinide science behind plutonium, the work that we 
need for our pit production capabilities to maintain the 
nuclear deterrent and it is going to be a challenge for them to 
even get to the 30 pits per year by 2026, which is their 
challenge. They have acknowledged that they have realized that.
    To the extent that I can dispel the issue about having the 
work all done in New Mexico, we conducted two independent 
analyses of alternatives which said that a two-pronged approach 
would be appropriate, and looked at the different options. But 
more so, then we conducted an engineering assessment and an 
enterprise, a workforce enterprise study that stated the best 
way to get to the 80 pits per year, the only we would be 
successful is to go with a two-pronged site approach.
    It so happened that the MOX facility was going to be 
terminated. The Secretary had planned that, we had worked on 
that, we had followed, we had worked with Congress on that 
matter, and it happened to be that that facility could be 
repurposed for exactly this.
    Savannah River is known for the last 70 years as part of 
the production complex in the NNSA and our predecessor 
agencies, so it would make extreme sense to do it there. Los 
Alamos, the challenge we would have to do all the work at one 
place is that it would only be at one place. And as the MPR 
pointed out, we have to have a resilient and flexible workforce 
and the enterprise in order to conduct it.
    And if we are looking to do this work for the next 50 to 70 
years, I don't believe that it makes sense to rely on one 
single location. So our two-pronged approach is the most 
effective way to get to the not less than 80 pits per year.
    Mr. Simpson. Redundancy?
    Ms. Gordon-Hagerty. Yes.
    Mr. Simpson. Thank you. Thank you all for being here. Some 
of the work that--all of the work that you do is some of the 
most important work that we do in this government, and I 
appreciate the job you are all doing.
    I apologize for Charlie, my dog. You have both met Charlie, 
and maybe he was watching the hearing and he recognized you two 
and said, hey, I know that voice. Anyway, thank you for being 
here today.
    Ms. Kaptur. Congressman Fleischmann.
    Mr. Fleischmann. Madam Chair, I just want to close by 
saying thank you again for an outstanding hearing. And again, 
to reconfirm what I have known and what the American people 
need to do, that you and your employees are truly outstanding 
Americans. Thank you.
    Ms. Kaptur. Thank you. I have two final questions, Madam 
Administrator. NNSA is seeking a significant increase in its 
budget to hire an additional 63 Federal employees. Please 
explain the programs or activities for which you are seeking 
additional Federal staff, and whether these are the programs 
and activities for which workload is increasing or that are 
high risk.
    Ms. Gordon-Hagerty. The NNSA has actually undertaken an 
aggressive approach to what we need for our strategic hiring 
needs. As Representative Simpson pointed out, our workforce is 
on a downslope. We have what we call the bathtub curve where in 
the next 5 years, 40 percent of our employees are eligible for 
retirement. And with the significant workload that we are 
undertaking now, we need to plan strategically for the 
workforce of now and in the future.
    Ms. Kaptur. Excuse me, I am going to interrupt you and say, 
okay, 40 percent, what does that translate into in terms of new 
hires?
    Ms. Gordon-Hagerty. In terms of new hires.
    Ms. Kaptur. Approximately.
    Ms. Gordon-Hagerty. Well, what we are doing is we are 
looking--we are taking a strategic approach. I have passed all 
of my senior leadership at headquarters and the field offices 
to look and tell me, based on the workload of the future, what 
does our staffing strategy look like. Because the staffing 
strategy we have today will not be acceptable for the workload 
we will see even in the next 5 years.
    So we need to be strategic in our thinking in terms of what 
kind of hiring requirements do we have. And unfortunately, we 
are under a cap right now imposed on us by the NDAA of 1,690 in 
our FTEs. We are close to that right now, so I would ask for 
your assistance in lifting that cap so we can hire the 
appropriate number of people for our critical skill sets in 
science and engineering, in project management and oversight. 
And right now I have given Dr. Verdon the top priority in terms 
of hiring the personnel to support the five modernization 
programs most importantly in that and strategic materials in 
Defense programs activities. So we are focused on this 
absolutely about how to hire strategically for our workforce of 
the future.
    And let me also say we are also trying to think out of the 
box in terms of our hiring opportunities. On January 31st, we 
actually undertook an enterprise-wide hiring event here in 
Crystal City, and we had over 1,700 applicants in that 1-day 
hiring event. And so we are trying to find different ways of 
challenging our HR directors across our entire enterprise to 
find new ways to hire those critical skill sets.
    As I also mentioned, we are in, obviously, constant 
competition with the private sector. So what we are trying to 
do is explain that it is a great opportunity for people to come 
to work for our national security enterprise and working in our 
very critical areas of nonproliferation and weapons programs 
and Naval reactors. So we are trying to find different ways of 
hiring for the future.
    Just this last Monday we were at Georgia Tech and we did a 
hiring event, and we brought all of our labs, plants, and sites 
and field offices to work with students that are possibly 
coming out, so early career, coming out and working across our 
entire workforce. We have also provided grants at different 
colleges and universities. In fact, it pains me to say this, 
but at Ohio State University we are--as a Michigan alumni, I 
have to say that--that we are providing resources, in fact, to 
the State of Ohio by doing some nonproliferation work at Ohio 
State University and other places across the Nation.
    Ms. Kaptur. I would like to invite you to Northern Ohio.
    Ms. Gordon-Hagerty. Absolutely.
    Ms. Kaptur. Can you provide a list of these strategic 
materials that you are seeking?
    Ms. Gordon-Hagerty. Absolutely. And I can rattle them off 
right now: uranium, plutonian, tritium, lithium. So lithium, 
tritium, plutonian, and uranium.
    Ms. Kaptur. Thank you. What management and oversight 
functions will be improved with additional Federal staff?
    Ms. Gordon-Hagerty. Most notably the infrastructure 
modernization and the recapitalization of the programs is 
really where we need to focus our efforts to make sure that our 
contractor support staff is absolutely keeping on target, on 
schedule, and on budget with our major recapitalization 
programs.
    In addition, it will also provide the effective oversight 
for the modernization programs of our stockpile.
    Ms. Kaptur. Okay. One of the requests I would have of you, 
the hiring event that you held in Crystal City, any materials 
that are available relative to that, I would be very interested 
in looking at to understand how you go about recruiting and 
where you go about recruiting.
    It is interesting, we all represent different congressional 
districts. Congressman Simpson obviously is in Idaho. Now he 
won't accept this, but to me Idaho is like remote. The region 
of Ohio that I represent is a heavy manufacturing platform, as 
you well know, but not always connected to the government of 
the United States. We don't have a lab in my area. And out of 
435 congressional districts in terms of median income per 
household, my district ranks 407. So people are working hard 
and sometimes they--and we have universities, obviously, but 
they are not connected to the Federal establishment. And I 
often feel that we are bypassed. It is like there is this 
overpass that goes over us and it goes somewhere else.
    So I am really interested in how you connect to places that 
don't have a heavy Federal presence. And I am interested in 
offering some of our expertise, if I can find a way to get it 
to you. That is not so easy.
    And Columbus is a capital city, like so many other capital 
cities, including the one we are sitting in. A lot of the 
Nation's assets over the last 25 years or so have moved to 
those places. But it is the other places that are struggling 
where people are eking out a living and trying to move forward. 
And I am just someone who is trying to, if there are Federal 
opportunities, I am working hard to try to let people know 
about those. And it is not so easy from my standpoint.
    So I just put that on the table.
    And so as you think about recruitment you might look at the 
bottom third of congressional districts in this country. And it 
is sort of easy to go to other places just because there is a 
relationship. But maybe there are some other. If one looks at 
the recruitment to the U.S. military in regions like my own, it 
is huge. We have a very patriotic population. And we even have 
a nuclear sub named after Toledo, so we are pretty proud of 
that. And so I am just--it is endemic across the Federal 
establishment, it is just more comfortable to be in the capital 
complex. But the rest of America is out there, too. And so I 
make a plea for them.
    Let me ask a final question and we will conclude. Former 
NNSA Administrator Lieutenant General Frank Klotz noted before 
his departure in early 2018 that the NNSA complex was at full 
capacity on multiple fronts, people, materials, facilities, and 
GAO has echoed similar concerns.
    At a little over a year later, with additional 
recommendations from the 2018 Nuclear Posture Review, what is 
your view on NNSA's capacity issues, and has the Kansas City 
plant and the Y-12 facility become choke points?
    Ms. Gordon-Hagerty. General Klotz was correct in saying 
that we had some challenges. We continue to have challenges, 
and as I mentioned, we are busier than we have been since the 
Cold War. But we are meeting those challenges. And I can 
confidently say that with the great leadership under Dr. 
Verdon, we are managing those complex programs, those five 
modernization programs. And as with any slippage in possible 
areas like Kansas City National Security Complex and at Y-12, 
we have risks associated with them, but we believe we are 
balancing those risks with a great workforce and a great 
Federal oversight.
    So while I recognize we do have challenges, we are managing 
those challenges. And I make my commitment to you, as we find 
those challenges we are not going to inform Congress of those 
challenges at the last minute. We will inform you and keep you 
apprised of how we are doing with the five modernization 
programs.
    Ms. Kaptur. Thank you. Mr. Simpson, do you have further 
comments or questions? All right.
    Thank you all very, very much. This concludes this 
morning's hearing. I would like to thank all of our witnesses 
for their service to our country and to our people.
    I ask the witnesses to please ensure for the hearing record 
that questions for the record and any supporting information 
requested by the subcommittee are delivered in final form to us 
no later than 3 weeks from the time that you will receive them. 
Members who have additional questions for the record will have 
until the close of business this Friday to provide them to the 
subcommittee office.
    This hearing is adjourned. Thank you.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    

                                            Tuesday, April 9, 2019.

                          MEMBERS' DAY HEARING

    Ms. Kaptur. Good morning to everyone. I see there is good 
mood here in our subcommittee this morning as we begin our 
Member Day Hearing.
    Thank you to our colleagues so many who have come before us 
today, and others who have submitted requests to the report, we 
appreciate the time and the effort that you have taken to be 
here with us this morning.
    The purpose of today's hearing is to take testimony from 
members on the fiscal 2020 budget. And we look forward to 
hearing from our attendees about your priorities including 
Federal programs of importance to your districts, and I know 
you have talked to us privately many times on them.
    There are many members who couldn't be here with us today 
who have submitted testimony for the record. There are actually 
numbers into the thousands of requests.
    Today we will hear from our colleagues in 10-minute blocks 
with two members scheduled for each time block. Each member 
will have approximately 5 minutes to testify.
    And with that, we will get started in order of appearance 
here before the subcommittee, beginning with Congressman Mast. 
Welcome this morning.
                              ----------                              --
--------

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. BRIAN J. MAST, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. Mast. Thank you, Chairwoman Kaptur. Thank you, Ranking 
Member Simpson, and other members of the subcommittee on Energy 
and Water Development.
    I am here to advocate specifically for fully funding 
Everglades Restoration and Water Quality Infrastructure 
projects, specifically 200 million for the U.S. Army Corps of 
Engineers' Construction Account for Environmental Restoration 
or Compliance, where South Florida Everglades Restoration 
projects can be completed or can receive additional funding for 
those projects.
    Now, the Everglades for Florida, is the drinking water 
source for one in three Floridians, a very big deal. Restoring 
America's Everglades, it is really not a choice between fiscal 
responsibility and environmental protection it has to be both 
of those. This is the problem with the entire system.
    It was created many decades ago, before any of us were in 
place, the U.S. Army Corps of Engineers, and we are now tasked 
to fix some of their issues that they created, or else it will 
destroy Florida's ecology, and all that relies upon good 
ecology in Florida to include drinking water supply. This is 
what is on the line there. How did they destroy it?
    So, early in the 1900s----
    Ms. Kaptur. Excuse me. Will the gentleman, suspend.
    Mr. Mast. Yes, ma'am.
    Ms. Kaptur. You have got some excellent footage up there, 
and make sure that you reference that as you go through your 
testimony.
    Mr. Mast. Absolutely. What you are looking at are toxic 
algal blooms that we receive in our saltwater coastal estuaries 
in the State of Florida. They are not naturally recurring in 
our saltwater estuaries, they occur because we get so much 
fresh water dumped on us. I will get a little bit into the 
fresh water issue, but that is the result of it. It is really 
quite a tragedy for our ecosystem there.
    So, going back to the history of how this problem was 
created, 1900s the Corps of Engineers dug a canal from Lake 
Okeechobee to the coastal estuary that you are looking at here, 
oftentimes dumping up to 7 million gallons a minute of fresh 
water into an area that needs zero of that fresh water. So it 
is very harmful, even if it is perfectly clean it is very 
harmful, unfortunately it is often very dirty laden with far 
too many nutrients that feed those algal blooms.
    In the 1930s the Corps of Engineers dammed up Lake 
Okeechobee, essentially bringing an end or the beginning of 
what would bring an end to the River of Grass, the water 
flowing from the Kissimmee River into Lake Okeechobee, down 
into the Florida Everglades, out into Florida Bay, that damming 
it up was the beginning of the end of that.
    In the 1960s the Corps of Engineers took a river that fed 
Lake Okeechobee, the Kissimmee River, and it looked like most 
rivers, like a river that wound around like a snake, and they 
straightened it out into a channel, precipitation that that 
lake fill far too fast for what could be drained out, which is 
what brings about these freshwater discharges, or the need for 
these freshwater discharges, into our coastal estuaries.
    So, what is this problem that it created? The Federal 
Government, really in the last century, they dammed the Herbert 
Hoover Dike, they created artificial canals intended to bring 
water to where it wasn't wanted, and now we don't get the water 
where it is needed, into the Florida Everglades that work to 
provide all of that drinking water supply. This is the issue 
that is at stake here.
    Now, Congress committed itself to a solution to this 
problem back in 2000 when it authorized the Comprehensive 
Everglades Restoration Plan, CERP, this was the framework for 
restoring this water system.
    CERP has dozens of components and the only hope for 
correcting the Federal Government's engineering mistakes of the 
20th Century, is to bring these components to completion.
    This is what we are advocating for today. This is why we 
are out here saying that we committed to a 50/50 partnership 
between the State of Florida, and the Federal Government.
    The State of Florida is about $1 billion ahead of the 
Federal Government in terms of funding these problems.
    The Federal Government, in our opinion, needs to step up to 
the plate, honor its commitment under CERP, match the State of 
Florida in funding these Everglades Restoration projects.
    In 2016 the state legislature in Florida committed 200 
million in annual state funding for the next 20 years, for 
planning, design and engineering of these projects. We are 
looking for that same $200 million commitment from the Federal 
Government to help correct these problems again, created before 
all of our time by the U.S. Army Corps of Engineers.
    This is what is at stake. This is what we are working for. 
This is my ask today. I thank you all on this subcommittee for 
hearing us out on this request.
    And with that, I am happy to answer any questions that you 
all may have for me.
    Ms. Kaptur. Thank you, Congressman Mast. I will just say 
for the record that the Trump administration's budget request 
cuts the Corps Construction funding by approximately 43 percent 
over last year, compared to last year. So, we as a subcommittee 
know what we have to do. We thank you very much for being here 
this morning.
    Congressman Simpson, do you have any questions?
    Mr. Simpson. No.
    Ms. Kaptur. All right.
    Mr. Mast. Thank you.
    Ms. Kaptur. Thank you very, very much. And your full 
statement will be included in the record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Congressman O'Halleran, thank you for coming today.
                              ----------                              

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. TOM O'HALLERAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ARIZONA
    Mr. O'Halleran. Thank you, Madam Chairwoman Kaptur, and 
Ranking Member Simpson, and members. Thank you for hosing this 
Member Day, and providing the opportunity for members to speak 
about the importance of the Army Corps of Engineers' projects 
and policies.
    I strongly support the work that Army Corps does to project 
communities across our nation from catastrophic flooding. This 
work requires that Investigations and Constructions accounts be 
funded sufficiently.
    Specifically, I ask that the Army Corps general 
Investigations Account receive at least $125 million in 
funding, and the Construction Account receives at least $2.183 
billion. In addition to those funding changes, I ask that the 
committee consider removing language that has been included in 
the Energy and Water Appropriations Bill for the last six years 
that prevents the Army Corps from implementing new principles, 
requirements and guidelines which has lowered the priority of 
rural projects.
    This policy has the effect of lowering the competitiveness 
of rural projects by keeping their BCR scores lower than those 
of urban projects.
    For example, Winslow, Arizona, is a rural community in my 
district, which has a population of just under 10,000 people, 
is disadvantaged in the current system.
    A major flood would devastate the downtown area, and the 
homes of nearly 700 Native Americans who are forcibly relocated 
by government under Public Law 93-531, allowing an update of 
the PR&Ss would provide parity for rural communities like 
Winslow across the country.
    Providing the construction account funding of at least 
$2.183 billion would allow for the completion of many projects 
which are nearly finished, and in which the Federal Government 
has already made significant investments.
    I would say that the Winslow location, a flood there could 
take out I-40 and the major East-West railroad for the 
Burlington Northern Santa Fe.
    For example, for the last 30 years the City of Flagstaff's 
top priority has been to mitigate potential flood damage caused 
by the Rio de Flag. Since fiscal year 2002 the Rio de Flag 
Flood Control Project has received more than 26 million in 
Federal appropriations for various phases of the project.
    With these resources the USACE has conducted the 
reconnaissance and feasibility studies, completed the 
preconstruction engineering and design, and begun the 
construction phase.
    Slowing this project would result in huge losses of 
property and increase the risk of the loss of life, as well as 
create significant public health and safety issues. A robust 
construction amount with at least the $2.1 billion in funding 
would allow projects like this to proceed. The community in 
Flagstaff has also increased their tax base in order to 
contribute to this project.
    Providing at least 125 million is dedicated to the general 
Investigations Account, will allow the Army Corps to continue 
their work on projects that have already begun, and are 
important to protecting many growing communities in rural 
Arizona; for example, the Lower Santa Cruz River Watershed 
Project is critical to residents of Pinal County, Arizona, one 
of the fastest-growing counties in the United States.
    Last year the project received a little over a million 
dollars in general investigations work plan funds that will 
help complete the feasibility portion of their project.
    Completing feasibility studies will allow the Army Corps to 
move on to other projects, and ensure that other communities 
receive the attention they need.
    Thank you for hosting this Member Day and providing an 
opportunity for members to speak about the importance of Army 
Corps of Engineers' projects and policies.
    I would like to reiterate my support for the work that the 
Army Corps does to project communities across our nation. And 
to emphasize my support for funding the General Investigations 
Account with at least $125 million, and the Construction 
Account for at least $2.1 billion.
    Additionally, I would like to reiterate the importance of 
removing language that prevents the Army Corps from 
implementing new PR&Gs, so that rural communities have parity 
in the process. And I yield.
    Ms. Kaptur. Thank you very much, Congressman O'Halleran. I 
wanted to ask you. Did you bring any map to place up on the 
video, to the screen?
    Mr. O'Halleran. We did not.
    Ms. Kaptur. You did not. Okay. Could you take one extra 
minute and talk to us about the challenges. You mentioned one 
rural community in particular and the eligibility of rural 
communities for attention from the Corps, could you talk a 
little bit more, generally, about some of the Corps-related 
work? Your district is huge. As I look at the map that is part 
of the record. It looks like it covers how much of Arizona?
    Mr. O'Halleran. Sixty percent.
    Ms. Kaptur. Sixty percent, all right. So, one of the 
difficulties of dealing with the Corps is that we tend to get 
burrowed into individual projects, but what we lose is the 
spatial sense of what it is a part.
    You talked about watersheds in your testimony, and then I 
am going to ask Congressman Mast the same question, you went 
into a little more detail about the Florida rivers, we would 
very much appreciate your generalizing from the specific. Could 
you do that for your district?
    Mr. O'Halleran. Sure. I have tremendous amount of different 
watersheds in the district. The Flagstaff one both serves the--
flows into the Colorado River and the Verde River system. The 
Winslow, Lower Colorado aquifer flows into, and the surface 
waters flow into the Colorado River, and the Santa Cruz River 
flows into Mexico.
    And so these are fairly significant areas of water for 
Arizona, and for the 40 million people in the Colorado River. 
We also have a spring that feeds the Colorado River, about 
182,000 acre-feet of water a year.
    The significance is, each and every one of these locations 
has nearby major construction, East-West Corridors for 
commerce. And it is critical that we provide some level of 
assurance that those corridors are kept open. They feed the 
Port of Los Angeles, and all the Eastern United States with 
what comes out of that port.
    And additionally, the Flagstaff area, the downtown area 
also includes the Northern Arizona University. And the Northern 
Arizona University is the major university in North Arizona, 
and has about 30,000 students.
    So, we have a complex process throughout rural Arizona, but 
these are the three major projects, and I have another five 
watersheds within the area, and some of these have overflow 
into those watersheds.
    Ms. Kaptur. Looking ahead 50 years, if you had to advise 
the Corps for your district, what would you say?
    Mr. O'Halleran. Well, first of all, we have been lucky 
enough to have the Corps out there on each of these projects, I 
have been there with them multiple times.
    I would advise that these are growing areas. Arizona is one 
of the fastest-growing areas in the country, and if we are to 
provide the necessary flood capability, stopping floods now and 
into the future, the sooner we get this done the more 
availability we will have for funding down the line for other 
projects. And these are critical projects.
    Ms. Kaptur. Do you anticipated water shortages?
    Mr. O'Halleran. Pardon me?
    Ms. Kaptur. Do you anticipate water shortages in the future 
in your specific district?
    Mr. O'Halleran. Well, damage to water but water shortages 
are something that Arizona is going to have to live with. And 
we are going to have ground water shortages, and surface water 
shortages, if we don't address the issue of how we manage our 
water, whether it is water that flows through during flood 
stages, or water from underground. But that is also supplied by 
the amount of water that we can keep in the basin.
    Ms. Kaptur. Thank you very much. Congressman Simpson.
    Mr. Simpson. I would just say, if you have not been, Madam 
Chairwoman, down to the Everglades and taken a tour of it, it 
would be very helpful. This is the largest environmental 
restoration program that has ever been attempted. And the 
Federal Government has been up and down, and up and down in 
their funding, and what they need is some consistent funding, 
is what I learned. But they will take you on a helicopter and 
take you around and show you what they are doing.
    It is an amazing restoration project, and as you saw last 
year from the red tides, and other things that happened, this 
is devastating to the residents of Florida, but also to 
restoring the Everglades to what it used to be.
    And so I support what you are doing. And look forward to 
working with you and see what we can do. We all know that the 
Army Corps of Engineers' budget is, what was proposed is 
proposed. Every administration does it. And then we have to 
fill in the gaps. And we will do that I suspect, because there 
are so many members; and when I look at the list of members 
that are testifying, a whole of the Army Corps of Engineers 
stuff. So, appreciate your being here today.
    Ms. Kaptur. Thank you very much. Congressman Newhouse, we 
went a little over on this panel, you are lucky, because we had 
a cancellation of one of our witnesses on this panel. But we 
are going to proceed now. And any additional information you 
wish to provide to the record. I heard what the Ranking Member 
said about the Everglades, several people have invited us down 
to the Everglades.
    I guess I ask myself the question, looking at the 20th 
Century, and then looking at the proposal for what is being 
done, my final question really is, do you think that we can 
restore the Everglades to their natural state? Or are these 
engineered systems simply not meeting the reality of what is 
happening in the ecosystem?
    Mr. Mast. It will never be exactly the same as its natural 
state. As much of what used to be the Everglades is now 
developed area. That is the nature of development, that is the 
nature of literally hundreds of thousands of people moving into 
the State of Florida every single year, but it still needs to 
be repaired so that it can function in the same way that it 
used to, allowing water to flow through the watersheds, coming 
all the way down from Orlando, through Lake Okeechobee into the 
Florida Everglades and out into the Florida Bay.
    This type of kidney system needs to operate that way for 
the State of Florida otherwise it messes up everything in 
between. So, while it may not look exactly the same, it needs 
to go back to functioning in the way God intended it.
    Mr. Simpson. If I could, Madam Chairwoman? What is the 
State of Florida doing on the nutrient loading? It has been a 
challenge.
    Mr. Mast. We divide the problems up in the State of Florida 
to, one, are you sending fresh water where it needs to go, 
versus where it doesn't need to go? But beyond that, when you 
are sending fresh water to different places, it doesn't have 
too many nutrients in it, and how can we prevent it from being 
dirty fresh water?
    Those are two separate problems that we deal with. Best 
management practices are something that are constantly going 
into place, building reservoirs to go out there and store the 
water, clean the water, and then send the water into the 
appropriate directions, because those are drinking water 
supplies, and there are requirements for parts-per-billion in 
these different waterways, such as the Everglades, such as 
other areas that provide municipal drinking water, like a place 
called Grassy Waters.
    There are parts-per-billion standards to send that water 
into those places, so the State has gone and put in places to 
clean these waters, stormwater treatment areas, things like 
that, to bring them up to the water quality standard that they 
need to be, but it can't keep up with the amount of rainfall 
and flow that Florida gets when all of that water rushes from 
North down to South. The system can't keep up with it, with the 
dammed up lake, and with limited canals to send the water out 
to tide, which, as I said, when you are wasting 7 millions a 
minute, often, that is just in 1 direction out to tide, that is 
a tremendous waste when just a little bit downstream, the water 
is needed.
    Ms. Kaptur. Thank you very much. Thank you very much, any 
additional material you wish to provide to the record for our 
members would be very much appreciated. We have three or four 
competing hearings this morning, so our members are running in 
every direction. And I wanted to share with you the Algal Bloom 
problem up in the Great Lakes. It is very interesting what you 
said today about fresh water versus salt water and the impact 
of fresh water on Algal Blooms. That was most interesting to 
me. We share that common condition and I thank you for your 
leadership. Thank you gentlemen both for being here this 
morning.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. We appreciate your attendance. Yes, we would 
now like to call Congressman Robert Wittman of Virginia and 
Representative Dina Titus of Nevada. Congressman Wittman, thank 
you for appearing before us this morning.
                              ----------                              

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. ROBERT J. WITTMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VIRGINIA
    Mr. Wittman. Madam Chairwoman, thank you.
    Ms. Kaptur. Please proceed.
    Mr. Wittman. Very good. Chairwoman Kaptur, Ranking Member 
Simpson, thank you so much for the opportunity to testify today 
and as a representative from Virginia, home to the Port of 
Virginia, one of the largest and busiest ports in the Eastern 
Seaboard, adequately funding the Army Corps of Engineers Civil 
Works Program in directing at least one construction new start 
designation for navigation are essential to maintaining and 
advancing the work done by the Port of Virginia to expand and 
improve its operations. Since 2014, that is what is calling the 
Port of Virginia--calling on the Port of Virginia to have 
nearly doubled in size from 8,000, 20-foot equivalent units, 
which is how they measure containers that go on ships that are 
known as TEUs to 14,400 TEUs. And based on this growth, the 
Port is preparing for 16 to 18,000 TEU ultra-large container 
vessels in the near future. At its current depth and width, the 
Port is experiencing an urgent need to deepen and expand its 
channels. In January, 2018, the U.S. Army Corps of Engineers 
called for additional deepening and widening of the Port's 
Thimble Shoal Channel and in February of 2018, the Corps 
recommended to Congress additional widening to 1,400 feet in 
the Thimble Shoal Channel at the Port. The deepening to 55 feet 
and widening to 1,400 feet as recommended by the Corps of the 
Thimble Shoal Channel received full authorization when 
President Trump signed into law the Water Resources Development 
Act, better known as WRDA of 2018. Currently, the Port of 
Virginia is the fifth largest container Port complex in the 
United States. It manages cargo ranging from containers, 
vehicles and non-containerized cargos and commodities ranging 
from forest products, minerals and grains to auto parts and 
retail merchandise. It is a national gateway for waterborne 
commerce supporting businesses in all 48 contiguous states with 
35 percent of its cargo moving by rail. The Port of Virginia 
leads the East Coast and Gulf Coast in percentage of rail serve 
cargo. So, it is a critical part of a multi-modal 
transportation effort underway in the nation. Cargo moving 
through the Port operations help support 5,000, excuse me, 
530,000 jobs across Virginia, which is about one out of every 
nine residents in the state and it generates $88.4 billion in 
annual economic impact to Virginia. The frequency of ultra-
large container vessels calling on the Port of Virginia has 
increased dramatically, displacing smaller vessels in leading 
to one-way traffic through its harbor and channels. These 
ultra-large contained vessels are better known as Panamax 
vessels because they are the ones that can now traverse the 
Panama Canal with the deepening and widening of the Panama 
Canal, so that opens up a lot of opportunities obviously here 
in the ports. Curtain navigation of one-way traffic is not 
sustainable and creates uncertainty and inefficiency for 
businesses and their supply chains as well as customers. 
Additionally, one-way traffic has led to interruptions of 
vessels at Norfolk Naval Station, presenting possible national 
security concerns. The canal, even with its initial widening 
could not allow for the transactioning of two vessels, the 
Naval vessel and one of these ultra-large container commercial 
vessels.
    Ms. Kaptur. Excuse me, Congressman, did you provide a 
visual that we could display with your testimony?
    Mr. Wittman. I do not, but I can get one to you and show 
you where the widening would take place where these ships can 
go through. Essentially, what they have at the Port there is a 
station that is actually suspended over the water with people 
there that are kind of like the air traffic controllers of the 
Port. So, they direct ships going back and forth. With these 
areas where you can widen the 1,400 feet, would essential allow 
passing lanes, so they could direct traffic, slow it down and 
speed it up, so that when these ships got to these areas, they 
could transact.
    Ms. Kaptur. Thank you.
    Mr. Wittman. So, we will do that. In the widening the 1,400 
feet will make way for safe and efficient two-way passage 
between larger commercial vessels and the other operations in 
the harbor and channels, including the Navy. As larger vessels 
continue to call on the Port of Virginia, increasing the depth 
of the channels at the Port is becoming progressively more 
important. By deepening the 55 feet, the port is positioned to 
allow larger ships visiting the ships to arrive and depart 
fully loaded and will make for safer and more timely passage 
through the channels. Public and private non-federal interests 
have invested billions of dollars on landsite infrastructure to 
prepare for the future and are prepared to provide additional 
investments to complete these crucial navigation projects. 
Between the Port's two major terminal improvement projects, the 
Port and the State of Virginia have invested a combined $670 
million that will improve and expand the Port's operations. 
Additionally, the State has made an additional investment of 
$350 million for navigation improvement to complement federal 
investments in the Norfolk Harbor and Channel Project. With the 
benefit-to-cost ratio, a more than $5 return for every $1 
invested in construction, the Norfolk Harbor deepening and 
widening presents a huge return on investment for the nation. 
It will allow American business from across the country to 
further benefit from the Port of Virginia as an integral part 
of their supply chain. To continue the momentum exhibited by 
2018 and the $2.5 million included in the President's fiscal 
year 2020 budget for preconstruction engineering and design for 
the Thimble Shoal's Channel widening and deepening, I have 
submitted the following document to the subcommittee. $2.6 
billion in total funding for the U.S. Army Corps of Engineers 
construction account; $50 million in total funding for the U.S. 
Army Corps of Engineers operations and maintenance account; 
donor and energy transfer program; and $1.59 billion in total 
funding for the Harbor Maintenance Trust Fund; and at least one 
construction or new start designation for navigation. Madam 
Chairwoman, I want to thank you and Ranking Member Simpson for 
your interest and time to come before you today to testify to 
relay to you the importance of this project, not only to 
Virginia, but all 48 contiguous states here in the continental 
United States. The business that goes out of there, the multi-
level transportation connections, all of those elements are 
critically important for the nation and our economy. And as I 
said, the return on investment for $5 for every $1 invested by 
the Federal Government, I think is a very good return on 
investment.
    Ms. Kaptur. Thank you, Congressman.
    Mr. Wittman. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. Congresswoman Titus, welcome.
                              ----------                              

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. DINA TITUS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEVADA
    Ms. Titus. Thank you very much, Madam Chairwoman, Ranking 
Member, other members of the Committee. Unlike most of the 
people that are before you today asking for money, I am here 
asking you not to spend money. The relationship between the 
Department of Energy agencies and the State of Nevada has been 
a long and difficult one. For 3 decades, DOE has tried to force 
Nevada to become the dumping ground for the nation's waste. A 
proposal we fought since the Scrutiny of Atta Act was signed 
into law in 1987. We do not use nuclear energy; we do not 
produce nuclear waste; and we should not be forced to store it. 
In 2009, President Obama rightfully announced that the 
Administration would not seek funding for this misguided 
project. In 2012, then, the Blue Ribbon Commission on America's 
nuclear future advocated for consent-based siting of nuclear 
repositories. That sentiment was echoed by the recent reset of 
America's Nuclear Waste Management Strategy and Policies Report 
that was led by a panel of exports including former Nuclear 
Regulatory Commission members. This is what most nuclear 
nations around the world have done or are doing to address 
nuclear waste. Yet, the Administration, along with some of 
their friends here on the Hill are continuing to pursue this 
failed strategy. Accordingly, the budget submitted by the 
President includes $116 million to restart the Yucca Mountain 
licensing process. This figure actually hides the real costs of 
continuing down this path. In 2008, DOE estimated that without 
major interruptions and at the nearly 400 contentions raised by 
the state of Nevada are somehow adjudicated and dismissed, it 
would still take $1.66 billion just to complete the licensing 
process and if that were to happen according to an estimate by 
the State of Nevada, based on cost studies prepared by DOE, 
construction to complete the Yucca Mountain repository would 
cost an additional $96 billion, $96 billion. That figure does 
not even take in account the cost of transportation of this 
highly nuclear active waste that would go through 44 states and 
the District of Columbia, including 330 Congressional 
Districts. It would ride on nearly 100,000 trucks, which is an 
average of 4 to 6 trucks every day for 50 years. Congress has 
already wasted $15 billion on this doomed project that is now 
just a hole in the ground and we should not waste a penny more. 
The process that has gotten us this far was driven by bad 
politics, not good science. There is serious concerns about 
seismic hazards near Yucca Mountain; the project would border 
on the largest air and ground military training space in the 
United States, that is the Nevada Test and Training Range, 
which has caused the Secretary of the Air Force to express 
concerns about Yucca Mountain. So, until we recognize here in 
Congress that without the consent of the state, the affected 
local governments and tribal communities, there is just not 
going to be a reasonable solution to storing this waste. I 
think we need to look for a solution. We do not want to just 
say no, but this is not it. Second, I would like to bring to 
your attention another issue of concern with the DOE. Last 
year, the State of California sued the Department over its 
failure to complete the mixed oxide fuel or Mox facility. That 
facility, as you know, is to be built to process weapons grade 
plutonium, but the Department failed to take into account the 
ballooning costs associated for the facility and the Trump 
Administration killed the project. That is when South Carolina 
sued. A Federal judge directed the Department then to remove 
the plutonium that was being stored in South Carolina and put 
it somewhere else. Following the ruling, the DOE proposal 
identified two sites, one of which was the Nevada National 
Security Site located 70 miles from Las Vegas as one of the two 
recipients. The State of Nevada then filed suit arguing that 
the state, I mean, the DOE had not adequately studied the 
potential dangers of moving this plutonium to an area that is 
subject to flash floods and earthquakes. That is a claim that 
has since been reinforced by a recent report by the Defense 
Nuclear Facilities Safety Board. Now, the real disturbing part 
was during oral arguments of this lawsuit, last January, the 
DOE failed to disclose to a Federal judge, or to anybody in 
Nevada that the plutonium had already been shipped to Nevada 
and it was sitting at the test site. They are required to move 
an additional 5 metric tons out of South Carolina in the coming 
years. After all the flap occurred, the Department now says it 
is not going to send any more to Nevada, but considering their 
actions and their untrustworthiness to this point, Congress 
should prohibit any more funds from being use to insure that 
DOE keeps its word. So, I am asking you, please do not spend 
any more money on licensing of Yucca Mountain and please do not 
give DOE any money to ship those extra 5 metric tons of 
plutonium to Nevada. With that, I thank you, Madam Chairman.
    Ms. Kaptur. Thank you very much. Congressman Simpson, do 
you have any questions?
    Mr. Simpson. No. We could have a big discussion that would 
go on a long time about pros and cons. They talk about consent 
based. I know of no community that will become a permanent 
repository for nuclear waste based on consent. Now, some will 
take interim storage. I am not sure how willing they are going 
to be to do that if we close down the only possible permanent 
geological repository that we have been working on for 30 
years. So, it is a challenge. I understand where you are coming 
from. I understand Nevada does not have any nuclear facilities, 
except at that site, or use nuclear power. Idaho actually does 
not have, if you can believe it, we do not have any ships of 
the nuclear Navy that sail in Idaho. Yet, we take all the waste 
from the nuclear Navy. So, it is a challenging issue. It has to 
be resolved. Anyway, thank you for being here today. I noticed 
that Rob, you are smiling today. Does it have anything to do 
with anything beyond your testimony?
    Mr. Wittman. Well, there is a pretty spectacular basketball 
game that was on last night and we were very happy with the 
results. Much to the chagrin of our colleagues in Texas.
    Mr. Simpson. Congratulations.
    Mr. Wittman. Thank you.
    Ms. Titus. Madam, may I respond to that just briefly.
    Ms. Kaptur. Please.
    Ms. Titus. And I understand that we do not need to get into 
an argument, but I would think that you could equate taking the 
Navy's waste to what Nevada has done for the Nevada Test Site 
and testing of weapons. Those two things are up for national 
security. This is commercial waste we are talking about, Yucca 
Mountain and that is a whole different kind of story. Second--
--
    Mr. Simpson. Not all commercial waste.
    Ms. Titus. I am sorry.
    Mr. Simpson. Not all commercial waste. The waste from the 
Nuclear Navy is destined for Yucca Mountain if it ever opens. 
That is Defense waste.
    Ms. Titus. Well, that will be news to us, so that is 
another way we need to get more information from DOE. I would 
just point out that you are right. To allow and consent for 
interim seems to me and not allowing it for permanent, totally 
irrational if you are going to allow it for interim, why would 
you not allow it for permanent and I have sat right before the 
Rules Committee where Former Member Sessions said Texas would 
like to have it. So, maybe there are some communities if they 
are involved in the decision-making would not be as opposed to 
it as we are because it has just been rammed down our throat 
and in Europe, that is the way they do it and it has worked 
very effectively. So, you are right, it is an argument, but 
there are points on both sides that can be made.
    Mr. Simpson. Yeah and I would just say, I do not know 
anyplace in Europe that has a permanent geological repository. 
It is all temporary. And so we are just pushing the can down 
the road and have been doing it for 30 or 40 years and we need 
to come to some conclusion on this. Thank you.
    Ms. Kaptur. I wanted to ask the Congresswoman if there are 
any materials you could make available to the Committee to 
augment the record regarding the seismic information that has 
been coming forward. We would be grateful for that. I think the 
average member really does not know the size of this facility 
and if you have any graphic material that you could provide us, 
that would be helpful. You are a very effective spokeswoman for 
the State of Nevada. I thank you for testifying.
    Ms. Titus. Thank you, Chairwoman.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. And I wanted to say, as I said to the prior 
panel, there are many members in our subcommittee that are 
faithful attendees, but we have 3 or 4 concurrent subcommittee 
meetings going on, on appropriations, so they all could not be 
here with us. Congressman Wittman, I wanted to ask you as this 
panel departs, could you describe any changes in the ecosystem 
that you see occurring in the Virginia area. I have heard about 
rising sea levels that are affecting rail lines in Virginia for 
example. Could you kind of orient us a little bit from an 
ecosystem standpoint as to some of the environmental 
challenges, your region, as you attempt to invest in the Port 
complex, what are some of the changing environmental conditions 
that you have experienced in Virginia?
    Mr. Wittman. Sure, well, there has been some new 
construction on the Port facility down there and a heightening 
of the tunnels where the rail line goes through, so now they 
can double stack containers, but all the rail lines that come 
into the new areas there are not impacted by any of the storm 
events that are in the area there. The additional sediment that 
would come from this project would go to a place called Craney 
Island which is a place that is slated to become an expanded 
facility for container ships to come to. Obviously, with this, 
what they would do is use that sediment to elevate that so it 
would be a more resilient and we have done a number of things 
with coastal resiliency in the area there concerning the ports, 
the port facilities, the connectors, the road connectors, the 
rail connectors to make sure it is resilient to the impacts of 
storm events. So, I think it----
    Ms. Kaptur. You see rising sea levels or more feared storm 
events?
    Mr. Wittman. Yes, all of those in the same category. The 
impact that we are seeing from the storm events, from sea level 
conditions, all those elements are either factored into some of 
the construction projects that have recently happened with the 
advancement of the rail lines there, but the newest port 
facility that was built over on the other side of the Elizabeth 
River in Portsmouth, was built at a higher elevation to be able 
to mitigate, or excuse me, to adapt to these conditions. The 
new facility that is being privately built to Craney Island 
will be built at a high elevation using the sediment that comes 
out of the dredging projects and higher bulkheads, so it will 
be resilient based upon the current conditions there and 
anything projected out into the future.
    Ms. Kaptur. Thank you both very much for appearing.
    Mr. Wittman. Thank you.
    Ms. Kaptur. We will seriously consider what you have 
recommended.
    Mr. Wittman. Thank you. Thank you Chairman Kaptur.
    Ms. Kaptur. Congressman Jim Hagedorn of Minnesota and 
Representative Fred Upton of Michigan. Come forward Great 
Lakes. And I think Hagedorn was first, was he not? Okay. We 
will take the witnesses in order of appearance. Congressman 
Hagedorn. Thank you very much for joining us today.
                              ----------                              

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. JIM HAGEDORN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MINNESOTA
    Mr. Hagedorn. Thank you, Chairwoman Kaptur and Ranking 
Member Simpson, pleasure to be here. I am here on behalf of the 
constituents of Southern Minnesota. My district is one of those 
rural districts that goes all the way from South Dakota to 
Wisconsin and then Iowa up about 80 miles. So there is some 
areas with the Mississippi River that we border with Wisconsin 
that are very important to us and our way of life.
    The first district of Minnesota is one of the top 10 
agricultural producing districts in all the Nation. And of 
course our farmers and agri-businesses rely quite a bit on 
being able to transport their goods. And a lot of that goes 
right down the Mississippi River.
    So I wanted to be here today to talk about what's going on 
there. And I ask for appropriations to make sure that we can 
maintain the locks and dams, our infrastructure, can continue 
to do the maintenance to make sure we have efficient, effective 
ways of delivering our goods and preserving our way of life. 
And frankly, it is a national security issue. Where would we be 
if we couldn't have a vibrant agricultural base and we ended up 
having to import our food and things of that nature. We would 
be in big trouble.
    So it is evident that keeping our Nation's waterways 
transportation system modernized and maintained is essential to 
our economy and our way of life. And I am before you today to 
ask and encourage two funding requests with regard to our 
Nation's waterway systems. This system carries about 600 
million tons of cargo to and from 38 States, including a 
significant portion of our Nation's agricultural products.
    However, much of the physical infrastructure of our inland 
waterway system is aging and in critical need of maintenance. 
Commercial navigational locks have a design life of about 50 
years, and yet over half of the existing locks on our Nation's 
waterways are more than 60 years old.
    I have met with the mayor of Winona, I have met with the 
city administrator there, the county officials, people in 
Houston County, and they can tell you, along with the Army 
Corps of Engineers, I met with them, and Farm Bureau and 
others, that it is really, really critical that we continue to 
maintain the locks and dams and we have our shipping in good 
shape.
    At first I respectfully request the subcommittee to 
appropriate an Army Corps of Engineers operating and 
maintenance account funding level of at least 3.74 billion for 
fiscal year 2020 and for the operation and maintenance of 
activities of the Corps, including those affecting inland and 
coastal navigation throughout the Nation.
    This appropriation request is the same level signed in the 
law in the fiscal year 2019, the Energy and Water 
Appropriations Bill. And it is my belief that investing in the 
maintenance of our infrastructure today will benefit taxpayers 
in the future.
    Second, I would ask and encourage the subcommittee to 
provide 10 million in fiscal year 2020 for the investigations 
account of the Corps of Engineers to continue pre-construction 
engineering and design for the navigation and eco 
sustainability program, upper Mississippi River and Illinois 
Waterway System as authorized in Title VIII of the Water 
Resources Development Act of 2007. This funding will support 
continued pre-construction engineering and design funding for 
already authorized projects at Lock and Dam 25 on the 
Mississippi River in Missouri, and at the LaGrange Lock and Dam 
on the Illinois Waterway in Illinois.
    Both projects have been identified as priority authorized 
projects in the Inland Marine Transportation Systems Capital 
Projects Business Model, the Joint U.S. Corps of Engineers 
Industry Capital Development Plan. And that's all from April 
13, 2010.
    In closing, I would like to emphasize again the vital role 
inland waterways play in transporting our Nation's commodities 
in a cost-effective manner. Hard-working Southern Minnesota 
farmers abundantly produce some of the finest agricultural 
products in all the world, a maintained inland waterway system 
is critical to their ability to distribute these products to 
the Nation and the world efficiently and effectively. And I 
encourage my colleagues to appropriately fund those needed 
moneys.
    So with that, Madam Chair, thank you for your time, and 
Ranking Member, happy to answer any questions you might have. 
And I yield back.
    Ms. Kaptur. Thank you very much, Congressman Hagedorn. And 
if you have any visuals that you want to submit, we would 
greatly appreciate those, particularly because you represent a 
piece of a very long corridor.
    And I will just say when the Corps testified earlier this 
year, they said that between the Rocky Mountains and the 
Appalachians, that whole basin has about 42 percent of the 
Nation's rainfall that fell this past year. Eventually comes 
down the Mississippi, down to New Orleans, and it was 125 year 
high. And we see Members from that corridor struggling with 
their districts and different issues, levees broke, lot of 
things happened.
    As I said on prior panels, individual members come here, 
they talk about the project in their district. I think it would 
be really valuable if a leader like yourself could work on a 
bipartisan basis with members along that corridor, and once we 
finish our formal hearings, could come together to talk about 
what's happening in the entire corridor. Because I think over 
the next 50 to 100 years the country is going to have to do 
some additional things in terms of Corps planning for this vast 
region where we have so much water fall. And, yes, we are 
repairing damage and we can't really sustain the President's 
cuts that he has recommended in this budget. That would be 
really backward looking for the Nation. So we appreciate your 
appearance today.
    But I think Members need to understand what is happening in 
that corridor. I think you can help in that. You are very 
savvy, you are paying attention to what's happening in your 
region, and rather than just having someone come from the 
Northern part, the Red River, let's say, Valley, or down from 
New Orleans, it would be really nice to have the 
representatives from the Mississippi River and Missouri come 
together here and just have a discussion. I look forward to 
that once the formal hearings are over. So I just mention it to 
you.
    Mr. Hagedorn. It's a very good idea, something that I would 
like to do and work with Members on a bipartisan basis. And you 
notice today I mentioned a couple of projects that are far 
south of the particular district. So we are in this together 
and I understand how important it is for the entire river to 
maintain.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Ms. Kaptur. There are so many choke points. Thank you. Your 
colleague from the Wolverine State, Congressman Fred Upton, 
thank you so very much for taking time from your own 
responsibilities to be here today.
                              ----------                              

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. FRED UPTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Upton. Well thank you, Madam Chair, and my friend, Mr. 
Simpson, as well. It is a delight to be here, and I am here to 
express my strong support for the President's request. It is a 
pleasure to be here. Thank you my two friends, and colleague.
    I am here to urge this subcommittee to act favorably to the 
President's request. And in fact if he doubled it it would even 
be better. To restart Federal efforts to complete the licensing 
process for a nuclear waste repository.
    We need to complete the licensing process. This has been a 
bipartisan issue for decades. We need to complete the licensing 
because it is absolutely critical to opening the path to 
meeting the Nation's legal and moral obligations to dispose of 
the used nuclear fuel and other high level waste currently 
stranded at 121 sites in 39 states around the country.
    I would note that Michigan has three active nuclear energy 
reactors and one closed one. In fact that closed one has been 
closed for nearly 40 years. It is time to get it off sensitive 
environmental areas and into one safe place.
    This Congress has worked, we have worked as a Congress for 
many years on a bipartisan basis. Thanks to Mr. Shimkus' lead 
in the last Congress we had 49 votes, as I recall, in the 
Energy and Commerce Committee. Traditionally we have well over 
300 votes on the House floor when this issue is brought up. And 
it is time to actually deliver. And we have got a President who 
will sign this, it is in his budget, we need to take action so 
that we can restart this process.
    I would recognize that the failure to take timely action 
will continue to strand waste in our states, and certainly in 
the Great Lakes, where rate payers have paid some $40 billion 
towards the permanent repository. We are looking at nearly a 
billion dollars a year in delays. It needs to happen.
    And as I have you, I would also urge that we have strong 
funding for the Army Corps of Engineers navigation and 
maintenance and operation activities.
    Again in the Great Lakes we have a good number of 
commercial and recreational harbors. But in particular I would 
note funds for section 216 of the Rivers and Harbors Act of 
1970 which enables the Corps to review operations of completed 
projects, the physical, economic, or environmental conditions 
and a final report is made to Congress on advisability for 
modifying the structure for operations.
    I have one small community, the city of New Buffalo, which 
is just north of the State line in Mr. Visclosky's district 
where we have had severe erosion. It has damaged private 
property, it could potentially threaten the water supply as the 
pump house is located in the area being eroded. This is a 
project that is eligible to compete for section 216 funding, 
but obviously we have to have adequate resources there, and I 
would urge you to continue to work in a bipartisan basis so 
that we Members not on the subcommittee and Appropriations can 
continue to support your good efforts.
    Ms. Kaptur. Thank you so very much. As you know, both the 
Ranking Member and myself are uncomfortable, I think it is fair 
to say that, with the administration slashing the Corps 
accounts, the investigations accounts, so many of the accounts 
that we have a responsibility to care for the Nation through 
passage of this bill.
    So we are very grateful for your testimony today. If 
Congressman Simpson has any questions or comments he wishes to 
make at this point?
    Mr. Simpson. I appreciate both of you being here. Obviously 
we agree on Yucca Mountain. We have taken, I don't know, a 
gazillion votes on the Floor since I have been here on Yucca 
Mountain, and as you said, it always gets 300 or so votes. It 
is bipartisan. Politics has stopped us from solving this 
problem. And we need to just move on and get it done.
    So I agree with what you said, Jim. Is Redwood Falls in 
your district?
    Mr. Hagedorn. No, it's not.
    Mr. Simpson. Okay. I was just wondering because I had my 
Legislative Director here and then my Staff Director out in the 
district, his father was from Redwood Falls and on the City 
Council, that's where he is from and he brought a lot of 
Minnesotan to our----
    Mr. Hagedorn. That's like 30 miles north of where our 
district is.
    Mr. Simpson. Yeah. Anyway, I agree with you that--the 
President's budget is always a little bit concerning, they 
never spend down the Inland Waterway Trust Fund, the 
anticipated revenue. This year I think it is around half of 
what we anticipate in revenue. If you are going to tax somebody 
for a purpose, and for a need, and you still have that need, 
why not spend that money on that need? But yet it makes it 
easier for them to put together a budget where they slash the 
heck out of the Army Corps of Engineers.
    So that's something that the Chairwoman and I are concerned 
about, obviously, with the President's request on the Army 
Corps. I don't suspect it is going to stay where it is. We need 
to continue having this fight.
    I'm sorry, I was going to ask you a question. I will wait 
for Congressman Shimkus' testimony because he is the author of 
the legislation that we passed last year in the House.
    So anyway, thank you all for being here.
    Ms. Kaptur. Congressman Fleischmann, do you have any 
questions or comments?
    Mr. Fleischmann. Thank you, Madam Chairman. I, too, will be 
waiting for Mr. Shimkus' testimony, but Congressman Upton and 
Hagedorn, thank you so much.
    Yucca, to reiterate these sentiments, needs to be done. It 
has been funded, it has been largely constructed, it is ready 
to go. And the American people need this done. We are going to 
have a nuclear renaissance in this country and we need that 
final repository.
    But kudos do go to my dear, dear friend from Illinois, Mr. 
Shimkus, on the authorizing side. He has been the hero of this 
since I have been in Congress. And as an appropriator, 
gentlemen, I give you my word that we are going to continue to 
do everything to get this funded. Thank you.
    Mr. Upton. Madam Chair, if I might just again compliment 
Mr. Shimkus for a moment. It does appear that we are on the 
cusp of actually getting something through. But we have to take 
the initiative here in the House. But it appears as though the 
Senate, with the Members that are there, particularly Senator 
Alexander and McConnell, are ready to have a vote on this 
issue. But that is why it is important that we show our stuff 
here in the House. Because if we are unable to do that, I am 
not sure that that would happen.
    So this is the opportunity for us to really embark on early 
in the year, get it done in the first year so we can get it 
done and this stuff off the shores of Lake Michigan and other 
environmental sensitive areas, and really make a move forward. 
Long overdue. Thank you. Yield back.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. Thank you very much. And Congressman Upton, I 
want to thank you for your leadership on many Great Lakes 
issues. They are sorely needed and they are effective. You are 
held in such high esteem.
    And, Congressman Hagedorn, we thank you very much for being 
here this morning. I would ask both of you, if you have visual 
material that we can incorporate in the record on the specific 
projects you talked about, that would be most useful to the 
Membership.
    Mr. Hagedorn. Okay. I will get to work on it.
    Mr. Simpson. If you would like, we used to have a great big 
picture in here of Yucca Mountain.
    Ms. Kaptur. I was referring to the Corps project.
    Mr. Upton. At one time we were ready to name if Marky 
Mountain because it was opposition. What is it we can do to get 
you to support this thing?
    Mr. Simpson. They didn't take that down, I took it down, 
out of the room.
    Ms. Kaptur. Actually it is a good idea though. We should 
probably have some type of geographic footprint of that 
facility so Members can contemplate their positions.
    Thank you both for being here this morning. We have many 
Members waiting.
    We would like to invite Congressman John Shimkus of 
Illinois to the table, and Congressman Rick Allen of Georgia. 
Thank you for joining us this morning. Congressman Shimkus, we 
are going to begin with you. Thank you for your dogged efforts 
on trying to reach a reasonable solution for our country on 
spent nuclear fuels. And we welcome your testimony this 
morning.
                              ----------                              

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. JOHN SHIMKUS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Shimkus. Thank you, Madam Chairman. It is really great 
to be here, and I am going to try to use my time effectively 
and efficiently.
    That the simple task is is to support the President's 
request of $116 million for DOE and $38.5 million for the 
Nuclear Regulatory Commission.
    In addition to my prepared testimony submitted to the 
Committee, I placed state appropriate folders at your desk. So 
I would like to go through what's in those files, or in the 
folder.
    First there is a copy of the bipartisan letter signed by 
colleagues to support this appropriation request, bipartisan. A 
chart and table that is showing the request and an enacted 
appropriations since 1997. That's the year I entered Congress, 
that is why I went back to 97. We also have a sheet explaining 
the 30 billion and growing cost of inaction. And I want to 
focus on this a little bit because these blue bars are non-
appropriated money. It is out of the Judgment Fund. So it is 
spending that we have to do that we don't account for. And it 
is going to grow, and, unfortunately, I think it is $2 million 
a day that we are spending to do nothing.
    You also will see a picture of the country that has all the 
31 States, 120 locations where there is spent fuel or defense 
waste throughout. Then you should have, and I have mine, a fact 
sheet from your State in there, where your spent fuel or your 
defense waste is.
    And everyone on this subcommittee has some in their State, 
with the exception of Mr. Visclosky. The State of Indiana has 
no defense waste or no nuclear power plants. So I wanted to 
make sure I highlighted those issues.
    The Nuclear Waste Fund has around $40 billion currently on 
the books to finish licensing, construction, and operation of a 
geological repository for high level waste. Now this is what 
rate payers have paid into a fund to solve this problem.
    Over the past 30 years, $15 billion has been spent to 
provide us with these two stacks of science that I brought 
before you right now, on this dolly right here. I think there 
are 16 volumes. Sixteen volumes, which accounts for billions of 
dollars in research by our national labs. It is all national 
labs research done on Yucca Mountain.
    It demonstrates that DOE can safely build--through this 
report, DOE says it can safely build and operate the repository 
in compliance with the Nuclear Regulatory Commission.
    Now on the desk here, so it went from DOE to the Nuclear 
Regulatory Commission. Now the Nuclear Regulatory Commission is 
an independent agency, so it is independent. So they took those 
16 volumes and they created five volumes of their analysis of 
the science. So we have had two Federal Government smart people 
groups look at the science behind this.
    This is the NRC staff's detailed and comprehensive review 
of DOE's application. As I said, it is five volumes, and the 
final volume was published in January, 2015. This was reviewed 
by experts in geochemistry, hydrology, climatology, structural 
geology, volcanology, seismology, and health physics, as well 
as chemical, civil, mechanical, and nuclear mining materials 
and geological engineering. So that's who looked at that to 
come up this conclusion.
    The law gives the State of Nevada the right to make their 
case against these two pieces of science against the DOE 
analysis and the NRC evaluations before the Atomic Safety 
Licensing Board panel. This panel is composed of administrative 
judges who are lawyers, engineers and scientists, so pretty 
smart folks. The folders contain background document from the 
NRC explaining the entire licensing process and that's also in 
the folder I just gave you. On the left side is the NRC 
analysis.
    From the NRC Background document, it says this. If the 
adjudication were to resume, one or more boards would hear 
evidence and issue decisions on approximately 300 admitted 
issues contesting the DOE's application and the NRC staffs 
decision to adopt the DOE environmental impact statement. 
Nevada may appeal the Board's decision to the Nuclear 
Regulatory Commission. The commission's final decision may also 
be appealed by the U.S. Court of Appeals.
    What is the bottom line? The money that we are asking for 
does not turn one shovel of dirt. That is unfortunate because 
we need to move forward. What it does, it gives a state a say 
in the science which is something if you've read the recent 
press sometimes that they want. They want a chance to argue the 
science.
    So this money request is a simple request, let's get a 
final decision on the science and then decide how we want to 
move forward. If through this process this licensing board says 
it's not safe, per the law we are done. But to keep the rate 
payers and the states and the communities held hostage because 
we are unwilling to have the final debate on the science, I 
just don't think it is good public policy. And with that I went 
over my time I thank you and I yield back.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
        
    Ms. Kaptur. Well, Congressman Shimkus, you are the only 
witness that has appeared before us that was respectful of the 
time limit. Thank you so very, very much. And we will hold the 
question for the moment. We would like to hear from Congressman 
Allen.
                              ----------                              

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. RICK W. ALLEN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    GEORGIA
    Mr. Allen. Thank you, Madam Chairman. I want to thank the 
committee for allowing me to provide this testimony and 
highlight issues that are critical to the 12th Congressional 
District of Georgia.
    My district is home to many constituents that work at the 
Savannah River Site, a Department of Energy Environmental 
Management site right across the river in South Carolina.
    The Savannah River Site is home to many critical missions, 
including H-Canyon, the Nation's only hardened nuclear chemical 
separations facility, the Tritium Extraction Facility, tank 
closure, and the Savannah River National Lab, to mention a few.
    The President's budget request includes full funding for 
the Radioactive Liquid Tank Waste Stabilization and Disposition 
account, and I urge the committee to do the same.
    To ensure that the Risk Management Operations can proceed 
uninterrupted, especially H-Canyon's mission of safely 
processing highly radioactive materials, I request that the 
subcommittee fund this account at a total of $597,405,000 for 
fiscal year 2020, an additional $50 million above the 
President's budget request.
    Additionally, the Nuclear National Security Administration, 
NNSA, has recommended the Savannah River Site as the most 
viable location for the proposed two site solution for 
plutonium pit production.
    I support this decision, and ask the committee to fully 
fund the Directed Stockpile Work account, which would support 
the design of the Savannah River Plutonium Process Facility 
Project. The President included this recommendation and full 
funding in his budget request.
    The Savannah River Site has repeatedly answered the call to 
safeguard our National security, and we must ensure we meet the 
Department of Defense requirements for plutonium pit production 
and an aggressive timeline for a modernized nuclear inventory.
    Georgia's 12th Congressional District is also home to two 
nuclear power plants, Plant Vogtle and Plant Hatch. In fact, 
the 12th District of Georgia has about--will have about 80 
percent of the nuclear generating capacity of the Southern 
Company.
    The first two nuclear reactors to be built in 30 years are 
currently under construction at Plant Vogtle. We have thousands 
of spent fuel rods being held in spent fuel pools and dry cask 
storage containers on site, and with the next two reactors set 
to come online, the amount of spent fuel will increase.
    We must have a permanent geological site, the Yucca 
Mountain, to manage our nuclear waste. I urge the committee to 
support the President's budget request for FY 2020 for nuclear 
waste disposal.
    Finally, just south of my district is Savannah, Georgia, 
home of the fastest growing port in the United States, the Port 
of Savannah. The Port of Savannah is in the midst of a 
multiyear deepening project. One that will add approximately 
$282 million in annual economic benefits when completed.
    The President's budget for FY 2020 recommends full funding 
for the Savannah Harbor Expansion Project at $130 million. And 
I urge the subcommittee to support and allocate that amount in 
their FY 2020 Energy and Water bill.
    All of the issues I have highlighted today have strong, 
bipartisan support. I want to thank the House Appropriations 
Committee for their work, and I look forward to working with 
them to provide the funds necessary for these projects. And I 
appreciate this opportunity to provide testimony before you 
today. Thank you very much and I yield back.
    Ms. Kaptur. Again, thank you both for coming. Congressman 
Shimkus we know of your leadership on many issues including 
championing Yucca Mountain and trying to reach a scientific 
decision.
    Congressman Allen, thank you so very much for providing us 
with visual materials also about your district and about the 
needs of the Port of Savannah and other energy related projects 
in your region.
    And we thank you both for your appearance today. Let's turn 
it over to the ranking member. Do you have any questions or 
comments, Congressman Simpson?
    Mr. Simpson. Sure. Thank you, Rick, for being here today. I 
have been both to Savannah River, the DOE site there, three or 
four times over the years and I have also been out to the port, 
this was years ago when Hobson was chairman of this committee. 
We went down and took a look at it. So I am familiar with your 
issues there but thanks for being here today.
    John, as you know this has been a struggle over the last 
several years. What happens if we don't continue funding for 
Yucca Mountain and we go to conference with the Senate and they 
adopt their language for interim storage, which I view as 
inadequate? That's always been the debate we have been having.
    Now you have passed a bill. They've never actually brought 
a bill to the floor and passed it.
    Mr. Shimkus. Thank you. I think what--no one really knows 
what will happen. First of all, I think there is going to be a 
lot more opposition than people think because de facto interim 
could be de facto long term. The NRC does a short term 
evaluation for interim 40 to 60 years.
    So then what happens in 40, 60 years? You picked it up and 
move it again? Or that the scientific consensus of the world 
and we see this going on in other places is long term 
geological storage. Which would require then that you all, and 
us, to start looking for another site of a long term geological 
repository.
    And my guess it would take another 30 years and another $15 
billion to come back with this type of information on another 
state in the union.
    Now, you know, the importance of this is that the DOE and 
our labs have done the scientific analysis and more ologists 
than I even knew existed from volcanologists to hydrologists 
and all this other stuff. And then the independent Nuclear 
Regulatory Commission did this.
    So they have evaluated the science. I think the other thing 
to mention and for those of us who have traveled out to Yucca 
Mountain, I would encourage Madam Chairman to take your 
subcommittee out there. It's very instructive.
    Because that's where we had the nuclear test explosions, 
you have Yucca Flats there, the Federal Government land mass is 
the size of the state of Connecticut. So it's really not, we 
are not taking private property. We are not taking, this is 
government land that's been used for our Nation's security.
    We would have to look elsewhere and when this process 
started, there were 10 states that they started going down the 
path. Nevada was always that top of each evaluation list.
    But you think we are not going to revisit this in 30 years? 
If--again, the financial request is just, is really simple. 
It's not to build. It's to have a debate on the science. And 
the sooner we get that done, the sooner we decide we can move 
in or we have to start looking for another place.
    Mr. Simpson. Thank you.
    Ms. Kaptur. All right. If either of you wish to provide 
additional visual material that we can include with your 
testimony, please do. And we will share it with the entire 
membership.
    We thank you both for your--oh, did you have a question, 
Mr. Fleischmann? I'm sorry.
    Mr. Fleischmann. Madam Chairman, thank you. I just have a 
brief comment to Congressman Allen. Thank you for your 
avocation for environmental cleanup.
    Our distinguished ranking member from Idaho has a DOE 
reservation. I have Oak Ridge but the Savannah River site is a 
great site so the cleanup issues are critically important. We 
have a very strong bipartisan Nuclear Cleanup Caucus and 
National Labs Caucus where Republicans and Democrats work very 
well together. So I thank you for being here.
    Again, I just have to reiterate what and affirm what 
Congressman Shimkus has said and done. Yucca needs to go 
forward. The interim storage options are too burdensome, too 
costly and that is the site that was chosen, that is the site 
that was legally funded and the science is sound. And that will 
be proven out.
    The reality is unfortunately the politics has gotten 
involved and the politics of Nevada and there is equal blame. 
At one point in time it was the Republicans and now it is the 
Democrats. And one point in time it was the Senate and let's 
hope and pray it's not the House.
    So that the American people know, we had a very strong 
overwhelming vote in the House led by Mr. Shimkus's bill but 
this needs to go forward. There are other states that are 
looking at long term storage, like our friends in Texas, and we 
know that but that will be 30-plus years, decades away.
    So the American people need to have this done on the 
appropriations side. I am so pleased that the administration 
has put this in its budget but its long overdue and we need to 
move forward.
    Mr. Shimkus. Madam Chairman, can I just say one more thing? 
Previous Congresses have already done the tough decision. They 
have already cast the votes for where the law is today and for 
us to at least finish this.
    So, I mean, and this is people who were here, maybe when 
you were around, Madam Chairman, but not when--since I have 
been around.
    I mean they have already struggled with this debate. All we 
are trying to do is at least finish the scientific debate on 
that site and that's why I appropriate your comments.
    Mr. Allen. Let me add one quick note here.
    Ms. Kaptur. Very quick.
    Mr. Allen. The state of South Carolina has an agreement 
with the Federal Government to store that waste. The Federal 
Government has not complied with that agreement. And in fact, 
the state of South Carolina is now in a lawsuit with the 
Federal Government which is going to cost the tax payers more 
money.
    So we need to make a decision because we are just going to 
see more, I mean, it is unconscionable to have this waste in 
130 something locations around the country. So I think with 
haste we need to move forward with a decision on this. Thank 
you very much.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Ms. Kaptur. Thank you both very much. I think we are aware 
of your complete dedication to this issue and the necessity for 
our country to move forward. Thank you both for being here this 
morning.
    We have several other members waiting. We would like to ask 
ranking member of the full committee, Kay Granger to come to 
the witness table and Rodney, Congressman Rodney Davis of 
Illinois.
    We are honored to have the ranking member of the full 
committee before us today. Congresswoman Kay Granger of Texas, 
we welcome you and we will hear from you first and then we will 
turn to Congressman Rodney Davis of Illinois. Thank you both 
for being here.
                              ----------                              

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. KAY GRANGER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS
    Ms. Granger. Thank you very much, Chairwoman Kaptur and 
Ranking Member Simpson, and Members of the subcommittee. Good 
morning, and thank you for allowing me to testify before you 
today on my priorities for the fiscal year 2020 Energy and 
Water Development and Related Agencies Appropriations bill.
    I have two priorities I'd like to bring to your attention, 
both with a history of strong bipartisan support.
    First, I request that you support, at a minimum, the 
President's budget request for nuclear waste disposal for the 
Department of Energy and the Nuclear Regulatory Commission. 
This funding will allow the two agencies to resume regulatory 
activities concerning Yucca Mountain.
    Currently, spent nuclear fuel and high-level radioactive 
waste is temporarily stored at 121 locations across 39 states. 
While those locations provide safe storage, they were never 
intended to be permanent. This material needs to be relocated 
to a more secure, safe, and reliable facility. By law, Yucca 
Mountain is that facility.
    We must provide the Department of Energy and the Nuclear 
Regulatory Commission with the resources necessary to continue 
and complete the licensing process. This process will provide 
the answers the public needs on long-term safety of the site.
    My second priority for the fiscal year 2020 Energy and 
Water bill is robust funding for the U.S. Army Corps of 
Engineers civil works program, specifically the Construction 
account.
    The civil works program supports our economy, protects 
public health and safety, and improves the environment.
    Of paramount importance to my constituents is the future of 
my hometown of Fort Worth is a Corps project called by the 
Corps Central City. The federally authorized project known 
locally as the Trinity River Vision and Panther Island Flood 
Control Project, will reestablish essential levels of flood 
protection in the Corps built Fort Worth Floodway.
    This effort is vital to protecting over 2,400 acres of 
existing neighborhoods valued at over $2 billion. This ongoing 
construction project enjoys widespread support in the Fort 
Worth community, as evidenced by the recent and overwhelming 
passage of a $250 million bond issue to reinforce the local 
funding for the project.
    At this subcommittee's hearing on the Corps budget request 
2 weeks ago, in response to questions Ranking Member Simpson 
asked on my behalf, and I thank him for that, Assistant 
Secretary James reaffirmed his support for the project and 
Lieutenant General Semonite agreed that the Corps has an 
obligation to complete a project once it has begun. 
Unfortunately, the budget request is woefully inadequate to 
address our Nation's water resources infrastructure needs. 
Therefore, I ask the subcommittee to once again prioritize 
robust funding for the Corps of Engineers as you develop the 
fiscal year 2020 bill.
    I thank you for the opportunity to testify today on my 
priorities for the fiscal year 2020 Energy and Water 
Appropriations bill.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. Thank you very much, Congresswoman. We will 
hold questions just for a moment until we hear from Mr. Davis. 
Welcome.
                              ----------                              

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. RODNEY DAVIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Davis. Well, thank you, Madam Chair, and thank you Mr. 
Ranking Member Simpson and my good colleague and fellow 
baseball player, Mr. Fleischmann. I truly appreciate the 
opportunity to testify before you today.
    As you may know, I am here in support of funding levels in 
the President's budget request for nuclear waste disposal. I 
represent the 13th district of Illinois which is home to the 
Clinton Power Station, one of 11 nuclear reactors in Illinois. 
The most of any State in the Nation.
    These reactors generate approximately 53 percent of our 
States electricity, and 89 percent of the state's emissions--89 
percent of the State's emissions free electricity. Roughly 
5,900 people are employed as a result.
    These sites are also home to over 10,000 metric tons of 
spent nuclear fuel, which is also the most of any other State 
in the Nation. This is why this issue is very important to me.
    Over the past 36 years, rate payers have paid over $40 
billion into a fund set up by the Federal Government to create 
a national nuclear waste depository.
    Despite the Act requiring DOE to begin moving spent nuclear 
fuel by January 31, 1998, it has yet to be moved. The DOE's 
failure to take custody of commercially spent nuclear fuel at 
the 1998 deadline, has resulted in the Federal Government 
paying the industry over $8 billion in damages. Projected 
future liabilities are estimated at roughly $30 billion more 
tax payer dollars.
    This should not be a partisan issue, and if you look at the 
numerous votes we have taken in the House over the years it has 
not been. In the previous Congress we voted 340-72, to advance 
the Nuclear Waste Policy Amendments Act of 2018, which was 
introduced by my good friend, my former boss and now our 
colleague, Congressman John Shimkus of Illinois, if enacted 
this legislation would have moved forward with both permanent 
and interim storage and fulfill the promise Congress made to 
our communities over 30 years ago.
    Currently there is over 70,000 metric tons of spent nuclear 
fuels stored at 121 locations across 39 states. Roughly a 
quarter of this waste is stored in dry casks, and the rest sits 
in wet pools, like at Japans Fukushima site.
    It sits in Republican districts and Democrat districts. 
Unless we finally act to restart the project at Yucca Mountain, 
the issue will remain there indefinitely.
    I urge you to support the funding levels in the President's 
budget request for $116 million for nuclear waste disposal, and 
$38.5 million to restart the licensing process with the Nuclear 
Regulatory Commission.
    And while I am here and have a couple of extra minutes, I 
do want to also reiterate the importance of the Lock and Dam 
systems along the Illinois and Mississippi waterways. It is 
crucial to districts like mine, and I certainly hope that this 
committee will consider funding levels at appropriate levels 
for the Corps of Engineers.
    Thank you. And I yield back the balance of my time.
    Ms. Kaptur. Thank you very much, Congressman Davis. And we 
heard what you said about the Mississippi River Corridor. A 
prior panel I talked about, after our formal hearings are over, 
all way from the Red River, all the way down to the Port of New 
Orleans, having members come in on a bipartisan basis and talk 
about what is happening in that major bowl of our country in 
terms of water flows, and maybe we can get the Corps to join us 
for that, so we get a systemic understanding of what is 
actually going to be required over the next several decades----
    Mr. Davis. We would love to be back for that, Madam 
Chairwoman.
    Ms. Kaptur. Thank you. Congressman Simpson, any comments, 
or questions?
    Mr. Simpson. I don't have any questions. I think I just 
received my marching orders.
    Ms. Kaptur. Congressman Fleischmann.
    Mr. Fleischmann. I think the chairman and ranking member 
are absolutely correct. We are hearing a consistent theme on 
Yucca, and we have heard that. And Congressman Davis, thank you 
for your avocation, represents the University of Illinois, and 
Champaign-Urbana, one of my alma maters. So, thank you, sir.
    And to Ranking Member Granger, thank you for your service, 
as ranking member on the full committee, it is the first time I 
think in our history, that the full committee chair, and the 
ranking member are both women, and I think that just speaks 
great volumes to where we have come in this country. So, thank 
you.
    Mr. Davis. Thank you.
    Ms. Kaptur. Thank you for noticing that, Congressman 
Fleischmann. When I first arrived in Congress there were only 
two women on the Appropriations Committee, no clerk was a 
female. It was a very different era, and so we have actually 
lived the history, and transformed the history for the sake of 
the country. And it will be a good thing. History will attest 
to that.
    Congressman Davis, I wondered if you have, on the issue of 
the Mississippi, do you have any additional visual materials 
you could provide to the record on how your district is 
connected to the entire chain, the spine of the flow.
    Mr. Davis. Absolutely, I will. And I came here specifically 
to talk about Yucca Mountain because of the efforts of my 
colleague, and again, my former boss for 16 years, Congressman 
John Shimkus, I would be glad to provide you with some updates 
of our requests for funding for the NESP Program.
    I am very happy that the administration has allowed dollars 
to flow into the La Grange Lock and Dam on the Illinois River, 
to begin major rehab that will start the process of rehab in 
the Locks and Dams up along the Illinois, Mississippi Rivers 
that are so crucial to our farmers and to our manufacturers.
    But I will get you documentation, and I appreciate the 
offer, Madam Chairwoman.
    Ms. Kaptur. It is a piece of a bigger puzzle.
    Mr. Davis. Absolutely it is. And I look forward to working 
with the subcommittee and this committee on getting that puzzle 
put together.
    Ms. Kaptur. Thank you very much. I also appreciate in your 
testimony, you talk about Illinois having the most nuclear 
reactors and the most spent fuel in the country. I take it 
there is no depository in Illinois that could take that.
    Mr. Davis. There is not, and I don't think geologically, we 
could do that, but they are all sitting there right now, which 
is obviously in my opinion, a national security threat in our 
own backyard.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Ms. Kaptur. All right. And I wanted to move to the ranking 
member of the full committee, Congresswoman Granger. When you 
talked about Fort Worth and what is happening with the Central 
City Project. Could you describe to us, and for those that 
don't know that project in detail, what actually is happening 
in the ecosystem at Fort Worth?
    Ms. Granger. It is a flood control issue, because the Corps 
of Engineers came in 40 years ago in Fort Worth there was a 
massive flood. And went to the third storey of most of the 
buildings there, and they came in and did some wonderful work 
with levees, but now that we have outgrown that, because there 
is such enormous growth in Fort Worth, so we have a project to 
widen and deepen that river, and take care of that flood 
control.
    It has been authorized for the Congress, it has been 
authorized by two Presidents, and it has been funded up until 
the last 2 years. And we will make sure there is enough to 
finish that project. It is a half--it is 50 percent paid by the 
city and the State, and 50 percent by the Federal Government.
    Ms. Kaptur. As the rains come, do you have increasing 
rainfall?
    Ms. Granger. Absolutely.
    Ms. Kaptur. All right. So, there is no--it would be great 
if you would provide some mapping material for our members to 
review on exactly with population growth, what is happening 
with demographics and water, water runoff.
    Ms. Granger. All right.
    Ms. Kaptur. Some of us have heard rumors, you know, that 
the communities in Texas don't have zoning. Maybe that was only 
Houston, I don't know. But I think it is important for us to 
understand some of the scope of what is happening around the 
country, as we meet with the Corps and work with them on ideas 
for handling water runoff in a more sophisticated manner.
    I am not disagreeing with your project. I am just saying it 
would be great to have a greater understanding of what is 
happening in Fort Worth, if you can provide it.
    Ms. Granger. When I was at Fort Worth it had at 370,000 
people, and it now has 800,000 people.
    Ms. Kaptur. Thank you, both, so very much for appearing 
today.
    Ms. Granger. Thank you.
    Ms. Kaptur. Okay. The next panel, we will call Congressman 
Jeff Duncan of South Carolina, and Congressman Joe Wilson of 
South California.
    Mr. Wilson. I was here. I am looking forward to being with 
both of you.
    Ms. Kaptur. We thank you so very much for appearing this 
morning. We have several members who wish to testify, and we 
are asking members if they could stay within the 5-minute rule, 
we would greatly appreciate that.
    Congressman Duncan was here first, so we are going to call 
on him, and then Congressman Wilson, you will be second on this 
panel. Thank you so very much for coming today. Congressman 
Duncan.
                              ----------                              

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. JEFF DUNCAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF SOUTH 
    CAROLINA
    Mr. Duncan. Thank you, Madam Chairwoman. I am here today to 
speak in support of the funding levels in President Trump's 
budget request for nuclear waste disposal. As you begin to work 
on the Fiscal 2020 Energy and Water Development Appropriations 
Bill, I urge you to support the President's budget request of 
$116 million for nuclear waste disposal, specifically the $38.5 
million in the Nuclear Regulatory Commission's Nuclear 
Materials and Waste Safety Program for related activities at 
Yucca Mountain.
    I am, and I will continue to be an advocate for nuclear 
energy. When we generate electricity from nuclear power, we 
also create waste. Not only do we need a national solution to 
this problem, we have one, a permanent geologic repository in 
Nevada known as Yucca Mountain.
    Congress has already established a comprehensive nuclear 
waste management strategy over 35 years ago when we enacted the 
Nuclear Waste Policy Act. This assigned the responsibility of 
permanently disposing spent nuclear fuel to the Department of 
Energy. It also established a fee-for-service funding model in 
which fees assessed for electricity generated by nuclear power 
are paid to the federal government to finance a disposal 
program.
    Because the Department of Energy and the Federal Government 
have defaulted on their contractual obligation, ratepayers 
across the United States, notice I said, ratepayers across the 
United States, have paid around $40 billion in fees for the 
construction, and operation of a permanent nuclear waste 
repository.
    Federal law required the Department of Energy to begin 
disposing of nuclear waste by 1998. Clearly the Federal 
Government has aggressively failed to meet this contractual 
deadline by over 20 years, unnecessarily costing Americans 
billions of dollars.
    In addition to what ratepayers have paid, taxpayers have 
paid nearly $7 billion in legal damages. In fiscal year 2017 
alone, taxpayers paid nearly $732 million, which breaks down to 
about $2 million a day in damages.
    And for what? Given our rising $22 trillion debt, it is 
important to remain cognizant of what else this money could be 
funding. Despite the billions of American ratepayers have paid, 
American taxpayers are liable for nearly $30 billion in 
payments to manage the spent nuclear fuel that sits in 121 
communities across 39 states.
    Appropriating funding to restart the program is the first 
step towards reducing and ultimately eliminating these 
escalating costs. It is time the Federal Government stop 
kicking the can down the road. Doing this for 40 years has 
resulted in about 80,000 tons of commercial and non-defense 
spent nuclear fuel, and 14,000 tons of defense waste currently 
scattered in temporary storage sites in over 100 different 
sites.
    Most of these commercial spent nuclear fuel storage sites 
are near large population centers and large bodies of water. 
Over 161 million Americans live within 75 miles of these 
facilities.
    The issue of nuclear waste is one of particular interest to 
my constituents and South Carolina as a whole. Nuclear energy 
generates over 58 percent of our state's electricity. South 
Carolina is home to 7 nuclear reactors at 4 locations. These 
sites in South Carolina store 4,798 metric tons of used nuclear 
fuel as of 2017.
    In addition, just outside my district, the Department of 
Energy's Savannah River Site site stores approximately 8,000 
tons of vitrified nuclear waste, along with 35 million gallons 
of high-level liquid waste.
    There are over 4,000 canisters filled with vitrified glass 
waste sitting at the Savannah River Site ready to ship to Yucca 
Mountain.
    They started this mission over 20 years ago and have since 
been waiting for us to license a permanent repository. Until 
Yucca Mountain is licensed, the Savannah River Site will 
continue to be the custodians of the waste, which was never the 
intended purpose of the site.
    In addition to the waste still sitting in my state, through 
September of 2016, South Carolina ratepayers have contributed, 
including interest, approximately $3.1 billion to the 
Department of Energy's Nuclear Waste Fund, to permanently 
dispose of this used nuclear fuel at Yucca Mountain. This is 
the third most of any state.
    I would also like to take a moment to express my strong 
support for the Department of Energy's funding request at the 
Savannah River Site, specifically funding for both the H-Canyon 
facility and the proposed Savannah River Plutonium Processing 
Facility.
    H-Canyon is the Nation's only remaining production scale 
facility capable of processing nuclear materials for reuse or 
proper disposition.
    In the interest of time, I will skip down and say I was 
extremely supportive of the President's 2017 initial step, to 
request funding to restart the Yucca Mountain Project, and it 
has been overwhelmingly proven that Yucca Mountain will protect 
the people and the environment for thousands of generations.
    The natural features of the mountain, geology, climate, 
distance above water table, and isolation, make it a perfect 
place for the repository. I have been there myself. I have seen 
first-hand how suitable the site is. It is a geologically 
perfect location. We need to restart this.
    And I urge the committee to support the President's 
request. And with that, I yield back.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. Thank you very much, Congressman Duncan. 
Congressman Wilson.
                              ----------                              

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. JOE WILSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF SOUTH 
    CAROLINA
    Mr. Wilson. And thank you, Madam Chairwoman. And thank you, 
Ranking Member Simpson. We appreciate your leadership on the 
subcommittee. I am here today representing the Second District 
of South Carolina, the home of the Savannah River Site.
    The Savanna River Site was constructed in the early 1950s 
to support our national defense programs during the Cold War. 
The site maintains that responsibility 70 years later with 
victory in the Cold War.
    According to the Nuclear Posture Review, it is critical 
that the United States produces 80 pits per year by 2030 to 
ensure defense readiness. Since the cancellation of the Mixed 
Oxide Fuel Fabrication facility last October, the NNSA has 
recommended repurposing the MOX facility for pit production to 
satisfy 80 pits per year goal.
    With the facility already being 70 percent complete, the 
site is the most viable option for a two-site solution and I 
request the committee support full funding of critical weapons 
activities.
    With the closure of MOX, South Carolina was left with the 
storage of weapons grade plutonium that was originally going to 
be processed through the MOX facility for commercial fuel use.
    I support the request of the President for $79 million for 
the Surplus Plutonium Disposition Project to support the dilute 
and dispose strategy to remove the plutonium from the site.
    Additionally, I support the President's budget request for 
Yucca Mountain to ensure the country has a safe and permanent 
repository for management of nuclear waste.
    The site is also home to H-Canyon, the only hardened 
nuclear chemical separations plant still in operation in the 
United States. Unfortunately, H-Canyon has been under-funded 
both this year and in previous years, with approximately 240 
metric tons of LEU yet to be processed through H-Canyon, I am 
requesting an additional $50 million to the President's budget 
request to accelerate the operations of this vital asset.
    I also support the President's budget request for the full 
funding of the Radioactive Liquid Tank Waste Stabilization and 
Disposition Account and urge the committee to do the same.
    With the site spanning over 300 square miles, it is 
important that the community is adequately served by the 
Federal Government.
    In the President's budget the payment in lieu of taxes was 
removed from receiving funding under community and regulatory 
support. And I ask that the committee reinstate the $6.5 
million, to ensure the local schools and emergency services are 
adequately served.
    While it may be interpreted that the site is getting a 
significant increase in funding, a large portion is due to an 
increase in pension payments. It is projected that pensions 
will require an additional $28.6 million from FY 19 and up to 
an approximate $98 million over the next 5 years, with the 
pensions only being funded at about 80 percent. Lack of 
appropriate funding for pension payments will result in 
discontinuity in operations and potential layoffs due to 
funding being sourced from the Risk Management Operations 
Account.
    A final community-related area of importance is the 
Advanced Manufacturing Collaborative facility. The AMC will be 
an innovation hub that will not only allow experts in emerging 
technologies to collaborate with industry, academia, and 
government to improve manufacturing, but also assist the DOE 
complex by accelerating technology development for the cleanup 
mission.
    I am grateful that the President requested funding for the 
design and construction of this facility, and I encourage the 
committee to support this private-public partnership, 
specifically for location at the USC Aiken Campus.
    Additionally, I strongly support the President's full 
funding request of over $138 million for the completion of the 
Charleston Harbor Deepening Project.
    In 2017, the South Carolina Ports Authority signed a 
Project Partnership Agreement with the Army Corps of Engineers, 
which allows for the use of advanced funds from the SC Ports 
Authority for the federal share in addition to the non-federal 
share of the construction costs.
    Responsible, collaborative infrastructure investments like 
the Port of Charleston are in the best interest of American 
taxpayers, creating jobs. The Port of Charleston contributes 
$53 billion in annual economic impact to the state of South 
Carolina, and is a key economic driver for the region.
    In direct testament to the competitiveness of this project, 
the U.S. Corps of Engineers recently found the recalculated 
cost-benefit ratio of the project to be over 6 to 1.
    I urge you to provide the full funding in the Army Corps of 
Engineers Civil Works construction funding for the Charleston 
Harbor Deepening Project.
    And I am grateful to speak with you in support of this 
positive infrastructure investment. Thank you both for your 
time.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Ms. Kaptur. Thank you both for appearing this morning. 
Quickly, could I ask you, Congressman Wilson, and both of you 
represent really important elements of our Nation's security, 
and economic activity.
    Mr. Wilson. Yes.
    Ms. Kaptur. Based on the regions you represent, the 
districts you represent, have you seen any changes in the 
ecosystem that impact either your port, in this future, or any 
of the energy sites that you referenced? South Carolina has 
taken a battering at least on the coast, but I am just curious, 
over the last several years, the changes you see. I take it you 
are both Native South Carolinians. Right?
    Mr. Wilson. Yes. Yes.
    Ms. Kaptur. What changes do you see occurring there that we 
might need to know about as a subcommittee?
    Mr. Wilson. We are both inland districts, and so other 
changes that may be occurring on the Coast would not impact 
substantially. And we have recurring droughts, recurring high 
levels of rain, and we have had significant rainfall to the 
point of a thousand-year flood, so this all is of concern to 
everyone.
    Ms. Kaptur. But not entirely----
    Mr. Duncan. Joe hit on the environmental impacts of El 
Nino, and just in the natural cycle, but if we focus on the 
idea of climate change, one thing that we can lower our carbon 
footprint as a nation, is use more nuclear power. But the 
downside of that is as we create more nuclear waste when we do 
that.
    And there are two reactors in two different plants in your 
home state of Ohio that currently have 1,387 metric tons of 
spent waste sitting on the shores of Lake Erie.
    In my district we have it sitting on the shores of Lake 
Keowee, it is a man-made reservoir. We also have it sitting on 
the Broad River in South Carolina.
    So, it concerns me that we are not doing enough--and 
chosen, and selected, and is the law of the land as a 
repository for both defense and non-defense waste. And so as we 
try to balance our efforts on climate change, we also should 
try to balance a long-term repository for the waste that sits 
in your State and 121 different sites around the country.
    Ms. Kaptur. Thank you very much. Congressman Simpson.
    Mr. Simpson. Don't have any questions. Thank you for being 
here, appreciate your testimony. And you didn't mention that 
the Savannah River site is where the location of the first 
cloverleaf on an interstate was built. It is an historical 
thing.
    Mr. Duncan. We have somebody that knows that.
    Ms. Kaptur. How did you know that?
    Mr. Simpson. Because I went there.
    Mr. Duncan. And we appreciate you visiting. And South 
Carolina is very grateful for many positive firsts.
    Ms. Kaptur. Congressman Fleischmann.
    Mr. Fleischmann. I just wish to thank both my distinguished 
colleagues and friends from South Carolina. I support your 
initiatives, and I thank you for appearing before us today.
    Ms. Kaptur. Thank you both very much. I am going to call 
now Congressman Buddy Carter of Georgia and Congressman Jerry 
McNerney of California. Thank you gentlemen for waiting. Oh, 
I'm sorry, they are here. Calling Congressman Mike Johnson of 
Louisiana. We are trying to call in order of appearance. 
Congressman Carter, why don't we begin with you on this panel, 
you appeared first. And then Congressman Johnson.
                              ----------                              

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. EARL L. ``BUDDY'' CARTER, A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF GEORGIA
    Mr. Carter. Well thank you, Madam Chair. And thank all of 
the Members for entertaining us today, we appreciate the 
opportunity to speak before you.
    And I want to share my concerns. I have the honor and 
privilege of representing the First Congressional District of 
Georgia. The First Congressional District of Georgia includes 
the entire coast of Georgia, over 100 miles of coastline. 
Starts up in the State line of South Carolina and goes all the 
way down to Florida. We have a lot of natural resources, as you 
can imagine, and a lot of history in our district as well.
    One of the things that we are most proud of is that we are 
home to two major seaports. The Port of Savannah, the second 
largest container port on the Atlantic Seaboard, the fourth 
busiest in the United States. And, I might add, one of the 
fastest growing ports in the world. Only two ports in China are 
growing faster than the Port of Savannah.
    Also we have the Port of Brunswick. The Port of Brunswick 
is the No. 2 roll-on/roll-off port in the country. They have 
really found their niche there with cars and trucks that are 
going in and out of that port.
    Currently we are expanding our, I should say deepening the 
Savannah Harbor. The Savannah Harbor Expansion Project carries 
us from 42 feet depth to 47 foot depth. And it allows us to 
accommodate the post-Panamax ships that are now calling on 
these ports. It is extremely important. This project has 
received $130 million this year in the fiscal year, from the 
President. This will help us in finishing this project. We need 
one more year. If we can get one more year after this then we 
should be able to finish this project in 2020 or 2021 at the 
latest.
    I would ask for your help and your approval of that funding 
request by the President of $130 million this year. That will 
keep us on schedule with that.
    The economic benefit, I might add, of that project is one 
of the highest in ratio of any project in the country, with a 
return for every dollar that we spend, we get a return of 
$7.50. Who wouldn't take that kind of input?
    Also I would be remiss if I didn't mention the Harbor 
Maintenance Trust Fund. As you can imagine, with two major 
ports it is very important that we maintain those ports and 
that we keep the United States competitive in a global stage. 
Without the Harbor Maintenance Trust Fund and without it being 
funded, we are definitely going to be in trouble. So that is 
extremely important, I would ask for that as well.
    Also on the coast we have weather-related impacts on our 
district, as you can imagine. We had two major hurricanes in an 
11-month period, which really impacted our district. And this 
is very important that the Corps of Engineers be funded 
properly so that they can help us in mitigating this.
    I have submitted a language request that appropriate levels 
of funding be allocated within the dredging operation 
environmental research account to help maintain the progress 
that we have made.
    Also in Georgia nuclear power plays a large role in our 
Nation's power portfolio, but especially in Georgia. Currently 
we are the only State and the only place where we have two 
major nuclear reactors under construction at Plant Vogtle. This 
is extremely important. And because of that we need to find a 
safe long-term solution for the storage of nuclear waste. 
That's why I submitted a request that will help us to move one 
step further to the construction and use of Yucca Mountain. 
That's very important.
    Finally, I have submitted a request for both inland 
waterways and short protection accounts. As you can imagine, a 
district with over 100 miles of coastline and an ample stretch 
of intercostal waterway, it is imperative that we pay attention 
to these areas in the country, such as the Barrier Islands of 
Georgia. They are very, very important. Funding for those 
efforts will help ensure storm resistant and weather resistant 
communities of the future, and that is extremely important.
    Again, Madam Chair and Members, I want to thank you for 
giving me the opportunity to testify today and thank you for 
your work in this area. It is extremely important, particularly 
to us on the coast.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. Thank you very much, Congressman Carter. We 
will move to Congressman Johnson. I just want to say we will 
not have questions in this period in deference to Congressman 
Scalise who has a drop dead deadline here very shortly. So 
please proceed.
                              ----------                              

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. MIKE JOHNSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    LOUISIANA
    Mr. Johnson. I do my best to give deference to my colleague 
from Louisiana, Whip Scalise. I'll speak quickly and I'll make 
it brief.
    Chairwoman Kaptur, Ranking Member Simpson, all of our 
colleagues on the Subcommittee, greatly appreciate the 
opportunity to testify before you today.
    I am here to express to you just simply the importance of 
developing and maintaining the Nation's water infrastructure 
needs, particularly as they relate to my district in Northwest 
Louisiana.
    As such I respectfully request the Committee prioritize 
funding for the Army Corps of Engineers Civil Works Division 
for operations in maintenance and for their general 
construction needs.
    Our inland waterways provide tremendous flood management 
and navigation benefits. And they provide critical jobs to 
support our Nation's maritime economy. Some of the biggest 
challenges and opportunities in my district revolve around port 
infrastructure and further development of the navigation of our 
rivers.
    My district is home to four shallow draft port authorities 
that serve 485 miles of navigable waterways and shallow draft 
river miles. The J. Bennett Johnston Waterway is a commercially 
navigable portion of the Red River. It is by far the most 
robust waterway in our district. And it supports economic 
development through both recreation and shipping.
    The last time I testified before you I discussed our 
experience with the catastrophic flooding event that we 
experienced on the Red River in 2015. Homes, businesses, 
agricultural lands, critical infrastructure were severely 
damaged and destroyed. Four years later we are still coping 
with finding resources to repair our navigation structures. And 
a lack of investment in the waterway poses threats to the 
maintenance to the channel.
    Interestingly, recent severe flood threats from the Red 
River have been triggered by relatively lower volumes of water 
flooding through the channels. In essence, we are experiencing 
worse flooding from less water.
    The Army Corps has initiated a sedimentation study to 
determine the reasons for this discrepancy, and a preliminary 
report is expected this summer. The Army Corps hasn't yet 
released their findings, but we believe, many experts believe, 
that sediment buildup is the primary driver of the increase in 
the severity of our flood events.
    To fight this problem we need robust funding under the Army 
Corps Operations and Maintenance Account to perform dredging of 
the channel. This will preserve the River's navigability and it 
will provide an additional buffer for flood relief as the 
channel will be capable of holding higher volumes of water. Of 
course that is a cost savings to the Federal Government, the 
State, and everyone involved.
    Additionally, operations and maintenance funding will help 
restore dykes and revetments that have deteriorated from the 
floods we have experienced in 2015, 2016, and 2018. These are 
historic events.
    Second, I respectfully request that the Committee 
appropriate robust funding for the Army Corps General 
Construction Account. The construction features at the J. 
Bennett Johnston Waterway, those features are only 93 percent 
complete at present, and the funds are needed to acquire 
mitigation lands so the Army Corps can bring the waterway up to 
the standards that were originally intended.
    My understanding is that stakeholders have identified 
willing sellers of the required mitigation lands, and the Army 
Corps just needs funding to complete the transaction and move 
the project forward.
    Ultimately this funding will create a more resilient 
waterway for our constituents and allow us to expand the 
economy of Northwest Louisiana and the broader region. Once the 
Army Corps is able to dredge the River and complete the 
construction features of the J. Bennett Johnston Waterway, we 
will be able to explore further developments, future 
developments that will have a greater regional impact, and will 
extend all the way to Texas and Arkansas.
    In sum, I strongly urge the subcommittee to prioritize 
investments in our ports and waterways as you work your way 
through the fiscal year 20 appropriations process. And I stand 
ready to work with each of you in the administration to develop 
solutions that will enhance our water infrastructure system, 
and I am certainly grateful for the opportunity to testify 
before you on these issues. Thank you so much.
    Ms. Kaptur. You both have done a fine job in your 
testimony, and you have a Subcommittee that will grapple with 
your recommendations as we try to repair the budget for 2020 
that was sent to us from the administration. We thank you for 
your appearance today.
    Mr. Johnson. Thank you.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Ms. Kaptur. Congressman Steve Scalise of Louisiana, and 
Congressman Pete Olson of Texas, please. Let us begin with 
Congressman Scalise. Thank you so very much, knowing your 
responsibilities for appearing before our subcommittee today.
                              ----------                              

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. STEVE SCALISE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    LOUISIANA
    Mr. Scalise. Well thank you, Chairwoman Kaptur, and Ranking 
Member Simpson, for the opportunity to testify before the 
subcommittee on the importance of investing in Corps of 
Engineers projects and feasibility studies that primarily focus 
on protecting our communities from natural disasters, and 
strengthening our Nation's waterways.
    Specifically I am here to talk about a few projects that 
are both in my district but also have a very large impact on 
America's national security and energy security infrastructure. 
This includes deepening the Mississippi River from 45 to 50 
feet, as well as the St. Tammany Feasibility Study and the 
Morganza to the Gulf Hurricane and Storm Surge Protection 
Project.
    Lastly, I am also here to express my support to the 
Subcommittee on investing in the safety and security of our 
nuclear waste repository, I know a few other Members have 
talked about, the importance of Yucca Mountain.
    Louisiana is one of the top five energy producing states in 
the country and is home to the mouth of the Mississippi River. 
My district serves as a critical gateway to the world, moving 
500 million tons of cargo in international trade. I am asking 
this subcommittee to consider providing necessary funding that 
gives the Corps of Engineers flexibility they need to invest in 
deepening the Lower Mississippi River from 45 to 50 feet. As 
you can imagine, when we saw the widening of the Panama Canal, 
it created a lot of opportunities to move larger vessels. The 
Corps was able to, through this Committee's work and the 
authorizing committee's work, to authorize an expansion from 45 
to 50 feet of dredging. And by making that investment it would 
allow the larger vessels that are moving through the Panama 
Canal to be able to get access to our inland waterways. And of 
course with the mouth of the Mississippi River.
    We knew back when Thomas Jefferson made that $15 million 
investment in 1803 to double the Nation's size, it was to get 
access to the Port of New Orleans through the Mississippi 
River. And that Port and that waterway, the Mississippi, is 
still the gateway to so many of our Nation's producers of a lot 
of our agricultural products and so many other products, that 
we are able to export. We could take even further advantage of 
the deepening of the Panama Canal by deepening to 50 feet on 
the Mississippi River.
    Additionally, it provides dual benefit of rebuilding 
Louisiana's vanishing coastline. Because we have finally 
entered into a contract, both Louisiana and the Corps of 
Engineers now have an agreement that as they are dredging the 
Mississippi River in the past, that sediment used to be just 
dumped into the Gulf of Mexico where you don't get any 
beneficial use. We are now able to use that sediment from 
dredging to rebuild Louisiana's vanishing coastline. So we lose 
about a football field of land every single hour in Louisiana. 
It is a major national crisis. In our State we have dedicated 
things like drilling, deep water drilling revenues to restoring 
our coast. The State's also put up large amounts of money. We 
dedicated what would probably amount to well over a billion 
dollars of the BP settlement from the Deep Water Horizon 
disaster. That money will go to rebuilding the coastland that 
has been eroding.
    But the dredging of the Mississippi River also allows us 
the ability to take that sediment and use it to rebuild land 
and coastline, which also helps defend against future storms.
    In recent years Louisiana has managed to secure long-
awaited Corps project authorization that were held up due to 
bureaucratic red tape. But as Members of this Subcommittee, you 
all know that authorization is only the beginning of turning 
studies into reality.
    In 2016 Congress authorized a new start feasibility study 
for St. Tammany Parish which would examine the need for 
hurricane, surge, flood, and shoreline protection projects in a 
vulnerable area of my district. While the Southern and Western 
Portions of Lake Pontchartrain have received funding for 
related projects, the North Shore of Lake Pontchartrain, which 
during Katrina saw storm surges ranging from 7 to 16 feet, 
destroyed thousands of homes and small businesses. And yet they 
have not seen a single Federal dollar dedicated to flood 
protection.
    I ask this subcommittee to consider including necessary 
funds for new start studies so projects like the St. Tammany 
Parish Project can move forward.
    In 2014, Congress reauthorized Morganza to the Gulf, our 
hurricane and storm protection reduction project located within 
my district of Terrebonne and La Farge Parishes. Unfortunately, 
this reauthorization came after nearly 20 years of studies that 
spent more than $70 million, all without the Corps of Engineers 
putting a single shovel in the ground. Any funding provided to 
this project should strengthen our community in Southeast 
Louisiana as well as the billions of dollars in economic 
activity that provide valuable energy resources to fuel this 
country.
    It is also important to note that while this project has 
yet to receive any Federal funding, local and State funds have 
allowed $400 million to be invested in this project. So that's 
all local money that they have put up to help advance more 
gains in the Gulf.
    I ask this subcommittee to consider providing the Corps of 
Engineers additional resources for construction projects like 
Morganza and the Gulf to be completed.
    And lastly, I want to express my strong support for 
including robust funding for the Department of Energy and the 
Nuclear Regulatory Commission that gives them the ability to 
complete the licensing process for the Yucca Mountain Nuclear 
Waste Repository. I am glad that President Trump has included 
$116 million for the Department of Energy and $38.5 million for 
the NRC for this purpose. I urge this subcommittee to seriously 
consider and support this request. These funds would ensure 
that the State of Nevada and other stakeholders have an 
opportunity to participate in the licensing process and have 
their views heard. Our decades-long failure to move this 
project along costs the American taxpayers nearly $2 million a 
day. Reports show we have already spent $8 billion in taxpayer 
money because of needless delays and our inability to meet our 
legal obligations to the Nation's electric utilities. Failure 
to provide funding that secures spent nuclear fuel will only 
cause further financial hardship on the American taxpayer and 
uncertainty for rate payers, who in many parts of the country 
rely on nuclear energy, one of our most reliable sources of 
electric generation.
    So in closing, I again want to thank the Subcommittee for 
the important work you are doing. And I know you are 
considering a lot of requests, and especially when you look at 
the Corps of Engineers and the role that they play all across 
this country in strengthening and securing our infrastructure 
needs. I appreciate the work that you do, and I would be happy 
to take any questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Ms. Kaptur. Thank you very much. Congressman Olson. 
Welcome.
                              ----------                              

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. PETE OLSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS
    Mr. Olson. Chairman Kaptur, GOP Leader Simpson, my de facto 
Congressman from Idaho. My wife and I own a place at Bays River 
Run right there on Wood River, haven't been there for about two 
years. That's the wife, that's the wife's side of the family.
    Thank you so much for the chance to remind you how 
important the Houston Ship Channel is to all America, including 
Ohio, Idaho, and Texas 22.
    The Houston Ship Channel is 52 miles long, from the buoy to 
the turn basin. Includes the Port of Galveston, the Port of 
Texas City, the Port of Houston, has two huge container ports, 
one at Barbour's Cut and one at Bayport. It has been two way 
traffic that provides access from the largest petro chemical 
complex in the world to America's allies and trading partners.
    The Port of Houston has been the number one exporting port 
in America for over the last decade. And right now we are 
getting busier because of this Committee's efforts, all of our 
efforts to repeal the ban on crude oil exports. They're going 
crazy in the Port of Houston, going overseas. Also LNG exports, 
which are destroying the sway of OPEC and Russia on the global 
market.
    All the Members here may recall what happened to gasoline 
prices in August of 2017, September of that year. In some parts 
of our country the prices spiked up about 25 cents per gallon. 
That's because Hurricane Harvey hit that large petrochemical 
complex with all our refineries on the target there. It was 
shut down for a few days.
    We lost three feet of water depth. We had to go one way for 
about eight miles of parts of the ship channel. That's still in 
effect. That means we risk collisions and spills that didn't 
exist before Harvey.
    I ask this Subcommittee to fully fund the Harbor 
Maintenance Trust Fund and put the highest priority on projects 
which have the biggest impact on our U.S. economy. We cannot 
afford to spend these precious tax dollars on lower priority 
projects.
    Harvey hit Southeast Texas hard. August 25th. Two days 
later it turned around from San Antonio and hit us again. The 
whole world learned how the ordinary Texans did extraordinary 
things to recover from Hurricane Harvey. We were and are 
Houston Strong. We need to be Houston Stronger. Since Harvey 
came ashore, we have been working with the Corps of Engineers 
on measures to prevent future floods from hurricanes. We have 
made small progress, small amounts of money. We have got 
studies going on. We need your help. Our recovery has been way 
too slow. Harvey hit us almost two years ago, and right now, as 
I speak, we are 21 days away from the hurricane season of 2019 
starting. These pleas help to break through legal and 
obligatory walls hitting our building to stop flooding from 
another Harvey.
    I would also like to talk about what happened during 
Hurricane Harvey, and how important it is to have a diversified 
energy policy. A coal plant had four plants go down during 
Hurricane Harvey. They were knocked offline. Also, right on 
site, four natural gas plants kept up and running, but the 
biggest power source through Hurricane Harvey was the South 
Texas Nuclear Project, in Bay City, Texas. She was hit directly 
by the bad side of Harvey, the northeast quadrant; not a blip, 
not a flicker throughout that terrible storm. That nuclear 
plant kept our community online and saved countless lives.
    Nuclear power is critical to our power grid and an 
important part of our energy future. We have companies working 
on small modular reactors to build the next generation of 
nuclear plants. They are safe, reliable, and very clean, but 
their future is uncertain. I hope this Subcommittee will put 
emphasis on small modular reactors.
    Years ago, great payers agreed to pay for nuclear power if 
the Federal government created a place to put the spent nuclear 
fuel, to store it. That place is Yucca Mountain, Nevada. We 
have had a law for all our hazardous waste, the radioactive 
waste, to be stored at Yucca Mountain. It has been the law of 
the nation for over 20 years. We have spent over $15 billion on 
Yucca Mountain to date, and, yet, no waste from these reactors 
has been stored at Yucca Mountain.
    I ask this Subcommittee to fully fund Yucca Mountain in 
this appropriations bill. We have failed to deliver our 
promises for too long. Thank you for your time and commitment 
to our ports and our diversified power sources; happy to answer 
any questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. Thank you, both, for your excellent testimony. 
Congressman Scalise, as we attempt to help you, on the 
Mississippi River and other projects in your region, I would 
like to ask your help, as a member from the Great Lakes, where 
we face a real threat from something called the Asian Bighead 
Carp, that got its start down in the Mississippi-Louisiana area 
and it moved its way all the way up the Mississippi River, 
almost to Chicago now. So, I want to make you aware of a 
serious invasive species that could destroy our entire fishery 
in the Great Lakes. So, I just--let you know.
    Mr. Scalise. I have heard of that. Yeah, I have heard of 
that issue and would be happy to help because Asian Carp 
invasion has been a--has been a growing threat, and whatever we 
can do to help.
    Ms. Kaptur. And we hope to bring together members all along 
the Mississippi River Corridor. Your statement about the amount 
of dredge material you have, and so forth, will be of interest 
to those who come from the Red River Valley, of all places, and 
Illinois, Minnesota; we have had them before the Committee this 
morning. We want to look at systemic solutions and, maybe, have 
the Corps present, with several members, as we look at what 
the--what we can do to help make the future more livable in our 
country. So, we thank you very much for your appearance today.
    Mr. Scalise. Thank you.
    Ms. Kaptur. Congressman Olson, thank you very much. Thanks 
for mentioning LNG and the importance that your port plays, the 
Port of Houston plays, in the global security challenges that 
we attempt to surmount with--through those energy exports. So, 
thank you so very much. I know we are running a little bit 
over. Congressman Simpson, do you want to ask anything?
    Mr. Simpson. I would just say thank you for being here, 
today, and your testimony; Harbor Maintenance Trust Fund, very 
important. You know, there is a target that we have to meet, or 
are supposed to meet, that was passed. We have exceeded that 
target in the last two years. The way the fund works, now, is 
that, if we exceed the target, the target does not go down to 
what it would have been next year. It goes to what it was last 
year, plus 103%, I mean 103% of what it was. So, that is always 
a challenge, but I am one that believes if you, as I have said 
earlier on the Inland Waterway Trust Fund, if you tax people 
for a purpose and that need still exists, then you ought to be 
able to spend the money on that need. It just makes sense. So, 
thank you for being here today.
    Mr. Scalise. Thank you, Mr. Simpson.
    Ms. Kaptur. Thank you.
    Mr. Scalise. Thank you, Chairwoman Kaptur.
    Ms. Kaptur. We would now like to call Congresswoman Debbie 
Mucarsel-Powell, from Florida, and Congressman Jerry McNerney, 
of the great state of California. All right. Congresswoman 
Mucarsel-Powell, you will be first, and then we will move to 
Congressman McNerney. Welcome.
                              ----------                              

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. DEBBIE MUCARSEL-POWELL, A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF FLORIDA
    Ms. Mucarsel-Powell. Thank you so much, Chairman Kaptur and 
Ranking Chair Simpson, for giving us the opportunity to come 
forth today to talk about our priorities. One of my top 
priorities in Congress was, when I got elected, is to make 
significant progress in the effort to restore the Everglades. 
Congress authorized the Comprehensive Everglades Restoration 
Plan, known as CERP, in 2000, which is now the largest 
ecological restoration project in the world.
    Although the plan was originally expected to take many 
years, given its immensity, it has moved along unpredictably 
slow. Unfortunately, almost two decades later, we have made 
very little progress. This has to change, and that means we 
need to properly fund it. I, along with many of our Florida 
colleagues on a--in a bipartisan manner, have urged your 
Committee to provide the maximum funding possible for CERP. We 
have also called for a significant increase in the Army Corps 
construction account, for additional funding for environmental 
restoration or compliance, from $50 million to $200 million. 
This increase of $150 million will make available more funds, 
for which Everglades restoration projects can compete, and once 
the appropriations bill is signed to law, you can be certain 
that I will be pressuring the Army Corps to include full 
funding for Everglades restoration projects in their workplan.
    Healthy Everglades are essential to a healthy economy in 
South Florida. The 1.5-million-acre wetland is a source of jobs 
and economic livelihood for hundreds of thousands of people. 
They attract visitors from across the country and around the 
world, contributing immensely to the tourism industry. The 
Everglades adds billions of dollars to the South Florida 
economy annually. Yet, with each year that passes without 
significant restoration, our economy is put at risk. More 
importantly, a thriving Everglades ecosystem is crucial to our 
health and the wellbeing of the families that live in Florida. 
We have already experienced consequences of our current system.
    This past year, we suffered through disastrous algae blooms 
that are not only toxic to marine life and our fishing and 
tourism industry, but are harmful to human health, and I just 
want to remind everyone, and I brought some pictures of the 
images that we saw in Florida.
    Ms. Kaptur. Thank you for bringing this. Thank you.
    Ms. Mucarsel-Powell. The overgrowth of algae causes 
respiratory issues and eye irritation, so much so that some 
people are unable to go outside over the duration of the bloom. 
We have also had countless fish wash ashore; thousands and 
thousands of tons of fish that are washing ashore our coasts, 
in Florida.
    These naturally occurring events are significantly 
exasperated by our polluted and damaged Everglades ecosystems. 
The Everglades also provide drinking water for more than one-
third of Floridians. That is over eight million people who rely 
on the ecosystem for their most basic needs. Furthermore, the 
Everglades are natural barriers to floodwaters. They act as 
sponges during floods and storm surges. With rising sea levels 
and stronger and more frequent storms, due to climate change, 
the natural infrastructure provided by the Everglades is even 
more vital to the existence of our South Florida environment.
    I think of the Everglades as our circulatory system. They 
are the arteries that provide life to all of us, in South 
Florida. They are a certified nationwide treasure. This is a 
bipartisan issue with support at the Federal level, state 
level, and local level. This has to be a national priority. I 
strongly urge you to provide the highest funding possible for 
Army Corps accounts, so that we can propel Everglades 
restoration projects ahead, for the sake of our economy, our 
health, and the beautiful landscape and biodiversity of South 
Florida.
    I just want to finish by quoting one of my favorite 
authors. As Marjory Stoneman Douglas said, in her book, The 
Everglades: River of Grass, ``There are no other Everglades in 
the world. They are, they have, always been one of the unique 
regions of the Earth, remote, never wholly known. Nothing 
anywhere else is like them.'', which is--I urge the Committee 
to protect them. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. Thank you for being the effective spokesman for 
your region--spokeswoman for your region. Congressman McNerney.
                              ----------                              

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. JERRY MCNERNEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. McNerney. Chairman Kaptur and Ranking Member Simpson, 
thanks for the opportunity to testify today. This is my first 
time to testify before this subcommittee. So, I wore pink to 
show you my softer side, this morning. Fundamentally, we must 
act aggressively on climate change. I spent over 20 years in 
the wind industry business, and I am determined on this issue. 
We can create good jobs, provide clean energy, and mitigate the 
damage from climate change through strong, immediate action.
    I would like to use my time today to talk about three of my 
priorities for this year's appropriations bill. First, fund 
cutting edge research for renewable energy, energy storage, and 
climate intervention technologies. Second, start the process 
for a nuclear waste repository or restart the process for a 
nuclear waste repository; and three, adapt adaptation measures 
to make our communities more resilient to the effects of 
climate change.
    As vice chair of the Energy Subcommittee on the Energy and 
Commerce Committee, I urge the subcommittee to find our--to 
fund our clean energy priorities. Importantly, this includes 
the Energy Department's Office of Energy Efficiency and 
Renewable Energy, as well as the Office of Electricity and 
Delivery, and the new cyber office within it, the Office of 
Science--Sciences Basic Research Mission. Cyber is a very 
critical issue, and it is growing in its importance.
    I have also co-chaired the Grid Innovation Caucus for many 
years, and we must transform our grid into a bidirectional, 
fluid, and resilient backbone of our electricity 
infrastructure. We must fund technology, research, and 
development programs to create an energy system that adapts the 
changing distributed resources, climate, and cost. The DOE's 
programs across the spectrum, from the Energy Efficiency and 
Renewable Energy, or EERE, to RPE, to the Office of Science, 
including our national labs, are central to this effort. I must 
add that climate adaptation, mitigation, and intervention 
strategies, across the board, should be on the table. We must 
also work together to find a permanent solution to nuclear 
waste. While we have not had a major accident yet, there are 
tens of thousands of tons of high-level nuclear waste sitting 
in relatively exposed conditions. This is a tragedy waiting to 
happen. I was a graduate student in mathematics at the 
University of New Mexico, and studied at the Waste Isolation 
Pilot Project, near Carlsbad. Nuclear waste has engineering 
solutions. This is a political problem. A successful nuclear 
storage project will need transparency with the community, and 
while there will always be some amount of opposition, Congress 
must work with the community for a local buy-in. This is why we 
must work towards an interim storage solution that ties to a 
permanent repository. The one requires the other.
    Finally, I urge the Committee to fund adaptation and 
mitigation efforts through the Army Corps of Engineers. 
Specifically, the operations, and maintenance, and construction 
accounts are important to flood control and resilience efforts. 
Two projects in my district are a part of the Army Corps' 
workplan, and I encourage full funding for these accounts, and 
before I close, I will just say I have the California Delta in 
my region, which is similar, in some ways, to the Florida 
Everglades. We need to protect those vital resources because 
they are sources of economic growth and the health of the 
community. With that, I yield.
    [The information follows:)
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. I would like to thank both witnesses for 
testifying. They have been most articulate, and you have 
mentioned issues that others have not. I thank you, both. If 
you have visual materials that you wish to append to the 
record, we will receive those materials. We try to put them up 
on our website, so that we can help the public, and our own 
members, understand how an individual project in one place 
might be part of a much larger, systemic set of issues that 
change as the environment around us adapts, and so I think 
those are very important. I want to thank Congressman McNerney 
for your leadership on so many--and, both personally and as a 
representative from California, on the new energy systems that 
we have to develop across this country, and for your 
suggestions on how we move forward on a serious question, such 
as interim storage as a first step toward permanent storage 
and--in the future. We need ideas there because, obviously, 
there is a lot of disagreement and, for the sake of the 
country, we have to find a positive step forward. So, thank you 
so very much for being with us today. There are others waiting, 
so. Congressman Simpson, did you have--notice I did not call 
you Shimkus this time?
    Mr. Simpson. Yeah. You did not call me Shimkus this time. 
Yeah, well. As the leading Republican on this Committee, I will 
not tell you that I disagree with anything either of you said. 
I have been a huge supporter of the Everglades, continue to be, 
spent a couple days down there. If you could, do something to 
get rid of those pythons. That would be really important to me.
    Ms. Mucarsel-Powell. Do you want to see an image of the 
largest female python that was just caught, I think, last 
week----
    Mr. Simpson. I do not want to see that. They scare the hell 
out of me, but, anyway, thank you for being here. I look 
forward to working with you. Energy grid resilience and 
security is a huge issue. So, thank you for being here today.
    Ms. Kaptur. Thank you, both. Thank you. Our next panel--let 
us call Congressman Conor Lamb, of Pennsylvania, and also 
Jenniffer Gonzalez-Colon, from Puerto Rico. Thank you, both, 
for appearing today. We will take Congressman Lamb first. We 
are calling in the order of appearance.
                              ----------                              

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. CONOR LAMB, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Lamb. Thank you, Madam Chairwoman and Ranking Member 
Simpson, for allowing me to be here today. I am Conor Lamb, 
proudly representing the people of Western Pennsylvania's 17th 
district. Madam Chairwoman, if I told you that I had a policy 
in mind that would definitely reduce the amount of carbon in 
our atmosphere, create jobs, make it cheaper for small 
businesses to move their goods, create jobs, and cut traffic on 
our roadways, as well as creating jobs. Most people would agree 
that those are pretty good bipartisan objectives. Thankfully, 
that is something that we can do, and we can do it by 
supporting our inland waterway system, specifically, our 
rivers.
    Pittsburgh is known as the City of Three Rivers. We have 
three beautiful rivers, the Allegheny, the Monongahela, and the 
Ohio, that come together in downtown Pittsburgh, and we built 
an infrastructure to make it possible for us to move cargo, to 
supply our municipal drinking water systems, to engage in 
recreation to protect the environment, but this infrastructure 
is aging, and it is aging fast.
    Specifically, we have three locks on the upper Ohio River, 
which are in my district, that are included in what is called 
the Upper Ohio Navigation Project, and these locks are called 
the Emsworth, Dashields, and Montgomery locks. They are the 
oldest in the entire Ohio River system. They are all over 70 
years old. If I asked you which is older, between a Slinky and 
the locks on the upper Ohio River, unfortunately, the answer 
would be the locks on the upper Ohio, and they are expected to 
do a lot more work every day than the Slinky is.
    I brought some pictures with me, today, to show the state 
of degradation that these locks are in. This is just an overall 
view of the Montgomery lock, to give you a sense of what it 
looks like, but if we go to the next picture, that is a giant 
crack in the outside of a structure that is meant to manage and 
hold tons and tons of river water. Moving to the next one, this 
is a Lieutenant General, from the Army Corps of Engineers, 
pointing out a crack in the middle wall gallery at the 
Montgomery lock. So, this is actually a wall that separates two 
different chambers of the locks. We have a large chamber, which 
is capable of holding lots of barges at once and carrying huge 
construction cargo, and we have a smaller chamber, which is, 
obviously, much smaller. There is a concrete wall in between 
them that holds the whole thing together, and there are cracks 
on both the inside and outside of it. One more shot is a crack 
in what you can see is, kind of, a ceiling structure. Again, 
that is just holding massive amounts of river water. The reason 
we have these cracks, Madam Chairwoman and Mr. Ranking Member, 
is because, over the years, we have not fully funded the 
reconstruction of these locks and dams. We have done it 
piecemeal. It does not help our business owners. It does not 
help the structures, themselves, but, most importantly, it does 
not help the taxpayer. When we pay for these things piecemeal, 
they become more expensive over time. We are just due to finish 
another lock and dam project, in Western Pennsylvania, that was 
initially authorized in 1994, and it is going to end up costing 
the taxpayers three-four times what it originally should have 
because we never paid for and finished all the work at once.
    One of the problems we have with this particular lock, 
which is why I have highlighted it as that, it sits very close 
to one of the largest construction sites in the United States, 
right now, which is the Shell Corporation building, a 
petrochemical plant, in my district. There are--by this summer, 
it will be 6,000 people working, on site, to build it. It will 
create thousands and thousands of jobs in downstream 
manufacturing because of the plastic that is being created. 
They are all coming from the natural gas in Western 
Pennsylvania.
    Well, the project is so large that there are certain pieces 
of construction equipment that they have to bring up the river, 
that can only fit in the large chamber of the lock that I 
mentioned. It will be closed for large parts of this summer 
because of this piecemeal reconstruction that has to be done. 
They, literally, have to put pieces of steel rebar in where 
those cracks are, every so often, to keep the entire thing from 
falling apart. So, Shell is busy trying to schedule the 
delivery of some of this construction equipment. Construction 
workers and their families are waiting on the jobs that have 
been created there, but no one will get paid, and this project 
will not advance if we cannot improve this situation. Shell's 
going to be able to figure it out. They are a large company, 
but the small, downstream business owners will never have that 
kind of advantage.
    It is only 2 cents a ton to ship their goods on the river, 
versus close to 10 cents on the road, at this point. So, if you 
are a business owner, which are you going to choose, but you 
need certainty and predictability to get to your customers. So, 
this is the issue. What I ask, for your consideration, is to 
fully fund the investigations account, so that this project can 
compete for funding in the future, and that we also make sure 
we fully fund the construction part of the Waterways Trust Fund 
Account. We also ask you to consider providing and FY-20 O&M 
funding level at, or above, the level provided for in the 
Energy & Water Development Appropriations Act of 2019.
    This is a bipartisan cause. We have several members, 
Congressman Johnson, Congressman McKinley, Congressman 
Reschenthaler, from the Republican Party, and myself, and 
Congressman Doyle, from the Democratic Party. We can do better 
than this, I believe, and I really thank you for hearing me out 
today.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Ms. Kaptur. Thank you very much Congressman Lamb, for 
appearing. Representative Gonzalez-Colon.
                              ----------                              --
--------

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. JENNIFFER GONZALEZ-COLON, A REPRESENTATIVE IN CONGRESS FROM PUERTO 
    RICO
    Miss Gonzalez-Colon. Thank you, Chairwoman Kaptur and 
Ranking Member Simpson, for holding this important hearing and 
having me here today. The U.S. Army Corps of Engineers projects 
are instrumental for restoring critical infrastructure and 
maintaining financial stability. In the case of Puerto Rico, 
the Army Corps oversee multiple projects in several 
municipalities on the island, and, as you are probably aware, 
reconstruction and recovery efforts remain underway on the 
island, and my constituents continue to face challenges tied to 
the devastation of the 2017 hurricane season. One of the Corps 
projects that remain a priority in Puerto Rico is the Cano 
Martin Pena Echo System Restoration Project, located in San 
Juan Metropolitan Area. The Cano Martin Pena Community is 
located alongside a 3.75-mile-long tidal channel, and is home 
to over 26,000 residents, making it one of the most densely 
populated areas on the island. For decades, the community has 
struggled with frequent flooding, resulting from debris and 
waste water accumulation in the channel. Flooding also 
negatively impacts all the neighboring communities San Juan and 
the International Airport.
    To make matters worse, the hurricane season of 2017 
exacerbated flooding problems, by increasing the amount of 
debris that already clogged the channel, and, therefore, 
increased the level of pollution and health concerns that 
existed prior to the storms. As all of you already know, my 
district was not only--the only one effected by natural 
disasters during the last two years. Several older states and 
territories were impacted and, most likely, share similar 
hardships. This is partly due to projects like this, that 
secure improper funding for the Corps--for the Corps is 
essential. As an effort to achieve this goal, I submitted a 
request to maintain the inactive level of funding, of $2.18 
billion for the Army Corps construction account, to the fiscal 
year 2020. Additionally, I respectfully request these funds to 
be used to authorize no less than five new construction 
projects, to be used or start--for new starts, and no less than 
two of the five new starts to be on ecosystem restoration 
projects. According to the Army Corps, restoring ecosystems to 
their normal, self-regulated function remains a priority. 
Therefore, they shall have the resources available to undertake 
this important task.
    Lastly, I request inclusion of the--of report language 
about the Cano Martin Pena Ecosystem Restoration Project that 
recognize the importance of this project that has been working 
since the 1970s, and including this, its lock protection 
benefits, and encourage the Corps to work with a--with a non-
Federal sponsor to continue the next phase at the earliest 
practicable opportunity. In closing, the Government of Puerto 
Rico has already invested over $100 million in this project. It 
is currently on track to finalize the pre-construction phase, 
and design, by the end of the current fiscal year. I would like 
to acknowledge the leadership of my colleagues in the House, 
and in the Senate, for providing funds during the last two 
years. It was because of you that this project has continued to 
happen, and so many visits from different representatives in 
the House and in the Senate, in a bipartisan way, that this 
community and several NGOs are working together, and that is 
the reason I am here today, not just to say thank you, but to 
continue and encourage you to continue support in this 
community. I will like, also, to continue the Cano Martin Pena, 
to fulfill their goal. I would like also to recognize the 
diligent and dedicated work of ENLACE, the non-Federal sponsor, 
and I am confident that their hard work and commitment will 
remain as an example for similar projects on the island. I will 
continue to propel the project forward. With that, I yield 
back.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Ms. Kaptur. Thank you, both, very much. We have members 
waiting, so I will be very quick, but Congressman Lamb, thank 
you so very much for your excellent testimony, and visual 
illustrations of the real infrastructure challenge we face with 
the Corps. We cannot agree with the President's cutting back on 
the Corps construction accounts, their operations and 
maintenance accounts. I mean, that is simply dangerous for the 
nation. I, actually, think that, if anyone is listening over in 
the Trump Administration, that we should move the Corps Budget 
forward, not cut it by a third, but move it as our first step 
to infrastructure for this country. If we cannot have a T&I 
Bill that emerges, to fully fund the Corps accounts, they could 
get the job done across this country. We would make a 
significant difference, and I think we could pass it. So, that 
is just a personal opinion, but we thank you for your testimony 
today, for your true leadership, and, Congresswoman Colon, 
thank you very much for your dutiful representation during a 
very difficult time. I am proud of what the Corps was able to 
do in Puerto Rico, and continues to do, and we look for ways to 
be constructive as we move forward. Congressman Simpson.
    Mr. Simpson. Don't really have any questions. I have been 
up on the Mon--I cannot pronounce the name of the river. How do 
you say it?
    Mr. Lamb. The Monongahela.
    Mr. Simpson. Yeah. I always screw it up. So, I just say the 
Mon, but I went up there. The Army Corps took me up there, and 
I was stunned at the locks and dams along there, and the repair 
that is needed, and what I was really stunned about is, one of 
those goes down, what it does to commerce in the area. It shuts 
it down. So, it is very important that we do this. In fact, you 
might be interested that they were showing us how they brought 
a barge in one time, and it was a little too wide for the lock, 
but they said, ``Just go ahead. It will give.'' What? It will 
give? Well, it is wooden posts, and you can shove this thing 
about a foot either way, you know? It is kind of spooky. So, it 
is certainly something that needs to get done; appreciate you 
both being here.
    Mr. Lamb. Thank you, Congressman.
    Ms. Kaptur. Thank you, both. If you would have any 
augmented material you wish to submit to the record, we will 
be--happily accept it.
    Miss Gonzalez-Colon. I want to submit a letter for more 
details, under project. Thank you.
    Ms. Kaptur. Thank you. Thank you, both. Our next panel, 
Congressman Raul Ruiz, of California, and Congressman T.J. Cox, 
of California. Welcome, gentlemen. We will begin with 
Congressman Ruiz. Sorry to keep you waiting a few minutes.
                              ----------                              --
--------

                                             Tuesday, April 9, 2019

                                WITNESS

HON. RAUL RUIZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Ruiz. Thank you, Chairwoman Kaptur and Ranking Member 
Simpson. Thank you for inviting me here, today, to testify--
Thank you, Chairwoman Kaptur and Ranking Member Simpson. Thank 
you for inviting me here, today, to testify about an issue that 
is of incredible importance to my district in Southern 
California. The Salton Sea is California's largest inland body 
of water, stretching more than 30 miles across Imperial and 
Riverside Counties, in Southern California. It is also a 
rapidly unfolding environmental disaster. The Salton Sea is 
shrinking, and that presents a massive public health crisis, as 
the shoreline recedes and the playa becomes exposed, salty, 
chemically, laden dust becomes airborne and blows across the 
region that my constituents call home. This dust is made up of 
fine microparticles that, when breathed, can get into the blood 
stream and cause asthma and other respiratory ailments.
    It is also--it has pesticides, heavy metals, and other 
toxins. The Salton Sea is also critical to the economy of my 
region. Tourism is in the top three industries. You might have 
heard of Palm Springs and The Coachella Valley, California. So, 
you can recognize that it is--tourism is important. National 
parks, like Joshua Tree, desert habitat, and gorgeous 
landscapes, that cannot be found anywhere else in the country, 
are part of the draw to our region. So, tourism, property 
values, and more are all threatened by the potential 
contaminated dust bowl. In fact, a 2014 study by The Pacific 
Institute, put the cost of inaction at more than $70 billion. 
Finally, the Salton Sea is an important natural habitat for 
fish and wildlife. More than 400 species of birds can be found 
stopping at the sea, as part of the Pacific Flyway. However, as 
the sea shrinks and the salinity increases, this habitat is at 
risk of vanishing. Already, most fish species have died, and 
even the tilapia, which can withstand salty water, are 
succumbing to the pollution. In 2016, I helped facilitate a 
memorandum of understanding between the state of California and 
The Department of Interior to work together on the management 
of the Salton Sea. This MOU was a great step forward. It still 
needs to be funded by Congress, and I intend to see it through. 
This Appropriations Committee, in fact, has recognized the 
importance of that MOU and has included report language 
supporting it. I would encourage the Committee to not only once 
again include this critical language, but also expand the 
language to include the cooperation from the Army Corps, the 
Environmental Protection Agency, and Department of Agriculture, 
to further the objectives outlined in the 2016 MOU. The 2016 
MOU included a commitment for $30 million for both operation 
and maintenance of Habitat Restoration and Dust Suppression 
Projects, and additional projects associated with California's 
Salton Sea Management Plan. I strongly urge the Committee to 
follow through on the commitments made to the residents of 
Southern California.
    The success of the mitigation of the Salton Sea hinges on 
the cooperation of all government partners, and it should be 
noted that Department of Interior is the largest land owner at 
the Salton Sea. In addition, I am requesting that your 
Committee include vital reporting, which under the Army Corps 
of Engineer section of the report, encouraging the Corps to 
prioritize permitting for this Salton Sea Management Plan. 
Expediting these projects is critical. Each day that shovel-
ready projects sit idle is detrimental to health of residents 
in Southern California. Finally, I would like to address the 
impacts of the Drought Contingency Plan. As you may know, the 
DCP is a critical plan between seven Western Basin states to 
conserve water and to keep the Colorado River operational. 
During the course of DCP negations, my constituents, including 
Senator Boxer, expressed concerns that the authority granted to 
the Bureau of Reclamation could result in decreased inflow, or 
wading environmental protections for the Salton Sea. I would 
strongly encourage the committee to draft report language that 
reiterates Congress' commitment to both the Salton Sea and the 
DCP, and make it clear that any actions taken with regard to 
the DCP should be done only in a way that does not exacerbate 
the unfolding public health crisis at the Salton Sea. The 
Salton Sea is a public health environmental and economic crisis 
that is unfolding rapidly and will affect residents far beyond 
the receding shoreline. Thank you for inviting me to testify, 
and I hope the committee will include these important requests 
in the fiscal year 2020 Energy and Water Appropriations Bill.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Ms. Kaptur. Thank you, Dr. Ruiz. We thank you so much for 
your testimony, today. Congressman Cox.
                              ----------                              --
--------

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. TJ COX, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF CALIFORNIA
    Mr. Cox. Thank you, Chairwoman Kaptur and Ranking Member 
Simpson, for this opportunity to testify, as you develop the 
Appropriations Act for fiscal year 2020. As a proud 
representative of California's 21st Congressional District, I'm 
here on behalf of the farmers, the ranchers, and, most 
importantly, the communities of California's San Joaquin 
Valley. As you know, my congressional district is stressed by a 
lack of water supply reliability, and the work done by this 
subcommittee is of critical importance to the future of the San 
Joaquin Valley. As such, I'll be advocating for a number of 
different topics that would increase water supply reliability, 
and, today, I would like to highlight three of critical 
importance. One, I urge the Subcommittee to fully fund the 
administration's water infrastructure improvement for the 
Nation, when act--request of $134 million, and two, the Bureau 
of Reclamation's full request for the Safety of Dams Program, 
which will advance critical safety work for improving the 
seismic stability of the B.F. Sisk Dam; and three, the U.S. 
Army Corps of Engineers Water Operations Technical Support, the 
WOTS program, in the amount of five and a half million.
    Our 21st Congressional District has some of the most severe 
water needs in the country, and faces unique challenges, in 
terms of addressing imbalanced groundwater use, resulting from 
decreased surface water supplies from the Delta. It is 
unacceptable that, even today, 2 years after the worst drought 
in California's history, there are families in my district that 
cannot drink the water out of their taps, due to water quality 
issues. As the number one agriculturally productive district in 
California, the top agricultural state, access to a clean and 
reliable water supply is the driving force behind our 
community, and critical to the health and well-being of our 
communities.
    I am here, today, to urge the subcommittee to include 
sufficient funding to maintain and upgrade California's water 
storage and conveyance systems. This is imperative, not only 
for today, but to also prepare for future droughts, which we 
know are coming, due to our changing climate. In regard to 
wind, I recently signed onto a bipartisan letter, urging 
funding for projects across 17 western reclamation States. With 
increasing erratic winter storms, uncertain snowpack, and 
prolonged drought, we need to be able to capture and store more 
water during wet years for use during dry years.
    One way we can easily mitigate the detrimental impacts of 
climate change on the hardworking families of my district is by 
adapting our water systems, such that we build resilient water 
supplies and related infrastructures to meet future needs.
    In regard to the U.S. Army Corps of Engineers WOTS program, 
within operations, maintenance, FUD risk management account, I 
recently signed onto a bipartisan letter, sponsored by 
Representatives Costa and LaMalfa, to accelerate development 
of, and improved decision-making tools at Western Reservoirs. 
Recent scientific advancements have allowed us to increase the 
forecast accuracy of atmospheric rivers, which deliver us much 
of California's water supply on an annual basis. This increased 
accuracy of the--the increased accuracy of these forecasts 
should inform the operations of our reservoir systems to 
stretch our water supplies as far as possible, without 
increasing flood risk. The WOTS program is critical to the 
effort.
    As established by sections 4007 and 4009 of Public Law 114-
322, resilient water supply is not only a purpose for Federal 
expenditures, but is, in fact, required without further 
congressional approval, and it is in this capacity that I 
testify before you today. To date, Congress has enacted funding 
for storage projects under sections 4007 and 4009 of the WIN 
Act within the Bureau of Reclamation's water and related 
resources account. The WIN Act established a process for 
Federal funding to be allocated, based on Administration, 
Administrative recommendations, and the letter was provided to 
this committee, recommending WIN Act funding allocations on 
February 13, 2019.
    In conclusion, I request that the Committee fund, one, the 
WIN Act, in the amount of $134 million; two, Reclamations' Dam 
Safety Program; and three, the U.S. Army Corps of Engineers 
WOTS program, in the amount of $5.5 million. The Congress and 
the Administration should fully support the use of the funds 
that accrue to the Reclamation fund, for their intended purpose 
of supporting Western Water Development, including water 
infrastructure projects that continue conservation to meet our 
future community, energy, and infrastructure needs. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. Thank you, both, for testifying. I consider the 
two districts you represent extremely predictive, as to how we 
are going to live in this new century, and so I am very 
grateful for your testimony today. If you have other materials 
you wish to submit to the record, your districts do not live in 
isolation, they relate to a larger ecosystem, and any way you 
can help us understand, more specifically, what is happening in 
your areas, throughout California. Today, we had a great deal 
of testimony about regions that are flooding around the 
country, and how we handle water runoff and, obviously, you do 
not have to be a genius to sit up here and figure out, well, 
you know, what do we do? How do we better store the water that 
is showering down on us? How do we move it to places that need 
it? How do we better manage the assets we have in this new 
century? So, I think what you know and what you have lived, in 
your regions, is important for the country to know. Any way you 
can help us better explain it, through our website, through 
materials you provide, photos you provide. I just think we have 
a hurdle to overcome in public education of what is going on 
around this country, including the desertification of the West, 
and how we meet the challenge. So, I am really grateful for 
your appearance today.
    I wanted to move to Congressman Simpson, if he has anything 
he would like to say.
    Mr. Simpson. I would just say, thank you both for your 
testimony. I have spent time in your district. I have never 
been to the Salton Sea. It would be interesting to go see. That 
is my impression that has been created over time.
    I have to get out and drive around and see the West. And 
one of these days I might call you up and we would be driving, 
I mean, California is just like next door.
    Mr. Ruiz. We can arrange that.
    Mr. Simpson. Thank you.
    Mr. Ruiz. Thank you.
    Ms. Kaptur. I think the relationship between food, land, 
water and people in places such as you represent, needs to be 
more fully fleshed out. The Salton Sea, obviously, is 
experiencing a serious condition because of runoff that 
happened over the years, and a lot of the materials that I am 
sure are being airborne now, because of the drought that you 
have had to endure is related to a, I don't want to say a 
mismatch, between food, land, water and people, but somehow we 
have got to put the equation together in a smarter way for the 
country in each congressional district, and we are not there 
yet.
    Mr. Ruiz. That would be an example of how we can prevent 
dust exposure with pesticides, arsenic, heavy metals and other 
toxins from getting into the blood of human beings.
    That, as a doctor, is my priority, and we have a plan, it 
is the California Salton Sea Management Plan, we have some 
funding in this, but the Federal Government has to do its part 
in cooperation with the state and other local actors in order 
to prevent this from happening, and to potentially save many, 
many lives.
    So, I appreciate your interest, and I will take you up on 
that suggestion, and I will invite the both of you for a 
wonderful trip to the Coachella Valley during the winter months 
when you are all covered with snow. And I will give you tour of 
the Salton Sea. Thank you.
    Ms. Kaptur. As we are facing in the Great Lakes, a 
monumental challenge of additional rainfall that is washing 
over our watersheds at a much higher rate and taking with it a 
lot of nutrients. And with warming soils, conditions, science 
doesn't fully understand. I am sure you all saw the stories 
internationally about the new type of fungus that has infected 
people for which there is no antibiotic.
    Mr. Ruiz. Yes.
    Ms. Kaptur. And with the warming earth, there is a soil 
science that is not completely understood either. So it is 
incumbent on all of us to put the pieces together, try to 
figure out new ways of moving forward, and I am, again, most 
grateful for your testimony today. I know what responsible 
members you are. So, thank you for being here.
    Mr. Ruiz. Thank you.
    Ms. Kaptur. We would like to call our next panel. Is this 
our last panel?
    We may have one more? Okay. Thank everyone, for their 
patience. Scott Peters of California, and Morgan Griffith of 
Virginia. Thank you, Congressmen, so much for waiting today, 
and for being with us. And we will begin with Congressman 
Peters.
                              ----------                              

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. SCOTT PETERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Peters. Thank you, Chairwoman Kaptur, Ranking Member 
Simpson. Thank you for hosting Member Day, for your colleagues 
like me who have important requests for the Energy and Water 
Appropriations Bills.
    I know you are talking about a lot of things. I want to 
just give a nod to similarly important priorities for me, 
Energy Efficient Building Grants, Carbon Capture Utilization 
and Sequestration incentives, water power innovations and more. 
All high on my list and all connected to environmental 
stewardship in the San Diego in particular. You have no--that 
received the appropriations letters we have written to support 
those programs.
    But today I wanted to highlight one particular topic where 
the issue of where Americans can safely store spent nuclear 
fuel. As you may know, the San Diego Region is home to the San 
Onofre Nuclear Generating Station, or SONGS, which is being 
decommissioned. As part of that decommissioning spent nuclear 
fuel is being relocated to on site, dry cask storage.
    Now this cannot be the final resting for this material. It 
is located on a Military Base, and Camp Pendleton, about 100 
feet from the Pacific Ocean, and the corrosive ocean air, miles 
from massive fault lines, and most alarmingly, close enough to 
communities to severely affect millions of Southern 
Californians.
    The Nuclear Regulatory Commission has certified the storage 
process is safe, but that doesn't change the fact that it is in 
the wrong place. While San Diego bears unique risks with onsite 
storage, many other communities have spent nuclear fuel near 
their homes, schools and offices, and shouldn't. We need a 
safer storage location.
    In fact, we have one planned, but due to the lack of 
political will, Congress has not advanced on this planned 
solution, and I suggest that that needs to change.
    The Department of Energy needs to continue its path, both 
toward interim storage options, and permanent storage at Yucca 
Mountain in Nevada. That is why a bipartisan letter with 
Congressman Jeff Duncan, in support of the administration's 
budget request for funding.
    The request includes $116 million to the Department of 
Energy, the split between $90 million for the Nuclear Waste 
Disposal Account, $26 million for the Defense Nuclear Waste 
Disposal Account, and $38.5 million in the Nuclear Regulatory 
Commission's Nuclear Materials and Waste Safety Program. 
Basically the funding for three accounts will be used to take 
the next steps on licensing and design activities at Yucca 
Mountain, which includes the judicatory hearings. All this is 
to make sure that we work with Nevada, and we make sure that 
the storage is safe there as well.
    Last year the House passed legislation for these solutions, 
and my colleagues and I strongly urge you to support this 
request. It is really beyond time to get something done to 
secure the spent fuel that threatens communities.
    And I want to thank you for your time and consideration.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. Thank you so much for appearing, Congressman 
Peters. Congressman Griffith.
                              ----------                              

                                            Tuesday, April 9, 2019.

                                WITNESS

  HON. MORGAN GRIFFITH, A REPRESENTATIVE IN CONGRESS FROM THE 
                       STATE OF VIRGINIA

    Mr. Griffith. Let me just say that John Shimkus is very 
happy you said that. And I know they heard from him earlier 
today, and I would echo those comments, not for the reasons, 
but just because we, as a Nation, have to figure it out.
    As you all know, I don't come from an area that has nuclear 
waste in the southwest section of the Commonwealth of Virginia. 
That is not one of our issues. We have lots of issues and I do 
appreciate the opportunity to highlight some of the matters 
that are of great importance to my district, and to the country 
as we move forward in this process.
    And I would like to address the importance of research and 
development funding at the Department of Energy, in general, 
and specifically at the Office of Fossil Energy.
    As this Congress continues to examine our global climate, 
it is imperative that an effective plan to counter climate 
change include our Nation's vast supply of natural resources, 
and our talent for technological innovation.
    Far more room exists for exploration and innovation in the 
energy space, and DOE plays an important role in this research 
and development.
    During a recent district work period, I visited Virginia 
Tech where a team of experts is focusing on developing 
processes to extract rare earth elements from coal. But as 
often happens with research, sometimes you are working on one 
thing, and you actually solve a different problem. Now they are 
still working on getting the rare elements from coal, because 
it appears that Appalachia has a rich segment of where the coal 
meets the rock, we have a lot of rare earth. It is still rare, 
but not as rare.
    And so a consortium of universities including Virginia 
Tech, won a $2-million grant from DOE for a pilot project to 
test a hydrophobic, hydrophilic, don't ask me what all that 
means, separation process to produce clean coal and especially 
carbon products from discarded, or for discarded coal wastes.
    As a result of this research, they have also found a way to 
improve the quality of coal burn at steel plants. So, what they 
are able to do, is they are able to take a poor quality coal, 
get the higher quality carbon ready for use, and then it can be 
used for making steel, even if it is a low quality coal.
    As a result of that research two steel facilities in India 
are now licensing their technology, not because they are 
looking for rare earth, but because they are looking--India 
wants to have cleaner processes, but their main fuel source is 
coal, and it is not very good coal.
    So they are going to use our technology that we did the 
research on to get a higher burn from their coal, for their 
steel plants, which lowers their carbon footprint. So, when we 
talk about doing research on coal, what so many people don't 
realize is, the rest of the world is going to continue to burn 
coal.
    India wants to have a clean environment, I am not saying 
they don't, but if all they have got between themselves and 
their people having good jobs, or better jobs, and having a 
better lifestyle, is to be able to use their coal as it 
currently is, a dirtier form of coal, they are going to use it.
    But if we can use our research and development and come up 
with better ways to use the coal, or to make it cleaner, then 
we can export that technology to the world, because if we could 
do everything in this country to lower our carbon footprint, 
and if the rest of the world, particularly the large emerging 
economies, don't follow suit, and they won't if it means 
impoverishment of their people, then we haven't really done a 
whole lot.
    And this is one of those exciting technologies where we 
were looking for one thing, but because we were working on 
clean coal, we found another. This is just one example of how 
DOE and research and development funding can be used in 
conjunction with our national labs and research universities to 
get projects like this off the ground.
    I would love to see overall increases in research, but at 
the minimum parity between the amount of money appropriated for 
fossil energy research, and other DOE research accounts, 
particularly with the Office of Energy, Efficiency and 
Renewable Energy, would be greatly appreciated.
    A comprehensive of all of the above energy policies must 
include robust funding for R&D at the Federal level. These 
funds will continue to shorten the timeline that it take, ready 
to make clean energy technologies available, not just for us, 
but for the world.
    I would also like to share my support for work done by the 
Appalachian Regulations Commission, particularly on the 
Appalachian Highway projects, HEART funding can be used for a 
variety of projects that directly benefit economic development 
in the Appalachian Region through grants and contracts.
    This money has gone towards important issues in the 
Appalachian communities including expansion of broadband 
services, community planning and roads. The projects this money 
funds are important for the success of Southwest Virginia, and 
really for all of Appalachia.
    I understand that the funding of the Appalachian Highway 
Program isn't under this committee's jurisdiction, but HEART 
plays a critical role in administering the Appalachian 
Development Highway System. These highway projects serve as 
economic lifelines to small communities throughout Central 
Appalachia, bringing in tourism, jobs, et cetera.
    I urge you to work with the Transportation Subcommittee, 
and with the Appalachian Regional Commission to ensure that 
they have the resources needed to expand and improve highway 
access in Central Appalachian.
    And that being said, I appreciate you all, time here today, 
I know you have heard a lot. But thank you so much for doing 
it, it is important to us to be able to come in and look you in 
the eye and say, this stuff is important. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. Thank you so very much for representing your 
districts, but also the larger needs of the country, embracing 
all energy forms in trying to help our nation transition where 
we must.
    I think you have both been very upfront about that. Thank 
you for helping us to produce a more balanced bill, as this 
committee is known to do, and for the sake of the country.
    I heard, Congressman Peters, what you have recommended 
regarding nuclear spent fuel storage. We have had several 
witnesses testify today. It is a very prickly issue, as you 
well know, but I think all of us want to see a momentum on 
that.
    And Congressman Griffith, I think you are the--we had two 
witnesses from Virginia today. So, thank you for representing 
the Western portion, so that we gain an understanding of the 
coal corridor that ends up passing through Ohio as well, the 
southern part of our state, in West Virginia, and so forth, the 
very place in America that cannot be ignored.
    And we have to find answers, and science is our friend on 
this. Although she seems to be very slow. I have been voting 
for clean coal since I got here many years ago, and we don't 
seem to be there yet. But we have learned a lot about the 
ecosystem in which we must jointly exist. So, thank you for 
testifying today.
    Congressman Simpson.
    Mr. Simpson. I would just say, thank you for your 
testimony, for being here. We will take it, obviously, under 
consideration, when we put this bill together. Congressman 
Whitman was the other Congressman from Virginia, and I noticed 
that he had a smile on his face, just like yours, so there must 
be something that happened that----
    Mr. Griffith. Yes. We had some good things happen last 
night in Virginia over the weekend, and last week.
    Mr. Simpson. Congratulations.
    Ms. Kaptur. And if either of you wish to submit additional 
material to the record, including visual material, or broader 
ecosystem data that you think would be important for our own 
information, please do so.
    Mr. Simpson. Thanks very much to both of you.
    Ms. Kaptur. Thank you so very much. And finally, I think 
our last witness of today will be Garret, Congressman Garret 
Graves from Louisiana. We have had quite a contingent from 
Louisiana today. So we warmly welcome you.
                              ----------                              

                                            Tuesday, April 9, 2019.

                                WITNESS

HON. GARRET GRAVES, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    LOUISIANA
    Mr. Graves. It must be kind of important.
    Ms. Kaptur. Must be pretty important.
    Mr. Graves. Thank you, Chairwoman, Ranking Member Simpson. 
Thank you very much for the opportunity to be here. I do very 
much appreciate your patience. I know that sitting here though 
testimony from all these members from problems, energy, water, 
across the issues is challenging, and I do very much appreciate 
you opening the doors, and your patience being here today.
    So you have had other people from Louisiana who have come, 
and so I am sure that they have said everything, I just want to 
say it better. Now, so seriously.
    Madam Chair, a little bit of background. Louisiana, is at 
the bottom of one of the largest watersheds in the world, and 
we drain Canada, we drain Montana, we drain New York, and 
everything in between.
    As all of these areas develop, including your state, more 
water is put into this river system, it comes to us. And so we 
have this challenge of our spillway systems, our emergency 
relief valves have been opened on average once every 10 years. 
We have had to open them, 3 of the past 4 years, 3 of the past 
4 years, we have had to open them, breaking this once per 
decade sort of theme, or average that we have seen over the 
last several decades. Showing again, more water is coming to us 
and it does make us more vulnerable.
    At the same time on the ecological side, we have lost 2,000 
square miles of our coast, 2,000 square miles. Jurisdiction of 
wetlands, we had the EPA and the Corps of Engineers that 
regulate the wetlands, yet, their own actions. This is largely 
attributable to the Corps of Engineers actions, have caused us 
to lose 2,000 square miles of our coast, once again, making us 
more vulnerable, and it is a very challenging situation to be 
in.
    This area is nationally significant, one of the top energy 
producers, one of the top refiners, five of the top 15 tonnage 
ports in the United States, one of two places in the Nation has 
all six class one rail lines, top commercial seafood production 
in the Continental United States.
    I mean, these are nationally significant areas, assets, 
resources that we have. And so these vulnerabilities affect not 
just Louisiana, they affect the entire Nation.
    We are talking a lot about the National Flood Insurance 
Program lately, that is the defense, you are the offense, and 
you have a $100 billion backlog in project with the Corps of 
Engineers, $100 billion.
    We can appropriate the amount of money that the 
administration, whether it is Trump, Obama, Clinton, Bush, have 
asked for, we will not have these projects for over 100 years. 
We obviously know it doesn't make sense. We are exacerbating 
the problem through a few things we are doing here.
    Number one, some of the barriers in place that are 
preventing in some cases pre-disaster mitigation, hazard 
mitigation, community development disaster recovery funds from 
being used on Corps of Engineer projects.
    There is no project process as arduous as the Corps of 
Engineers. None. We should actually be incentivizing other 
funds when they are eligible to be put towards these types of 
projects. Not prohibiting it. Helping to address our backlog, 
and more importantly helping to make our community more 
resilient.
    Helping to bring down the liability of the Flood Insurance 
Program. Helping to reduce the flood insurance cost. And most 
importantly, helping to reduce the trillions of dollars in 
disaster cost that we have spent over the last few decades. 
This is deficit spending.
    I think that we need to look, and I know this gets into 
authorization, I think we need to look very seriously about 
whether the Department of Defense is the right agency to house 
this mission.
    I know a decade, excuse me, a hundred years ago it was, I 
am not sure today that it still is the appropriate place for it 
to be. Should it be an infrastructure agency? Should we set up 
an administrative account to where the Corps is not billing 
individual projects accounting, instead, have an administrative 
account to bill the Corps of Engineers to where we can put 
money toward projects, and not allow them to keep living off of 
these projects, where they are siphoning off millions and 
millions of dollars each year to pay for agency costs, 
including our Colonel in Louisiana that had a fleet of vehicles 
driving around places.
    And I want to give a shout out to our Colonel Clancy who 
now drives himself. But I am just not sure that there is a 
pressure for efficiency there. We have a project in Louisiana 
that has been in the study phase since 1993. We spent over $80 
million studying it, and they haven't put a shovel in the 
ground.
    That is not doing justice to anyone. An authorization 
should mean something to someone, it should mean something to 
our residence, not the actual death sentence, or mean that 
nothing is going to happen, and you can't use other funds to 
progress the project.
    And a few other things, very quickly. We have, as I 
mentioned, 5 of the top 15 ports in the United States, yet we 
don't have the ability to handle post-Panamax ships. We have 
had a deepening project on the Mississippi River that has been 
authorized now for decades. We have done some additional 
perfection to the authorization language.
    This isn't just an opportunity for us to meet new shipping 
trends, it is an opportunity for us to take the sediment that 
we dredge, and use it for restoring our coastal wetlands, which 
also have billions of dollars in federally authorized projects 
there. It is an opportunity for us to have symbiotic 
relationship.
    Again, I want to mention the Morganza and the Gulf Project 
which is hurricane protection for Terrebonne and Lafourche 
Parishes that dates back to 1993. We have had over a billion 
dollars in FEMA claims in this region without any work on this 
project.
    It saves money, we are working right now to help to refine 
the projects, because I think the Corps' estimated cost is 
outrageous. It was in excess of $10 billion. I wouldn't fund it 
either if it was that high. So we think it was gold-plated out 
of hand so we are working to reduce those costs.
    And lastly Madam Chair, we have a programmatic project 
called the Louisiana Coastal Area, LCA, it's about 100 percent 
about restoring our coastal wetlands.
    It's about ecological productivity, helping to address sea 
rise challenges and vulnerabilities, and coastal Louisiana 
projects have been authorized since 2007. This is comparable. 
The Chesapeake Bay Everglades, Great Lakes, except that it is 
even more important.
    And I would urge that you continue working to help improve 
efficiency, and providing funding for these important national 
projects.
    Ms. Kaptur. Thank you so very much Congressman Graves. 
Congressman Scalise testified a little bit earlier, and I said 
to him that when our formal hearings are over, I really want to 
create a sort of Mississippi River Corridor discussion, all the 
way from the Red River Valley up in Minnesota, all the way down 
to you in Louisiana, and have the Corps present, so we can get 
our arms around what the future requires of us today.
    And I am completely in agreement with you that the 
infrastructure needs of the Corps budget are so huge, and we 
have not been able to fund what is necessary around the 
country. We patch a lot, and projects take a long time, because 
there are a lot of projects and there is not enough money.
    So, if you could have any influence over the Trump 
administration that has proposed a budget that cut the Corps by 
a third, and several other accounts that are very important to 
us in the Department of Energy.
    I mean, we really need more vision, and I believe that the 
President should move an infrastructure bill starting with this 
account. The Army Corps of Engineers Account. We have our arms 
around the backlog, we know where it exists, and let us be the 
base hit. Maybe we are not the homerun, but we could do so much 
from coast to coast, but we can't do it if we have only one 
leg.
    And right now, we are limping around because we don't have 
sufficient funding to meet all of the Corps' requirements 
around the country, including in Louisiana.
    So, I just put that on the table. I don't know what some of 
those people think over there. We generally get an 
administration in place that doesn't give us enough money for 
the Corps knowing how vital this is to people's districts that 
we will restore it.
    Well, that doesn't show very much leadership. But I just 
think somebody ought to, some group of people, maybe 
Congressman Scalise could have an influence over there, but why 
fight about some other infrastructure bill that will involve 
several other committees. Our subcommittee could move a bill 
very quickly, and all the projects are outline, including those 
that are needed in your area. So I just put that on the table.
    Congressman Simpson.
    Mr. Simpson. I would say all we need is a big 302(b) 
allocation. That has always been the challenge, and it is not 
just from this administration. As I have said many times during 
hearings, unfortunately their budget has to abide by the law, 
and the law right now is sequestration. So, until we fix that, 
we have got a problem.
    I don't suspect that sequestration is going to be where 
appropriation bills end. So we will come to an agreement, and 
we will put funding in for those things. But a $100-billion 
backlog in the Army Corps of Engineers, and $750-billion 
backlog at the EPA in clean water and sewage systems, and so 
forth. An $11-billion backlog in our national parks. A huge 
problem.
    Mr. Graves. Yeah. It is. It is. And if I can just respond 
very briefly. Madam Chair, Ranking Member, in regard to the 
White House, and as Ranking Member Simpson noted, this has been 
a problem under consecutive administrations. I think one of the 
challenges that everybody has is people look at the Corps of 
Engineers and say, this isn't a good investment, they are not 
fast enough.
    And so it is kind of a chicken and an egg thing. I think we 
have got some work to do on the authorization side as well as 
to help improve the efficiency of this project in development 
and the delivery process to where you all look at it, and the 
White House looks at it like a good investment.
    Ms. Kaptur. Thank you so much. And we will accept your 
written testimony for the record, and any visual materials that 
you wish to provide along with it.
    Mr. Graves. Thank you very much. I appreciate that.
    Ms. Kaptur. We will post them on our website. Thank you so 
very much.
    Mr. Graves. Thanks, again, for opening up the committee. I 
appreciate it.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Kaptur. All right. And I want to thank the Ranking 
Member for his dutiful participation. And all the members who 
have attended this morning. All of our witnesses.
    The committee is adjourned.
    [Additional material submitted for inclusion in the record 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
